<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia
 MAURICE D. HINCHEY, New York
 JOHN W. OLVER, Massachusetts
 ALAN B. MOLLOHAN, West Virginia
 TOM UDALL, New Mexico
 BEN CHANDLER, Kentucky
 ED PASTOR, Arizona                 TODD TIAHRT, Kansas
                                    JOHN E. PETERSON, Pennsylvania
                                    JO ANN EMERSON, Missouri
                                    VIRGIL H. GOODE, Jr., Virginia
                                    KEN CALVERT, California

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Stephens, Christopher Topik, Greg Knadle,
               Delia Scott, Beth Houser, and Kim Jefferson
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Secretary of the Interior........................................    1
 Bureau of Land Management........................................  149
 U.S. Fish and Wildlife Service...................................  285
 U.S. Geological Survey...........................................  316
 National Park Service............................................  451
 Bureau of Indian Affairs/DOI Office of the Special Trustee for 
American Indians..................................................  551
 Oversight on Wildland Fire Management............................  603
 Indian Health Service............................................  837

                                ________

         Printed for the use of the Committee on Appropriations
                                 Part 5

                                  SEC.

                                  BLM

                                  FWS

                                   GS

                                  NPS

                                BIA/DOI

                                  WFM

                                  IHS

  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2009
                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 JOHN W. OLVER, Massachusetts       JO ANN EMERSON, Missouri
 ALAN B. MOLLOHAN, West Virginia    VIRGIL H. GOODE, Jr., Virginia
 TOM UDALL, New Mexico              KEN CALVERT, California        
 BEN CHANDLER, Kentucky             
 ED PASTOR, Arizona                 

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Stephens, Christopher Topik, Greg Knadle,
               Delia Scott, Beth Houser, and Kim Jefferson
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Secretary of the Interior........................................    1
 Bureau of Land Management........................................  149
 U.S. Fish and Wildlife Service...................................  285
 U.S. Geological Survey...........................................  316
 National Park Service............................................  451
 Bureau of Indian Affairs/DOI Office of the Special Trustee for 
American Indians..................................................  551
 Oversight on Wildland Fire Management............................  603
 Indian Health Service............................................  837

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 42-183                     WASHINGTON : 2008

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JAMES T. WALSH, New York
 JOSE E. SERRANO, New York          DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut       JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia           JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts       RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                 TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina     ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROBERT B. ADERHOLT, Alabama
Alabama                             JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  VIRGIL H. GOODE, Jr., Virginia
 SAM FARR, California               RAY LaHOOD, Illinois
 JESSE L. JACKSON, Jr., Illinois    DAVE WELDON, Florida
 CAROLYN C. KILPATRICK, Michigan    MICHAEL K. SIMPSON, Idaho
 ALLEN BOYD, Florida                JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania         MARK STEVEN KIRK, Illinois
 STEVEN R. ROTHMAN, New Jersey      ANDER CRENSHAW, Florida
 SANFORD D. BISHOP, Jr., Georgia    DENNIS R. REHBERG, Montana
 MARION BERRY, Arkansas             JOHN R. CARTER, Texas
 BARBARA LEE, California            RODNEY ALEXANDER, Louisiana
 TOM UDALL, New Mexico              KEN CALVERT, California
 ADAM SCHIFF, California            JO BONNER, Alabama                 
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              

                  Rob Nabors, Clerk and Staff Director

                                  (ii)


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2009

                              ----------                              

                                        Thursday, February 7, 2008.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. DIRK KEMPTHORNE, SECRETARY OF THE INTERIOR
PAMELA HAZE, BUDGET DIRECTOR

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. The Committee will come to order, please.
    Mr. Secretary, on behalf of the Subcommittee, I want to 
welcome you and thank you for agreeing to testify this week so 
the Subcommittee could get a quick start to our fiscal year 
2009 hearings. I also want to thank you for hosting Mr. Tiahrt 
and myself at the Department two weeks ago to begin this year's 
legislative session. Thanks to our joint efforts last year, I 
believe the relationship which has been established between 
this Subcommittee and the Department has been a productive one. 
Pam has been a big part of that. We do not always agree but by 
working together in a bipartisan fashion, I believe we were 
able to make real progress last year. This included significant 
new funding for our national parks as part of the Centennial 
effort, partial restoration of staffing reductions for our 
wildlife refuges, funding of fixed costs throughout the 
Department, and an important start to dealing with the impact 
of climate change on our public lands and wildlife. I wish we 
had been able to do more but this real progress was possible 
despite the difficult constraints imposed by the President's 
rather inflexible budget policies.
    Mr. Secretary, I hope our cooperation can continue as we 
begin an arduous process of formulating a fiscal year 2009 
bill, but to be honest with you, the budget which has been 
presented to this Committee this week for Interior and 
Environment programs does not give me much of a basis for 
optimism. As you and I discussed on the phone earlier this 
week, I believe the 2009 request for the Subcommittee, which 
proposes a net reduction of more than $1 billion for programs 
under our jurisdiction, is completely inadequate. In fact, in 
order to maintain current service levels, this budget request 
needed to be $600 million more than fiscal year 2008. Instead, 
and going in the wrong direction, in my view, the budget 
request would create a $1.6 billion gap between current service 
levels. I will work to close that gap.


                        NATIVE AMERICAN PROGRAMS


    I am especially unhappy with the proposal of the Native 
American programs at both the Bureau of Indian Affairs and the 
Indian Health Service. The budget request for these agencies is 
$121 million below the enacted level and almost $300 million 
below the level necessary to maintain education, law 
enforcement and healthcare services. There may be a legitimate 
debate about which Indian programs are the most effective but 
that debate does not justify an overall cut in funding to 
fulfill our moral and treaty obligations to the Native American 
community which remains one of the most needy populations in 
this country.


                              2009 BUDGET


    There are a few bright spots in your budget including the 
continuing commitment to pay fixed costs and reinvigorate the 
national parks; but there are many disappointments beyond the 
$100 million cut at BIA, which I just mentioned. Land and Water 
Conservation funding to conserve precious lands for future 
generations is funded at $54 million, a reduction of 74 percent 
from the current level. Funding for construction and repair of 
facilities in our parks, refuges and other public lands 
declined by $137 million from the current level, a cut of 
almost 40 percent compared to two years ago. Funding for 
science at the U.S. Geological Survey is cut by $24 million. 
Except for emergency fire suppression, both the Interior 
Department and Forest Service budgets cut firefighter support, 
hazardous-fuel projects and community assistance, and the list 
goes on.
    The bad news gets worse for other agencies under this 
subcommittee's jurisdiction. The budget of the Forest Service, 
excluding firefighting funds, is cut by $408 million below the 
current level, or 16 percent. Funding for EPA's Clean Water 
Fund to help local communities in their water and sewer 
infrastructure needs is cut by another $134 million, or almost 
60 percent below the level of four years ago. The list of cuts 
goes on and on.
    While it is not your job as Secretary of the Interior to 
defend these cuts for other agencies, I mention them because, 
frankly, we are all in this together. Mr. Secretary, I refuse 
to be a pessimist this early in the year but frankly, staying 
optimistic is a challenge. We need your help as a realist and 
as a former governor, senator and mayor in convincing the White 
House that these programs simply need more money than this 
budget allows. We do not want to break the bank but I need for 
you to know that without some budget flexibility on the 
Administration's part, I do not think we can pass a bill 
through either the House or the Senate at the President's 
level. If the President refuses to budge and we fail to produce 
a bill, neither one of us will be happy and neither one of us 
will be able to achieve results for things that we care about.
    Mr. Secretary, we look forward to hearing your testimony 
and to you hearing the concerns of our members. I hope you will 
convey to the President and Director Nussle the sincerity of 
our views and the need for an honest discussion and compromise 
regarding the budget.


                          CENTENNIAL CHALLENGE


    On a more positive note, your leadership on the Centennial 
Challenge for the Park Service has been outstanding and we must 
work together to get the $100 million in mandatory spending 
authorized this year. As you know, we put in $25 million last 
year to get this program started because we think it is the 
right thing to do and something that is important for our 
country. Now, you can count on my help on this important 
legislative initiative and I appreciate the work that you are 
doing on the Hill trying to get this program started, and that 
is something we can work on together.
    Mr. Dicks. Mr. Tiahrt is delayed so we will wait for his 
statement, but you can proceed as you wish.

                Opening Remarks of Secretary Kempthorne

    Secretary Kempthorne. Mr. Chairman, thank you very much to 
you and all the members of the Committee. It is an honor to be 
with you this morning and I thank you for your patience. I just 
came from the National Prayer Breakfast and I was conflicted.
    Mr. Dicks. Well, I think you did the right thing.
    Secretary Kempthorne. Well, I did not want to come to your 
committee without a prayer.
    Mr. Dicks. We appreciate it. You did the right thing. Thank 
you.
    Secretary Kempthorne. Thank you. I would first like to 
thank you for your strong support.
    Mr. Dicks. Maybe some of us should have been there too.
    Secretary Kempthorne. Well, I prayed for all of you.
    Mr. Dicks. Thank you.
    Secretary Kempthorne. I want to thank you, Mr. Chairman, 
and the members of this Committee for their strong bipartisan 
support which you showed for our budget last year in 2008, and 
I appreciate your leadership.
    In 2008, we charted a course of excellence for national 
parks, as you have mentioned, broadened our planning horizons 
to achieve healthy lands while securing energy for the Nation, 
and we put the needs of Indian Country center stage. In 2009 we 
will build on these commitments but more challenges confront 
us, challenges that require our action. We are proposing four 
new initiatives in 2009 to address water crises, manage our 
oceans, reverse the dramatic decline in wild birds and protect 
our borders. Our 2009 budget also retains many of the increases 
that you provided in key areas such as refuges.

                            THE 2009 BUDGET

    The 2009 budget of $10.7 billion benefits every American 
each day in some way. This budget slightly exceeds our 2008 
request. You will see that our budget includes strategic 
reductions primarily in construction, land acquisition and 
congressional earmarks. It is $388 million, or 3\1/2\ percent, 
below the 2008 enacted level. Despite this overall decrease, we 
propose operating increases of 4 percent over 2008 for our land 
management bureaus. Strong funding of base operations supports 
ongoing programs in conservation, recreation, and resource 
management on public lands.
    Mr. Chairman, before I go into more specifics on our new 
and continuing initiatives, I would like to put our budget in 
the context of what we do at Interior. We have a staggering 
array of responsibilities. Interior's nine bureaus with 70,000 
employees work across 12 time zones from the Caribbean to the 
Pacific Rim. If we were a company, Interior would rank in the 
Fortune 25. We manage one out of every five acres in the United 
States. We produce one-third of the Nation's domestic energy. 
We conserve wildlife and its habitat. We predict volcanoes and 
earthquakes. We fight wildfires. We run schools. We manage 391 
national parks, 548 wildlife refuges. Our public lands and 
waters attract nearly 500 million visitors each year. We have 
the third largest law enforcement presence in the Federal 
government. We safeguard our oceans, our coral reefs, our 
wetlands. Because we collect royalties on energy production 
including offshore oil and gas, we return to the Treasury 
almost double the amount of our appropriation. Ronald Reagan 
once said only in Washington, D.C., would the department in 
charge of the outdoors be called Interior.
    Mr. Dicks. Yes.

                        NATIONAL PARK CENTENNIAL

    Secretary Kempthorne. Last year we announced our National 
Park Centennial initiative. We held listening sessions across 
the country. We asked Americans to tell us of their vision for 
our parks. The public spoke and we listened. We are adding 
3,000 seasonal park rangers this year to enrich visitor 
experiences. That reverses what had been a 10-year decline. 
Another top priority for both the public and employees is park 
operations. Our 2009 request for park operations is historic. 
We are requesting an increase of $161 million, or 8 percent. 
Together with 2008 funding, these two-year increases total $283 
million, or 14 percent. I feel very good about that. As you 
stated, Mr. Chairman, we have the centennial match. Included in 
this is the President's recommendation for $100 million for 
2009 so that we can respond to the private sector and their 
contributions that they would make as well.

                        HEALTHY LANDS INITIATIVE

    Interior's responsibilities extend beyond our parks to 258 
million acres of public lands in the West. In some of these 
areas, world-class wildlife habitat sits on top of world-class 
energy reserves. We must maintain healthy lands and sustain 
wildlife and secure energy for this Nation. That is our charge. 
Our Healthy Lands Initiative launched in 2008 provides that 
holistic framework. It allows us to maintain wildlife corridors 
while providing continued access to significant energy 
resources. Our 2009 budget proposes a $14 million, or 200 
percent increase, over the 2008 funding level.

                           INDIAN INITIATIVES

    Last year we also launched two initiatives in Indian 
Country, one to battle the drug cartels invading reservations 
and the other to bring hope to Indian youth by improving their 
schools. Both of these initiatives received overwhelming 
support by Congress. Under the Safe Indian Communities 
Initiative, we proposed an additional $16 million last year to 
battle the scourge of methamphetamine that threatens an entire 
generation of Native Americans. Congress supported our proposal 
and added an additional $8 million to this initiative. The 
bipartisan message is clear. We must put these peddlers of 
poison out of business. In 2009, we sustain the full $24 
million in funding increase provided in 2008 and we propose to 
add $3 million more for the initiative. Under the Improving 
Indian Education Initiative, we proposed increases of $15 
million to help American Indian children reach their potential. 
Congress endorsed our vision and increased it by $9 million. 
Once again in 2009, we uphold a promise to Indian children. We 
sustain the 2008 funding and provide another $2 million.

                      WATER FOR AMERICA INITIATIVE

    As I mentioned earlier, we also have four new initiatives 
in our budget, initiatives that address some of the most 
critical issues facing this Nation. Last year the National 
Science and Technology Counsel reported, and I quote, 
``Abundant supplies of clean, fresh water can no longer be 
taken for granted.'' Water scarcity is not just a problem in 
the West, it is now occurring throughout the Nation. America 
increasingly faces water scarcities, particularly in areas of 
rapid population growth. We are seeing prolonged droughts and 
water conflicts in areas such as the Southeast where people are 
used to having unlimited water. We are proposing a Water for 
America Initiative to ensure that communities have reliable 
water supplies this 21st century. Under this initiative, we 
will partner with states to conduct the first water census for 
this Nation in 30 years.

                           OCEANS INITIATIVE

    Our second new initiative advances our knowledge of oceans 
and protects spectacular ocean ecosystems. Under our Oceans 
Initiative, we are proposing an additional $8 million to 
support the President's Ocean Action Plan. Our Oceans 
Initiative will broaden our knowledge. We will undertake 
extensive mapping of our extended Outer Continental Shelf. 
Coastlines and deep water are littered with marine debris 
ranging from soda cans and small plastic objects to derelict 
fishing gear and abandoned vessels. We are losing coastal 
wetlands that protect us from major storms, purify water and 
serve as nurseries for marine fisheries. Through our Oceans 
Initiative, we will join with partners worldwide to embark on a 
global marine debris and coral reef campaign.

                        BIRDS FOREVER INITIATIVE

    Together we have another task before us: Reversing the 
decline in bird populations that is happening across America. 
Our initiative addresses the sharp decline in many populations 
of wild birds. On average, populations of common birds have 
plummeted 70 percent since 1967. We add $9 million in 2009 for 
our Birds Forever Initiative to help us reverse these trends. 
Our budget sustains $36 million in refuge increases funded in 
the 2008 budget. We will improve over 200,000 acres of vital 
stopover habitat for migratory birds. That is the equivalent of 
150,000 football fields. We are also proposing the first 
increase in the sale price of the duck stamp in over 15 years. 
This increase will result in protections of an additional 
17,000 acres of habitat.

                      SAFE BORDERLANDS INITIATIVE

    Our final new initiative addresses another issue in the 
Nation's headlines, an issue that I raised with you last year 
and I have witnessed firsthand, and that is border security. 
The Department of the Interior manages public lands along the 
southwest border and that's 40 percent of the border. Our 
employees, residents and visitors face daily dangers. In many 
locations, families can no longer live or recreate without fear 
of coming across drug smugglers. As urban borders become more 
secure, illegal activity is shifting to remote areas. Drug 
cartels run violent drug-smuggling operations across the border 
as evidenced by the nearly 3,000 pounds of cocaine and 740,000 
pounds of marijuana seized in 2007. We are proposing an $8 
million increase in the 2009 budget to aggressively confront 
this problem. Combined with increased funding in 2008, we will 
place additional law enforcement officers along the border.

                            ENERGY SECURITY

    Another critical issue facing this Nation is energy 
security. With the price of oil rising ever higher, it is 
imperative that we continue to offer access to our energy 
resources. Our new five-year plan for offshore energy 
development provides access to an additional 48 million acres. 
The Minerals Management Service will invest over $8 million in 
preparations for new leasing activity as identified in the 
five-year plan. We also hope to broaden the Nation's energy mix 
by providing opportunities for investment in renewable energy 
on public lands and offshore.
    Mr. Chairman, once again, we appreciate greatly the 
partnership that we have seen demonstrated by your support of 
the budget and the initiatives but also the additional funds 
which you have included. I hope you see the reciprocation by 
the fact that we have retained many of those plus-ups in our 
2009 budget proposal before you. I am very happy to respond to 
your questions.
    [The statement of Secretary Kempthorne follows:]

    [GRAPHIC] [TIFF OMITTED] T2183A.001
    
    [GRAPHIC] [TIFF OMITTED] T2183A.002
    
    [GRAPHIC] [TIFF OMITTED] T2183A.003
    
    [GRAPHIC] [TIFF OMITTED] T2183A.004
    
    [GRAPHIC] [TIFF OMITTED] T2183A.005
    
    [GRAPHIC] [TIFF OMITTED] T2183A.006
    
    [GRAPHIC] [TIFF OMITTED] T2183A.007
    
    [GRAPHIC] [TIFF OMITTED] T2183A.008
    
    [GRAPHIC] [TIFF OMITTED] T2183A.009
    
    [GRAPHIC] [TIFF OMITTED] T2183A.010
    
    [GRAPHIC] [TIFF OMITTED] T2183A.011
    
    [GRAPHIC] [TIFF OMITTED] T2183A.012
    
    [GRAPHIC] [TIFF OMITTED] T2183A.013
    
    [GRAPHIC] [TIFF OMITTED] T2183A.014
    
    [GRAPHIC] [TIFF OMITTED] T2183A.015
    
    [GRAPHIC] [TIFF OMITTED] T2183A.016
    
    [GRAPHIC] [TIFF OMITTED] T2183A.017
    
    [GRAPHIC] [TIFF OMITTED] T2183A.018
    
    Mr. Dicks. This time we will turn to Mr. Tiahrt for his 
opening statement.

                 Opening Remarks of Congressman Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman. I apologize for being 
late today. I needed all that time at the prayer breakfast to 
put up with the traffic getting over here, and I noticed, Mr. 
Secretary, that you were there, and I missed the police when 
they were going and I did not get in line in time, I guess.
    Looking at your budget, Mr. Secretary, there are some 
things that I am pleased with and there are some things that I 
am concerned about. I am looking forward to working with you 
and with Mr. Dicks on finding a well-balanced bill. We have a 
$1 billion challenge at least this year that we have to figure 
out some way to work around but I believe by getting a well-
balanced bill we will be able to sort of fill in the gaps and 
maybe do the things that have high priorities and maybe push 
some other things to the right.
    Mr. Dicks and I are committed to working together and 
making sure that we have a good opportunity for all of us to 
weigh in on the final budget but it looks like we have quite a 
bit of work to do. I am concerned about the money that we have 
taken from BIA and from USGS and I think we are going to have 
to work around some of those issues. We have made good advances 
with the Bureau of Indian Affairs and with the tribes there 
fighting drug abuse and helping with their health programs, so 
I am looking forward to working with you in those areas.
    You brought up some very good points. The loss of bird 
populations is a great concern. We have a lot of concerns about 
what is going on in our oceans that may be related to some of 
the bird loss as far as the pollution out there, so we have got 
some great challenges ahead of us but I think working together 
we can achieve that.
    Thank you for your patience, Mr. Chairman. I will reserve 
the rest of my time for the questions.

                        BIRDS FOREVER INITIATIVE

    Mr. Dicks. Let me ask you, on the bird issue, 70 percent 
reduction in the number of wild birds, do we know what is 
behind this, what is causing that, this dramatic reduction?
    Secretary Kempthorne. Yes, Mr. Chairman. Part of it is the 
loss of habitat. As development occurs, it begins to diminish 
some of the habitat that existed. There is also concern for the 
migratory patterns and that is why refuges are very, very 
helpful for the migrating birds. But for the common backyard 
birds, it really has been the loss of habitat. With a 
nationwide awareness of this, and with urban treaties that we 
have established, for example, in New Orleans and Houston, we 
can begin to once again establish islands of trees in urban 
settings. It is going to be very beneficial and it really is 
going to be an opportunity for many Americans for a raised 
awareness of things that they can do in their neighborhoods and 
communities that will help us.

                            PARK OPERATIONS

    Mr. Dicks. One of the bright spots in the President's 
budget is the $161 million increase for the national parks 
operation account. I think everyone in this room knows I share 
your commitment to the parks, but I am concerned that this 
increase may be difficult if we cannot find additional funding 
to fix problems elsewhere in our budget. Mr. Secretary, I need 
to ask you the same question which I will have to ask myself 
later in the year as the Subcommittee deals with this budget. 
Is a $161 million increase for the parks appropriate if we need 
to cut funding for the Bureau of Indian Affairs by $100 million 
to pay for it?

                       INDIAN AFFAIRS REDUCTIONS

    Secretary Kempthorne. Mr. Chairman, it is a fair question. 
In fact, I welcome the question for this reason: Park advocacy 
groups have indicated they are not satisfied with this 
increase, so I appreciate the way you have put it in context. 
With regard to other areas of the budget, as you can well 
imagine, we did not go and say that we will take, for example, 
from the BIA and simply put it in parks. In the Bureau of 
Indian Affairs, last year of our four initiatives, two of those 
were for Indian Country. Specifically to your $100 million that 
you referred to as a reduction, it is primarily in three 
categories. The first is in housing. We had a program that in 
estimated figures can help 200 families in Indian Country. The 
Department of Housing and Urban Development has a similar 
program that we believe these Native Americans certainly 
qualify for. They have $700 million in the HUD program that can 
be utilized for this purpose. We believe that there is a 
duplication that is occurring. Also in education, the Johnson 
O'Malley grants. It is a program that helps Native American 
children that go to regular schools. It includes programs, for 
example, to help them purchase backpacks and some of the 
supplies. Once again, in the Department of Education, they are 
eligible for the funds that are there and so we believe there 
is a duplication. The third category would be welfare reform. 
We continue to provide needed welfare for families, for 
elderly, and for children but not for those who are able-
bodied, those who are of an age that they can be productively 
employed. The concept is to first provide them training so that 
they have the skills for the necessary jobs in the market and 
in the needs of a reservation. Mr. Chairman, it is not that we 
have simply deleted these but we feel that there has been 
duplication and we also feel that welfare reform can be 
beneficial.
    Mr. Dicks. Well, you know, I have been out to a number of 
the reservations over my career here. I have never been to one 
yet that had adequate housing. There always were problems, as 
you know. I mean, you have seen it in Idaho. I have seen it in 
Washington State and across the country. If you ask the members 
of the tribal community, they are going to tell you that they 
want the Johnson O'Malley program and they are concerned about 
these housing initiatives. I think we are going to have to look 
at that part of the budget. It is one that concerns me.

                             CLIMATE CHANGE

    Let me ask you this also. On climate change, and I thought 
it was critical that we put in the 2008 bill funding for the 
new Climate Change and Wildlife Center for the USGS. We added I 
think $7.5 million and you kept $5 million in for 2009. We 
appreciate that. What is the Department doing on this important 
question? You know, last year in our bill we had close to $200 
million in research for climate change, not all in Interior but 
a big part in the EPA and Forest Service. Tell us what the 
Department is doing. We had a hearing last year. We brought in 
some of your land managers and all of them said that they can 
see consequences of global warming and climate change already. 
What is the Department's approach to this?
    Secretary Kempthorne. Mr. Chairman, of all the departments, 
ours certainly is one of those that will feel the effect of 
climate change again, with responsibility for 20 percent of the 
United States. That is the land mass that we are responsible 
for, and for the waters. In our Department, I have appointed 90 
individuals that are on a climate change taskforce. It is 
headed by Lynn Scarlett, our Deputy Secretary. They will be 
making a series of options available to the Department. But the 
impact--we do not get into the issue of the chemistry and what 
may be causing this. We get into the resource impacts because 
our responsibility is the adaptive management that is 
necessary.
    Mr. Dicks. Right.
    Secretary Kempthorne. The lessons that we learn I believe 
will be of help to the larger question but they will also be of 
great help to states, local units of government, and tribes as 
we then begin to see how we manage a commodity such as water 
that is diminishing. The fact is that every day I read about 
another state that is now facing a water scarcity. There is a 
network of data that we are putting in place. It will collect 
the data that can be shared within the different bureaus, 
within the Department but also with state and local governments 
and with other departments in the Federal government. I think 
the key is the adaptive management. We must manage without the 
arguments of climate change. The Earth is warming. Therefore, 
we as land and water managers need to determine how best to 
deal with that.

                         WILDLAND FIRE FUNDING

    Mr. Dicks. And I agree with that. The only thing I would 
say is, I worry about the cutting back of funding for fire 
suppression and other accounts in the budget, both the Forest 
Service and the BLM, to a lesser extent. Because my view is, as 
you get a drier climate and you get more drought, you are going 
to create, as you know from the Pacific Northwest--all the 
understory gets drier and drier. Then you have a fire and it 
gets more catastrophic, and one of the realities of this budget 
is that in the 1990s we had 13 percent of the budget for 
fighting fires. This is now up to 47 percent in the Forest 
Service and the BLM. I mean, it is a huge part of this budget. 
And when we do not have enough funding for firefighting, they 
take the money out of the other accounts to pay for it. Somehow 
I would hope we can think of trying to get FEMA involved in 
this. I do not see why Interior and the Forest Service should 
be penalized because of a disaster.

                         2009 BUDGET PRIORITIES

    Mr. Tiahrt. Thank you, Mr. Chairman.
    In looking over the budget, Mr. Secretary, I think we all 
can understand how this works in Washington where OMB sort of 
puts pressure on agencies, and as a manager of Interior and the 
agencies underneath you, it has put you in a difficult position 
as well and it puts Congress in a tough position. Sometimes our 
priorities do not match those of OMB's. So when you look at the 
allocations, we think there may be some different priorities 
that we want to work with you with and I know we have got an 
increase in the National Park Service of $161 million and 
certainly that could be put to good use. But if the allocation 
is not sufficient to restore all the critical cuts that we have 
in the rest of the bill, would you consider that given the 
increase to Parks in 2008 that the money could be spent in 
other areas of your department with no negative cost to the 
parks?
    Secretary Kempthorne. Congressman Tiahrt, first I would 
note that for five years, the Park Service budget was flat. I 
would note also that just as I referenced the 3,000 additional 
park rangers that we are now going to be able to bring back to 
the park, that ends a ten-year decline. So it is not as though 
parks has had this trajectory for a number of years. It is just 
in 2008 and 2009 that we feel that we are finally addressing 
and getting the parks ready for the centennial in the year 
2016.

                              FIXED COSTS

    Our highest priority was fixed costs for all of the bureaus 
within the Department. We are at 86 percent. In 2008 we were at 
100 percent, which was truly significant and we appreciate your 
efforts on that. The 86 percent, it was higher but then with 
the personnel cost increase that was adopted, it took from that 
proposed number in 2009. The 86 percent is still truly 
significant because that is an area that was not addressed for 
a number of years.
    Mr. Dicks. And we applaud that.
    Secretary Kempthorne. I appreciate your partnership on 
that. Also Mr. Tiahrt, those initiatives which I have outlined, 
it was not the year of the parks, it is to sustain the effort. 
It is not the year of Healthy Lands Initiative, it is to 
sustain the effort. It is not the year of Indian education or 
fighting methamphetamine. The fact that we made them our 
initiatives and the fact that you now see them once again in 
the 2009 budget with your plus-ups shows that it was important, 
it was critical. We were sincere when we said that. We need to 
keep those initiatives. With the 2009 initiatives, I believe 
once again we are addressing a crisis that if we deal with it 
now, we can make a positive impact. So once again, in tight 
budgetary times, I do feel that to the extent possible we have 
got a balanced budget, and by balanced I mean with the issues.

                              INITIATIVES

    Mr. Tiahrt. I congratulate you on maintaining the increases 
that were included in the final 2008 appropriations bill and 
for your continued focus on last year's initiatives and the 
four new ones that you mentioned too. They are all important 
areas of national interest that should be pursued, however, not 
at the expense of other critical Interior programs. In your 
judgment, what are the two more critical initiatives for this 
committee to seriously consider pursuing in 2009?
    Secretary Kempthorne. Of the new initiatives?
    Mr. Tiahrt. The two most critical.
    Secretary Kempthorne. Actually I would say that is 
difficult. I know I have members of the Department in here just 
hanging on my words to see which of my children I choose. I 
love them all.
    Mr. Dicks. Dirk's choice.
    Secretary Kempthorne. But you cannot get around the fact 
that we are seeing a scarcity of water. I was briefed this 
week. I talked with a number of firefighters and the people at 
the National Interagency Fire Center in Boise, Idaho. As they 
showed me the projections for the next two quarters of this 
year of where they believe the fire danger will be most 
prominent, it was not in the West this time. It is the East 
Coast, it is Texas. You open the newspaper, you see that now 
South Carolina has a severe problem, North Carolina has a 
severe problem. I was asked to go down to meet with the 
governors of Georgia, Alabama and Florida because of the 
Southeast drought. So we must deal with water, and it has been 
30 years since we have had a water census and we need new 
technology. This will deal with 7,000 streamgages that allow us 
to really determine the water quantity that we have.
    Of the other initiatives, it is difficult. I think it is 
important that we deal with the bird population. That is 
happening. They are on a decline and we want to reverse that 
before we suffer terrible consequences. There was a time that 
in some states on property that was for sale, there was a sign 
that would say no birds, exclamation point, meaning that was 
positive; you do not have to worry about the bird population, 
you do not have to worry about the Endangered Species Act. We 
do not need that. We want to have the birds. And then I just 
have to add though that the mapping of the extended Outer 
Continental Shelf is critically important. All of our 
initiatives are very important.

                               EVERGLADES

    Mr. Tiahrt. Thank you. One last question, Mr. Chairman.
    I know that the First Lady was down in the Everglades 
yesterday and it seems like we have run into a couple of 
roadblocks down there. First of all, we have had a deferring of 
the plan for the bridging of the, I think you pronounce it 
Tamiami Trail, which would allow the flow of clean water into 
the Everglades, and the second one I think actually occurred in 
the Senate where they got some bad information or they made a 
bad decision, one of the two--God forbid they should ever make 
a bad decision over there but it is possible. I have heard it 
is possible. But I think the project was cut by $25 million 
last year and it is slowing the result of restoring the 
Everglades. Are those the facts as you understand them, and 
what can we do to change that outcome?
    Secretary Kempthorne. Congressman, I would say this. 
Restoration of the Everglades is a priority. Two to three 
months ago I called General Van Antwerp, who is the Chief of 
the Corps of Engineers, stating General, this is a priority for 
the Department of the Interior, for the Administration. Will 
you personally be involved so that we can break ground this 
calendar year of 2008. He too is enthusiastic about this. We 
believe that we will break ground this year on the Tamiami 
Trail to begin putting in the bridge that allows the water and 
the hydrology to begin to flow back into the Everglades. I 
called him this week just to say I know that I will be going 
before this committee, I would like to once again affirm that 
even as late as two days ago it remains the priority and in 
fact we will break ground, and I received an affirmative answer 
from General Van Antwerp. In the Corps' budget for 2009 there 
is $50 million and in the Department of the Interior's there is 
$10 million, so that with the previous amount that has been 
appropriated, we are ready to go forward with this. Now, it is 
a multi-year project but we are ready to go. And if I may, an 
anecdote.
    Mr. Dicks. Go ahead.
    Secretary Kempthorne. When I was in Montana and seeing what 
they call the Blackfoot Challenge, beautiful Big Sky country. 
We were out in this meadow surrounded by about 100 people, 
citizens and federal officials. They were so proud because they 
were concerned about what was happening in that stretch of the 
Blackfoot River, which is where the book and the film ``A River 
Runs Through It'' took place. Years ago they had determined 
that if you want to get water from point A to B, you do not let 
it meander, you just plumb it. You bring it straight through. 
They showed me all of this. They showed me the maps. I said to 
these ranchers in Montana, what you have just described is the 
Everglades, same thing. We years ago decided from A to B is a 
straight line and now we are going back and we are going to 
allow the natural meandering. In Montana we are seeing a return 
of fish and wildlife. We are seeing the same thing in the 
portions of the Everglades where we have allowed the water to 
come back. So we are learning, and this lesson is being applied 
across the United States.
    Mr. Tiahrt. Thank you for your patience.
    Mr. Dicks. Mr. Moran.
    Mr. Moran. Nice to see you, Mr. Secretary.
    Secretary Kempthorne. Thank you, sir.

                              FIXED COSTS

    Mr. Moran. You mentioned the 86 percent in mandatory costs. 
Is that 14 percent difference the COLA? You had budgeted 2.9, 
then the Congress raised it to 3.5 for all civilian employees. 
So I gather that there is a 14 percent across-the-board cost 
that has not been budgeted in your Interior budget. Is that the 
case?
    Secretary Kempthorne. Mr. Moran, that is correct. We had 
based the budget on a projection and then when it was raised, 
that is where it came from.

                          COMPETITIVE SOURCING

    Mr. Moran. I see. The Congress a year or so ago passed 
legislation that outlawed these relatively arbitrary 
outsourcing goals. The managers would get a green light 
depending on whether they met the goals and it seemed as though 
the goals were just too arbitrary across agencies regardless of 
their proportion that many would consider to be inherently 
governmental functions. We are told that Interior is still 
setting goals for outsourcing activities. Is that the case?

                        COOPERATIVE CONSERVATION

    Secretary Kempthorne. I do not know that I would put it in 
those terms. I will tell you that the number of volunteers 
through the cooperative conservation programs is impressive. We 
are doing a lot of that. We are working with associations and 
other interest groups. We have a number of grants that we do 
provide.

                          COMPETITIVE SOURCING

    Mr. Moran. We were not prohibiting outsourcing, by any 
means. We are just prohibiting imposing these arbitrary goals 
on every manager regardless of the type of activity that they 
were responsible for. We just do not want this wholesale 
privatization of government whether or not it really makes 
sense, and we are told that Interior was still doing some of 
that, so we would like you to look at that.

                        COOPERATIVE CONSERVATION

    Secretary Kempthorne. We will look at it, Mr. Moran, but I 
will tell you, that is not a goal and that is not a directive 
from me. I could just say, some of these areas, Minnesota, for 
example, where we wanted to go back and return wetlands, to 
just go in, the initial reaction of many of these farmers was, 
we do not want to hear from the feds. Then when you find that 
you have the young people from the communities that go off to 
get their education, get their degree in biology, and come 
back, they are now fish and wildlife individuals, they are 
welcome in the coffee shop. They begin to talk to their 
friends. In Minnesota, a gentleman I met, 80 years old, Bumpy, 
allowed us to go with this program and now he sits there and 
can identify all the ducks that are now returning to his 
property, which had vanished for 50 years.
    Mr. Moran. Good.
    Secretary Kempthorne. That is cooperative conservation.
    Mr. Moran. We just want to make sure that has been 
addressed because we got an overwhelming vote from the Congress 
on that.

                       INSPECTIONS AND MONITORING

    A couple years ago there was a series of articles in the 
Washington Post that were on the front page and the title was 
``Federal Wildlife Monitors Oversee a Boom in Drilling,'' and 
it went on to say that BLM routinely restricts the ability of 
its own biologists to monitor wildlife damage that is being 
caused by surging energy drilling on federal land. It went on 
to say that by keeping many wildlife biologists out of the 
field doing paperwork on new drilling permits and that by 
diverting agency money intended for wildlife conservation to 
energy programs, the BLM has compromised its ability to deal 
with the environmental consequences of the drilling boom on 
public lands, and I will just mention one other thing. I had 
met with Theo Colborn. She wrote a number of books. She has 
been an advocate on raising the issue of endocrine disrupters 
and their impact on wildlife and on humans. She said that she 
lives in Colorado and the public land drilling operations near 
where she lives are largely unregulated and the local 
communities are discovering cancer clusters and finding that 
their drinking water is contaminated with known carcinogens, 
and they documented oil and gas companies injecting hazardous 
chemical reagents into their drilling wells in order to boost 
fossil fuel production. I know they do that but they are 
finding that is being seen in their drinking water now. I want 
to know if you are aware of these accusations. Are you dealing 
with it? What is the status of this? We brought this up last 
year and I want to underline the Committee's continued concern 
about this.
    Secretary Kempthorne. I appreciate that, Mr. Moran. The 
2009 budget has funds that increase both inspection and 
monitoring. I will also say that the pace of development is a 
critical issue. That is why I referenced earlier the Healthy 
Lands Initiative. You have world-class energy resources but on 
top of them you have world-class habitat. I believe if we do 
not do a good job as stewards of managing the top part, that 
the public's response is going to be ``no more.'' For example, 
in Wyoming, there are two wildlife corridors that have been 
there for centuries and I am determined, and I have spoken with 
Governor Freudenthal, that we are going to be able to 
demonstrate that we will not allow them to be pinched 
inadvertently by having this. We are also seeing new technology 
which is a benefit, for example, multidirectional drilling. 
What used to be approximately 8 to 10 acres per wellhead, we 
are now able to get it down to about a half an acre. So the 
footprint is greatly reduced. I believe that if we do not 
demonstrate, if we do not show that we are sensitive to the 
highest of environmental standards, then the public is going to 
say this is not going to continue.
    Mr. Moran. Well, I think so. That is a much better answer, 
frankly, than we got from Secretary Norton, who emphasized the 
priority of drilling and bringing out the natural resources 
that are held on public land, and we were not trying to stop 
the drilling but we wanted to hear that there is a sensitivity 
to the preservation of public land so that where it is 
appropriate you can continue to drill without long-term, 
irreparable damage to the environment.
    Secretary Kempthorne. May I mention one other example? One 
of the lessons we have learned in Alaska is the utilization of 
ice roads, and then when the spring comes and the ice melts, 
you have no disturbance to the land. We incorporated the same 
concept by using wooden pallets as a road, taking all the 
equipment back and forth on these pallets. When the development 
was done, we removed the pallets and there was no disturbance 
to the landscape. The one consequence that was a positive that 
was not anticipated, the pallets served as a collection point 
for moisture and the sagebrush actually did better where the 
pallets had been. We are really trying to incorporate best 
practices.
    Mr. Moran. That is terrific. I just have one little quick 
softball question, Mr. Chairman.

                            NATIONAL TRAILS

    You have done a great job on national trails when you were 
governor and we appreciate that. The Park Service has a 
centennial coming up but the National Trails also has its 40th 
anniversary as well as the Wild and Scenic Rivers 40th 
anniversary. Are you going to try to pull all those in so that 
you can kind of celebrate them in a coordinated way? It would 
make sense rather than spending a lot of money on three 
different celebrations. Maybe if you incorporated the Park 
Service's 100th?
    Secretary Kempthorne. We will look at the timing of that, 
Mr. Moran. It is a good suggestion, and I will say, one of the 
things that we are promoting are trails because we can link 
parks at both national, federal, state, and local levels so we 
will work synergistically.
    Can I just thank Mr. Moran? He and I became mayors at the 
same time, so we have had a fine friendship. I appreciate what 
you do.
    Mr. Moran. It is nice to see you. I am glad you are in the 
position you are in. Thank you.
    Mr. Dicks. Mr. Peterson.
    Mr. Peterson. Thank you, Mr. Secretary. I want to commend 
you. I was at the prayer breakfast too, a pretty inspiring 
breakfast, and I want to tell you, I almost did not go this 
morning and I am glad I went. It was a tremendous message.
    Secretary Kempthorne. I agree.
    Mr. Peterson. And I encourage you to always use prayer 
before you come before Congress.
    Secretary Kempthorne. I do, sir.
    Mr. Peterson. I have been here 12 years and I became 
convinced this morning the only way I am going to convince a 
lot of them of what they ought to do is to pray more than I 
have.
    Secretary Kempthorne. Right. In God we trust.

                                 ENERGY

    Mr. Peterson. Yes. I have been in Congress 12 years. I was 
born and raised one mile from Drake's Well. That is where the 
first oil well was produced. So I have been around oil and gas 
all my life and I think I have a general understanding. I have 
never made any money off it. I have never owned any oil stocks 
so I do not have any personal investment. But I do have, my 
number one concern as a Congressman today and has been for the 
last six years is that America does not have an energy plan and 
the tremendous escalation in prices is impoverishing many 
Americans and the price of oil and gas today has actually 
caused a recession that we are going to pump $150 billion into 
to try to help but my question is, are we going to do that 
every six months? Because energy prices are going to continue 
to go up and suck the energy out of our economy, and if we do 
not have available, affordable energy for America, it is going 
to be a tough road in the future.

                              CHUKCHI SEA

    I want to commend you on the Chukchi Sea. You will probably 
catch hell before the morning is over but I want to commend you 
for your lease there.
    Secretary Kempthorne. Thank you.
    Mr. Peterson. I see you are 54 miles offshore. I think the 
polar bears will handle that, and God bless you for that 
effort. But the charts that bother me--as we look at this 
chart--the widening gap here is our dependence on foreign 
energy and everybody speaks against that. We have heard a lot 
of speeches this year about weaning ourselves but it started in 
the Clinton Administration. We started not producing all our 
own energy and it has just continued right on the same chart 
and now two-thirds of our energy comes from foreign countries, 
one-third from friends and one-third from non-friends. Of 
course, that gives us our oil prices, and I do not think any of 
us thought we would be dealing with this. I have been 
projecting prices to go up. I did not think they would be $90 
to $100 this year. And I am going to tell you, folks, the $90 
plateau we are at now is a plateau but we are going to have 
spikes from it. Another Katrina this summer, a dictator tipping 
over, shortage of energy in the world, they are going to go up. 
Now, when we pay $90 for oil, the whole world does. When we go 
to the next chart I have here, it is natural gas, and these 
natural gas prices are, people heating their homes pay this, 
people running their small businesses pay this. All our major 
production companies use natural gas as a feedstock and as a 
fuel, and we are losing. The price of natural gas is going to 
make a blue-collar job an endangered species in America. That 
is why jobs are going offshore. Every producer of chemicals, 
every producer of fertilizer, every producer of polymers and 
plastics is moving offshore where they can buy energy for a 
fraction of what natural gas is here because we have the 
highest natural gas prices in the world.
    I want to commend your Administration on a lot of points. 
At the White House speech this year the President urged 
Congress to pass legislation that opens access to the domestic 
energy sources in the Outer Continental Shelf and Alaska. In a 
speech in Ohio recently, he said we also need legislation that 
will increase production of oil and gas, increase refinery 
capacity and expand our strategic reserve, which is our energy 
supply insurance policy. The President said there is hope that 
as a result of these conversations with OPEC they would be 
encouraged to authorize an increase in oil production. I had 
some trouble with that one, that we are in Saudi Arabia begging 
for oil, which is basically what we have to do, hoping they 
will open the pipeline and we can stop this spike in price but 
they are refusing to do that.

                        OCS MORATORIUM LANGUAGE

    I guess where the disappointment comes--I commend you on 
the Chukchi but when you look at the moratorium language that 
you once again requested in the Interior bill, I find that very 
disappointing. Section 104 and section 105, no funds provided 
in this title may be expended by the Department of the Interior 
for the conduct of offshore preleasing, leasing and related 
activities. The Outer Continental Shelf, which surrounds us, we 
are the only country in the world that does not utilize energy 
from their Outer Continental Shelf. Eighty-five percent of ours 
is locked up. There are safe ways to do it. We can be 50, 60, 
90 miles offshore, way out of sight, 12 miles of sightline. I 
have to say that I find it very disappointing that this 
Administration asked for this language to be included in the 
Interior bill this year.
    Secretary Kempthorne. Mr. Chairman, may I respond?
    Mr. Dicks. Of course.
    Secretary Kempthorne. Mr. Peterson, thank you very much. 
You make very valid points. The Chukchi Sea, as you know, there 
were quite a number of requests that I defer that sale and hold 
it off until a decision is made with regard to the polar bear. 
The Fish and Wildlife Service, a year ago, had determined that 
oil and gas exploration and development was not a factor with 
regard to polar bears. To now defer the sale would say that we 
have now tied them together. Based on what? So we proceeded. 
Interestingly enough, and this will be good news to the 
Subcommittee, but OMB had scored the sale of the Chukchi Sea at 
$68 million. The actual sale yesterday was $2.66 billion, $2.6 
billion over what OMB had suggested. As you know, the 54 miles, 
it is open water. I put in the five-year plan, the new five-
year plan, a 25-mile carve-out because of the migratory route 
of bowhead whales. This is now 54 miles from it, and again is 
open water. In the five-year plan, which we submitted to 
Congress last year and there were no changes made to it, there 
are 48 million new acres that to this point had never been made 
available. Now, we do have the question of Administration 
withdrawal and Congressional moratoria. In the five-year plan, 
if I may use this as an example, we have the State of Virginia 
that is included. That is a proposal but at least they are 
included. I was sensitive to the leadership of Virginia, the 
Congressional delegation, the Governor, and what originally was 
going to be three miles off the coast, we have determined that 
25 miles is over the horizon, it is out of sight. I moved it 25 
miles and then again, because of my appreciation and love of 
the Chesapeake, I did a 75-mile carve-out, both for shipping, 
the Navy, but just for the aesthetics. When that proposal went 
out, I received a call from Governor Kaine who said would you 
consider putting it 50 miles out, and I said yes, I will. So it 
is now 50 miles. What I believe is going to be important is the 
same arrangement that we have in the Gulf of Mexico where 
states would receive a percent of the oil and gas that is 
drilled. That is the incentive, and I would like to see that 
for any state with a coast where there is oil and gas 
development. I think the states should share in that and it 
gives us the incentive.
    Mr. Dicks. The gentleman's time is expired.
    Mr. Hinchey.
    Mr. Hinchey. Thank you, Mr. Chairman.
    Mr. Secretary, thank you. We really appreciate you being 
here and your testimony and your direct answers to the 
questions.
    Secretary Kempthorne. Thank you.

                           ENERGY DEVELOPMENT

    Mr. Hinchey. It just brings more clearly to mind the 
growing complexity of all of the issues that you have to deal 
with as to how that growth is going to continue for the future. 
It is a very tough job. The issue of energy I think is one of 
the most important, the most significant. We just heard some 
interesting discussion about it.
    I am concerned about the way in which we are dealing with 
this. I think frankly we are not focusing nearly enough on the 
need for renewable energy, alternative energy, other forms of 
energy that would reduce our dependence on fossil fuels. But I 
am also interested and concerned about the way in which we are 
dealing with the leases of oil on federal property, places like 
the Gulf of Mexico, on dry lands, and now up in the Artic 
Circle above Alaska. The complexity of that I think is 
potentially very, very dangerous. We have leased huge amounts 
of land but only a tiny fraction of the land that we have 
leased is actually being used by the oil companies that have 
leased it. Nevertheless, we are continuing to lease more and 
more lands to these oil companies, and that strikes me as an 
inappropriate way of going about it. The price of oil is going 
to go up. It would be much wiser for us not to lease these 
lands when the price is now what it is at 90-some-odd dollars a 
barrel because we are just going to lease something that is 
going to be more valuable to the oil companies when they 
finally get around to taking this material out. Why would we 
want to do that? That is turning our back on the needs of the 
people of our country, and the way in which we engage in these 
leases, the most recent frustrating example frankly is the 
Kerr-McGee case. Kerr-McGee is now part of the Anadarko 
Petroleum Company, and they have now won that lawsuit with the 
circuit court in Louisiana and the GAO estimate is that that 
lawsuit can now result in about $60 billion of losses for the 
taxpayers of our country. I cannot help but wonder why that 
lawsuit was handled in Louisiana, of all places. I think Boston 
or Seattle or Chicago or any number of other places would have 
been a much wiser place to have a circuit court look at that 
issue. So I would like to know, and I do not expect you to tell 
me right now but I would like to know whose decision it was 
that that court issue went to Louisiana rather than to 
someplace else. Once it did, one could make a pretty firm 
prediction of what the outcome would be. In any case, it is 
likely now to be a $60 billion loss.
    So why are we continuing to lease these lands? Why are we 
continuing to lease these lands to oil companies at prices that 
are a bargain for them and will be increasingly valuable to 
them as time goes on? Why do we not just back off on that? And 
that would include the leases up in the Artic. If I get another 
five minutes, I would like to focus on that a little more 
intensely. These leases seem to me to be a mistake. I think we 
should back off on them. We should not be leasing any more when 
only a tiny fraction of the leases are now being used and there 
is no acceleration of attention being paid to the ones that are 
out there. And now we have a problem with auditing. The number 
of auditors of the results of these leases has since 1996 
dropped by something like 20 percent, and I appreciate that in 
your proposal now you are planning to increase those auditors 
by about four, but they dropped by 35 so we will still be 31 
short of where we were just a few years ago. And we are cutting 
the number of auditors as we increase the number of leases and 
the complexity of those leases. So this is an issue that really 
needs an awful lot more attention and I think it needs to 
receive attention based on what is in the interest of the 
people of this country, not in the interest of particular 
people who own these petroleum companies.

                           OIL AND GAS LEASES

    Secretary Kempthorne. Mr. Hinchey, again, I appreciate how 
you articulate it and I enjoy working with you. On the leases 
themselves, the leases are for a duration of anywhere from five 
to ten years and if no exploration or development occurs on 
them, then the lease is brought back to the United States.
    Mr. Hinchey. If I could interrupt, we know based upon 
history and experience that once those leases, if they do run 
out, that they are easily reengaged, and that always happens 
just exactly that way.
    Secretary Kempthorne. On the Chukchi Sea as an example, the 
$2.66 billion, many of those leases or the tracks that they 
refer to will not be developed and yet payment has been made. 
When we do have areas--and I will go back to the example in 
Wyoming where some of those leases have not been utilized and 
they will expire, that is where we are directing our attention 
to areas such as those wildlife corridors. We know that there 
is an area where it has not been productive but rather than to 
re-lease the leases, we would like to keep that area open.

                           ALTERNATIVE ENERGY

    On your point about alternative energy, I will tell you 
that I will be speaking in about two weeks, I believe it is, at 
an international conference. It is hosted by the U.S. State 
Department and my topic is alternative energy. Now, at the 
Department we try to practice what we are advocating on 
photovoltaic cells. We believe we are number two in the Federal 
government. There are a number of things that we are doing in 
solar and geothermal. We have had some very tremendously 
successful announcements about geothermal. Our 2009 budget for 
alternative energy has increased by an additional $1 million 
for a total of $6.6 million for alternative energy development 
of MMS. It must be part of our portfolio and we must develop 
it.
    Mr. Dicks. The gentleman's time is expired.
    Mrs. Emerson.

                            SAFE BORDERLANDS

    Ms. Emerson. Thanks for being here, Mr. Secretary. I am 
going to switch subjects and get off energy for a moment and 
ask you a little bit about your Southwest Border Initiative. 
Missouri in the papers today is once again the meth capital of 
America and certainly we have had great problems within my very 
rural district, but interestingly enough, as we have stopped 
the sale of the precursors like Sudafed and other things and 
you have to get it from the pharmacist now, we have seen a 
decline in meth labs generally speaking but we are seeing a 
huge increase in imported Mexican methamphetamine and it has 
become a huge problem. And so I am pleased with your Southwest 
Border Initiative but I would like you to walk me through it a 
little bit vis-a-vis the specific types of law enforcement 
efforts you all are making. Are your personnel being given 
appropriate training and equipment to carry out their jobs, and 
are you working well with state and local law enforcement 
officials simultaneously? I mean, we have had great luck within 
the Forest Service and the National Park Service in Missouri 
doing this but along the southwest border I am curious because 
we are real concerned about the influx of the Mexican 
methamphetamine.
    Secretary Kempthorne. Yes. Mrs. Emerson, I agree with you. 
When I was governor of Idaho, our number one drug problem was 
methamphetamine. It is so cheap to produce. We made a concerted 
effort, made it a priority of law enforcement to shut down 
these labs. We were successful but it did not stop the volume 
and it simply means that now there is less competition and so 
the Mexican drug cartels, they are ruthless. This is big 
business for them. They have issued the notice to us that we 
will shoot your police officers, we will shoot helicopters from 
the sky, we will do whatever it takes. In 2005, Chris Eggle, 
who was a National Park Service law enforcement ranger, was 
gunned down by a drug runner in Organ Pipe National Park, right 
on the border. One of the first fences that was put in was 
right there. It has proved inadequate because they have figured 
out how to breach it with a vehicle whose tracks we see and we 
can identify that it is not a normal vehicle. We anticipate 
that $1 million a day goes through there. Working with Michael 
Chertoff in Homeland Security, we are going to be able to get 
these fences put up properly but these drug cartels, they are 
ruthless, and you are asking what are we going to do about 
this.

                        SAFE INDIAN COMMUNITIES

    Right now in Indian Country we have 11 specialized drug 
enforcement officers. With the initiative that you approved in 
2008 we will build on, we will increase that 100-fold. There 
will be 111. We are going to be able to hire 57 additional 
police officers. With that goes the training that is absolutely 
necessary, and we are dealing with hazardous waste, and also, 
the communications. These cartels are sitting on different 
ridge tops with their binoculars, with sophisticated 
communication equipment, with assault rifles, that are high-
powered, and they are just monitoring the activities of law 
enforcement. It is a terrible situation. There are signs down 
there that warn families, you are in the area of drug 
smuggling, do so at your own risk but be aware of your 
situational surroundings. We are having to deal with it. We 
will prioritize where we believe the greatest trouble is so 
that we can concentrate our power and help those tribes first.
    Ms. Emerson. Do we need to give you more resources?
    Secretary Kempthorne. Well, I will tell you what, Mrs. 
Emerson, this is something that I think if we had governors in 
this room they would tell you they are dealing with it also, so 
any resources would be of great benefit.

                          BORDER COORDINATION

    Ms. Emerson. So do you coordinate with each individual 
state and/or local government so that those scarce resources we 
do have are actually being maximized and people are not doing 
the same thing but you are working more cooperatively?
    Secretary Kempthorne. Yes. We have task forces in the area. 
I have met with some of them. I met with some of them in 
Arizona and they are doing a great job of communicating, of 
developing the protocol. I know that Homeland Security will be 
putting in additional officers as well. One of the ironic 
things is, interoperability, the fact that these different law 
enforcement agencies have different radio communications and 
they cannot talk to each other. That is not a problem for the 
drug cartels. Part of our budget addresses that aspect.
    Ms. Emerson. I appreciate that. Thank you very much, Mr. 
Secretary.
    Mr. Dicks. Mr. Olver.
    Mr. Olver. Thank you very much, Mr. Chairman.

                         2009 BUDGET REDUCTIONS

    Mr. Secretary, I very much appreciate your testimony. I 
have a sort of warm feeling that you will do the very best you 
possibly can in a difficult situation that I think you are in 
but I must say I am appalled by this budget. The only thing 
positive I can see in it is really the modest increase, 
significant increase in the Park Service budget. I am appalled 
by the substantial drop in the Bureau of Indian Affairs budget. 
Every once in a while recently, I just cannot remember which 
day but recently, and I am not quite sure which paper, but 
there is the beginning of an expose. A kind of pattern, I guess 
I would say, of malfeasance or neglect in the trust in the 
administration of the trust and fiduciary relationship between 
this government and our Indian tribes. It seems to me there is 
an iceberg there, that we are seeing actually only the tip of 
it because I see these things coming out now and then but never 
in sufficient force to really get a handle on how big that 
iceberg is. You always know it is 90 percent under the surface 
so it is like that, so I use the word iceberg. And my sense is 
that the need in Indian Country is just incredible in 
healthcare, in education, in housing, in fair legal 
administration. The comments that you have just gone through 
with Mrs. Emerson I think speaks to that as well. So I am just 
appalled by the budget as a whole.

                        BIRDS FOREVER INITIATIVE

    But let me go on and say in the midst of this you have 
managed to find something for four new initiatives and I want 
to just say something about the bird initiative, the Birds 
Forever Initiative. You talked about habitat. There was 
recently a major article, again, I cannot remember which 
newspaper, about bird flu. You did not in either your oral or 
your written testimony mention bird flu. Do you think that is 
insignificant as dealing with backyard birds and the major drop 
in populations of such birds?
    Secretary Kempthorne. Mr. Olver, no, I do not.

                            AVIAN INFLUENZA

    Mr. Olver. I am not sure whether that is agreeing with me 
that maybe bird flu is or is not. Be a bit more direct because 
I forget which way I asked the question.
    Secretary Kempthorne. No, you asked it very well. I just 
did not answer it very well. No, it is still of great concern 
to us. That is why we have tremendous monitoring. I have been 
up in Alaska, to one of the migratory routes, and I have seen 
the dedicated employees that in very cold conditions are doing 
a variety of tests on birds and then releasing them. This 
material, the samplings that they take are then sent to the 
bird laboratory of the Department of the Interior in Wisconsin 
where all of this is evaluated. We have communications with a 
number of federal departments and also communication 
internationally. It is of great concern but we have not seen 
the manifestation of it at this point.
    Mr. Olver. Oh, really? I thought there was a high degree of 
attribution of bird production in common species like 
chickadees and robins and bluebirds and so on directly 
attributable to bird flu.
    Secretary Kempthorne. I will check on that. I will get back 
to you on that.
    [The information follows:]

                            Avian Influenza

    Following the rapid spread of highly pathogenic avian influenza 
across Asia to Europe and Africa, experts suspected that wild, 
migratory birds may have contributed to its movement. In response, DOI 
has worked with federal and state partners to develop a surveillance 
program to provide an early warning to the arrival of the virus in 
North America. Since 2005, DOI and its partners have collected and 
analyzed over 250,000 samples from wild birds and have not found the 
virus to be present. Since FY 2006, $35.9 million has been appropriated 
to the Department for avian flu efforts. The knowledge gained through 
DOI surveillance activities and other avian influenza research projects 
is helping us understand how diseases spread in wild bird populations 
and how environmental factors might influence that spread.
    The USGS Breeding Bird Survey (BBS), begun in 1966, is a long-term, 
continental monitoring program designed to track the status and trends 
in North American bird populations. Each year, long-term population 
trends are calculated for approximately 420 of the greater than 650 
bird species recorded on BBS routes, including many common or 
``backyard'' species. This long-term trend data indicates that upwards 
of 50% of the 420 species have declining populations. In its 2007 
analysis, the National Audubon Society used BBS data to report that 20 
common species visiting our feeders and congregating on nearby lakes 
and seashores are in significant decline. The causes of decline in 
backyard bird populations are many, but current findings do not 
indicate avian flu as a contributing factor. Primary factors 
influencing population declines include habitat loss, fragmentation, 
and alteration; invasive species; and disease.

                             HERITAGE AREAS

    Mr. Olver. If I have a bit more time, I just want to go 
from the more cosmic to the narrower. The heritage areas, the 
national heritage areas, there were ten more of those that were 
created in 2006. The budget for that in the 2007 year was $13.3 
million. The budget in 2008 is $15.3 million, a total of $2 
million more. The budget proposed for this next year is $7.1 
million, a more than 50 percent reduction from the 2008 enacted 
budget which means there has to be--if one follows that budget, 
extreme cuts in the services in heritage areas, and the ten new 
ones, which are all authorized with $1 million per year for ten 
years, they are being planned for, I think it is $148,000 per 
new heritage area. That is not even 10 percent of the 2 million 
increased dollars so many of them are getting more money than 
before and the new ones authorized for $1 million are getting 
$148,000. How do you think you might manage a budget like that 
to accomplish what the heritage areas are supposed to do with a 
more than 50 percent cut with the new ones getting almost 
nothing this present year?
    Secretary Kempthorne. It is part of the challenge. There is 
the reduction that you referenced, the $7 million. We are at a 
level now of what was in the President's proposal for 2008 so 
we are at that same level. Lessons learned, efficiencies, 
volunteer programs, cooperative conservation, all of these 
resources we try to bring to bear to help us with a number of 
these programs.
    Mr. Dicks. The gentleman's time is expired.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    Secretary Kempthorne. May I just add one thing?
    Mr. Dicks. Sure. Of course.

                            AVIAN INFLUENZA

    Secretary Kempthorne. Bird flu, Mr. Olver, we have $9 
million in the budget for bird flu.
    Mr. Dicks. This has been a priority for quite a while.
    Secretary Kempthorne. Absolutely.
    Mr. Dicks. In the Fish and Wildlife Service, right?
    Secretary Kempthorne. Correct.
    Mr. Dicks. Mr. Calvert.

                            METHAMPHETAMINE

    Mr. Calvert. Thank you, Mr. Chairman. I just want to share 
my concern with Mrs. Emerson on methamphetamine. I co-chair the 
meth caucus here in the House with Congressman Larsen from 
Washington and a few other members.
    Mr. Dicks. I admit, we have one of the biggest problems in 
Washington State. This is an enormous concern.
    Mr. Calvert. As you know, Mr. Chairman, it actually started 
in the West and it went right up Interstate 5 and that plague 
just kind of went across the country, and as you point out, 
most of the methamphetamine came from these small laboratories 
and now that is not the case. It comes from these super labs 
that are in Mexico, and any influence that you can use with the 
Administration to--and I am pleased with this new president of 
Mexico who seems to be working hard to go after some of these 
folks to shut these labs down. Ninety percent of the 
methamphetamine coming into the United States today, as you 
know, is coming from those super labs in Mexico, and it is the 
biggest drug scourge that this country has seen and so anything 
we can do to stop that would be imperative.

                           SCARCITY OF WATER

    But my question is on water. For a number of years I was 
chairman of the Water Committee in the House and we worked on a 
number of water initiatives, and you are absolutely correct. I 
think the scarcity of water is certainly as big an issue as the 
problem with energy in this country and I think the issue is 
going to get worse. I worked on the delta problems, the 
California delta, and right now have an issue with the delta 
smelt and reduction of water flows into southern California, 
and of course the Colorado River is at historic drought levels 
right now and both the upper states and the lower basin states 
are having difficult years. We pray for additional snow pack in 
the Rockies to help alleviate that problem but as my father 
used to say, hope is not a planning option, and so appears my 
question. In this Water for America initiative, I see you have 
got a substantial increase, $8.2 million, to improve our 
knowledge of what we have. We cannot use it unless we know it 
is there. But other USGS programs, however, face substantial 
reductions or outright elimination including the National Water 
Quality Assessment Program, the State Water Resources 
Institutes, and so I just want to ask the question, these are 
important programs also to understand not only the amount of 
water we have but the quality of the water we have as we go 
into the future, which is difficult.
    Secretary Kempthorne. Mr. Calvert, I appreciate your making 
this a priority as well. While there is a reduction in the 
water quality program, we still maintain $50 million in that 
program. We have been able to undertake a series of studies and 
begin to establish baselines. What we do not have is a baseline 
on the quantity and so that is why we need to go in there. Many 
of the current streamgages are not working properly. This is 
going to allow us to put in additional streamgages and repair 
those that are not working. It has been 30 years since we have 
had a census. I think that once we have that complete, people 
all over the country are going to be amazed at the consequences 
of what this may mean.
    Mr. Calvert. I do not disagree that this needs to take 
place. We need to assess the supply of water that we have or do 
not have throughout the United States and especially from my 
perspective in the West. But I just was concerned about these 
other programs which have been somewhat helpful, and I have 
worked with over the years in assessing water quality----
    Mr. Dicks. You are talking about the USGS programs?
    Mr. Calvert. That is correct.
    Mr. Dicks. This is a concern we have too. In other words, 
we are taking some money, it looks like taking money from here 
and putting into the new initiative.
    Mr. Calvert. I agree with the new initiative, Mr. Chairman. 
I was just concerned about the other program.

                        RECREATIONAL FEE PROGRAM

    Just one quick question that I have because I am kind of 
curious. The recreational fee program, how is that working with 
your Department and how does that help with, for instance, 
overall maintenance of the parks and working with any 
potentially new appropriations?
    Secretary Kempthorne. We believe it is working. I think 
part of the importance of it is that the fees that are 
generated, the public needs to see the results of that. We 
opened, for example, in Yellowstone a new education center and 
it was built primarily on the fees that were collected at that 
park and when they can see that, walk through a magnificent 
facility, they feel good about it. If it disappears, if it 
simply goes into operations, I do not think it is beneficial 
because the public does not see the benefit.
    Mr. Calvert. So you are using it primarily for capital 
improvement programs?
    Secretary Kempthorne. Yes, sir.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Dicks. I really want to say that on this fee demo 
program, this as an initiative of this committee under Mr. 
Regula's leadership and this provides that 80 percent of the 
fees stay with the parks and every park I have visited, the 
money is fundamental. I mean, 20 percent goes back to the 
headquarters and is used in other parks, the smaller parks that 
do not generate fees. So I think this is something we have to 
protect and maintain. You know, whether we increase fees, that 
is a debatable issue and where we do that has to be a question 
of judgment but right now this funding has become fundamental 
to keeping and sustaining the maintenance of projects. The only 
criticism is that it takes too long for the Park Service to 
make decisions on these issues, and you know, the people say in 
the field, why can we just not send in our list. They have to 
have three rounds, regional scrutiny. Then they have national 
scrutiny. They are terrified of making any mistakes which is 
understandable. But I think the one criticism I do hear is, it 
takes too long to get projects approved. So hopefully you and 
Mary can help us on that.
    Secretary Kempthorne. Right. Mr. Chairman, we are working 
on that, and on the Centennial Challenge, the matching portion 
for the private sector. I have included our Inspector General 
in designing the program so that there is transparency, the 
best accounting procedures. All of that is known up front 
because the last thing that I want to see is for a group or 
foundation to step forward with their precious money and then 
find that in two or three years they are surprised by it. It 
was in Grand Teton where we just last year opened the Craig 
Thomas Visitors Center. It is beautiful. The year before that I 
visited it while it was under construction and included in that 
was to have been a theater, a wonderful auditorium, and I met 
with the foundation members, the board of directors, and they 
said we have had to delete the theater. I said why did you have 
to delete that, and they said because we have come to believe 
that in your initials for the National Park Service of NPS, the 
P stands for process, and your processes are onerous. I said 
you send me a one- or two-page memo on what you have 
experienced and what you suggest. Within a week we corrected it 
and that theater is now being built.
    Mr. Dicks. Good.
    Mr. Udall.

                           2009 BUDGET ISSUES

    Mr. Udall. Thank you, Mr. Chairman. Let me just say to 
Chairman Dicks, I think that your opening statement was a very 
good, strong one in terms of the budget that has been presented 
and I think you very well laid out what the problems are with 
it and I look forward to working closely with you to restore 
some of that. My opinion is, this budget does not meet the 
priorities of the American people and I know Secretary 
Kempthorne, you are probably behind the scenes working to try 
to improve it and I know that there are certain restrictions 
that you have in terms of dealing with the Office of Management 
and Budget and things like that.

                             BIA REDUCTIONS

    My first concern, and I have a question here for you, has 
to do with the cuts in the BIA including cuts in school 
construction and school maintenance, which I think has been cut 
to the tune of about $28 million. Under one of your 
predecessors, Secretary Babbitt, he did an excellent job of 
dealing with the backlog in school construction and I think he 
tackled about $1 billion backlog and had the ability over four 
to five years to reduce this $1 billion backlog. My sense 
watching this develop now is that under the Bush 
Administration, you obviously have not been there the whole 
time but under the Bush Administration the backlog has been 
building up again and I am wondering, what is the backlog in 
terms of school construction, school maintenance? Has it built 
back up to the point where we are a billion or over and do 
you----
    Mr. Dicks. This is BIA you are talking about?
    Mr. Udall. Yes, BIA. You bet.
    Secretary Kempthorne. Mr. Udall, five years ago, six years 
ago, 30 percent of the Indian schools were termed good, only 30 
percent. Today we are at 66 percent. There are others now that 
we still need to address and in this budget we have the funds 
to replace an additional school and to make significant repairs 
to another one. That has been ongoing. Of those last six years, 
about $2 billion has been spent to bring those schools up to 
standards.
    Mr. Dicks. But is it not true that the budget is $28 
million below last year's level for school construction?
    Secretary Kempthorne. Yes, that is right.
    Mr. Dicks. That is the problem.
    Mr. Udall. And what is----
    Mr. Dicks. We still have a backlog.

                    BIA SCHOOL CONSTRUCTION BACKLOG

    Mr. Udall. And how big is our backlog? I mean, is not the 
backlog back up to $1 billion or more in terms of school 
construction? I know that you have done a lot of work and there 
is some progress on that front and you have come up with the 
numbers from 30 percent to 66 but what is the overall backlog 
now?
    Secretary Kempthorne. Mr. Udall, I do not have a dollar 
figure on that.
    Mr. Dicks. But you will get it for the record?
    Secretary Kempthorne. Yes.
    [The information follows:]

                          Deferred Maintenance

    The deferred maintenance estimate for BIE school facilities ranges 
from $365 million to $446 million, which is an acceptable range 
considering the replacement value of the existing facilities. These 
figures measure the cumulative maintenance that has not been done on 
schedule and is thus ``deferred.'' This deferred maintenance estimate 
is perpetually changing and it is a snapshot in time as work is 
underway, but not yet completed, on some of the projects and additional 
projects could be added to the estimate. As do all Interior agencies, 
BIA concentrates on eliminating critical health and safety needs first 
as required by the Department's five-year planning process. A zero or 
near zero amount for deferred maintenance would assume every asset is 
being maintained on schedule, which may not be feasible for some 
facilities as it may be more cost effective to replace rather than 
continue to maintain the current facility.

                            METHAMPHETAMINE

    Mr. Udall. Thank you. Let me ask, and several Republican 
members asked about methamphetamine. I mean, this is 
particularly a big problem on the Indian reservations in my 
state and I think across the West. In studies that show past 
year methamphetamine use, Native American communities have the 
highest use rates, more than double the use rates of other 
ethnicities. Additionally, when the Bureau of Indian Affairs 
surveyed tribes about law enforcement, more than 70 percent 
said meth is the drug that poses the greatest threat to their 
reservation. Now, recently the Congress through the Omnibus 
Appropriations Bill, and I worked on this, to get the Native 
American Meth Enforcement and Treatment Act included in the 
Omnibus Appropriations Bill. That would allow tribes to apply 
for funding for three really important grants: the Hot Spots 
Grant, the Drug Endangered Child Grant Program and the Pregnant 
and Parenting Women Offenders Grant Program. And I know that 
some of those grants come from the Department of Justice. I 
think the problem here is that many of these tribes do not know 
that the grants are out there, that grants are available and so 
I am asking you, what is the Department of the Interior, what 
is the BIA doing to ensure that tribes now know they are 
eligible to receive that funding and any assistance that you 
are offering?
    Secretary Kempthorne. I will get you an updated response to 
that but it is something that is extremely important, the 
communication. We also have begun a series of public service 
announcements geared specifically to the Native American tribes 
on methamphetamine.
    [The information follows:]

    The Bureau of Indian Affairs participates with other Federal 
Agencies at extensive meetings with Tribes to inform Tribal members of 
assistance programs available to them. In addition, the Federal 
Agencies are utilizing various media options to get the information to 
Tribes and keep Indian Country current on all new and existing 
initiatives, grants, activities, training and other events.

    Mr. Udall. Good, good.
    Do I have one more----
    Mr. Dicks. You do. Be quick.

                         LWCF STATESIDE GRANTS

    Mr. Udall. Secretary Kempthorne, the Land and Water 
Conservation Fund, I mean, we know we have incredible fast-
growing communities across the country. I have many of them, 
and I think one of the best programs in addition to Land and 
Water Conservation Fund nationally which I think is not being 
funded to the level it should be is the Stateside Program where 
a community can step forward and put up 50 percent, you all 
look at the projects and make sure that they meet all the 
criteria, and you have completely eliminated the Stateside 
Program in this budget. I am wondering what the rationale is 
for that when we have so many communities that have a need for 
parks and the Federal government could be at the table helping 
with a 50 percent sharing arrangement with the communities on 
parks and recreation.
    Secretary Kempthorne. Mr. Udall, I believe in the Land and 
Water Conservation Fund, particularly Stateside, it is a very 
fine program. That is why I am pleased that in fiscal year 2009 
we begin a new revenue source that is from the Gulf Coast 
leases, on the offshore oil and gas. The percentage of that I 
believe is 12.5 percent, which goes into the Land and Water 
Conservation Fund Stateside. It is the first time in a few 
years that there has been any money placed in there. That will 
begin to grow so at least we have identified one new funding 
source, which is critical.
    Mr. Udall. But you have eliminated the Stateside Program 
completely from your budget?
    Secretary Kempthorne. I believe there is $6.3 million in 
there.
    Mr. Udall. The Stateside Program? I do not----
    Ms. Haze. No, we eliminated funding for Stateside.
    Mr. Udall. Completely, and my question is, the rationale 
for doing that.
    Mr. Dicks. Is it 12.5 percent goes to the states directly?
    Ms. Haze. No, it goes into the Treasury, and from that is 
drawn funding for this new Stateside Program.
    Mr. Dicks. Is that all the states or just the energy 
states?
    Ms. Haze. All the states.
    Secretary Kempthorne. Well, we need to clarify. To that 
Stateside Land and Water Conservation Fund, all states will 
benefit from that, and I believe that is 12.5 percent. Then 
37.5 percent of those revenues go to the specific state that is 
in that jurisdiction, their area of influence. The state itself 
benefits but all states benefit and the source that we have 
identified is the Stateside Land and Water Conservation Fund.
    Mr. Udall. The staff briefing paper here says LWCF 
Statewide Conservation and Recreation grants program is 
eliminated in this budget, and that is what I was wondering, 
what the rationale was behind that.

                              COAL BONUSES

    Mr. Dicks. Okay. We are going to have to vote here in a 
second. Tell me about the upfront payments of coal bonus bids, 
which is a new thing in your budget. It includes an interesting 
legislative proposal which is described as requiring upfront 
payment of coal bonus bids. This change would save $385 million 
in 2009 based on OMB scoring. Can you explain the proposal to 
the Subcommittee and tell us why you believe this is 
appropriate?
    Secretary Kempthorne. Mr. Chairman----
    Mr. Dicks. We think it is a good idea. I do, at least. 
Others may differ.
    Secretary Kempthorne. I could not tell by your tone.
    Mr. Dicks. Well, I am looking for money.
    Secretary Kempthorne. Currently, the companies can make 
these payments over five years and we thought that they could 
make it upfront when it begins, and it would bring in 
additional revenue.

                                 COBELL

    Mr. Dicks. Okay. Tell us about, what are you going to do 
with the Cobell case with this new judge, and we like this 
judge better. What happens now?
    Secretary Kempthorne. Well, in his ruling, which was 165 
pages, he very articulately goes into the details, the history 
of the Cobell case, and I am going to add that he was 
complimentary of what Department of the Interior employees have 
been doing with limited resources. His conclusion, if I can 
summarize, is, there needs to be a resolution to this. This 
should not go on in perpetuity and so----
    Mr. Dicks. Just wasting money trying to, you know, doing 
this accounting that is impossible to do, according to his 
judgment, the way I understand it.
    Secretary Kempthorne. That is correct, and----
    Mr. Dicks. Which is what we have been saying for years up 
here.
    Secretary Kempthorne. Right. We have been doing the 
sampling of the historic accounting, but to go and actually do 
the entire historic accounting would be a tremendous amount of 
money. He is saying we need an atmosphere to get this resolved. 
In 30 days he wants to reconvene and have discussions of what a 
resolution may look like. As you know, Mr. Chairman, last year 
I signed a letter that for the first time to put on the table 
$7 billion from the Administration as an offer toward 
settlement.
    Mr. Dicks. I hope that is from the Justice Department. He 
nodded yes.

                            U.S. PARK POLICE

    Mr. Moran is as concerned about this as I am. The U.S. Park 
Police, these stories are concerning. You and I talked about 
this, but for the record here, tell us what you are going to do 
about this.
    Secretary Kempthorne. First, I am going to say that the men 
and women that wear that uniform or that carry the badge of the 
United States Park Police are outstanding individuals. It is 
the oldest police force, federal police force, established in 
1792. The IG's report, which was just released, I take 
extremely seriously. I have met with the IG and discussed this. 
I have met with Park Service leadership and discussed this. 
While there is a 90-day period that we go through and can 
review and make a determination of the recommendations that are 
made, what I have stated to the Park Service leadership is, any 
of those measures that we believe must be corrected 
immediately, then correct them immediately. We are not going to 
wait for 90 days. We will have a thorough review of this but I 
take very seriously their suggestions of where we are deficient 
and I appreciate the Inspector General and the diligence that 
he showed on this.
    Mr. Dicks. Mr. Tiahrt, do you have a quick question?

                            FIRE SUPPRESSION

    Mr. Tiahrt. I am not very happy with the way we pay for 
fire suppression in our budget. I think it takes away from the 
way we need to manage the money. You end up robbing Peter to 
pay for Paul. I look forward to working with you to find a 
better solution for the Department of the Interior, and Mr. 
Chairman, I think we agree on that.
    Mr. Dicks. Right. We agree on that.
    All right. Since we are going to have four votes, Mr. 
Secretary, we are going to adjourn the hearing at this juncture 
but I do want to reserve the right to maybe recall you in April 
to summarize and take a review of where we are.
    Secretary Kempthorne. Very good. Thank you.
    Mr. Dicks. Thank you very much.

    [GRAPHIC] [TIFF OMITTED] T2183A.019
    
    [GRAPHIC] [TIFF OMITTED] T2183A.020
    
    [GRAPHIC] [TIFF OMITTED] T2183A.021
    
    [GRAPHIC] [TIFF OMITTED] T2183A.022
    
    [GRAPHIC] [TIFF OMITTED] T2183A.023
    
    [GRAPHIC] [TIFF OMITTED] T2183A.024
    
    [GRAPHIC] [TIFF OMITTED] T2183A.025
    
    [GRAPHIC] [TIFF OMITTED] T2183A.026
    
    [GRAPHIC] [TIFF OMITTED] T2183A.027
    
    [GRAPHIC] [TIFF OMITTED] T2183A.028
    
    [GRAPHIC] [TIFF OMITTED] T2183A.029
    
    [GRAPHIC] [TIFF OMITTED] T2183A.030
    
    [GRAPHIC] [TIFF OMITTED] T2183A.031
    
    [GRAPHIC] [TIFF OMITTED] T2183A.032
    
    [GRAPHIC] [TIFF OMITTED] T2183A.033
    
    [GRAPHIC] [TIFF OMITTED] T2183A.034
    
    [GRAPHIC] [TIFF OMITTED] T2183A.035
    
    [GRAPHIC] [TIFF OMITTED] T2183A.036
    
    [GRAPHIC] [TIFF OMITTED] T2183A.037
    
    [GRAPHIC] [TIFF OMITTED] T2183A.038
    
    [GRAPHIC] [TIFF OMITTED] T2183A.039
    
    [GRAPHIC] [TIFF OMITTED] T2183A.040
    
    [GRAPHIC] [TIFF OMITTED] T2183A.041
    
    [GRAPHIC] [TIFF OMITTED] T2183A.042
    
    [GRAPHIC] [TIFF OMITTED] T2183A.043
    
    [GRAPHIC] [TIFF OMITTED] T2183A.044
    
    [GRAPHIC] [TIFF OMITTED] T2183A.045
    
    [GRAPHIC] [TIFF OMITTED] T2183A.046
    
    [GRAPHIC] [TIFF OMITTED] T2183A.047
    
    [GRAPHIC] [TIFF OMITTED] T2183A.048
    
    [GRAPHIC] [TIFF OMITTED] T2183A.049
    
    [GRAPHIC] [TIFF OMITTED] T2183A.050
    
    [GRAPHIC] [TIFF OMITTED] T2183A.051
    
    [GRAPHIC] [TIFF OMITTED] T2183A.052
    
    [GRAPHIC] [TIFF OMITTED] T2183A.053
    
    [GRAPHIC] [TIFF OMITTED] T2183A.054
    
    [GRAPHIC] [TIFF OMITTED] T2183A.055
    
    [GRAPHIC] [TIFF OMITTED] T2183A.056
    
    [GRAPHIC] [TIFF OMITTED] T2183A.057
    
    [GRAPHIC] [TIFF OMITTED] T2183A.058
    
    [GRAPHIC] [TIFF OMITTED] T2183A.059
    
    [GRAPHIC] [TIFF OMITTED] T2183A.060
    
    [GRAPHIC] [TIFF OMITTED] T2183A.061
    
    [GRAPHIC] [TIFF OMITTED] T2183A.062
    
    [GRAPHIC] [TIFF OMITTED] T2183A.063
    
    [GRAPHIC] [TIFF OMITTED] T2183A.064
    
    [GRAPHIC] [TIFF OMITTED] T2183A.065
    
    [GRAPHIC] [TIFF OMITTED] T2183A.066
    
    [GRAPHIC] [TIFF OMITTED] T2183A.067
    
    [GRAPHIC] [TIFF OMITTED] T2183A.068
    
    [GRAPHIC] [TIFF OMITTED] T2183A.069
    
    [GRAPHIC] [TIFF OMITTED] T2183A.070
    
    [GRAPHIC] [TIFF OMITTED] T2183A.071
    
    [GRAPHIC] [TIFF OMITTED] T2183A.072
    
    [GRAPHIC] [TIFF OMITTED] T2183A.073
    
    [GRAPHIC] [TIFF OMITTED] T2183A.074
    
    [GRAPHIC] [TIFF OMITTED] T2183A.075
    
    [GRAPHIC] [TIFF OMITTED] T2183A.076
    
    [GRAPHIC] [TIFF OMITTED] T2183A.077
    
    [GRAPHIC] [TIFF OMITTED] T2183A.078
    
    [GRAPHIC] [TIFF OMITTED] T2183A.079
    
    [GRAPHIC] [TIFF OMITTED] T2183A.080
    
    [GRAPHIC] [TIFF OMITTED] T2183A.081
    
    [GRAPHIC] [TIFF OMITTED] T2183A.082
    
    [GRAPHIC] [TIFF OMITTED] T2183A.083
    
    [GRAPHIC] [TIFF OMITTED] T2183A.084
    
    [GRAPHIC] [TIFF OMITTED] T2183A.085
    
    [GRAPHIC] [TIFF OMITTED] T2183A.086
    
    [GRAPHIC] [TIFF OMITTED] T2183A.087
    
    [GRAPHIC] [TIFF OMITTED] T2183A.088
    
    [GRAPHIC] [TIFF OMITTED] T2183A.089
    
    [GRAPHIC] [TIFF OMITTED] T2183A.090
    
    [GRAPHIC] [TIFF OMITTED] T2183A.091
    
    [GRAPHIC] [TIFF OMITTED] T2183A.092
    
    [GRAPHIC] [TIFF OMITTED] T2183A.093
    
    [GRAPHIC] [TIFF OMITTED] T2183A.094
    
    [GRAPHIC] [TIFF OMITTED] T2183A.095
    
    [GRAPHIC] [TIFF OMITTED] T2183A.096
    
    [GRAPHIC] [TIFF OMITTED] T2183A.097
    
    [GRAPHIC] [TIFF OMITTED] T2183A.098
    
    [GRAPHIC] [TIFF OMITTED] T2183A.099
    
    [GRAPHIC] [TIFF OMITTED] T2183A.100
    
    [GRAPHIC] [TIFF OMITTED] T2183A.101
    
    [GRAPHIC] [TIFF OMITTED] T2183A.102
    
    [GRAPHIC] [TIFF OMITTED] T2183A.103
    
    [GRAPHIC] [TIFF OMITTED] T2183A.104
    
    [GRAPHIC] [TIFF OMITTED] T2183A.105
    
    [GRAPHIC] [TIFF OMITTED] T2183A.106
    
    [GRAPHIC] [TIFF OMITTED] T2183A.107
    
    [GRAPHIC] [TIFF OMITTED] T2183A.108
    
    [GRAPHIC] [TIFF OMITTED] T2183A.109
    
    [GRAPHIC] [TIFF OMITTED] T2183A.110
    
    [GRAPHIC] [TIFF OMITTED] T2183A.111
    
    [GRAPHIC] [TIFF OMITTED] T2183A.112
    
    [GRAPHIC] [TIFF OMITTED] T2183A.113
    
    [GRAPHIC] [TIFF OMITTED] T2183A.114
    
    [GRAPHIC] [TIFF OMITTED] T2183A.115
    
    [GRAPHIC] [TIFF OMITTED] T2183A.116
    
    [GRAPHIC] [TIFF OMITTED] T2183A.117
    
                                      Wednesday, February 27, 2008.

                BUREAU OF LAND MANAGEMENT BUDGET REQUEST

                               WITNESSES

HENRI R. BISSON, DEPUTY DIRECTOR, BUREAU OF LAND MANAGEMENT
CARL D. ROUNTREE, BUDGET OFFICER, DIVISION OF BUDGET, BUREAU OF LAND 
    MANAGEMENT
TIM SPISAK, DIVISION CHIEF, FLUID MINERALS, BUREAU OF LAND MANAGEMENT
PAMELA K. HAZE, DIRECTOR, OFFICE OF BUDGET, DEPARTMENT OF THE INTERIOR

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. The Committee will come to order.
    Today we examine the Bureau of Land Management's budget 
request. I am sorry that Director Caswell was unable to join us 
but we certainly understand the reasons why. But I am sure that 
his deputy, Henri Bisson, will do a fine job. Welcome, Henri.
    Today we will talk about all of the BLM programs except the 
wildfire programs, which we covered in a previous hearing, and 
obviously if somebody wants to bring it up, I have no 
objection. Although the BLM is extremely important to 
Westerners, its vast land holdings and varied programs are 
vital to all Americans. We look to the BLM for the vast open 
spaces, the key watersheds, the many national monuments and 
trails as well as the important energy and minerals and grazing 
lands which directly support Western economies. The BLM manages 
the most federal land of any agency. Its portion of federal 
land in the lower 48 states is more than three times that 
managed by the Park Service and the Fish and Wildlife Service 
outside of Alaska combined. The BLM also has large natural and 
built infrastructure including 79,000 miles of roads. The BLM 
also is the federal agency which manages oil, gas and coal 
resources, a growing task which has huge impacts on vast 
Western lands.
    There is, however, a lot of concern that the BLM management 
lately has focused too much on short-term exploitation of 
natural resources, especially oil and gas, and not considered 
long-term impacts to the land and to communities. So I want to 
look at this budget request and see how it will help Americans 
in the long run. The budget request is very tight. Although the 
Healthy Lands Initiative addresses some habitat and land 
restoration needs, I am afraid the offsets in so many basic 
Bureau programs may cause more harm than could be achieved by 
the initiative. There are a number of challenges in the budget 
request which we will discuss.
    Mr. Bisson, we appreciate your coming this morning. I also 
want to work with you and Director Caswell on budget details as 
we get closer to our markup.
    I will turn to Mr. Tiahrt for his opening statement.

                 Opening Remarks of Congressman Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman. Good morning, Mr. 
Bisson and Mr. Rountree, Mr. Spisak. Thank you for joining us 
this morning as we take a closer look at the proposed fiscal 
year 2009 budget for the Bureau of Land Management.
    Let me begin by saying that each of us sends our very best 
to Director Jim Caswell as he addresses some of the health 
issues back in Idaho. We will certainly keep him and his family 
in our prayers in the coming days and weeks.
    Mr. Bisson, I know that you are not new to many of the 
issues we are going to be discussing today. In fact, reading 
about your long and successful career at BLM, it is apparent 
that you are a problem solver who has a real desire to tackle 
tough issues and clearly there is no shortage of tough issues 
facing the BLM these days.
    Referring to the BLM as a multiple-use agency seems to be a 
bit of an understatement. As you manage 258 million acres 
across the United States, your agency faces challenges as 
diverse as the public lands you manage. Restoring land health, 
border and law enforcement issues, illegal immigration and drug 
smuggling, providing energy security, managing national 
monuments and national conservation areas, community growth, 
growing populations of wild horses and burros, the list of 
challenges goes on and on.
    I am particularly interested in your perspective related to 
the energy development and production on public lands and 
specifically your assessment of our ability to meet the growing 
need for domestic sources of energy while preserving and 
protecting our natural resources. I look forward to exploring 
these and other issues in greater detail following the opening 
statements.
    Again, thank you for joining us this morning and thank you, 
Mr. Chairman.
    Mr. Dicks. We will put your entire statement in the record 
and you may proceed as you wish.
    Mr. Bisson. Thank you, Mr. Chairman. What I would like to 
do is briefly summarize my remarks this morning.
    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to appear before you today to discuss the BLM's 
fiscal year 2009 budget request. With the rapid population 
growth in the West, the pressure to meet competing demands for 
public land resources has grown exponentially. Today over 57 
million people live within 25 miles of BLM-managed lands. 
Recognizing these challenges, the BLM's 2009 budget request 
focuses on six emphasis areas.

                        HEALTHY LANDS INITIATIVE

    At the core of this work is the Healthy Lands Initiative, 
which focuses on implementing landscape-scale habitat 
restoration and conservation projects across public and private 
lands in six Western States. A key to HLI is its partnership 
aspect and requiring us to work closely with our neighbors to 
initiate, fund and complete restoration work. We have had many 
successes through HLI. As an example, there is a picture over 
there which is a before-and-after shot of some areas south of 
Carlsbad, New Mexico, where we have treated creosote, which is 
an invasive shrub, which drips a toxin on the ground, poisoning 
grasses and eliminating competing native vegetation. The 
results are heavy erosion and runoff after rains. The top 
picture is before. The second picture is after five years of 
treatment with our partners from the local ranchers and State 
of New Mexico. We have been able to remove enough creosote to 
allow the native grasses to grow, restoring wildlife habitat 
that was lost. Our budget request proposes a $10 million 
increase for HLI to continue similar efforts and expand the 
program to California and Colorado.

                            SOUTHWEST BORDER

    Border security continues to be an absolute priority on the 
8.8 million acres of public lands that BLM administers within 
100 miles of the Mexican border. To improve collaboration with 
our federal and State partners, our budget proposes to retain 
the $3.9 million provided by Congress in fiscal year 2008 to 
improve our communications along the border and to hire 
additional law enforcement personnel. We are also requesting an 
additional $1 million to mitigate resource damage occurring 
along the border as a result of illegal immigration and 
smuggling.

                 NATIONAL LANDSCAPE CONSERVATION SYSTEM

    Recognizing the importance of the National Landscape 
Conservation System, our budget proposes the creation of a new 
subactivity called National Monuments and National Conservation 
Areas. Approximately $19 million of existing base funding would 
be permanently redirected to this subactivity from other 
programs that are currently funding National Monuments and 
Conservation Areas. We think this change will improve our 
management capabilities and increase transparency for those who 
look at our budgets. We are also proposing to retain $3 million 
of the $4.9 million that Congress provided us in 2008 for 
management of monuments and conservation areas and we are 
targeting $3 million of Challenge Cost Share funding 
specifically to be used in NLCS units.

                            ENERGY SECURITY

    Our budget proposes a net program funding increase of $7.8 
million from a combination of funding sources to continue our 
efforts to secure energy resources for this country. Some of 
these funds will be used to remediate the Atigaru legacy well 
on Alaska's North Slope, to support the North Slope Science 
Initiative and to increase the numbers of oil and gas 
inspections and enforcement that we are doing to ensure 
environmentally sound operations. We also have a couple of 
legislative strategies, changes to the Energy Policy Act that 
would allow us to recover our costs for issuing APDs and to 
redirect mineral leasing revenues back to the U.S. Treasury.

                            COMMUNITY GROWTH

    Our budget recognizes the needs of growing communities in 
the West. We are attempting to target funds within our BLM 
budget to areas within States that are experiencing significant 
impacts from population growth. We are directing about $8 
million of our base funds to those offices where the highest 
needs are. These shifts would occur wholly within a State. We 
are not moving money from one State to another, but we are 
asking our State directors to look at their budgets and to look 
at their capabilities to move money within a State to take care 
of those problems.

                        NON-ENERGY COMMODITY USE

    Recognizing the BLM's contributions to local communities 
and working landscapes, we are also focusing our efforts on 
timely renewals of grazing permits, making forest and woodland 
products available for commercial production and making 
available non-energy minerals such as sand and gravel.
    Our budget request also proposes a number of reductions 
that take into account savings to be achieved through past 
programmatic accomplishments and management efficiencies.
    Mr. Chairman, this concludes my opening remarks, and I 
would be happy to answer any questions you may have.
    [The statement of Henri Bisson follows:]

    [GRAPHIC] [TIFF OMITTED] T2183A.118
    
    [GRAPHIC] [TIFF OMITTED] T2183A.119
    
    [GRAPHIC] [TIFF OMITTED] T2183A.120
    
    [GRAPHIC] [TIFF OMITTED] T2183A.121
    
    [GRAPHIC] [TIFF OMITTED] T2183A.122
    
    [GRAPHIC] [TIFF OMITTED] T2183A.123
    
                           RANGE IMPROVEMENTS

    Mr. Dicks. The budget includes considerable reductions to 
many important programs including reductions totaling over $58 
million. Now, we understand the Secretary has his ideas and 
initiatives, which I know you support, but we are concerned 
that you are cutting money from a lot of other sensitive 
programs in order to make the money available for his Healthy 
Lands Initiative. For example, Range Improvements is cut by $10 
million. How do you justify that? I mean, here is an example of 
what you can do if you have the money for--I assume that came 
out of that account.
    Mr. Bisson. No, it did not, sir.
    Mr. Dicks. It did not? That was out of the Healthy Lands 
Initiative.
    Mr. Bisson. That was out of the Healthy Lands Initiative.
    Mr. Dicks. Okay. So can we afford to cut Range Improvements 
by $10 million?
    Mr. Bisson. Mr. Chairman, as I understand it, the $10 
million a year that goes into the Range Improvement Fund is 
money that is collected from grazing fee receipts. It is money 
that has historically gone back out to be used by our grazing 
permitees to construct fences, to improve waters for livestock 
management. The position we have taken is that it would be more 
appropriate for that to be funded by the ranchers themselves.
    Mr. Dicks. What do the ranchers think?
    Mr. Bisson. You will have to ask them, sir.
    Mr. Dicks. All right. You have not had any conversations 
with them?
    Mr. Bisson. Not since the budget came out.

                               RECREATION

    Mr. Dicks. What about recreation management and trails 
minus $10 million?
    Mr. Bisson. I think if you look at a lot of what appear to 
be reductions in these programs like recreation, actually what 
we are doing is shifting base funding from recreation that is 
being used in NLCS units to this new NLCS subactivity So, a lot 
of these what appear to be reductions--and there are some 
reductions, sir, but a lot of these reductions are actually 
base shifts into this new subactivity to support the NLCS. 
There are some increases that the Congress gave us last year 
which we are not requesting, and I think there may have been 
one in recreation that we are not requesting.
    Mr. Dicks. Was that an earmark or just an increase?
    Mr. Bisson. It was both.

                       GENERAL PROGRAM REDUCTIONS

    Mr. Dicks. Okay. We understand that that could be an issue. 
Roads and facilities maintenance minus $12 million?
    Mr. Bisson. We have a significant number of facilities, as 
you indicated in your opening statement, and because we have 
submitted a fiscally conservative budget, we have had to make 
some priorities. We are planning to use our capital asset 
management plan to identify our highest priorities, to fund 
those work projects in 2009, and to stretch that money as far 
as we can go.
    Mr. Dicks. The wildlife and fisheries and National Fish and 
Wildlife Foundation, that is minus $3 million.
    Mr. Bisson. That basically has been a longstanding pass 
through from the BLM to the Fish and Wildlife Foundation.
    Mr. Dicks. They do pretty good work, I think.
    Mr. Bisson. We have completed many, many projects with them 
over the years.
    Mr. Dicks. That would fit your model of the National Lands 
Conservation System or your Healthy Lands Initiative. I mean, 
that is getting local communities involved. They get private 
sector investments, matching funds for these kind of grants.
    Mr. Bisson. Yes, they do, sir.
    Mr. Dicks. We will take a look at that.
    Alaska minerals and land conveyances, minus $3 million.
    Mr. Bisson. That was an earmark that came from the Senate 
side last year and what we are proposing is what was in the 
President's budget last year. We are basically maintaining a 
stable program minus that increase, that one-year increase that 
we got.
    Mr. Dicks. Okay.
    Mr. Bisson. I should tell you that this coming year is the 
50th anniversary of Alaska statehood. We are working as hard as 
we can to complete that program as quickly as we can. We have 
been very successful in the last several years since 
legislation was passed asking us to move that program along, 
but we still have a lot of work left to do.
    Mr. Dicks. I know the senior Senator from Alaska will be 
very interested in that.
    Mr. Bisson. I know that he will too, sir.
    Mr. Dicks. Resource management planning minus $4 million.
    Mr. Bisson. Again, looking at the needs of the Bureau, we 
had to establish some priorities for funding, and what we are 
planning on doing is not initiating any new plan starts in 
2009, but we are completing our highest priority plans. We are 
completing the work that is ongoing right now.
    Mr. Dicks. Land acquisition minus $4.5 million. How much do 
you have for land acquisition? Anything?
    Mr. Bisson. We have four small projects, sir. It is $4.5 
million.
    Mr. Dicks. So you have $4.5 million for land acquisition 
but this is from the last year's levels, right? And then 
construction is down $2 million.
    Mr. Bisson. Again, we are proposing to proceed with our two 
most significant construction projects and defer other projects 
into subsequent years.
    Mr. Dicks. Now, the National Landscape Conservation System, 
that is minus $2.8 million as well. But you also have something 
here called organizational streamlining and reduced travel 
minus $8 million.
    Mr. Bisson. Yes. Those are two separate issues. In NLCS, 
Congress gave us an increase this past year of $4.9 million and 
we are proposing to retain $3 million of it for use in managing 
the monuments and conservation areas. This other issue has to 
do with our internal efforts to achieve cost savings to get 
more money out on the ground, so we have done some 
reorganization at the national level. We are moving towards 
centralization of Information Technology and Human Resource 
functions, taking advantage of technology, and we are achieving 
some savings.
    Mr. Dicks. Good.
    Mr. Bisson. Part of it we used for this budget. Part of it 
is going to be used to keep the field offices going on the 
ground.
    Mr. Dicks. All right.
    Mr. Tiahrt.

                            ENERGY SECURITY

    Mr. Tiahrt. Thank you, Mr. Chairman.
    It is clear that the BLM is essential in meeting our 
growing energy needs, and there are members on this 
subcommittee who think we should do more to expedite domestic 
energy sources and there are members on this committee that 
believe we should do more to ensure protection and preservation 
of our public lands. So what I would like to know is, what is 
the extent that new technologies are being used to identify and 
develop and produce sources of energy in a fashion that we can 
adequately protect our public lands?
    Mr. Bisson. Mr. Tiahrt, first of all, we are encouraging 
the companies to make every effort to use modern technology, 
new drilling techniques, and new sorts of equipment to reduce 
footprints on the ground. We are also working on alternative 
energy in addition to oil and gas resources. We are working 
with DOE on an environmental impact statement to develop solar 
on public lands. We just finished one on wind. In fact, this 
spring we are going to have a national meeting with all of our 
people involved in this program to encourage them to use what 
we call best management practices, which means working with the 
companies to use the best available technology and the best 
techniques to minimize the footprint on the ground.
    Mr. Tiahrt. And they do have some great new technology.
    Mr. Bisson. Yes, they do, sir.
    Mr. Tiahrt. They can from one location cover a lot of 
ground underground.
    Mr. Bisson. I can tell you in Alaska on a ten-acre pad, 
they can drill anywhere from 40 to 50 wells. In Colorado on 
very small pads, they are drilling up to 30 wells now.
    Mr. Tiahrt. According to the BLM website, United States 
holds the world's largest known concentration of oil shale, and 
it is estimated that it is five times the proven oil reserves 
of Saudi Arabia. This is a huge potential domestic source of 
energy for present and future generations, and more than 70 
percent of the American oil shale lies on federal lands in the 
West, Colorado, Utah and Wyoming. These lands contain an 
estimated 1.7 trillion barrels of oil, more than 50 times our 
country's oil reserves. Eastern Utah alone is estimated to have 
between 12 to 19 billion barrels of oil. Now, given the desire 
that our country has to lessen the country's dependence on 
foreign sources of energy including oil, what are the biggest 
obstacles to tapping this abundant source of energy? Is it 
technology or is it political will?
    Mr. Bisson. Personally, I think it is a little bit of both. 
I think that technology is being tested on the pilot leases 
that we have issued for looking at different sorts of 
technology, different approaches to try to come up with a 
successful commercial production of oil shale. I think, as you 
know, in this year's appropriation we are prohibited from going 
all the way to final leasing regulations. We are proceeding 
with drafting regulations and taking it as far as we think we 
can go with it. We have a draft EIS out right now. We are 
having public meetings right now regarding areas which should 
be made available in the future for oil shale development. I 
think it is a little bit of all of that, sir.
    Mr. Tiahrt. I do not know if you have anything current as 
far as mapping what natural resources are out there in the form 
of coal and oil and other potentials. Is there a current survey 
that we have?
    Mr. Bisson. We have recently completed with DOE what are 
called EPCA studies, and those EPCA studies project the 
resources across the Nation in various basins and they also 
show the constraints on development that currently exist in 
those basins. We could provide those studies to you if you 
wish, sir.
    Mr. Tiahrt. I would like to see them, if you do not mind. 
Now, you mentioned renewable energy. Wind and solar, you 
mentioned. Hydropower, is there potential there? I know we have 
potential with geothermal as well as wind and solar and perhaps 
biomass as well, but are we not kind of tapped out on the hydro 
side of generating?
    [The information follows:]

                      Surveys of Energy Resources

    Due to the size of these documents, they have been provided 
directly to Congressman Tiahrt's office through the Appropriations 
Committee.

    Mr. Bisson. I do not personally know very much about hydro 
potential. I know that there is some there. A lot of that work 
is done by FERC, and we do work cooperatively with FERC on 
renewing hydro leases and on looking for new sites. I can also 
tell you that last year we had two very successful geothermal 
lease sales, across five or six different States. We brought in 
well over $26 million in lease revenues from two geothermal 
lease sales and we are planning on holding some more this year. 
I can also tell you that across the West right now we have 
applications for over a million acres of new solar facilities 
and new wind energy facilities in multiple States.
    Mr. Tiahrt. I think there is great potential there, and 
just knowing the current technology, some utility companies are 
using algae now as a way of carbon sequestration. But they do 
need area to put these algae tanks in and certainly we have 
space that is available for that kind of clean source. We ought 
to consider that as well.
    Thank you, Mr. Chairman.
    Mr. Dicks. Just on the question of carbon sequestration, 
are you involved in that at all?
    Mr. Bisson. I have not personally been but the Bureau will 
likely be involved if there are proposals to sequester it under 
BLM lands.
    Mr. Dicks. USGS has told me that there is very little known 
about this. They know about it in terms of oil and gas lands.
    Mr. Bisson. Putting it back in the ground.
    Mr. Dicks. Putting it back there, but if you are going to 
be out in the wide open spaces, there is not a lot of 
scientific work that has been done on that subject, and I 
happened to be on the plane with Mark Myers. He was going 
through this.
    Mr. Bisson. Mark is a personal friend of mine.
    Mr. Dicks. Yes, and I have high regard for him. He says we 
do not know a lot about this. So there are a lot of people 
talking about carbon sequestration.
    Mr. Bisson. There have been a number of hearings up here 
too, sir.
    Mr. Dicks. Yes, which there ought to be.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. I mentioned this year 
and I thought I would follow up on it because some of my 
constituents, even though they are not directly affected, are 
concerned. The Washington Post had an article on the Bureau of 
Land Management a couple of years ago, and it said that 
according to BLM's own documents, that the agency, and I am 
quoting, ``routinely restricts the ability of its own 
biologists to monitor wildlife damage caused by surging energy 
drilling on federal land.'' It went on to say, and again I am 
quoting, ``By keeping many wildlife biologists out of the field 
doing paperwork on new drilling permits and that by diverting 
agency money intended for wildlife conservation to energy 
programs, the BLM has compromised its ability to deal with the 
environmental consequences of the drilling boom on public 
lands.'' I see there is about $15 million for what is called 
the Healthy Lands Initiative, and I can see some of the things 
that you are doing, but I would like for you to take another 
crack at addressing this allegation that really originated from 
people within your own agency.
    Mr. Bisson. Yes, sir. I can tell you that since those 
allegations surfaced, and they surfaced before I got back to 
Washington, we have since issued guidance to make it clear that 
the money for various programs intended by Congress is to be 
used to fund the programs that we were given it for. 
Nevertheless, we are a multi-use agency, and in the process of 
processing APDs, we need wildlife input, which is being funded 
by oil and gas money. And so some biologists may be funded from 
multiple program areas. I can tell you that last summer I 
testified on the House side on oil and gas and at that point we 
had hired 23 new biologists in the pilot offices using oil and 
gas funding. The biologists who were in those offices are doing 
their biology work and we have got other biologists that have 
been hired to do the oil and gas work in those pilot offices. 
So we have made significant changes since last year, sir.
    Mr. Moran. That appears to be the case, and we are going to 
continue to follow up on that because there needs to be some 
balance as I think you would acknowledge.
    I recently met with a woman who is an author and a 
scientist, albeit at times controversial, Theo Colborn is her 
name. She has been working on the issue of endocrine disrupters 
well before many other scientists confirmed the effects of it. 
We see effects of endocrine disrupters here in the Washington 
area where there is a large proportion of intersex fish who 
have both sexual organs in them, probably as a result of 
endocrine disrupting chemicals. But she was telling me at a 
meeting that public land drilling operations in Colorado near 
where she happens to live are largely unregulated and the local 
communities are discovering cancer clusters and finding their 
drinking water contaminated with known carcinogens. They 
documented oil and gas companies injecting hazardous chemical 
reagents into their drilling wells to boost fossil fuel 
production. Now, I want to know if you are aware of the 
accusations and have you looked into them?
    Mr. Bisson. I am aware of those accusations, and Dr. 
Colborn has met with our Colorado state director. In our 
meetings we have explained that the oil and gas permitting 
process emphasizes groundwater protection and isolation, and 
for that reason our wells are required to be cased and cemented 
to prevent these liquids that are used as fracturing fluids 
from getting into groundwater which is used for drinking 
purposes. We have been unable to substantiate Dr. Colborn's 
concerns on federal lands. She has raised similar issues with 
the State of Colorado and the Colorado Department of Public 
Health and Environment. They have recently formed a work group 
to address and identify necessary studies needed to research 
the accusation. We have a BLM employee who is working as a 
member of that work group, sir.
    Mr. Moran. Okay. Well, again, it is an issue that we will 
continue to follow up.
    I am glad to see that you implemented the Congressional 
directive on making permanent the permitting fee but it 
troubles me that the bonding requirement seems so small. You 
can get a bond for $10,000 per site, $25,000 for all sites 
within a single State, and for $150,000 for all sites in the 
entire United States. So a big company like Chevron, for 
example, I mean, that kind of money gets rounded in their 
profit and loss statement. They can operate dozens of 
facilities, drilling operations and some of them can be major 
throughout the United States and all they have to put up is a 
$150,000 bond. It seems to me that you are possibly creating 
some major unfunded liability concerns. I mean, hopefully not 
but it does not seem to me that $150,000 covers your liability.
    Mr. Bisson. I would like to defer to Mr. Spisak.
    Mr. Spisak. The bonds are what we call performance bonds 
and they are not intended to cover the whole liability because 
their operations are distributed. If there was a problem in one 
location where the bond needs to be called, they are required 
to fill up that bond or bring it back up to a level. Problems 
in one area can affect their operations in other areas so it is 
in their best interest as well as ours for them to ensure that 
their operations are done in a----
    Mr. Moran. But do you have the ability to go after them if 
there is a serious problem?
    Mr. Spisak. We have the authority and have raised bonds 
when conditions warrant. Those conditions might be because of 
some off-lease impacts or whatever might be going on, or if 
there is believed to be a greater risk working with a 
particular company.
    Mr. Moran. I mean, you are not limited to $150,000?
    Mr. Bisson. No, no. In fact, our state directors and field 
managers have the ability to ask for higher bonds if they feel 
it is appropriate, and we do not put any restrictions on them. 
If they think they need higher bonds, they can put them into 
place.
    Mr. Moran. That is good to hear.
    Mr. Chairman, I suspect my time is up but we do not have a 
whole lot of members. John probably has some good probative 
questions. I have some more but I do not want to----
    Mr. Dicks. Why do we not get Mr. Olver in and then we will 
go for a second round?
    Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    I must say, I find this budget confusing so I am going to 
ask what I think is a simple set of questions and work on 
trying to sort out my own confusion on the others for the next 
round afterward. I want to ask you a couple questions about the 
Teshepuk Lake procedures.
    Mr. Bisson. Yes, sir.

                             TESHEPUK LAKE

    Mr. Olver. My understanding is that that area has been 
protected since 1976. It started in the Ford Administration, 
and those protections have been reaffirmed by every President 
since including the continuous switch, well, not quite each 
time switch of parties between Carter, Reagan, GHW Bush, 
Clinton. Now under this President, he reached a record of 
decision in 2006 opening the entire area surrounding that lake 
to drilling. Now, I have not visited Teshepuk Lake. I have done 
a 100-mile backpack in the Arctic, two of them actually, one in 
the very high Arctic and one in Yukon area right across from 
the National Wildlife Refuge, the Alaska Wildlife Refuge. I do 
not know exactly what this looks like except that my 
understanding is that there is a huge population of a 
substantial variety of migratory birds, waterfowl and such that 
use that area as breeding ground and nesting ground. But in any 
case, it is significant in the whole circumpolar region as a 
migratory bird area as well as being home to at least some 
resident caribou herd or musk oxen herd and so forth. I do not 
know precisely. It seems like quite an unusual thing to do. I 
understand that the final decision regarding oil and gas 
leasing would be coming up in several months. I am wondering 
exactly what you can tell me about the agency's plans for the 
continuing reversal of these protections which have lasted over 
all those Presidents, over all that time, and how the opening 
of this area is going to proceed.
    Mr. Bisson. Mr. Olver, I have been there many times 
actually. Before coming back to Washington a year and a half 
ago, I was the state director for the BLM in Alaska, and there 
are absolutely significant wildlife values in the vicinity of 
that lake and north of the lake. There are also very 
significant oil and gas resources. In November we did put out a 
new draft supplemental EIS. The BLM did not identify a 
preferred alternative. We identified a range of alternatives 
including not changing the existing plan. We got 175,000 
comments from members of the public. Obviously many of those 
were identical comments. But the Secretary has asked the BLM to 
take a hard look at this issue before making a decision and we 
are in the process of doing that. I can assure you that we are 
taking note of all the comments we have received and there is 
no final decision as to how we are going to proceed or propose 
to proceed, but it will be made in several months. The 
Secretary is well aware of the environmental concerns and is 
asking us to look hard at this issue, sir.
    Mr. Olver. Well, let me just clarify. The record of 
decision opened the entire area surrounding the lake to 
drilling. Is that correct?
    Mr. Bisson. The record of decision that we went to court 
and defended and lost on proposed to do that. We lost two years 
ago.
    Mr. Olver. You lost on that decision?
    Mr. Bisson. We lost on that decision.
    Mr. Olver. And do you have a new record of decision?
    Mr. Bisson. We have a new draft that was issued this fall 
which identified a range of alternatives. The judge ruled that 
we had not sufficiently addressed the potential cumulative 
impacts in the adjacent planning area from new leasing in this 
area north of the lake and so he rescinded the record of 
decision. It does not exist. We have got a clean slate at this 
point, sir.
    Mr. Olver. Okay. Well, I appreciate that. That is at least 
a start because the record of decision, as I understood it, and 
I missed the legal opinion, the denial, the refusal on that 
one, but the record of decision as it was, if it covers the 
waters, everything but the waters, then you have no nesting 
ground nothing that the migratory bird populations of very 
great significance, nothing that the caribou or the other land 
animals can use that would be outside the area of leasing. I 
mean, it sounds to me like a horrible thing to be doing, and I 
would like to be kept up to date a little bit better than I 
have been so that as you folks proceed with another decision to 
know how much land you are going to leave for the rest of the 
world, essentially.
    Mr. Bisson. We would be happy to make sure that you are 
informed when we make that decision.
    Mr. Olver. There has to be some land around that, some very 
significant wetlands around that that you do not have to drill. 
You can get oil and gas out at some angles and the way drilling 
in those kinds of places goes, there is always a flow, an 
equilibrium flow back into the area that it is drawn from. So 
you need not have all that land around the lake, by any means.
    Okay. I will stop, Mr. Chairman, and I will come back after 
I have thought a little bit more about some other issues.

                            SOUTHWEST BORDER

    Mr. Dicks. You have a minor initiative for clean-up of 
damaged lands in the areas near the Mexican border, $1 million. 
Please describe the extent of the problems in these areas by 
State and what progress you hope your budget will allow.
    Mr. Bisson. The $1 million budget is designed primarily to 
address issues that have been happening in Arizona. Arizona has 
felt the brunt of those impacts and, you know, we have got 
everything from some recreation facilities that have been 
impacted to trash, and abandoned vehicles. Just in 2006, we 
collected 130 abandoned vehicles and we collected over 50,000 
pounds of trash. There are illegal roads that smugglers are 
putting on our lands and other resource damage and so, you 
know, all of that money will be used to try to----
    Mr. Dicks. Well, are there any other resources for this? 
That is it for all three States?
    Mr. Bisson. That is the addition that we are asking. We are 
spending money doing some of this work now.
    Mr. Dicks. Yes, that is what I was trying to get to.
    Mr. Bisson. How much are we spending now?
    Mr. Dicks. Yes, what is your effort?
    Mr. Bisson. We will have to find out and get back to you, 
sir.
    [The information follows:]

                         AMOUNTS SPENT ON CLEANUP OF DAMAGED LANDS NEAR THE S.W. BORDER
----------------------------------------------------------------------------------------------------------------
                                                                                    2009 Add'l
                                     2007 Base       2008 Base       2009 Base        Request       Total 2009
----------------------------------------------------------------------------------------------------------------
Arizona.........................        $952,000        $717,000        $720,000        $625,000       1,345,000
California......................         $30,000         $50,000        $365,000        $200,000         565,000
New Mexico......................              $0              $0              $0        $175,000         175,000
                                 -------------------------------------------------------------------------------
      Total.....................      $1,082,000        $767,000      $1,085,000      $1,000,000       2,085,000
----------------------------------------------------------------------------------------------------------------

    Mr. Dicks. Put that in the record, will you? Now, we 
understand that there are huge law enforcement needs along the 
border but your request decreases funding for law enforcement. 
What are the trends in crime and resource damage and how will 
your reductions impact your ability to enforce laws on the BLM 
lands?
    Mr. Bisson. We do have significant needs for law 
enforcement and in fact we are filling virtually every law 
enforcement vacancy that we have in the Bureau right now, 
particularly in California.
    Mr. Dicks. How can you do that when you are decreasing the 
funding?
    Mr. Bisson. Well, we received base funding which has been 
used for the law enforcement program and I think if you look at 
the situation, you will see that some of the law enforcement 
funding actually went into the NLCS subactivity. So it is still 
being used for law enforcement. And there are NLCS units within 
100 miles of the border.
    Mr. Dicks. Why do you not put in the record a chart or a 
diagram of some sort----
    Mr. Bisson. Of what is going on with----
    Mr. Dicks. Well, where the money is going, what you are 
doing on this issue, and if there is money from other pots, you 
know, put it all on a page.
    [The information follows:]

    The following table depicts the funding and full-time equivalent 
(FTE) number of Law Enforcement Rangers and Special Agents working in 
the borderlands since 2005 and estimated for 2009. For the purposes of 
this analysis, the BLM estimated $100,000 per Law Enforcement Ranger 
and Special Agent comparable to costs for labor, equipment and 
training, with annual adjustments for fixed costs.

----------------------------------------------------------------------------------------------------------------
                                            2005           2006           2007           2008           2009
                                      --------------------------------------------------------------------------
                                        $(000)   FTE   $(000)   FTE   $(000)   FTE   $(000)   FTE   $(000)   FTE
----------------------------------------------------------------------------------------------------------------
AZ...................................     1,800   18     1,743   17     1,365   13     2,258   21     2,310   21
CA...................................     1,200   12     1,538   15     1,365   13     2,795   26     2,860   26
NM...................................       400    4       410    4       315    3       430    4       440    4
                                      --------------------------------------------------------------------------
      Total..........................     3,400   34     3,736   36     3,045   29     5,483   51     5,610   51
----------------------------------------------------------------------------------------------------------------

    Mr. Bisson. We are retaining the almost $4 million that 
Congress gave us this year and we are going to continue to 
support that program with the officers we are hiring. There is 
a small decrease of funds, what looks like a decrease, that has 
gone to the NLCS but we will give you a chart that shows that.
    Mr. Dicks. We will try to decipher it. Sometimes it is 
confusing.
    Mr. Bisson. And if we need to, we will come up----
    Mr. Dicks. Yes, that would be good. But you recognize this 
is a huge issue and that we have endangered species down there. 
All this talk about a fence, have you looked at the idea of a 
fence to see what it will do to wildlife on your lands?
    Mr. Bisson. We have been involved in some aspects of the 
fence construction, some of the projects, some of the miles of 
fence they are building across BLM lands, and that has been the 
limit of our involvement. We have been involved----
    Mr. Dicks. Do you work with Fish and Wildlife on this?
    Mr. Bisson. Yes, very closely.
    Mr. Dicks. They have lands there too.
    Mr. Bisson. We understand, and the Park Service has lands 
along the border too, and so we are working very closely with 
the Department of Homeland Security to minimize the impacts and 
to mitigate the impacts that may be created by construction of 
the fence. We have some projects that have been authorized. We 
have some projects that they are looking at now which are new 
construction projects and we are working closely with them to 
try to minimize those impacts as they build that fence.

                          WILD HORSE AND BURRO

    Mr. Dicks. Last year your budget requested a large decrease 
for the Wild Horses Program, and this year you are asking for a 
small increase, albeit less than the inflation rate. Can you 
please tell us about the extent of this program such as how 
many horses are out on the range and how many are in captivity, 
permanent holding farms, how many will get adopted and what the 
cost of all this is?
    Mr. Bisson. I will do the best I can right now. We can come 
up with the details later if we need to. But right now we have 
about 30,000 horses, free-roaming horses out on the range. We 
have about the same number in holding facilities, both in 
short-term and in long-term holding facilities. We anticipate 
gathering a little over 5,000 animals this year and that is 
about what we plan to adopt. About what we gather is what we 
will adopt this year. Our adoption numbers are very difficult, 
very challenging for us right now because of the economy. The 
cost of feeding animals, the transportation costs have gotten 
high, and our adoptions are not as successful as we would like 
them to be. We are doing everything we can to increase that 
side of the program. It is a very challenging program for us, 
sir.
    Mr. Dicks. If the populations increase in the wild, what 
are the impacts on native wildlife and plant communities and 
what are the impacts on watersheds and stream and water 
quality?
    Mr. Bisson. This is a program that ought to be about 
healthy horses on healthy ranges and that is what we have tried 
to do. We have for the last five years focused on reducing the 
excess number of animals to get to the appropriate management 
level because of the impacts you just described on wildlife and 
natural resource values. We are very close to the appropriate 
management level. We were closer last year but with increasing 
costs, we are concerned this could slip away from us. Looking 
at all the priorities we have in the Bureau, we have tried to 
balance the program and devote as much as we can to this 
program which is why we propose to retain the $4.7 million that 
the Congress put back in this last year. We did not give it up 
this year. We propose to retain it.

                          WILDLIFE MANAGEMENT

    Mr. Dicks. Please describe briefly some of the key habitats 
and species which the BLM has major management responsibilities 
for.
    Mr. Bisson. Well, obviously forests on the O and C lands in 
the Pacific Northwest, the spotted owl, marbled murrelet. I 
think you are probably aware that sage grouse recently was a 
big issue in the media because of a court decision in Idaho 
where a judge overturned a decision by the Fish and Wildlife 
Service not to list sage grouse so we are obviously working 
closely to make sure that we have the protective measures in 
our programs that would assure the Fish and Wildlife Service 
that we have adequate protection on our lands. Those are big 
ones. Desert tortoise in California and Nevada and Arizona. 
There is a falcon and a prairie chicken in New Mexico. I mean, 
we could go State by State and all of our States have one 
endangered species or another that are very significant, sir.

                      WESTERN OREGON PLAN REVISION

    Mr. Dicks. What is going on in the Western Oregon Timber 
and Management Plan? How will it change the Timber Harvest 
Program if approved as proposed?
    Mr. Bisson. We have issued the draft Western Oregon Plan 
Revision (WOPR) which addresses six plan revisions. The public 
comment period I think has just concluded. We are revising 
those plans based on the comments. We expect to issue the final 
this fall. We are working closely with the Fish and Wildlife 
Service on consultation on several species including marble 
murrelet and spotted owl, but our intent is to develop an 
appropriate level of timber harvest that is appropriate for the 
resources that we have there and to provide some assurance that 
we do deliver that over time by making decisions we can defend.
    Mr. Dicks. Mr. Tiahrt.

                            SOUTHWEST BORDER

    Mr. Tiahrt. Thank you, Mr. Chairman.
    You mentioned there were 130 vehicles that you had to pull 
out of BLM lands?
    Mr. Bisson. Yes, sir.
    Mr. Tiahrt. And 50,000 pounds of trash?
    Mr. Bisson. That was just in Arizona.
    Mr. Tiahrt. Just in Arizona? I think you got 8.8 million 
acres in Arizona, New Mexico and California along the border?
    Mr. Bisson. Yes, sir.
    Mr. Tiahrt. How many miles of fence are proposed and how 
much is completed? I would like if you could tell me how much 
is proposed along your lines and how much has been completed so 
far just for the record, if you can let my office know?
    Mr. Bisson. We will get that when we have those figures. We 
do not have them here but we have the figures.
    [The information follows:]

    The Department of Homeland Security indicated in a media release 
dated December 7, 2007 (www.dhs.gov/xnews/releases/
pr_1197058374853.shtm), that there are more than 284 miles of fence 
already in place along the Southwest border. The Department of Homeland 
Security proposes to add approximately 670 miles of pedestrian and 
virtual fencing by the end of December 2008. While BLM is responsible 
for the stewardship of public land resources, the Department of 
Homeland Security (DHS) is the agency responsible for patrolling the 
U.S. borders and funding activities related to border security such as 
the construction of the border fencing. The BLM coordinates with DHS on 
their activities.

Department of Homeland Security Fencing on the S.W. Border

                                                                   Miles
Total miles of S.W. border area...............................     1,952
Miles of fence proposed.......................................       670
Miles of fence constructed....................................       284

    Mr. Tiahrt. It seems like that might help with the 
abandoned car problem a little bit and perhaps the trash 
problem too. I do know that when people come across the border, 
they quite often leave a trail behind them.
    Mr. Bisson. I can tell you that California manages 64 miles 
of public lands on the border, Arizona has 44 miles and New 
Mexico has 105 miles for a total of 213 miles on BLM lands.
    Mr. Tiahrt. And is that out of all your lands, or how much 
is uncompleted?
    Mr. Bisson. Well, that is how many miles of public lands 
that we have. All of that basically would have fence along it, 
213 miles.
    Mr. Tiahrt. And is that under construction now?
    Mr. Bisson. Some of it is. Some of it is still proposed. 
Some of the paperwork is being done on some of it for 
construction later this year, issuance of contracts by Border 
Patrol.

                          WILD HORSE AND BURRO

    Mr. Tiahrt. You said you had about 30,000 horses that are 
roaming and about 30,000 that are currently held at facilities. 
I know some of them are held not far from where I live.
    Mr. Bisson. In Oklahoma is where they are at.
    Mr. Tiahrt. And Kansas too. We have some in Kansas east of 
Wichita about 60 miles or so. I have seen them one time. The 
herds vary but we have them in the Flint Hills in Kansas and 
they are beautiful running across the prairie there. But there 
has to be a manageable level, and a lot of people want to adopt 
a horse. They have an idea how much hay they burn and how 
expensive hay is getting. I do not know if there is a recovery 
program but some of these people bite off more than they can 
chew.
    Mr. Bisson. They do, and we do have people who adopt 
animals who cannot care for them and return them to us in the 
first year. After a year, they take title to the animal and 
they become theirs.
    Mr. Tiahrt. Okay. I wondered how that program worked 
because I do know some people do not realize the cost.
    Mr. Bisson. And the other concern that we have is that in 
the past there have been people who have adopted horses for 
purposes of sending them to slaughter. We now require them to 
sign an affidavit swearing that they will not do that before we 
will accept their adoption applications, and we put a lot of 
process in place to make sure the animals are going to good 
homes.
    Mr. Tiahrt. There has been some controversy here about 
whether we allow horses to go to slaughter or not, and 
sometimes it is confusing whether we do or not. It seems like 
the French are always looking for a market to feed them but I 
like the way that we take care of these horses when we put them 
out to areas, even if it private sector land. You give them a 
good home at least temporarily back in the wild.
    Mr. Bisson. They actually do a lot better in the holding 
facilities than they do out on the range.
    Mr. Tiahrt. When you look at your success stories here 
about this creosote problem, I mean, that is a beautiful 
prairie that you have accomplished, or recovered, I should say. 
That would make a great home, I know, for the cattle run.

                                WILDFIRE

    I want to talk to you a little bit about fighting 
wildfires. Does it impact your budget like it does for the 
Forest Service? Do you have to borrow from other parts to cover 
fighting wildfire?
    Mr. Bisson. We have, and it depends on the particular year. 
Our fire budget now actually is being proposed to be managed by 
the Department and it will be distributed out to the various 
bureaus within the Department that have a fire program. The BLM 
has a very significant fire program, and depending on the 
particular events in a year, there have been times when the 
Department has had to borrow money from other accounts and then 
come back to Congress to get reimbursed.

                 PACIFIC NORTHWEST WINTER STORM DAMAGE

    Mr. Dicks. Let me ask one quick question here before we 
have to go because we have a vote. Do you have damage from 
storms that we need to know about? A backlog of damage that has 
not been fixed?
    Mr. Bisson. Not that I am aware of at this point, sir.
    Mr. Dicks. Nothing in the Northwest?
    Mr. Bisson. Not that I am aware of.
    Mr. Dicks. The Forest Service has quite a lot. That is why 
I was interested.
    Mr. Bisson. We have not been advised of any but we can go 
back and check and get back to you.
    [The information follows:]

               Western Oregon Winter Storm Damage Efforts

    The extreme damage occurred in the Tillamook and Vernonia 
communities of northwest Oregon where flooding drove residents from 
their homes and businesses. The Oregon/Washington BLM Maintenance 
Organization responded to Tillamook County's request for assistance and 
provided two dump trucks, a loader, two backhoes, and two graders, with 
operators and support for a period of one week to help repair and 
restore road damage that limited access to homes and businesses. The 
estimated costs are in the range of $20,000 to $30,000. These costs 
have not been reimbursed by the county or FEMA.
    On BLM-managed public lands in OR/WA, the Salem District was the 
only district to have major road damage from the storms. There is 
potential damage on roads that are currently under snow or 
inaccessible. Most damage sustained was minor. A description of the 
more notable damages follows:
    <bullet> Two road failures on Von Road in the Tillamook Field 
Office. Approximate repair cost of $400,000 qualifies for Emergency 
Relief of Federally Owned (ERFO) roads funding.
    <bullet> The parking lot at Yaquina Head Outstanding Natural Area 
had a portion of asphalt disappear; however damage is minor and does 
not qualify for ERFO funding.
    There are a few sites that have been determined to be ``heavy 
maintenance.'' One is a road fill failure and the other is a slide that 
is covering the ditch-line which amounts to 300-500 cubic yards of 
material. BLM road maintenance crews are repairing them with annual 
funding.
    There is significant blow-down in several western Oregon districts 
that needs to be cut out and removed to provide access to BLM and 
private lands. The BLM is redistributing base resources for road 
maintenance in 2008 to fund this unplanned event.

    Mr. Dicks. Let Mr. Olver have a quick shot here and then we 
are going to adjourn this.
    Mr. Olver. You are going to adjourn the hearing?
    Mr. Dicks. Yes.
    Mr. Olver. Okay. Let me just say, my previous comments, 
what I was getting at, being quite imprecise, the extraction 
plumes essentially where one draws from, especially on deep 
resources for oil and gas, can go miles and miles.
    Mr. Bisson. Up to six miles.

                             GENERAL BUDGET

    Mr. Olver. So you can protect a fair amount of land and 
still allow for what you need. Let me go on and say I am just 
trying to understand this budget and I must say I am 
distressed. I really am. The overall budget is 3 percent below 
last year, roughly 3 percent, but that means you have also 
eaten inflation so it really becomes 5\1/2\ percent or so of 
reduced capacity for the agency. However, then you go back and 
look at it and it is on top of last year's reduction as well, 
and you find that if you put the two together, it is greater 
than 5 percent in the nominal dollars and two years of 
inflation which gets you up to an 11 percent range in reduced 
capacity for the agency, and when you add to that the fact that 
you have got rather larger increases in three or four accounts, 
it means that all of that 11 percent ends up having to fall 
upon the remaining agencies because by that time another $40 
million or so increases in the three big increased accounts 
which are Healthy Lands Initiative and Energy Minerals and I 
guess it is Oil and Gas Recovery. That means all the other 
things that you do have lost capacity in the 15 percent range 
in the two-year period. Then I look at the Healthy Lands 
Initiative and I wonder, there are things that look like they 
might be Healthy Lands like threatened and endangered species 
and recreation and resource protection and maintenance and I am 
wondering how much of that has been moved around. But the crux 
of the matter is, that either you have moved it into Healthy 
Lands Initiatives and stressing that to make it--it is a 
rearrangement of monies of some of that but the sum total is a 
reduction of 15 percent of capacity, and then I am surprised on 
your construction item. I do not know of a single federal 
agency that does not have a backlog of deferred maintenance and 
critically needed construction and so forth, and that one is 
one of those that is being cut again in this budget. There is a 
whole group of them that are below not only the last year's, 
the 2008 enacted, but the 2007 enacted as well, which is I 
suppose a corollary to my general comment on this.
    Mr. Dicks. Why do we not let him answer this, because we 
are going to have to leave here because we are down to under 
five minutes here.
    Mr. Bisson. Mr. Olver, first of all, last year we were able 
to fund all of our fixed costs which resulted from salary 
increases and so on within our budget request. This year we are 
actually funding 86 percent of those fixed costs so it is not--
I will not challenge your math but the math is not quite the 
same in terms of how we got to where our budget is right now. 
But we are proposing some reductions because----
    Mr. Olver. How much have you reduced personnel?
    Mr. Bisson. We are proposing a reduction in FTEs of around 
25, I believe, 25 to 35.
    Mr. Dicks. Out of how many? What is your total FTEs?
    Mr. Bisson. Thirty-six out of 10,500.
    Mr. Dicks. You can do that with attrition probably.
    Mr. Bisson. Yes, sir. That is exactly how it is happening.
    Mr. Dicks. It is not pretty either. Let me ask you one 
quick one. The budget proposes to cancel $24.7 million of 
previously provided funding for the remediation of Anvil Points 
oil shale facility in Colorado. Tell us about that.
    Mr. Bisson. There was legislation passed several years ago 
that set up a fund from oil and gas receipts in the Anvil 
Points area. That fund is now close to $90 million. The fund 
was supposed to be set aside to pay for remediation of the old 
oil shale projects that the DOE did back in the 1970s in 
Colorado. What we are proposing is that we will issue a 
contract this summer to pay for that remediation, and then take 
$24.7 million of the excess and use it as an offset in the 
budget.
    Mr. Dicks. Okay. Thank you. The Committee stands adjourned, 
and you did a great job.

[GRAPHIC] [TIFF OMITTED] T2183A.124

[GRAPHIC] [TIFF OMITTED] T2183A.125

[GRAPHIC] [TIFF OMITTED] T2183A.126

[GRAPHIC] [TIFF OMITTED] T2183A.127

[GRAPHIC] [TIFF OMITTED] T2183A.128

[GRAPHIC] [TIFF OMITTED] T2183A.129

[GRAPHIC] [TIFF OMITTED] T2183A.130

[GRAPHIC] [TIFF OMITTED] T2183A.131

[GRAPHIC] [TIFF OMITTED] T2183A.132

[GRAPHIC] [TIFF OMITTED] T2183A.133

[GRAPHIC] [TIFF OMITTED] T2183A.134

[GRAPHIC] [TIFF OMITTED] T2183A.135

[GRAPHIC] [TIFF OMITTED] T2183A.136

[GRAPHIC] [TIFF OMITTED] T2183A.137

[GRAPHIC] [TIFF OMITTED] T2183A.138

[GRAPHIC] [TIFF OMITTED] T2183A.139

[GRAPHIC] [TIFF OMITTED] T2183A.140

[GRAPHIC] [TIFF OMITTED] T2183A.141

[GRAPHIC] [TIFF OMITTED] T2183A.142

[GRAPHIC] [TIFF OMITTED] T2183A.143

[GRAPHIC] [TIFF OMITTED] T2183A.144

[GRAPHIC] [TIFF OMITTED] T2183A.145

[GRAPHIC] [TIFF OMITTED] T2183A.146

[GRAPHIC] [TIFF OMITTED] T2183A.147

[GRAPHIC] [TIFF OMITTED] T2183A.148

[GRAPHIC] [TIFF OMITTED] T2183A.149

[GRAPHIC] [TIFF OMITTED] T2183A.150

[GRAPHIC] [TIFF OMITTED] T2183A.151

[GRAPHIC] [TIFF OMITTED] T2183A.152

[GRAPHIC] [TIFF OMITTED] T2183A.153

[GRAPHIC] [TIFF OMITTED] T2183A.154

[GRAPHIC] [TIFF OMITTED] T2183A.155

[GRAPHIC] [TIFF OMITTED] T2183A.156

[GRAPHIC] [TIFF OMITTED] T2183A.157

[GRAPHIC] [TIFF OMITTED] T2183A.158

[GRAPHIC] [TIFF OMITTED] T2183A.159

[GRAPHIC] [TIFF OMITTED] T2183A.160

[GRAPHIC] [TIFF OMITTED] T2183A.161

[GRAPHIC] [TIFF OMITTED] T2183A.162

[GRAPHIC] [TIFF OMITTED] T2183A.163

[GRAPHIC] [TIFF OMITTED] T2183A.164

[GRAPHIC] [TIFF OMITTED] T2183A.165

[GRAPHIC] [TIFF OMITTED] T2183A.166

[GRAPHIC] [TIFF OMITTED] T2183A.167

[GRAPHIC] [TIFF OMITTED] T2183A.168

[GRAPHIC] [TIFF OMITTED] T2183A.169

[GRAPHIC] [TIFF OMITTED] T2183A.170

[GRAPHIC] [TIFF OMITTED] T2183A.171

[GRAPHIC] [TIFF OMITTED] T2183A.172

[GRAPHIC] [TIFF OMITTED] T2183A.173

[GRAPHIC] [TIFF OMITTED] T2183A.174

[GRAPHIC] [TIFF OMITTED] T2183A.175

[GRAPHIC] [TIFF OMITTED] T2183A.176

[GRAPHIC] [TIFF OMITTED] T2183A.177

[GRAPHIC] [TIFF OMITTED] T2183A.178

[GRAPHIC] [TIFF OMITTED] T2183A.179

[GRAPHIC] [TIFF OMITTED] T2183A.180

[GRAPHIC] [TIFF OMITTED] T2183A.181

[GRAPHIC] [TIFF OMITTED] T2183A.182

[GRAPHIC] [TIFF OMITTED] T2183A.183

[GRAPHIC] [TIFF OMITTED] T2183A.184

[GRAPHIC] [TIFF OMITTED] T2183A.185

[GRAPHIC] [TIFF OMITTED] T2183A.186

[GRAPHIC] [TIFF OMITTED] T2183A.187

[GRAPHIC] [TIFF OMITTED] T2183A.188

[GRAPHIC] [TIFF OMITTED] T2183A.189

[GRAPHIC] [TIFF OMITTED] T2183A.190

[GRAPHIC] [TIFF OMITTED] T2183A.191

[GRAPHIC] [TIFF OMITTED] T2183A.192

[GRAPHIC] [TIFF OMITTED] T2183A.193

[GRAPHIC] [TIFF OMITTED] T2183A.194

[GRAPHIC] [TIFF OMITTED] T2183A.195

[GRAPHIC] [TIFF OMITTED] T2183A.196

[GRAPHIC] [TIFF OMITTED] T2183A.197

[GRAPHIC] [TIFF OMITTED] T2183A.198

[GRAPHIC] [TIFF OMITTED] T2183A.199

[GRAPHIC] [TIFF OMITTED] T2183A.200

[GRAPHIC] [TIFF OMITTED] T2183A.201

[GRAPHIC] [TIFF OMITTED] T2183A.202

[GRAPHIC] [TIFF OMITTED] T2183A.203

[GRAPHIC] [TIFF OMITTED] T2183A.204

[GRAPHIC] [TIFF OMITTED] T2183A.205

[GRAPHIC] [TIFF OMITTED] T2183A.206

[GRAPHIC] [TIFF OMITTED] T2183A.207

[GRAPHIC] [TIFF OMITTED] T2183A.208

[GRAPHIC] [TIFF OMITTED] T2183A.209

[GRAPHIC] [TIFF OMITTED] T2183A.210

[GRAPHIC] [TIFF OMITTED] T2183A.211

[GRAPHIC] [TIFF OMITTED] T2183A.212

[GRAPHIC] [TIFF OMITTED] T2183A.213

[GRAPHIC] [TIFF OMITTED] T2183A.214

[GRAPHIC] [TIFF OMITTED] T2183A.215

[GRAPHIC] [TIFF OMITTED] T2183A.216

[GRAPHIC] [TIFF OMITTED] T2183A.217

[GRAPHIC] [TIFF OMITTED] T2183A.218

[GRAPHIC] [TIFF OMITTED] T2183A.219

[GRAPHIC] [TIFF OMITTED] T2183A.220

[GRAPHIC] [TIFF OMITTED] T2183A.221

[GRAPHIC] [TIFF OMITTED] T2183A.222

[GRAPHIC] [TIFF OMITTED] T2183A.223

[GRAPHIC] [TIFF OMITTED] T2183A.224

[GRAPHIC] [TIFF OMITTED] T2183A.225

[GRAPHIC] [TIFF OMITTED] T2183A.226

[GRAPHIC] [TIFF OMITTED] T2183A.227

[GRAPHIC] [TIFF OMITTED] T2183A.228

[GRAPHIC] [TIFF OMITTED] T2183A.229

[GRAPHIC] [TIFF OMITTED] T2183A.230

[GRAPHIC] [TIFF OMITTED] T2183A.231

[GRAPHIC] [TIFF OMITTED] T2183A.232

[GRAPHIC] [TIFF OMITTED] T2183A.233

[GRAPHIC] [TIFF OMITTED] T2183A.234

                                       Thursday, February 28, 2008.

           U.S. FISH AND WILDLIFE SERVICE 2009 BUDGET REQUEST

               U.S. GEOLOGICAL SURVEY 2009 BUDGET REQUEST

                               WITNESSES

H. DALE HALL, DIRECTOR, U.S. FISH AND WILDLIFE SERVICE
CHRIS NOLIN, BUDGET OFFICER, U.S. FISH AND WILDLIFE SERVICE
PAUL SCHMIDT, ASSISTANT DIRECTOR, MIGRATORY BIRDS
MARK D. MYERS, DIRECTOR, U.S. GEOLOGICAL SURVEY
PETER LYTTLE, ACTING ASSOCIATE DIRECTOR FOR GEOLOGY
BARBARA RYAN, ASSOCIATE DIRECTOR FOR GEOGRAPHY
ROBERT HIRSCH, ASSOCIATE DIRECTOR FOR WATER

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. The Committee will come to order. We are happy 
to have Mr. Dale Hall here today to tell us about the U.S. Fish 
and Wildlife Service budget in fiscal year 2009. I have to open 
by saying that this request, from my view, is still inadequate. 
It reduces funding for the Service by $65 million, including 
reductions to every program in the Service except migratory 
birds and the North American Wetlands Conservation Fund, both 
of which have increases for the Birds Forever Initiative.
    The National Wildlife Refuge System, which this Committee 
made a top priority last year, is level funded, and I consider 
that somewhat of a victory, because, you know, in many other 
areas where we increase funding, they dropped it back to the 
previous year's level, those people down at OMB.
    If enacted, this budget would put the U.S. Fish and 
Wildlife Service into a serious situation. Already declining 
budgets have reduced the capacity of the Endangered Species 
Program to list new species, reduced the number of law 
enforcement special agents that combat the illegal wildlife 
trade, put our partnerships in the Fisheries Program in 
jeopardy, reduced the number of staff on national fish 
hatcheries, and diminished the capacity of the Refuge System to 
fulfill its mission.
    Staffing shortfalls on national wildlife refuges and 
national fish hatcheries have reduced services to the public 
nationwide. These units have been forced to consolidate staff 
and services, reduce their wildlife and habitat management, and 
in some cases move staff and services hundreds of miles away 
from the communities they serve. This Committee in last year's 
appropriation took a first step in reversing these shortfalls, 
particularly in the refuge system, but this budget takes a big 
step backward.
    You, yourself, in testimony before the Committee last year 
stated the refuge system would need at least a $15 million 
increase each year just to keep the current level of services. 
The Fisheries budget has been cut by $9.8 million, or more than 
7 percent. This includes a large reduction of almost $6 million 
to the Fish Passage program, which is really a very important 
program. I mean, I cannot tell you how much good has been done 
all over the Pacific Northwest and in salmon restoration 
efforts by having that Fish Passage program, and especially 
because it was such a flexible and appropriate program. I am 
glad that there is still something left, but we are going to 
have to think about that one. This program has been extremely 
successful in returning spawning salmon to native fish 
populations that have previously been decimated and was a 
priority in your budget last year.
    The shortfalls in the Endangered Species program are 
equally problematic. Funding shortfalls, litigation, and the 
lack of funding under this Administration have greatly impacted 
this program. The number of endangered species listed by the 
Service has dropped dramatically in the last decade. The 
enforcement of wildlife loss continues to be a challenge. The 
number of special agents has dropped more than 30 percent with 
just over 200 agents nationwide, yet the illegal trade in 
wildlife has shown no signs of stopping. In fact, the pressures 
on native and international wildlife populations have never 
been greater.
    This budget request also contains troubling reductions to 
Construction and Land Acquisition accounts. The land 
acquisition proposal contains only two projects and eliminates 
half of the nationwide realty staff. I am very concerned about 
this, and I am curious to discuss with you how we can work 
together to address the large shortfalls in this budget that 
will diminish your ability to manage the Nation's wildlife 
resources if this budget is enacted.
    Mr. Tiahrt is not here, so we will reserve time later for 
his statement, but you can proceed. We will put your entire 
statement in the record, and you may proceed as you wish.

                    Statement of Director Dale Hall

    Mr. Hall. Thank you, Mr. Chairman. It really is a pleasure 
to be here with you this morning, and I want to start off by 
thanking you, thanking you, Mr. Tiahrt, Mr. Dingell and others 
that in '08 saw the needs, especially in the national wildlife 
refuge system, and helped us get that $36 million increase. I 
know what you went through to try and get that, and we 
appreciate it.
    Mr. Dicks. Well, and do not forget our wildlife, I mean, 
our Refuge Caucus. They did a good job. Ron Kind came and 
testified, and there was a very active group, which I am very 
pleased about.
    Mr. Hall. Yes. We were pleased as well.
    Mr. Dicks. Yes.
    Mr. Hall. And I just want to start off by thanking you.
    Mr. Dicks. Thank you. I appreciate that.
    Mr. Hall. The 2009 request for current appropriations 
totals $1.3 billion, a decrease of $64.6 million compared to 
2008. The total request for the Fish and Wildlife Service, 
including the permanent appropriations, is $2.2 billion. The 
permanent appropriations include over $814.4 million that will 
be apportioned to the States and Territories for high-priority 
fish and wildlife conservation projects. This includes $347.7 
million through the Wildlife Restoration Program and $466.7 
million through the Sport Fish Restoration Program. These are 
commonly known as Pittman-Robertson, and Wallop-Breaux 
programs.
    For our major appropriated grant programs for the States, 
the State and Tribal Wildlife Grants, we were able to sustain 
the same level of funding as you appropriated in 2008.
    The 2009 request strategically positions the Service to 
maintain a strong core of functions essential to the mission 
and includes priorities of the refuge system and Migratory Bird 
Conservation and Management in achieving recovery and pursuing 
initiatives for threatened and endangered species, conserving 
aquatic resources, and connecting people with nature, which is 
a very important component of our programs to me.
    In order to perform this work, the Service must continue to 
meet its obligations for fixed costs. As I mentioned last year, 
fixed costs for Federal pay raises, employer contributions to 
health benefits, unemployment compensation, et cetera, 
continues and will always be an issue for us. Fixed costs for 
2009, total $19.8 million for the Service, of which $16.4 
million is budgeted and $3.4 million will need to be absorbed 
by the programs.
    This year we are proposing several budget initiatives, 
including Birds Forever. Last summer the National Audubon 
Society published some information that told us all that even 
common birds in the United States are seeing declines, and so 
we are trying to work through our refuge system, through the 
Migratory Bird program, and frankly through every aspect of the 
Service to help figure out what needs to be done and how we 
could work together, both internally in the United States and 
with our international partners.
    An increase of $8 million will fund joint venture 
partnerships, inventory and monitoring, and habitat restoration 
programs. From this amount about $4 million will go towards 
joint ventures and will be used to support four new joint 
ventures; the Rio Grande, Appalachian Mountains, East Gulf 
Coastal Plains, and the Oaks and Prairies.
    The budget also includes an increase of $666,000 for the 
North American Wetlands Conservation Grant Fund that is 
traditionally known as our NAWCA Program.
    We are proposing, for the first time since 1991, to 
increase the price of the Federal migratory bird hunting and 
conservation stamp, also known as the duck stamp. I would note 
for the record that there are two bills in Congress, one in the 
House and one in the Senate, that would take similar actions, 
and we believe that those actions are right for taking up. The 
last time we had an increase was 1991.
    Mr. Dicks. Makes sense to me.
    Mr. Hall. Another initiative provides funding for ocean 
conservation. In the refuge program about $400,000 will go to 
the Palmyra Atoll Research Consortium, and we would also put 
about $500,000 into the Marine Debris Campaign to help clean 
up. It is a very serious issue in our coastal refuges.
    As part of the Department's Safe Borderlands initiative, we 
have requested $1 million to add six new law enforcement 
officers in refuges along the southwest border. This would take 
us from 26 to 32.
    Now I will turn to discussing our budget request for the 
Service's programs. For the refuge system, the budget sustains 
the funding increase of $35.9 million that Congress approved in 
2008. And given the difference between the 2008 President's 
request and the 2009 President's request, I believe that your 
work last year made a significant impact on OMB to help us 
sustain that increase.
    Mr. Dicks. Good.
    Mr. Hall. However, again, we always will need approximately 
$15 million in refuges annually to avoid the backsliding due to 
the fixed costs.
    For Law Enforcement, the budget provides $57.4 million, 
level funding with '07, and a reduction of $2.3 million from 
'08. And if you would like, later we can visit more on how we 
are using the $3 million that you gave us this year.
    In Endangered Species, the budget includes a total of 
$146.8 million, $3.7 million below the 2008 level. The 2009 
President's budget includes reductions for unrequested 
Congressional adds in 2008. The Cooperative Endangered Species 
Conservation Fund is funded at $1.7 million above the 2008 
enacted level.
    In Partners for Fish and Wildlife, the 2009 President's 
budget includes an increase of $492,000 for the Healthy Lands 
Initiative in the Green River Basin. This is the exercise that 
we are undertaking in a cooperative effort with other agencies 
and the states to try and figure out how to safely and properly 
allow oil and gas activities to move forward in the Green River 
Basin in Wyoming.
    The Fisheries and Aquatic Resources program is funded at 
$116.6 million in this request, a net decrease of $11.5 million 
compared to 2008.
    The National Fish Habitat Action Plan is funded at $5.2 
million, level with '08.
    General Operations funding totals $152 million, a net 
decrease of $6.5 million. This includes a reduction of $2.4 
million for highly-pathogenic avian influenza. We are dropping 
from $7.4 to $5 million there.
    The Construction request totals $12.2 million, a decrease 
of $21 million compared with the 2008 enacted level. A 
reduction of $777,000 is for Engineering Services. This request 
also includes funding of $800,000 for the completion of a 
visitor center at Neosho National Fish Hatchery in Missouri and 
$1.2 million for migratory bird survey aircraft replacement.
    The Land Acquisition request is $10.2 million, $24.4 
million below the 2008 enacted level. Of this reduction, $4.9 
million is for Acquisition Management. The budget includes 
$400,000 for land acquisition at the Alaska Maritime National 
Wildlife Refuge for birds, seal, and Stellar sea lion 
conservation on St. George Island. It also includes a half 
million for habitat protection and restoration at the Upper 
Mississippi National Wildlife Refuge in Wisconsin.
    Thank you, Mr. Chairman, and I look forward to answering 
your questions.
    [The statement of H. Dale Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T2183A.235
    
    [GRAPHIC] [TIFF OMITTED] T2183A.236
    
    [GRAPHIC] [TIFF OMITTED] T2183A.237
    
    [GRAPHIC] [TIFF OMITTED] T2183A.238
    
    [GRAPHIC] [TIFF OMITTED] T2183A.239
    
    [GRAPHIC] [TIFF OMITTED] T2183A.240
    
    [GRAPHIC] [TIFF OMITTED] T2183A.241
    
    [GRAPHIC] [TIFF OMITTED] T2183A.242
    
    Mr. Dicks. I think at this point I will turn to Mr. Tiahrt 
for any opening comments.

                 Opening Remarks of Congressman Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman. I am pleased to see 
that we have some of the operational costs that were given in 
the budget last year that have been retained, and I am 
interested to see the exchange we have with some of the key 
programs, how we are going to balance all that out.
    And I am looking forward to working with you, Mr. Chairman, 
to make sure that we get a good equilibrium here.
    Welcome to the Committee. Good to see you, Chris. Good to 
see you again.
    Ms. Nolin. Good to see you, sir.

                               FISHERIES

    Mr. Dicks. All right. Last year you highlighted an increase 
in the Fish Passage program, and in testimony your agency 
provided, it listed 468 priority fish passage projects. 
Additionally, the testimony cited the National Research Council 
estimate that more than 2.5 million dams and poorly-designed 
culverts and other structures impede fish passage across the 
American landscape.
    The National Marine Fisheries Service has requested an 
increase of $5.4 million in fiscal year 2009, for its Fish 
Passage Initiative. Last year Fish and Wildlife Service 
requested, and we appropriated an increase of $6 million for 
the National Fish Passage Program. In fiscal year 2009, the 
budget is cut by $6 million, more than half the total Fish 
Passage program.
    Why such a rapid change in priorities, and why the 
disparity with the National Marine Fisheries Service?
    Mr. Hall. Mr. Chairman, I hate to start the hearing off 
with a question that is hard for me to answer, but I am not 
sure I know the answer to the question. We have certainly tried 
to argue the same things that I told you last year about the 
importance of removing these structures and allowing fish to 
move up and reestablish miles and miles of spawning area. And 
we did not frankly get a very succinct answer on why that 
disparity, especially between us and NMFS.
    Mr. Dicks. In your personal and professional opinion, are 
there still a large number of priority fish passage projects 
out there?
    Mr. Hall. Our priorities are still where they were as far 
as doing the work on the ground. We really need to do this.
    Mr. Dicks. Do you know how much you get done each year, how 
many of these, with the money that we gave you how many 
projects? If you do not have that here, you can put it in for 
the record.
    Mr. Hall. We can get it to you.
    Mr. Dicks. Get it for the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2183A.243
    
    Mr. Dicks. Last year we were pleased to see the increase in 
your budget for the National Fish Habitat Initiative and agreed 
to the increases you requested. The Fish Habitat Initiative has 
been one of the most successful partnership programs in the 
Department and has provided an economical and extremely 
effective means of managing and restoring fish habitat.
    Yet, this program is level funded in your budget. Maybe 
that is a plus. Are we risking losing partners and delaying 
final fisheries habitat work by not including an increase for 
this program?
    Mr. Hall. Well, I hope we are not risking that. We had 
discussions with our partners. I have tried, and so has Gary 
Frazer, our new Assistant Director for Fisheries and Habitat 
Conservation. We try to keep them informed. Frankly, in this 
budget climate we do believe that is a win, to try and keep 
them stable, and not have a reduction.
    Mr. Dicks. And since 2003, this Committee and the Congress 
has mandated this Service carry out mass marking of all 
hatchery fish for selective fisheries. Although to some this 
may fall under the category of a dreaded Congressional earmark, 
it is an important national program that protects native fish 
stocks.
    Additionally, in the 2008 appropriations we included 
funding for mass marking equipment on the Great Lakes to 
further this important program.
    What are you planning on doing in fiscal year 2008, to mass 
mark fish? And I will tell you, the reason we did this, I did 
this, was because one of the things we found out there with our 
hatchery scientific review group in the Northwest, and our 
people, by the way, have been very, very helpful and supportive 
of what we are trying to do. Is that when you mark these fish, 
you can then tell in the river which ones are the wild fish and 
which ones are the hatchery fish. And one of our problems out 
there is that you have got a stray rate of 60 percent, and the 
scientists say it should be down at 5 percent with wild fish 
and hatchery fish mating.
    So that is why we put this in, and we realize that you 
cannot do it without funding. We tried to take on the Pacific 
Northwest first because we have had all these endangered 
species issues. And now the Great Lakes wants to do the same 
thing, but, you know, if you look at the Klamath River, I think 
if we would have done mass marking there, they would still have 
a fishery, but when you do not mark the fish, they all look 
like they are wild fish, and you are going to have a problem 
making a decision on what to do with them.
    And the other thing that we are trying to do is hatchery 
reform, and your people have been very good on this as well, 
going hatchery by hatchery and deciding what you need to do to 
improve their ability to produce fish that are very close by 
using brood stock, very close to the wild fish that are in the 
same rivers and tributaries.
    But that is kind of what our objective has been in this, 
and thus far your people out there in the Northwest have been 
very supportive.
    Mr. Hall. Well, Mr. Chairman, as you know, you started this 
several years ago, and we welcomed it, because there are a lot 
of questions out there dealing with fish coming up the river, 
you know. Are they wild, or are they hatchery? And then you get 
into the debate that has been raging for years about the 
quality of a hatchery versus----
    Mr. Dicks. Right.
    Mr. Hall [continuing]. Versus the quality of a wild fish, 
and so you need to upgrade and continually improve the hatchery 
operations in order to make sure good genetics is taking place. 
And I think that we made a lot of progress with your help and 
others to try and get there. The tagging program is really 
important to allow us to understand what is happening.
    Our concern is that if we miss a year, then the data stream 
is disrupted.
    Mr. Dicks. Yes.
    Mr. Hall. And so it is a pretty important program, but, you 
know, the only answer that I can give you is that I know that 
there were a lot of challenging issues for OMB to deal with in 
this budget.
    Mr. Dicks. Yes. No, and, you know, the problem here is that 
the whole focus of the deficit reduction effort is on one-sixth 
of the budget, which is domestic discretionary spending. That 
came right from a former OMB individual who now is the chief of 
staff to the President, Mr. Josh Bolten. I mean, he has, you 
know, basically said, you know, until we get to entitlements, 
the pressure will be on this part of the budget.
    I tell people when they come to these various meetings we 
have up here, when you look at this Interior in the last 7 
years has been reduced by 16 percent. EPA, which is another big 
aspect of this bill, by 29 percent, and Forest Service has been 
cut by 35 percent. So the domestic, natural resource agencies 
have really been hit very, very hard. But as I always say, our 
old football coach at the--not at the University of Washington 
but at the Seattle Seahawks, Chuck Knox, said you got to play 
the hand you are dealt. So you and I have to play the hand we 
are dealt here, and this year it is not a very good hand 
unfortunately.
    Mr. Hall. I would want to make sure that you know, though, 
that I believe Secretary Kempthorne is working very hard to try 
and help us improve that, too.
    Mr. Dicks. Well, and he has been successful in getting that 
fixed cost issue dealt with. I mean, that was critical. When I 
first met him, when we talked, when he was going to become 
Secretary, I told him, if you do not get the fixed cost thing 
in a better place, you cannot succeed, and that at least has 
helped.
    But anything on the Great Lakes? Do we know anything about 
the Great Lakes Program? Are they just getting started on mass 
marking?
    Mr. Hall. I do not know where we are on mass marking. Do 
you?
    Voice. I do not know where we are on mass marking, Mr. 
Chairman.
    Mr. Dicks. Okay. Well, that was just in last year's bill, 
so we may not have anything.
    Mr. Hall. We will get back to you if we have anything.
    [The information follows:]

                          Great Lakes Marking

    Congress appropriated $1,723,000 within the Construction account 
for ``Great Lakes Fisheries--Mass Marking Equipment'' in 2008. Great 
Lakes fishery agencies established a goal to mark and tag every trout 
and salmon stocked (26 million fish annually) in the Great Lakes. This 
project replicates an approach taken in the Pacific Northwest for 
salmon. The Service proposes to spend the funds following the 
recommendations proposed in the Mass Marking Implementation Plan, 
developed by the Council of Lake Committees. The FY 2008 funding will 
allow for the pruchase one AutoFish trailer ($1.25 million), a manual 
marking trailer ($360,000) and a water pump ($25,000). The remaining 
funding will be used to improve electrical hookups needed at several 
hatcheries to accommodate the equipment.

                  SPORT FISH AND WILDLIFE RESTORATION

    Mr. Dicks. Okay. In your statement, you talked about the 
mandatory spending, the permanent appropriations. Tell us a 
little bit about this $347 million in the Wildlife Restoration 
Program and $466.7 million to the Sport Fish Restoration 
Program. Give us a little more information about that.
    Mr. Hall. I would love to do that, because there is----
    Mr. Dicks. That is a big deal.
    Mr. Hall. It is a big deal, and so few people actually know 
about it and understand it.
    In 1936, when wildlife were decimated following the 
depression, following commercial hunting, following a lot of 
things, the Pittman-Robertson or the Wildlife Restoration Act 
was passed. And it literally was the hunters and the industry 
working together to say, ``We are conservationists. Somebody 
has to pay. We are willing to pay.''
    So if you buy a box of shotgun shells today, you pay a 
small surcharge tax. That goes directly into the Treasury. It 
is earmarked for this purpose. It comes to us in a lump sum and 
then we allocate that back out to the States and Territories to 
be able to manage with.
    And the same thing happened in the early '50s with Dingell-
Johnston and now Wallop-Breaux from the fishing community and 
boating community sides. And this is such a huge deal that if 
you look at the way the State game and fish agencies have to 
operate, they get very little, some States get zero, from their 
legislatures. And so their entire ability to operate a State 
game agency in some cases comes from these two funding sources 
and their license sales. And their funding is tied to license 
sales as well.
    So this year, with the boating tax as well, we will put out 
approximately a billion dollars to the States for boating 
infrastructure, and to really improve opportunities for people 
to use the resource and to improve the quality of the resource. 
So it is a very large deal for us.
    Mr. Dicks. Have the rates of those taxes or whatever they 
are, stayed the same?
    Mr. Hall. They have stayed basically the same, around 10 
percent at the manufacturer's level.
    Mr. Dicks. That is significant.
    Mr. Hall. Yes.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    I was pleased to see that your enacted increase of $434 
million for Refuge Operations was retained in the budget. 
However, the Resource Management account that funds Fisheries, 
Habitat Conservation and Endangered Species sustained a $13.7 
million reduction.
    If this budget is adopted, can you tell me what we are 
going to do to, you know, what are the challenges or 
consequences for the Service because of this reduction?
    Mr. Hall. Well, we will have some management challenges in 
Fish Hatchery Operations and Fisheries Management Assistance 
operations. We will have some challenges to deal with, much 
like we had before your help on the refuge side.
    I am not going to try and downplay that. We will obviously 
live within the budgets that we are appropriated, and we will 
do the best we can, but I cannot sit here and tell you that 
there will not be some impacts to hatchery operations if that 
occurs.

                            MIGRATORY BIRDS

    Mr. Tiahrt. Well, I think it is a real challenge, and we 
may have to look at some consolidation in some of your efforts. 
I am not sure where you are going to fit all that in. Programs 
like the declining birds----
    Mr. Hall. Yes.
    Mr. Tiahrt [continuing]. The declining wild bird species, 
we have $9 million in that program. Would it be better to 
combine that with some other facet of this fish and wildlife?
    Mr. Hall. Well, actually, it is. The $8 million increase 
for the Birds Forever Initiative is tied to joint ventures that 
are already out there. It is tied to also some of the strategic 
habitat conservation work that we are trying to do to 
understand where and how much do we need to do to help these 
bird species as they migrate, some from the Amazon to Canada.
    So it is tied to the Migratory Birds program, and then in 
addition, on our national wildlife refuges, part of that money 
will be used to restore or improve 200,000 acres in our refuge 
system for birds. So we are trying to tie them together at 
every place that we can.
    Mr. Tiahrt. Well, it seems to be loss of habitat is the 
primary problem.
    You do use partnerships and cooperative programs with 
private landowners and other non-federal interests. Can you 
explain how that has helped with recovery efforts and also at 
keeping species off the endangered list?
    Mr. Hall. It has been phenomenal. When you think that we 
have hundreds of thousands of acres where private landowners 
have volunteered to work with us to improve habitat, and I 
would just digress just a second because it is important.
    When we use regulation to get something done, all we can 
really do with regulation is keep the situation from 
diminishing and becoming worse. We cannot require someone to 
make something better for the species. When we go out and work 
with the landowner voluntarily, every acre that they work on is 
making it better.
    And so that approach is really, really important when you 
consider that 70 percent of the fish and wildlife habitat in 
the United States is in private hands.
    So working with those people and frankly, we have 
landowners standing in line who say, ``I want to work with 
you,'' but we just frankly have run out of money to have the 
partnerships with them every year in our Partners for Fish and 
Wildlife program. I know that other agencies have similar 
issues in their programs.
    Mr. Tiahrt, I just cannot overemphasize the importance of 
voluntary efforts. I think the future of conservation in this 
country and the habitat that we need is in the hands of the 
people who own it right now. If we do not work with them today, 
we may not have it in the future.

                              INITIATIVES

    Mr. Tiahrt. That is a good point.
    You got several important initiatives and with the budgets 
as tight as they are I would like you to give us some idea of 
what you consider your highest priorities. If we are looking at 
Healthy Lands, Oceans and Coastal Frontiers, Safe Borderlands, 
Birds Forever, what are, the top two or three priorities in 
those programs?
    Mr. Hall. Well, if we start at the Borderlands, the number 
one thing that we want to try and do is make it safe for our 
own employees as well as the rest of the public. That is the 
number one thing. We do not know how many illegal immigrants 
come across. We know how many we apprehend, but we do not know 
how many actually come across. We know the thousands and 
thousands of pounds of garbage and trash that we have to pick 
up is harming the habitat.
    The security and safety of our people must come first and 
our lands second to make sure that the habitat that they were 
set up for is there. That is a priority.
    When you talk about birds, we need to figure out why common 
birds are declining, what they need, and work to create and 
improve habitat for them so that as they migrate through, they 
have it.
    In aquatics, we need to continue to focus on the things 
that we have been focusing on, the partnership efforts out 
there with the Fish Habitat Action Plan, Hatchery Operations, 
working with the states, the things that the Chairman and I 
were talking about as you arrived, the fish tagging.
    In each of these areas there are really important things 
that we have to make sure that we either initiate a little 
larger or keep them going.

                             BORDER ISSUES

    Mr. Tiahrt. Okay. My last question here. How many miles of 
border do you have under your jurisdiction, how much of it has 
been contained by either a fence or some electronic means?
    Mr. Hall. This is just for our refuges, not for interior 
lands?
    Mr. Tiahrt. Just for you.
    Mr. Hall. Okay.
    Mr. Tiahrt. Your----
    Mr. Dicks. On the border? Are you talking about on the 
border?
    Mr. Tiahrt. On the border.
    Mr. Hall. That is all the way from California to Texas?
    Mr. Tiahrt. That is right.
    Mr. Hall. Okay.
    Mr. Tiahrt. If you could just let me know how much----
    Mr. Hall. Okay.
    Mr. Tiahrt [continuing]. Is completed and how much is still 
vulnerable.
    Mr. Hall. Mileage and how much is fenced.
    Mr. Tiahrt. Completed.
    Mr. Hall. Okay.
    [The information follows:]

                            Southwest Border

    Service refuges share 151 miles of our border with Mexico. Of this, 
approximately 3 miles are currently fenced, and in addition, Buenos 
Aires NWR has 5 miles of vehicle barrier fencing. Sixty-four miles of 
the border have vehicle barrier fencing planned, and the status of 
fencing for 55 miles of border is unknown at this time.
    A vehicle barrier usually consists of railroad tie driven into the 
ground in an ``X'' formation with steel rail welded across the center 
connecting the X's. A person, and wildlife, can crawl over or under, 
but a vehicle cannot drive through.
    Most of the fences being erected consist of steel pipe driven into 
the ground to a depth of 6 feet on 4 inch spacing with a top rail 
welded into place. Average height is 15 feet from the ground to the 
top. Very small animals and reptiles can cross through, but not people 
or vehicles.

    Mr. Dicks. Just on this point, we will just continue here 
for a second. It appears that the environmental reviews of the 
impacts of this fence on native wildlife have been lacking. In 
fact, it appears that on the ground refuge managers and 
biologist agreed that the fence was incompatible with the 
mission of the refuge system in both Arizona and Texas. Yet in 
both cases they appeared to have been overruled at a regional 
and national level.
    Now it appears the situation in the Lower Rio Grande 
National Wildlife Refuge in Texas has become even more 
problematic for wildlife. And with the proposal to incorporate 
a levy wall and the fence into one barrier.
    Can you tell us about that? I mean, is this a concern?
    Mr. Hall. Yes. And I would not use the word overruled. The 
refuge managers make recommendations on the compatibility 
determinations to the regional directors. In the cases that we 
are talking about here, and especially in Arizona, and also now 
coming down into Texas, we have about three challenges.
    Number one is the habitat that is being trashed by the 
thousands and thousands of illegal immigrants that are coming 
in. It is devastating to the resource.
    Number two is that the Congress has decided and given 
Homeland Security the authority both in funding and in the REAL 
ID Act to just say we are going to do it. And so when we start 
having discussions with them and telling them we cannot 
authorize this under the National Wildlife Refuge Improvement 
Act, then negotiations comes in. Our experience so far has been 
that Homeland Security really does not want to use that 
authority to overrule us and just say they are going to do it.
    So we have entered into negotiations. In Buenos Aires it 
was only a 5.8 acre area out of that whole refuge where the 
fence actually was an issue, and there was no endangered 
species issue there. It was a compatibility issue with the 
refuge. Homeland Security has agreed to do a land trade and 
replace that 5.8 acres somewhere else to our liking along that 
same border.
    In Texas, Hidalgo County has come up with a proposal to put 
a flood wall levy system through the refuge. That causes us a 
great deal of concern because it splits the refuge and the 
biological habitat.
    Once again, Homeland Security could have just simply said 
we are doing it under the REAL ID Act. But they have come to us 
and asked if there is an ability to mitigate, to offset or 
replace lands, and they are willing to do that. We are 
currently in discussions with them.
    But it is really not accurate to say that we are overruling 
our managers, because we have supported their non-compatible 
determinations. What we have done is to try and work with the 
cards that have been dealt to us and see if we cannot make sure 
the resources are better off in the end.
    Mr. Dicks. Now, in your budget you have an increase for six 
law enforcement officers, $1 million. That sounds like it would 
not be adequate to deal with a problem of this magnitude.
    Mr. Hall. Well, when you realize that we have 26 now, that 
would be, you know, a significant----
    Mr. Dicks. Twenty some percent.
    Mr. Hall [continuing]. It would be a significant increase 
to what we have there now.
    Mr. Dicks. Okay.
    Mr. Hall. But I do want to be fair with Customs and Border 
Patrol. Our officers down there work with them a lot and we 
make a lot of the apprehensions together. We would love to have 
more officers down there, but we do have a good relationship 
with the Border Patrol.
    Mr. Dicks. For the record put in what you are spending out 
of your budget for the clean up of the trash and all the 
other----
    [The information follows:]

                         Southwest Border Trash

    The Fish and Wildlife Service does not have information on spending 
to clean up trash and debris left as a result of illegal border 
activities. Some studies have shown that each illegal immigrant 
deposits 5-8 pounds of debris (trash) on the refuges they are passing 
through. Last I year on the Buenos Aires NWR there were an estimated 
200-300 thousand immigrants, which would result in 1,000,000 to 
2,400,000 pounds of trash per year. This does not include the abandoned 
vehicles that are left on the refuges, which total in the hundreds. 
Each year on the Buenos Aires NWR, over 100 abandoned vehicles are 
removed by the Refuge.

    Mr. Hall. Okay.
    Mr. Dicks. Okay.
    Mr. Chandler.

                            MIGRATORY BIRDS

    Mr. Chandler. Thank you, Mr. Chairman. Mr. Hall, hello.
    Mr. Hall. Hi. How are you doing, sir?
    Mr. Chandler. I am doing just fine. Glad to see you.
    I know that you all have talked some about the alarming 
loss of common birds in our country. Alarming it is. I almost 
cannot believe the numbers that I have seen. They are 
absolutely atrocious, and one thing I would like to explore 
with you is the Audubon Society has stated that the cause of 
the dramatic decline of birds is the outright loss of habitat 
due to poor land use, the clear cutting of forests, the 
draining of wetlands, and sprawl.
    Now, in light of such a stinging indictment as that, how 
does the Administration justify 70 percent cut in land 
acquisition?
    Mr. Hall. I do not know.
    Mr. Dicks. That is a good answer.
    Mr. Chandler. That is one of the best answers I have heard 
in awhile, because I think that is accurate. I appreciate that.
    Mr. Hall. I will never try to mislead you.
    Mr. Chandler. Yes, I know that, and I appreciate it.
    Mr. Dicks. They do have an initiative, Birds Forever. Can 
you square those two, Mr. Hall? I mean, tell us about the Birds 
Forever since it is right on your point. This was something 
that came out of this Audubon Study. Tell us a little bit more 
about----
    Mr. Hall. It came out----
    Mr. Dicks [continuing]. That.
    Mr. Hall [continuing]. Of the Audubon Study. It came of a 
lot of work out of our migratory bird office as well. The 
NABCI, the North American Bird Conservation Initiative 
Committee which I chair, and a lot of other people have been 
supporting trying to do something with this.
    And so frankly, we are pretty pleased that we got the 
Administration's attention to try and do something about it, 
especially for neotropical migrants. We are pleased that we 
have gotten some interest in a budget initiative.
    But the efforts here would be to take that $8 million, and 
again, I reiterate that about 200,000 acres on national 
wildlife refuges will be, through the refuge funding improved 
and enhanced for birds as well. We want to take that $8 million 
and work with our partners in the Joint Ventures across the 
country and to take a good scientific approach by using our 
process called ``Strategic Habitat Conservation.'' We will 
determine where we need bird habitat, how much do we need, and 
try and get a little bit more umph behind that so that we can 
try and figure it out.
    Those are the two major places we are putting the funding; 
$4 million in the hands of the people that we partner with and 
who bring money to the table as well, and then other funds for 
surveys and science.
    Mr. Chandler. Well, you know, there are people who are 
concerned obviously about losing endangered species, but this 
goes well beyond that. This is a little bit like the canary in 
the coal mine. This is alarming, and this is not just alarming 
for the bird population. This is alarming for us. And we have 
got to be serious about this in my view.

                     STATE & TRIBAL WILDLIFE GRANTS

    Now, I would like to move onto another issue that I think 
we have got to get up to the top our plates, and that has to do 
with what we are going to do with some of the mountaintop 
removal sites. And I have heard from Dr. Karen Alexy, who is 
the Director of Wildlife Operations at the Department of Fish 
and Wildlife in Kentucky, and she told me about some of the 
work that they have been doing in reclaiming old surface mines. 
I think you are probably aware of those efforts.
    You are probably also aware that there is an increased 
amount of mountaintop removal going on in the Appalachian 
chain. That is not just in Kentucky. It is in several states 
along the chain.
    It has in my view a devastating effect on land and water, 
wiping out the soil, vegetation, burying hundreds of miles of 
streams, under mine fill. The work that the Kentucky Department 
of Fish and Wildlife has been doing is funded through state 
wildlife grants, and yet this program is not being increased at 
all.
    Mr. Hall. No.
    Mr. Chandler. This program is being I guess flat-lined. Are 
you concerned about this? We have got an enormous amount of 
work to be done in Appalachia, and again, it is becoming more 
prevalent rather than less prevalent. Do not we need more 
rather than the same amount of money, particularly with 
inflation and so forth?
    Mr. Hall. Well, yes. The short answer is yes, but this 
fund, the State and Tribal Wildlife Grants Program has actually 
been creeping up in funding each year as the State Wildlife 
Action Plans came on line and started to actually have the 
information that would really help us make good decisions. But 
this is a very important program, and I have supported it. I 
work with our state game, my partners there, the State 
directors, including John Gassett from Kentucky. I was just 
with him yesterday.
    This is important to all of us, but again, to actually have 
flat budgets here in this climate is really a win for us.
    Mr. Chandler. Well, Mr. Hall, I appreciate it, I appreciate 
your service, and I appreciate your honesty. Thank you.
    Mr. Hall. Yes.
    Mr. Dicks. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. Sorry I was delayed. 
We have a couple of hearings going on at once.
    Mr. Dicks. We are all caught up in that same problem.
    Mr. Calvert. Yes.
    Mr. Dicks. Believe me.

                             BORDER ISSUES

    Mr. Calvert. I would like to get back to the border, 
because I have been down to the border a number of times as 
many have, and would you say that in some instances that the 
fence could actually improve habitat down there? Because I have 
seen the same problem you referred to, just an enormous amount 
of trash and degradation of the resource down there, especially 
in certain areas where there is a large number of people being 
channeled through.
    Mr. Hall. I think there is little question that if anything 
that stems or stops the flow of the illegal immigrants from 
pounding down the resources out there will improve the habitat. 
The issues with the fence have to do with animal movement 
because we have migratory species there that need to move 
across the border. Those kinds of issues come into play.
    But, I make no qualms that anything that would help keep 
people from pounding down the resource would help it.

                           ENDANGERED SPECIES

    Mr. Calvert. Okay. Yes. I agree with you.
    One thing I hear a lot about back home concerns, from a 
number of folks, is the lengthy costly delays that they 
experience in working with the Service to meet their ESA 
obligations.
    Does your budget request provide the Service with the 
resources it needs to process and respond to the ESA regulatory 
permits and other approvals on a timely fashion?
    Mr. Hall. Well, the regulatory aspects come into the ESA 
through the Consultation program. We have $51.6 million in 
funding in that program. You are talking about Section 10 
permits?
    Mr. Calvert. Yes, sir.
    Mr. Hall. We have $51.6 million for consultation alone in 
this budget. Most of the time when we have long delays dealing 
with permits there are generally two or three different things 
that cause that to happen.
    The first one is that maybe we do not have the information 
or the applicant was not able to bring us the information that 
we needed. So discussions have to get started. The second one 
that in my experience is that we can reach a point, any time an 
applicant wants their permit put into the Federal register for 
comment, we can put it out. We cannot say that we support it at 
that point or we have negotiated it, but we can put it out for 
review. Most applicants do not like to do that until we work 
things out.
    Mr. Calvert. And that is true, but I, you know, I worked a 
number of these in multi-species habitat plan in Riverside 
County, and Orange County we have a biological opinion that has 
been held up for a lengthy period of time, and there is a level 
of frustration growing, but we are trying to work with Fish and 
Wildlife to get that out, but it has been a significant period 
of time and other areas in Southern California.
    Mr. Hall. I do not know which one that is. Do you? Can you 
tell me----
    Mr. Calvert. That is the long over by Camp Pendleton and 
South Orange County.
    Mr. Hall. Well----
    Mr. Dicks. What is the issue? What is the----
    Mr. Calvert. This is the 241 toll road extension that the 
TCA down in Orange County has been processing, and they have a 
biological opinion they have been working on for some time.
    Mr. Hall. Okay.
    Mr. Calvert. That has been held up for a long period of 
time.
    Mr. Hall. Let me find out about that for you.
    Mr. Calvert. And San Diego County is continuing to work on 
a multi-species habitat plan. I know that the East, West 
Riverside County has already done so, and these are large 
counties as you know. I think Riverside is the largest multi-
species plan in the country now. East Riverside County, which 
is the Coachella Valley and down to the Mexican border, I 
believe they want to start working on one, but there is concern 
about the time it takes. It took us years to get the one 
through in Riverside County as you know.
    Mr. Hall. Yes.
    Mr. Calvert. And there is still some frustration about how 
that is being operated, but these, I think in the end these can 
be a very positive result out of it. I think we can do better 
resource management in the end, but I think there just needs to 
be better communication.
    Mr. Hall. Well, you know, I was around for some of the work 
on the San Diego and Riverside plans, and they are very large. 
A lot of decisions have to be made as to what species do we 
want, how many species does the County want in that are not 
even on the list yet but might be in future so they do not have 
to revisit it. And there is a lot of analyses when you have 
multi-species conservation plans.
    And I understand that they take a long time, maybe longer 
than they should. Hopefully we are learning. I think we are 
getting better, but, you know, my major concern on those is 
that we go through all that effort and then 2 years later 
something we did not cover comes up and bites everybody and 
makes us have to start again or puts the plan in abeyance.
    So we want something that will last the test of both the 
biological questions and the development questions.
    [The information follows:]

                    Foothill Transportation Corridor

    The Service recognizes the length of time it has taken to consult 
with the Federal Highway Administration and its applicant, the 
Transportation Corridor Agencies (TCA), regarding the proposed Foothill 
Transportation Corridor South toll road. The prolonged consultation 
period can be attributed to recent changes to the project description 
relating to toll road maintenance and archaeological investigations; 
and the rigorous evaluation of newly available data. Throughout the 
consultation process, the Service has been in close contact with 
representatives from the TCA. Such data were presented to the Service 
as recently as the day of he California Coastal Commission hearing on 
February 6, 2008. While completion of the consultation is an essential 
component of the TCA's permitting process, other permits needed from 
Federal and State agencies do not necessarily hinge on the Service's 
issuance of a biological opinion. Please be assured the Service is 
working expeditiously to complete the consultation on this project and 
will continue to maintain close communications with the Federal Highway 
Administration and TCA. We anticipate issuance of a biological opinion 
within the next four to six months.

    Mr. Calvert. As you know, Secretary Babbitt was the one 
that originated this idea, and I think it is a good idea. I 
supported it. I worked to get that completed, and I think it 
could be, and the models that we put in Southern California, if 
they work, I think can be moved to other areas throughout the 
United States, and I think it would have, but obviously to 
encourage people to do that they need to see some successes in 
that. So I just want to make that point, Mr. Chairman. Thank 
you.
    Mr. Dicks. Well, I appreciate the gentleman's work on this. 
In Washington State we had the first multi-species HCP, and it 
was very difficult, but we got it done. And I stood on the 
Floor and urged people who wanted to just override the 
Endangered Species Act to do exactly what you say, but after 
some period of time we have to get these things done, and I 
think that is the gentleman's point.
    And one thing that worries me, in your budget there is a 
$5.5 million decrease in the Endangered Species Program. It is 
a substantial decrease to a very important program.
    Now, you know, that obviously is going to make it a little 
more difficult to do the things that the gentleman is talking 
about.
    Now, let us also just for the record here, your agency has 
not listed a U.S. species to the Endangered Species List for 
660 days, the longest such period in the law's 35-year history. 
Over that same period millions of dollars have been allocated 
for the express purpose of determining which species are in 
need of protection under the Endangered Species Act.
    How is the Service spending the money? What are we doing if 
we are not listing these species? What are we spending the 
money on?
    Mr. Hall. Well----
    Mr. Dicks. Besides the Cooperative, I mean, the HCPs.
    Mr. Hall [continuing]. The pots of money, as you know, are 
in Recovery and Listing and Consultation and Candidate 
Conservation. And the particular one that you are referencing 
is the Listing subactivity, and we have with your help tried to 
turn that around. Last year we asked that you move $3 million 
from critical habitat into the Listing pot, and so here is what 
we will be doing with that.
    In 2008, we hope to propose the listing determinations for 
71 species and finalize listing determinations for one, and 
then for '09, we hope to propose listing determinations for 21 
and finalize determinations for 71. It took us a little bit of 
time and money to get back on track, but I think we now are 
back on track with your help in freeing up some of that money.
    Mr. Dicks. Well, we are glad we could do it.
    Let me ask you this. The Fish and Wildlife Service is 
revising seven endangered species decisions shown to have been 
affected by former Deputy Assistant Secretary Julie McDonald. 
And the DOI Inspector General is investigating a total of 20 
decisions. What is the Department doing to insure that land and 
water use decisions being made today are founded on good 
science rather than questionable science?
    Mr. Hall. Well, the Department has allowed me to basically 
separate the science from the policy and have the science stop 
with the Director of the Fish and Wildlife Service. As you 
know----
    Mr. Dicks. That is the way it should be.
    Mr. Hall. I believe it is, because as you know, by law the 
Director has to be a credentialed scientist who has managed 
fish and wildlife. Science issues should not be creeping out of 
the agency for decisions from people who are not scientists. So 
they have agreed with that, and I believe that the major 
problems are resolved.
    Secretary Kempthorne has supported me on this, and now the 
scientific analysis has to be agreed to by me and my friend, 
Mark Myers, from USGS at his level, and that is the way things 
should be, I believe.
    Mr. Dicks. Okay. Now, I understand that there are 
approximately 1,550 wolves in the Northern Rockies, and the 
Service is only requesting that Idaho, Montana, and Wyoming 
maintain around 150 wolves in each state. Critics maintain that 
this means that 70 percent of the wolves in the region could be 
killed with this decision. How do you allow this type of 
population reduction and still maintain the wolves are 
recovered in the area and no longer warrant protected status?
    Mr. Hall. Mr. Chairman, that is a question, that is a good 
question that does not get asked enough so that people can 
understand the role of the Endangered Species Act versus the 
role of the States that manage a resource when it is not in 
need of the protection of the Act.
    The States came together and did what they were supposed to 
do both legally and biologically. We have wolves growing at 24 
percent per year in the population with the mortalities 
included in that figure. We still have a 24 percent growth rate 
each year in that wolf population. The Endangered Species Act 
Recovery Plan called for 100 wolves per State and ten breeding 
pairs per State, and that would be considered recovered and no 
longer in need of protection of the Act.
    All three States have agreed that----
    Mr. Dicks. Do you think that is still credible?
    Mr. Hall. Well, I think that 15 pairs is better----
    Mr. Dicks. That was done prior to your being here, I think, 
was it not?
    Mr. Hall. Yes. I think 15 pairs or higher is better.
    Mr. Dicks. Yes.
    Mr. Hall. And I think that is what the States have agreed 
to. They have in their management plans agreed to a very 
minimum of 15 breeding pairs and 150 wolves. But they 
understand after having gone through this, how important it is 
to have healthy populations of wolves out there. If a State 
were to start absolutely cutting them down, we would be 
watching. We do not get involved unless it violates the tenant 
of the Endangered Species Act and would cause us to go back and 
review. I think all three governors know this. I visited with 
all three governors.
    Mr. Dicks. Yes.
    Mr. Hall. I know all three State game and fish directors 
know it and I get no indication from any of them regardless of 
the bravado that they are interested in doing anything like 
that.
    Mr. Dicks. Our former colleague from Idaho has been the 
leader in the bravado area.
    Mr. Tiahrt. Would you yield?
    Mr. Dicks. Yes, I yield.
    Mr. Tiahrt. In Kansas you cannot shoot a hawk. You cannot 
shoot a bald eagle.
    Mr. Hall. Yes.
    Mr. Tiahrt. It is not legal to shoot these wolves, is it, 
in either of these three States?
    Mr. Hall. Oh, yes. It would----
    Mr. Dicks. It would be. If they are delisted.
    Mr. Hall. Once they are delisted----
    Mr. Tiahrt. Well, would they be----
    Mr. Hall [continuing]. Because they are not considered--
well, they are not migratory birds, which is what you are 
talking about. We have the Migratory Bird Treaty Act that 
guides that issue. A delisted wolf becomes another State-
resident species managed by the States. That is why we required 
the States to have proper legislation that would protect them, 
at least as a game species to be managed.
    Mr. Tiahrt. So if they are overpopulated, then they would 
issue permits for----
    Mr. Hall. They can.
    Mr. Tiahrt [continuing]. Killing them?
    Mr. Hall. That is the State's call, but that is one of the 
ways that they can manage the wolf populations.
    Mr. Tiahrt. Any of these three States, do they do that 
today?
    Mr. Hall. Not today. They do not have the authority.
    Mr. Tiahrt. But so they do not allow----
    Mr. Dicks. They have not been delisted yet.
    Mr. Hall. Yes. There we just----
    Mr. Tiahrt. Oh, they would have to be delisted before that 
would----
    Mr. Hall. Yes.
    Mr. Dicks. Yes.
    Mr. Hall. We just announced the delisting, and there is a 
30-day period until the rule takes effect. After that 30 days 
the State game and fish commissions can establish regulated 
controlled hunting if they want.
    Mr. Tiahrt. They can, if they are properly managed. I mean, 
in Kansas it used to be so infrequent to see white-tailed deer 
that they would report it in the paper in the 20s and 30s. And 
today, we have a problem with them, especially during November 
of them running into the highway and auto accidents happening. 
There is so many of them.
    Mr. Dicks. You need those wolves.
    Mr. Tiahrt. So we need the wolves. Yes. I think they can be 
properly managed. My point is they can be properly managed and 
see the species actually increase.
    Mr. Hall. And, you know, and I say that, I said the things 
that I said because all those are important. It is important to 
understand that the wolf population in the Rocky Mountains is 
growing, despite six or seven hundred kills a year. Either we 
have to take them out, they are illegally killed, or they are 
taken out by APHIS or someone else. Despite that there is a 24 
percent growth rate in the populations. So they will have to be 
managed or they will overtake the other species and then we 
will be visited for other reasons.
    Mr. Tiahrt. One other question.
    Mr. Dicks. Yes.

                            MIGRATORY BIRDS

    Mr. Tiahrt. I think I heard you say something about 
procuring a survey aircraft?
    Mr. Hall. Yes, sir.
    Mr. Tiahrt. What type of aircraft is it?
    Mr. Schmidt. It is a Kodiak, it is called a Kodiak, it is a 
twin engine made by----
    Mr. Hall. Do you need me to repeat that?
    Mr. Dicks. Yes, we do. We need----
    Mr. Hall. It is a Kodiak. We are updating our aircraft. 
They are very old. They do the migratory bird surveys up in 
Canada and the northern tier of the United States. That is the 
aircraft we are talking about.
    Paul, do you want to step up here so it can be on record? 
Is it all right, Mr. Chairman?
    Mr. Dicks. Yes. Of course, of course.
    Mr. Schmidt. It is specifically designed for survey work in 
the far reaches of Canada and isolated areas. So it is----
    Mr. Dicks. Give your name for the record, too.
    Mr. Schmidt. Paul Schmidt.
    Mr. Dicks. And you are----
    Mr. Schmidt. Assistant Director, Migratory Birds.
    Mr. Dicks. Okay.
    Mr. Tiahrt. Is this an aircraft that lands, had the 
pontoons?
    Mr. Schmidt. Yes. We are having the floats right now 
designed for it specifically for the purposes of landing on the 
water.
    Mr. Tiahrt. Okay. Thank you, Mr. Chairman.

                           ENDANGERED SPECIES

    Mr. Dicks. I think this wolf recovery thing has been one of 
the greatest successes of the Endangered Species Act, and I 
have been out there, and we killed these wolves out of 
stupidity, really.
    Mr. Hall. Yes.
    Mr. Dicks. And fear. And they are a part of the ecology of 
these areas, and we ought to be very careful here that we do 
not destroy or let be destroyed a program that has been such a 
success. I am sure there is going to be a lot of lawsuits on 
this one.
    Let us go to the polar bears. Over a month after the 
original deadline, we continue to wait for a decision on 
whether or not to list the polar bear. Can we expect a decision 
anytime in the near future?
    Mr. Hall. Yes, sir.
    Mr. Dicks. Yeah. We can?
    Mr. Hall. Yes, sir.
    Mr. Dicks. The Administration has been criticized for its 
decision to go forward with energy lease sales in the Chukchi 
Sea. While loss of habitat due to climate change is the primary 
cause of polar bear declines, the Endangered Species Act does 
not restrict itself to only addressing the primary cause of a 
species decline but rather all activities that might result in 
the taking of a threatened or endangered species.
    Given this fact, why was it so necessary to proceed with 
lease sales in the Chukchi Sea before the decision is made on 
whether or not to list the bear? I mean, you are going to have 
people say they held up on the listing so that they could go 
ahead with the oil development. And with the reputation of this 
Administration, there might be probable cause for believing 
that. Okay?
    Can you explain this?
    Mr. Hall. Well, the delay on the listing was quite 
serendipitous with the Chukchi Sea sale, because I am the one 
who requested to have more time. We had 670,000 comments, we 
had public hearings with those, and we also had a range-State 
meeting with the five range States around the circumpolar 
region to find out what the other countries were doing. And 
then we had nine highly-technical reports delivered by USGS in 
September that needed to be analyzed. We had a public review 
period on those as well.
    I alerted the Department at the time of that public review 
that I was not sure that we would be able to make the deadline 
if we went out again for public comments on those reports, but 
I felt it important that we get the public's input.
    When it comes to the Chukchi Sea issue, our folks in 
Fairbanks, our field office there, has been in discussion with 
the Minerals Management Service from the beginning on this. 
They determined, when you have a proposed species, you do not 
do a consultation, you do a conference. That conference is only 
necessary if it is believed that the action may jeopardize the 
continued existence of the proposed species.
    Our folks did not believe that this rose to that threshold 
on the leasing. Once leasing occurs, at every step of the 
process the industry has to bring plans to us on how they are 
going to do it. They have to consult with us if the species is 
listed, but more importantly, they have to deal with the Marine 
Mammal Protection Act, which is much more restrictive than the 
ESA. The ESA standard is that an action must not jeopardize. 
Under Marine Mammal Protection Act an action must not have a 
negligible impact on the population of the species. That is in 
place already.
    So our folks felt pretty comfortable that it was not 
something over which we needed to hold up the sale. Other than 
that, the sale is an administrative decision by the Secretary.
    Mr. Dicks. Okay.
    Mr. Moran. Okay. Thank you, Mr. Chairman.
    You know, I was just being briefed, and I was looking for 
some good hardball questions to ask.
    Mr. Dicks. We asked them all.
    Mr. Moran. Well, I am not so sure, but the briefing was 
that actually the State of Virginia is pretty happy with what 
you are doing. So they are quite pleased. So but rather than 
ask and give you, you know, softball encouragement----
    Mr. Hall. That is okay.

                                REFUGES

    Mr. Moran [continuing]. We need to be a little more 
confrontational here. We have got some refuge offices that 
really seem to be, you know, kind of operating on a dime. One 
refuge office operates in a shopping mall miles from the 
refuges. Because of security concerns the vehicles, government 
vehicles, they have to be secured at another place every night. 
Staffing has dropped from six to four people. They lost their 
biologist and one operations person. One of the refuges, 
Featherstone----
    Mr. Dicks. Which one is that?
    Mr. Moran. Tim, which one? I wish--it is the Potomac River 
one. Okay. Well, I am familiar with that.
    One of the refuges, Featherstone, for awhile it was taken 
over by squatters and is frequented by MS-13 gangs, which is a 
big concern for Rep. Davis.
    Now, the question says is this typical of what is happening 
in our refuges. I am sure it is not happening on Mr. Dicks' 
refuges or Mr. Tiahrt's refuges, so I am sure the answer is no, 
but do you want to elaborate a little? You know, it really does 
seem, though, that we could beef up some of these refuge office 
a little bit. You know, the idea of being taken over by 
squatters and gangs is not comforting.
    Mr. Hall. And I think, Mr. Moran, what we are trying to do 
here is to do exactly that, and you all helped us last year by 
putting $36 million in an increase, and as I said earlier to 
the Chairman, I believe that had a profound impact on OMB in 
allowing us to make that permanent funding. And that is 
critical.
    Mr. Moran. Yes.
    Mr. Hall. When we roll it into the President's budget, it 
becomes what we call base funding, and it does not go away 
unless there is a specific effort to remove it. An add like 
what you did, would have gone away at the end of this year had 
the President not rolled it in. So it is really important for 
us, and that raised us to the point where as long as we can at 
least maintain the $15 million or so increase each year for 
fixed costs, it allows us to meet that management goal that we 
established for the refuges that we still have staffed. And I 
can address others in a minute.
    This funding allows us to at least meet that 75/25 target 
that we were all shooting for. We had reached the point where 
in some cases 90 percent of all the money refuges got was for 
staffing. So very little money was to actually manage or do 
anything. And our goal was to get back to 75 percent salary, 25 
percent for the operations money.
    Mr. Moran. That is a good thing except that there has been 
an actual reduction, if it was all going into actual refuge 
preservation, that would be fine, but I think you have cut the 
staffing, but you have also cut back on kinds of operations 
that we want the money to go to, does it not?
    Mr. Hall. It has because we were going through these 
declines. This, though, has helped us to at least stabilize 
where we are and has positioned us to move forward without 
having to constantly absorb significant costs along with that.
    So we are working with Tony Leger and others up in your 
area. They are on top of it, doing the best they can do, and we 
are going to continue to try and do that.
    Mr. Moran. Thank you. Incidentally, and thank you for this 
chart. This clearly shows----
    Mr. Dicks. Yes. This chart, we are just showing we were at 
3,100 positions in the wildlife refuge system in 2003. In 2008, 
the request would have taken us down to about 2,550, and our 
increase got you back up to about 2,650, but the Fiscal Year 
2009 request takes it down to 2,600.
    We get the message that we have to come up with $15 million 
if we want to sustain what we did last year. Is that not the 
bottom line?
    Mr. Hall. Yes, sir. We have to keep moving forward or----
    Mr. Dicks. Okay.
    Mr. Moran. And my legislative director here just properly, 
for the purpose of job preservation, informed me that all of 
these refuges are in Rep. Tom Davis' district.
    Mr. Dicks. Well, we are going to wrap this up, and we are 
going to move onto USGS because we are going to have votes, and 
we want to give Mark Myers a chance to answer all these 
questions just like you did.
    Very good job, and we know you are out there doing the best 
that you can, and we appreciate your service.
    Mr. Hall. And Mr. Chairman, I really do mean it when I say 
I appreciate what you and the members of this Subcommittee do--
--
    Mr. Dicks. Thank you.
    Mr. Hall [continuing]. To help us out, and anything I can 
do to help you please just call.
    Mr. Dicks. Well, and that $36 million increase, we wanted 
it to be $56 million. It went down to $39 million, and that, 
you know, if we would have had our way, it would have been at 
$59 million, and we would be even in a better place.
    Mr. Hall. Yes, sir. All right. Thank you very much.

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. All right.
    Dr. Mark Myers or Mr. Mark Myers. Which one is it? Is it 
doctor or----
    Dr. Myers. It is Mark.
    Mr. Dicks. Okay. It is Mark. Okay. Good.
    Today for our second hearing we examine the U.S. Geological 
Survey's budget request. I am pleased to welcome Dr. Mark Myers 
again.
    U.S. Geological Survey is an important bureau of the Nation 
and to this Subcommittee. The Survey's work on earthquakes, 
volcanoes, hydrology, geography, mapping, and biology benefit 
people and industry in every part of the country and is 
recognized and referred to around the world. The Survey's 
research and monitoring are especially important to the 
management of the public lands and the natural resources, which 
this Subcommittee is responsible for.
    In particular, we look to the Survey as a leader in global 
climate change research, a topic of growing concern on our 
federal lands where we are already seeing the effects of a 
changing climate.
    In my part of the country the USGS work on volcanoes, 
earthquakes, biology, and hydrology is especially important. 
The economy and safety of the Pacific Northwest depend on the 
Survey's biological research to help with the management of our 
fish and wildlife and to monitor the health of our watersheds, 
including Puget Sound.
    The budget request is $38 million below last year. It would 
require the loss of substantial scientific capacity and would 
cut earthquake and volcano research and monitoring, priority 
ecosystem research and biological information systems, and the 
network of state wildlife research centers.
    While it sounds quite useful to begin the water census you 
are proposing, which I think is a good idea, I am concerned 
about the large cuts you are proposing for the Cooperative 
Water Research Programs and to the National Water-Quality 
Assessment Program.
    Once again, the Administration proposes to reduce the 
Mineral Resources Assessment teams, despite the strong support 
of Congress for the program, which is critically important to 
our Nation's security and economy.
    As members review this request, I think it is useful to 
view this chart of the President's science budget by the 
Department, prepared by the American Association for the 
Advancement of Science. The USGS is firmly placed at the 
bottom, and that means it has suffered the most severe cuts. I 
think this is a big mistake that would harm long-term American 
interests.
    Dr. Myers, I want to work with you on these and other 
issues as we get closer to our markup.
    Mr. Tiahrt.

                 Opening Remarks of Congressman Tiahrt

    Mr. Tiahrt. Thank you, Chairman, and thank you, Dr. Myers, 
for joining us this morning. It is nice to have you back before 
our Subcommittee. We look forward to learning more about your 
goals for the next fiscal year.
    I know from previous conversations and last year's hearings 
that your background experience, that you are a man of science. 
The fact that you also bring substantial private sector 
experience to your position gives you a level of credibility 
that is important as you address the issues that are, no pun 
intended, very sensitive in nature. The debate over climate 
change, the present and future status of polar bears are two 
emotionally-charged issues that are likely to be part of our 
discussion today.
    Setting aside political considerations I am particularly 
interested in your perspective of what science tells us about 
both issues. Do we have enough scientific evidence to make not 
only an informed judgment, but also informed decisions about 
addressing these areas and other areas of concern?
    As we discuss your specific budget requests for the next 
fiscal year, I also want to explore how the USGS makes informed 
decisions about increasing or decreasing specific program 
funding. As you propose funding for a number of noteworthy 
initiatives, including several put forward by Secretary 
Kempthorne, I note that your budget also proposes almost $88 
million in program reductions.
    Do not get me wrong. I believe that we must be good 
stewards of every appropriated dollar, but several of your 
proposed reductions are likely to cause concern among members 
of the Subcommittee. Still, this is the beginning of the 
process, and we will have an opportunity to discuss these 
issues at length in the coming weeks and months.
    Again, I look forward to working with you and appreciate 
your willingness to be here today.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mark, why don't you go ahead, and we will put 
your entire statement in the record, and you may summarize and 
proceed as you wish.

               Opening Remarks of Mark D. Myers, Director

    Dr. Myers. Thank you, Mr. Chairman and members of the 
Subcommittee, for your strong support for the USGS and its 
programs. We really appreciate it, and it really does matter to 
our constituents as well.

                            BUDGET OVERVIEW

    I will keep my statement very brief. As you said, the 2009 
budget request of the USGS is about $968.5 million in current 
appropriations. It is a reduction of about $38.4 million from 
the 2008 enacted level of about a billion dollars.
    It provides new funding to address several important 
Secretarial priorities that focus on water assessments, oceans, 
migratory birds, and selected Federal efforts in remote 
sensing. These initiatives fit very well into the scientific 
framework of the USGS and the accomplishments of the past and 
the outlined focus areas in our new science strategy.
    This strategy, developed by a cadre of USGS scientists and 
professional staff, responds to national priorities and global 
trends with the USGS scientific excellence and strong 
collaboration with partners at the local, state, and federal 
levels.

                      WATER FOR AMERICA INITIATIVE

    Water is vital to the U.S. economy in general and to 
agricultural production, energy independence, the viability of 
communities, and environmental quality in particular. The USGS 
is participating in the Department's $21.3 million Water for 
America Initiative to avert water crises and ensure that 21st 
century water supplies are present and adequate. Within the 
USGS, the net increase in the budget of $8.2 million, along 
with an internal redirection, will provide about $9.5 million 
to fund the first nationwide assessment of water availability, 
water quality, and human and environmental water use since the 
1970s. Regional-scale watershed studies and critical upgrades 
and telemetry of equipment and streamgages are also included in 
this initiative.

                        BIRDS FOREVER INITIATIVE

    Within the Department's $9.0 million Birds Forever 
Initiative, the USGS is requesting $1 million in 2009. This 
funding will address threats that have led to rapid declines in 
population of migratory bird species. That million dollars will 
be focused on the Breeding Bird Survey, which actually forms 
the corpus of the Audubon Survey and the Breeding Bird 
Assessment that we have done for 40 years.

                        HEALTHY LANDS INITIATIVE

    The Healthy Lands Initiative was a central component of the 
President's 2008 budget, with the USGS portion focused on the 
Green River Basin in Wyoming. We thank you for the support for 
this effort. In 2009, USGS requests an additional $3.5 million. 
Through this initiative, the USGS will build on what we learned 
in 2008 to provide essential long-term science for managers to 
help protect and restore living resources of the basin while 
facilitating responsible development of energy resources.

                     NATIONAL LAND IMAGING PROGRAM

    The 2009 budget has $73.1 million for the Geography 
Program, and reflects a decrease of $4.6 million below 2008. 
The budget contains a $2 million increase for the National Land 
Imaging Program and maintains funding to ensure continuity, 
continued availability of earth observation data to government, 
academic, commercial, and international users. The budget 
requests an increase of $416,000 for fixed costs.

                      OCEAN AND COASTAL FRONTIERS

    The budget proposes $208.0 million for USGS geology 
activities. That is about $35.5 million below 2008. That 
includes an additional $6.5 million for the Ocean and Coastal 
Frontiers Initiative and continues funding geologic hazard, 
landscape and coastal, and mineral and energy resources 
assessments. The budget also includes an increase of $3.0 
million for fixed costs.

                       MINERAL RESOURCES PROGRAM

    The Geology budget includes a $25.4 million decrease to the 
Mineral Resources Assessment Program. This program provides 
scientific information for resource assessments, data on 
potential mineral production and consumption, and environmental 
effects of mineral use and production. This program is the 
comprehensive baseline of mineral data for the United States in 
the fields of geochemistry, geophysics, and mineral deposits.
    The proposed budget will permit the program to continue to 
work on the Global Mineral Assessment, conduct research to 
provide mineral deposit models of targeted, nonfuel mineral 
commodities for decision makers, collect data on domestic and 
international production and utilization of about 70 to 80 
essential mineral commodities, and manage four national-scale, 
long-term databases.
    Thank you, Mr. Chairman.
    [Statement of Mark D. Myers follows:]

    [GRAPHIC] [TIFF OMITTED] T2183A.244
    
    [GRAPHIC] [TIFF OMITTED] T2183A.245
    
    [GRAPHIC] [TIFF OMITTED] T2183A.246
    
    [GRAPHIC] [TIFF OMITTED] T2183A.247
    
    [GRAPHIC] [TIFF OMITTED] T2183A.248
    
                       NATIONAL WATER ASSESSMENT

    Mr. Dicks. Okay. Dr. Myers, as you know I have a 
longstanding interest in quite a variety of the science 
programs under your jurisdiction. As a fellow Westerner, the 
USGS seems to provide essential scientific support and inquiry 
for many of our key issues.
    First, let us talk about water. Not only in the West but 
over the planet, water quality and quantity issues abound. This 
request reduces the National Water-Quality Assessment Program 
by $10.6 million.
    Please talk in detail about some of the reductions you will 
have to make to this vital program and how will this impact 
long-term scientific work on our Nation's water quality?
    Dr. Myers. Thank you, Mr. Chairman, for that question.
    I think in the context of working within a tightly-capped 
budget, one of the real concerns was the need for this National 
Water Assessment. We are convinced as we move forward----
    Mr. Dicks. The Water Census.
    Dr. Myers. The Water Census.
    Mr. Dicks. Why has it not been done? You said it has not 
been done for 30 years. Why is that? Because we did not put the 
money up?
    Dr. Myers. We just really have not put the money up, and I 
think the issue is getting renewed interest as population 
growth, climate change, changes in agricultural practices, and 
the awareness of ecological services needs all come into focus. 
And I think it has been highlighted by the recent droughts in 
the Southeast as well as the Southwest of the United States. 
People are recognizing worldwide that as populations grow and 
as climate changes, water distribution ability is becoming a 
huge national issue, and, I think, an international issue. So I 
think that awareness has led to the needed assessment.
    You also invested in a pilot project in 2005. We did it in 
the Great Lakes area.
    Mr. Dicks. Right.
    Dr. Myers. So we are able to prove feasibility. I think 
another important part of this is we now have the tools to 
integrate surface and ground-water in ways we did not have 
before. The two resources are totally connected and linked, and 
we manage them totally differently. We often model them 
differently, and so now we have sophisticated modeling tools 
that actually allow us to link them together. So we will 
understand what the effects are as we withdraw water that would 
recharge a basin and then flow into the ground-water system.
    Conversely, as we withdraw ground-water, we must understand 
when we are mining water and when we are not, and then, looking 
at those activities with the effects of climate change and 
variability due to landscape modification, we will have a much 
better understanding in the long term of what those effects are 
and how these interrelated resources can be used more 
effectively.
    Mr. Dicks. If we are going to do this Water Census 
correctly, how much do we need to have in the budget for it on 
an annual basis?
    Dr. Myers. Well, we look at this as a national assessment 
that is going to take 10 years. We have divided the country up 
into key regions, and we would address them systematically. 
That ideally would be about $10 million per year. The number in 
the President's budget gets us very close to that, and we need 
to be able to sustain this effort over a 10-year period.

                          STREAMGAGE INCREASE

    Mr. Dicks. Okay. Streamgages. We okay on that?
    Dr. Myers. Streamgages are seeing an increase in the 
budget. Also----
    Mr. Dicks. Good.
    Dr. Myers [continuing]. In this initiative is additional 
money for streamgages and streamgage telemetry.

                             CLIMATE CHANGE

    Mr. Dicks. On climate change, I appreciate your expertise 
and passion for improving our Nation's scientific capability 
regarding global warming. I also appreciate that you consider 
this to be important enough to feature as an initiative. But 
your budget request has a decrease overall for global climate 
change.
    Please review your main efforts currently underway and what 
activities will be reduced due to this budget reduction?
    Dr. Myers. Thank you, Mr. Chairman. Your Committee provided 
an additional $7.4 million in our budget last year for climate 
change efforts. We have taken that money and added to existing 
efforts in multiple areas, including developing a National 
Climate Effects Network to be able to actually monitor change 
and review change as it occurs on the landscape. We will be 
able to create regionally-effective climate models that allow 
us to predict rates of change that will be used by managers.
    Secondly, we are creating a National Global Warming and 
Wildlife Science Center.
    Mr. Dicks. We appreciate it. Thank you.
    Dr. Myers. That center will be critically important because 
it will bring tribal, public, non-governmental agencies, 
private land managers, and State agencies together to work the 
problem in terms of climate change, habitat change, and rates 
of changes that we are seeing on the landscape.
    Mr. Dicks. But there is only $1.5 million. Is that not 
right? For the center. You know, I am not going to put words in 
your mouth, but if you really wanted to do this right, we would 
have to have a little more money than that. Right? To get this 
thing really started on a national basis?
    Dr. Myers. Mr. Chairman, yes. The money we have will 
basically allow us to do the scoping, bring the stakeholders 
together, and do some key scientific projects. We are also 
putting $2 million to conduct an internal competition within 
the Survey to bring some of the best projects forward.
    The true intellectual capital in the Survey is our team of 
scientists, so we are taking funds, investing them in the 
scientists, and letting them bring to the leadership the best 
ideas that can leverage the science that will help us manage 
wildlife, help us understand physical changes, and deal with 
climate adaptation. And finally, we are putting $1 million into 
assessments for global carbon sequestration for a national 
assessment methodology so we can understand our capacity to 
sequester carbon under the ground.
    Mr. Dicks. Well, I appreciate that, and you and I have 
talked about this on the airplane flying back from our great 
Northwest, but I agree with you so strongly on this. There are 
a lot of people talking about carbon sequestration but do not 
realize that a lot of the science here has not been done. And 
so I think getting this program started as we look at this 
whole issue is very important.
    Mr. Tiahrt.

                    TOOLS TO MONITOR CLIMATE CHANGE

    Mr. Tiahrt. Thank you, Mr. Chairman.
    Climate change has become a very emotional issue, and it is 
an increasing public concern, and sometimes our emotions have a 
tendency to get in the way of the facts. The United States and 
other countries are being challenged to make public policy 
decisions addressing the impacts of changes to our planet. Many 
point to greenhouse gas emissions and other human activity as 
the leading cause. Any action we take, of course, must rely on 
objective, unbiased, and scientific information. Long-term 
monitoring, data collection, and models developed by the USGS 
are critical to this effort.
    Can you tell me what primary tools you are using to monitor 
global climate change, both short-term and long-term?
    Dr. Myers. Mr. Tiahrt, we are doing a lot of work with 
respect to building capacity to develop regional climate 
models. Let me back step a little bit.
    First of all, you have got to monitor the change that is 
occurring on the landscape. Changes on landscapes occur for a 
lot of different reasons, not just climate change. Population, 
land use, other effects, but in addition, the effect of climate 
change now is becoming substantial. Invasive species may be 
looked at as a climate issue, and they may be looked at as a 
biological issue. They are often interrelated.
    So we see major changes: increase in fire, fire severity, 
fire intensity, and fire frequency, also related to soil 
moisture, which has a link back to climate, but it is not 
totally dependent on climate.
    So many of the landscape changes we are seeing and we are 
trying to manage throughout the country have a component of 
climate change. We need to be able to separate out, understand 
what is physically climate related and the other biological or 
physical changes in the landscape.
    So the Survey's first challenge is to bring all of its 
disciplines together in order to have an integrated approach so 
we can bring the physical sciences and the biological sciences 
together.
    You mentioned polar bears. We were able to look at the 
physical processes of the ice and link it to habitat and 
biological models. That is the next step in science that is 
really critical if we are going to do this in a systematic way, 
that is the linkage between physical change, habitat, and 
animals and animal behavior.
    We also need to have good solid data on what is happening 
on the landscape today. Often we lack that systematic capture 
of information. So the monitoring of data, whether it be a 
streamgage, whether it be an observation from remote sensing of 
the amount of ice in a glacier, or whether it be a change in 
the species and the biome is extremely important. We need to be 
able to monitor very carefully. We need to understand that over 
a long enough period of time, to see if the systematic change 
we are seeing is short-term or long-term, whether it has a 
climate signal associated with it.
    Then we need to take the many global climate models and 
reduce them down to those models in which we have enough 
capacity and confidence. The models that can be used to 
predict, move forward. Monitors have changed in the past and 
rates have changed, but you also need to predict into the 
future to do long-term management.
    Right now our global climate models are very crude. They 
are not adequate in terms of the scalability to do that work, 
but they are the only tools we have. So we are working all 
those aspects simultaneously, bringing the disciplines together 
to integrate that information base.
    Mr. Dicks. Will the gentleman yield just briefly?
    Is this being done by anybody else? I mean, really, are you 
the leader on this in the Administration?
    Dr. Myers. I believe we are the leader with respect to 
climate adaptation and physical work on the ground. We are not 
the leader with respect to atmospheric models and certainly not 
with the oceans. NOAA is probably the leader there.
    Mr. Dicks. Yes.
    Dr. Myers. And with some of the atmospheric modeling 
clearly NASA is, but with respect to managing an adaptation, 
understanding the physical changes and interrelating it, I 
would say that we are the leader.

                     GLOBAL WARMING VERSUS COOLING

    Mr. Tiahrt. Now, a year ago I was convinced that climate 
change meant things were getting warmer, but in a recent 
article in a Canadian newspaper, it was entitled, Forget Global 
Warming. Welcome to the New Ice Age, and it claims that the 
snow cover in North America, as well as much of Siberia, 
Mongolia, and China is now greater than at any time since 1966. 
The article also reports that the Arctic winter has been so 
severe that the Arctic sea ice is not only recovered, it is 
actually 10 to 20 centimeters thicker in many places.
    Another article said that for the first time in recorded 
history there has been snow in Baghdad. The article in the 
Canadian paper also raises questions about whether cyclical 
warming or cooling of the earth is a sign of global warming or 
a coming ice age, or whether it is a phenomenon related to 
simply cyclical warming and cooling of the earth.
    Now, as a scientist, can you offer any insights into these 
trends and what they portend for the future? Should we be just 
as concerned about global cooling as we are about global 
warming?
    Dr. Myers. Thank you for that question, Mr. Tiahrt. It 
shows you the importance of looking systematically and long 
term at these issues and understanding the feedback mechanisms, 
because change that occurs over geologic time and changes of 
climate and habitat do not occur in a long, predictable linear 
fashion. The changes in geologic history that are recorded 
through many mechanisms to the rock history, to ice cores, to 
other sources, show changes that occur in a relatively steady 
state and then relatively abrupt changes. That is the tipping 
point people talk about.
    So when you look at it, there are multiple feedback 
mechanisms and very complex relationships, but if you look at 
the overall set of data in the long term that has been acquired 
in additional capacity to model change that we have observed 
with the systems to date, we are seeing much more evidence of a 
warming trend in the long run than a cooling trend. This 
evidence includes the overall loss of sea ice over a 50-year 
period, particularly in the last say 10, 15 years, with an 
acceleration of that rate actually, based on the latest studies 
and the latest satellite observations. An overall, long-term 
thinning of sea ice is noted by submarine data as well as by 
observational data, where we have it.
    Additionally, we are seeing things like permafrost melting 
in long-term acceleration, overall glacial mass balance 
worldwide decreasing significantly, not only in Greenland but 
also in North America.
    Now, that said, the data gets very noisy. On a given year 
or 2-year or 3-year period you may see growth, and the models 
actually predict periods of irregularity. The effects are also 
not universally distributed. As you said, precipitation and 
weather patterns will change dramatically depending on where 
you are. Some areas will get more rain, some will get less, 
some areas will accumulate more snow and ice, but the bulk of 
the data suggests that we are definitely going into a 
significant warming trend.
    The general scientific community agrees with that.
    Mr. Tiahrt. For this weekend I am rooting for the warmer 
trend.
    Mr. Dicks. Mr. Moran.

                          ENDOCRINE DISRUPTION

    Mr. Moran. Thank you, Mr. Chairman. I have any number of 
questions. I am just going to focus on one specific one because 
I know that it will not be asked otherwise.
    I am concerned about the cut in the Priority Ecosystem 
Science account. Now, it is suggested that you are going to 
pick this up in the Biological Research and Monitoring account 
you have in that justification. There is no reference to our 
concerns.
    And what I want to talk about, nobody else seems to be 
particularly excited about, but I am really concerned. Small 
bass population, as well as other populations, and especially 
in the Potomac, have an unbelievably high rate of intersex fish 
found in the Potomac. In other words, the male fish have female 
egg cells in their testes, and it is called testicular 
oversights, T.O. In the Shenandoah, the southern branch of the 
Potomac, it is an 80 to 100 percent occurrence. There is 
something really seriously wrong, and here the Potomac River 
flows right through our Nation's capital, and in this part of 
the Potomac River we have about a 70 percent occurrence, it 
appears when they do the studies.
    I would like to know if you are equally concerned about 
this, what are we doing about it, because it strikes me that 
this is the canary in the mine. I mean, this stuff is not 
supposed to happen.
    Mr. Dicks. We have about 3 minutes on this vote.
    Mr. Moran. Okay.
    Mr. Dicks. So let us give him his answer and then we will--
--
    Mr. Moran. I did not know we had----
    Mr. Dicks [continuing]. Go vote, and then we are going to 
come back.
    Mr. Moran. I am not going to be able to come back, but I 
would appreciate----
    Mr. Dicks. The rest of us will.
    Mr. Moran. Yeah.
    Dr. Myers. Thank you for that question, Congressman Moran.
    One of the things I do want to point out is this product, 
which is a synthesis of 5 years of research in the Chesapeake 
Bay area. This is a great example of how we are using the 
research dollars to look at the integrated effects on the 
Potomac and other rivers in the Chesapeake Bay.
    You are right. Your observations are definitely correct. 
Endocrine disruption is occurring within the watershed. That is 
clear. There are many, many possible chemical combinations that 
can cause this. We do not understand this well. Certainly we 
have gotten a much better handle on point source, distribution 
of pollutants, but non-point source that is widespread, for 
many reasons, we do not have as good an understanding. These 
are often chemicals that do not bioaccumulate, so parts per 
millions or parts per trillions in the water can cause this 
effect, and there are many, many of these man-made chemicals 
that are occurring in the watershed, and we are clearly seeing 
the effects on the bass.
    We are doing research. We have cut that back some in this 
budget to, I believe about $200,000, to meet the target. We 
still consider it an important research area. We include it 
again, as you can see, in our synthesis here of critical issues 
that we are looking at within the watershed.
    Mr. Moran. Okay.
    Mr. Dicks. We are going to come back after these votes.
    Mr. Moran. All right. We will do that. Okay.
    Dr. Myers. Thank you.
    [Recess.]

                  EARTHQUAKE HAZARDS FUNDING REDUCTION

    Mr. Dicks. As you know, we in the Northwest are quite 
familiar with the earthquakes and volcanoes. First please 
explain why and how your request came up with the sizable cuts, 
maybe you cannot answer that, to the Earthquake Science 
Program.
    I see that you are proposing to substantially cut the 
Cooperative Earthquake Grant Program, and you are proposing to 
cut the Earthquake Hazard Science Program. What exactly are 
these cuts? What science programs will be reduced? And what 
would be the impact of these efforts?
    Dr. Myers. Thank you for that question, Mr. Chairman.
    First of all, the cuts were made to be able to meet a 
budget within target and still be able to maintain the new 
initiatives.
    Mr. Dicks. Right.
    Dr. Myers. In looking at that, probably the most important 
thing to maintain was the Advanced National Seismic System and 
our warning capacity, and we are unique in that we have a 
statutory obligation to be the earthquake warning and analysis 
program for the country. The National Earthquake Information 
Center has done a wonderful job in 24-hour warning operations. 
So to maintain that core capacity, we left that untouched.
    Additionally, we recognize there are many key important 
areas of research, and we did not cut all the Earthquake Grants 
program. We cut some of the external Earthquake Grants program, 
again, an important program. We will use a competitive process 
within that program to maintain that.
    Mr. Dicks. What would the grants be used for? What are they 
used for?
    Dr. Myers. With the universities for key research and in 
areas of earthquake prediction, in technology improvement, in 
basic earth crustal research that then leads you to better 
understand earthquakes and potentially could lead to future 
predictive models with more accuracy.
    Mr. Dicks. How much is left in the Grant Program?
    Dr. Myers. We cut $3.0 million out of the external grants 
program and of a total of $6.0 million, half of it is left.
    Mr. Dicks. And you are going to make that $3.0 million 
competitive?
    Dr. Myers. Yes. Other places that the decrease would go is 
towards terminating a feasibility assessment on earthquake 
early warning in California, some decrease in the support for 
state geological surveys through the Central U.S. Earthquake 
Consortium a decrease for hazard mapping in the New Madrid 
seismic zone, and a decrease in regional LIDAR acquisition 
partnerships in the Pacific Northwest used for fault 
identification beneath heavily forested landscapes. And then 
evaluation of the rupture history of the San Andreas Fault.
    Mr. Dicks. Okay. Can you take a moment to explain some of 
the USGS recent findings concerning large earthquake faults in 
the Pacific Northwest and the potential for large damage to our 
infrastructure and the possibility of tsunamis?
    Dr. Myers. Mr. Chairman, through some of the Multi-Hazard 
Initiative work funded through your Committee, we were able to 
do some work, particularly some high quality LIDAR and field 
research that identified some new faults in the Pacific 
Northwest, faults that people were just not aware of before.
    In addition to the faults that can cause earthquake damage, 
large faults and movement can cause tsunamis as you are aware. 
So additional work with the LIDAR helps also with understanding 
better the groundcover and elevation data that allows you to 
better model the effects of tsunamis.
    So that work has been remarkably successful in looking at 
both earthquakes and hazards respective to tsunamis, but in 
addition it has helped identify areas of potential landslides.

                   VOLCANO HAZARDS FUNDING REDUCTION

    Mr. Dicks. All of us in the Pacific Rim are quite familiar 
with volcanoes and the potential for hazardous eruptions. Your 
budget reduces volcanology as basic science. What will be the 
impacts of that?
    Dr. Myers. Instrumenting and managing volcano research is 
very expensive, particularly because on many of our volcanoes, 
the equipment has to be left, and if a volcano does erupt, we 
lose the instrumentation. That is really evident in Alaska 
where we have many active volcanoes that are very poorly 
monitored, and we lack equipment.
    We will not have sufficiency to monitor and put seismic and 
other equipment out on some of these volcanoes. So we are going 
to have to rely more on remote sensing and the Advanced 
National Seismic System to pick up potential eruptions. So 
certainly we lose some capacity with respect to the ability to 
predict, I think particularly in the Alaska area.
    For more specifics I might call up Peter Lyttle.
    Dr. Lyttle. It affects the number of instruments available, 
using Mount Rainier as an example.
    Dr. Myers. Okay. So Mount Rainier, as well, would be 
affected because of the ability to instrument it with seismic 
monitoring equipment.
    Mr. Dicks. Give us your name again for the record here.
    Dr. Lyttle. Peter Lyttle.
    Mr. Dicks. And your title?
    Dr. Lyttle. Acting Associate Director for Geology----
    Mr. Dicks. Is that all you need?
    Dr. Myers. There will also be some cuts to the ability to 
predict and manage mudflow and volcanic ash. You know from 
Mount Rainier, the significant risk of things is called lahars, 
which are basically mudflows.

                    EARTH SURFACE DYNAMICS REDUCTION

    Mr. Dicks. The request also cuts, you may have discussed 
this but I want to make sure we have it for the record, the 
research on earth surface dynamics by over $3 million.
    Please explain what kind of geomorphologic research will be 
halted and what studies will still be under way if the budget 
is approved.
    Dr. Myers. For that I would like to call up Peter to----
    Mr. Dicks. Why don't you come up and sit next to, we have a 
chair right there.
    Dr. Lyttle. The primary impact would be on discontinuing 
work in the Great Lakes, the Great Lakes Surficial Geologic 
Mapping Coalition. It is a cooperative agreement we have had 
with four states in the Midwest: Ohio, Illinois, Michigan, and 
Indiana, and in addition, it affects some of the money going to 
priority ecosystem research.
    Mr. Dicks. Okay.
    Dr. Lyttle. The basic climate research is maintained, 
however.

                      EXISTING LANDSAT SATELLITES

    Mr. Dicks. I understand you are continuing efforts to 
produce the next Landsat satellite mapping tool, and you are 
also continuing to use the existing Landsat satellite, even 
though they have problems. How are the existing satellites 
performing now, and how long will they last?
    Dr. Myers. Mr. Chairman, theoretically, they have enough 
fuel to be able to last to the late 2011, early 2012 timeframe, 
by which time we hope to be able to launch Landsat 8. However, 
as you know, there are significant problems with systems on 
both satellites. With Landsat 5, there have been problems with 
batteries. While those problems have been largely worked 
through, and we are going through a process to restart 
operations of the satellite, we did lose one of the two key 
batteries. We were able to get that battery back up and now it 
is under operational test mode, the best way to describe it. 
With Landsat 7 we continue to have the scan line correction 
problem, and we have created some software fixes for that in 
the data, but it has downgraded the satellite to some extent.
    So if there are any more operational failures, then we are 
likely to lose the satellites because we have very little 
redundancy left in them. But theoretically, if no other systems 
break, there is the potential not to have a gap between 
Landsats 7 and 8.

                    LANDSAT DATA CONTINUITY MISSION

    Mr. Dicks. What are the costs involved in the next Landsat 
launch, and what is the budget request, and how does it relate 
to other federal investments such as at NASA?
    Dr. Myers. Mr. Chairman, I might call Barb Ryan up here, 
Associate Director for Geography, but the cost of the satellite 
is a little over $500 million, I believe, $530 million is it, 
Barb?
    And then we have about $24 million a year to be able to 
build and move forward the systems to receive the data, the 
antenna, the data collection, data management systems to be 
able to build that satellite. Again, it includes a basic 
Landsat at the same 15 to 30-meter resolution in terms of the 
optical instrument and the current plan will not have the 
thermal imager.
    Mr. Dicks. Yes. That is where we were, tell us about that.
    Ms. Ryan. Yes. That is exactly right, and I think the 
important part about Mark's response is to clarify what 
responsibilities NASA has for this next satellite and what 
responsibilities the Department of the Interior and the 
Geological Survey have.
    We have responsibilities for the ground processing system 
and the data dissemination and data distribution functions. 
NASA has responsibility for building and launching the 
satellite. As soon as that satellite is built and launched 
successfully on orbit, then ownership will be transferred to 
the Department of the Interior and the Geological Survey, just 
as with Landsats 5 and 7.
    Mr. Dicks. Why do they not want to do the thermal imager? 
Is it----
    Dr. Myers. Basically the thermal imager is estimated to 
cost around $100 million to design and build the instrument. 
The instrument is compatible with the current satellite, but 
because NASA has not had specific funding to build the 
instrument, they have not included it in the design to date. 
They estimate that to include it they would need the funding. 
Then they would also need time to integrate it into the 
satellite, which could delay the launch up to a year at this 
point.
    So it is basically a funding issue with NASA.
    Mr. Dicks. Funding with NASA. And we just have to work with 
them and try to figure this out.
    Mr. Tiahrt. Go ahead. Was there anything you wanted to add?
    Mr. Tiahrt. I thought maybe Jo Ann was ready. I will go 
ahead.
    Mr. Dicks, I can, if she is ready, we can go to her, but it 
is up to you.

                           POLAR BEAR LISTING

    Mr. Tiahrt. Well, I was curious about the polar bear 
listing and why it is taking so long. Is there some gap in the 
data, or do you know from your perspective what the status is?
    Dr. Myers. Mr. Tiahrt, about a year and a half ago when the 
initial listing decision was put out there--the draft proposed 
listing to move it forward, there were clearly some significant 
data gaps in the information available to the Fish and Wildlife 
Service. There was a significant gap in the ability to model 
and predict future habitat and then future behaviors on bears 
in that habitat.
    So at that time Dale Hall asked the Survey and the 
Secretary asked the Survey if we could help fill in some of 
these key data gaps. And, again, one of the strengths the 
Survey has is the ability to bring physical and biological 
science together, along with modeling.
    So we completed an extra season of field work on polar 
bears to get better population data offshore of Alaska. We were 
able then to be able to link that back to climate models and 
sea ice models and used a range of ten different sea ice models 
for prediction. Then we looked at the various habitat models, 
and we were able to create a relationship that creates a 
predictive model moving forward. It also allowed us to look not 
just at simple population groups of polar bears, there are 19 
major subpopulations around the Arctic, but to look at how 
bears could be designated into eco-regions, which would allow 
us to fill the gaps in data, not with actual population data 
which did not exist, but with population data from a smaller 
subset of that location that could be extracted and 
extrapolated across a wider region.
    Mr. Tiahrt. Do those 19 subgroups you mentioned include 
Russian territory as well?
    Dr. Myers. That is circumpolar. So that includes----
    Mr. Tiahrt. Circumpolar.
    Dr. Myers [continuing]. Russia, Greenland, it includes the 
United States, Norway, all the way around the polar region. So 
what we were able to do is develop a much more sophisticated 
and robust way to model the existing data, but then also 
develop predictive tools that did not resolve in single 
deterministic outcome but looked at a range of outcomes over a 
long period of time required by the listing. That created nine 
reports, which then the Fish and Wildlife Service integrated 
into their analysis.
    In doing so they recognized it was significant new 
information, felt they needed to go out for public comment. In 
preparing those reports we kept the results from the Fish and 
Wildlife Service, State of Alaska, and other interested parties 
to keep the science clean and away from any policy decisions 
until it was fully peer reviewed through an independent peer 
review process. Then we released the data simultaneously to the 
Fish and Wildlife Service and to all interested parties.
    When Fish and Wildlife looked at it, they said this 
information is significant. We need to go back out for public 
comment. So the integration of that more-detailed science 
analysis has taken time, the public comment period is taking 
time, the comments they received on our science as well has 
taken them time, and that, in fact, has caused, I believe, some 
of the delay that Dale Hall talked about.
    Mr. Dicks. So the delay really is based on filling these 
gaps?
    Dr. Myers. Yes. Is it perfect? No. We still lacked basic 
population data on offshore Russian populations and in other 
parts of the eco-regions where the dataset is at best fairly 
unreliable, and we have extrapolated and looked at the data the 
best we can through the Survey science.
    Mr. Tiahrt. We have not done physical counts in the Russian 
territories. We are relying on them to give us that 
information.
    Dr. Myers. We are relying on the Russians. We have some 
cooperative agreements, as does the Fish and Wildlife Service. 
We are working with Russian scientists. Again, we were able to 
acquire some additional datasets that Fish and Wildlife Service 
did not have prior to that with the Canadians, and I believe 
serving the Davis Straits, but certainly some additional 
population information which helped fill in the gap. It did not 
completely fill in the gap. We have key monitoring gaps in 
terms of quality data.
    Mr. Tiahrt. Which is kind of unusual. Most of the time we 
have pretty good data when we make these decisions.
    Dr. Myers. Mr. Tiahrt, unfortunately, in these complicated 
decisions where you have a species that is wide ranging, we 
often lack good data. And that is one of the real issues in 
terms of building capacity. We need to do, in my opinion, a 
more holistic job of monitoring to more rigid scientific 
standards so that we can control quality. We also need better 
historical data so we can predict and monitor and match and 
look at changes over time.
    Mr. Tiahrt. Mr. Chairman, I will defer to----
    Mr. Dicks. Mrs. Emerson, please.

              GEOLOGIC HAZARDS AND EMERGENCY PREPAREDNESS

    Ms. Emerson. Thanks. Sorry I was late coming back. Thanks 
for being here, Director Myers, and you know I greatly 
appreciate the excellent work that you all do at the USGS, and 
I also appreciate the great contribution to the science 
community that you make as well. So thanks for being here.
    I also know that when I was gone the Chairman asked about 
the Geologic Hazards, Resources, and Processes activity taking 
a hit. And obviously living right smack dab on the New Madrid 
earthquake fault, which has had perhaps the worst earthquake in 
the country, and while people do not associate earthquakes with 
the middle of the country, nonetheless, we are quite concerned 
in the eight-state region that would be impacted by another 
earthquake of the magnitude we had back in 1811, 12, 13. I also 
was told that any kind of work that would be done with regard 
to the New Madrid seismic zone would also be cut, those funds 
would be cut.
    But just talk in general about how the USGS is undertaking 
the mapping of geological hazards and the importance of that 
process for emergency preparedness.
    Dr. Myers. Thank you, Congresswoman.
    I think the best example of that is the multi-hazards 
approach that we are now using in Southern California, have 
done additional work in the Northern Puget Sound, and are now 
trying to bring to the New Madrid area, and that is looking at, 
first of all, monitoring capacity, making sure the seismic 
network is adequate, for instance, on earthquakes. Then making 
sure that the network of data is integrated so we can look at a 
hazard from an entire national framework. We can use the value 
of all that data together.
    Secondly, it is looking at future modeling that might 
predict not only where the earthquake is occurring but what 
areas are susceptible to greater shaking. That is the concept 
of the Shake Map or PAGER System that you have seen on the 
websites that people use to build maps of susceptibility and 
vulnerability. Then we develop earthquake scenarios that are 
reasonable, look at extreme cases, and then provide that data 
back to emergency responders so they can see what a worst-case 
scenario looks like, so they can get a sense of prioritization 
of what areas to focus on, how much emergency response capacity 
to build, how to reinforce buildings.
    The other big aspect is we are recognizing that a worst-
case scenario does not include just a single hazard. If you 
look again at an earthquake and you are in a coastal area, 
tsunamis are a real possibility. If you look at a fire area, a 
landslide may follow. So looking at community resilience, 
economic consequences, and the integration of multiple hazards 
together in that worst-case scenario is critical. We saw that 
in New Orleans. You know, it was not just one hurricane, it was 
two. It was not just the surge. It was the residual water that 
was left in the community and the health issues that followed.
    So building an understanding how hazards work together and 
how community resilience works together and developing models 
are areas where some of our geography people are doing some 
great social and economic science and predictive models similar 
to and in concert with the insurance industry, emergency 
responders, and city planners.
    So, it is a multi-hazard approach that has multiple levels 
to it, getting all the way down to really protecting citizens 
and providing decision support tools that allow folks to really 
make those important kinds of decisions with scientific data to 
be able to run different scenarios as to what it is worth, and 
then assign some sense of probability to risk.

                              NATIONAL MAP

    Ms. Emerson. I have no doubt that my insurance company has 
talked with USGS because I just got a call last week from my 
insurance agent who said, oh, Jo Ann, you know, Cameron Mutual 
is not writing earthquake policy anymore, and we have to have 
it where I live. And so we had to go to Lloyds of London to get 
a residual policy, interestingly enough.
    So it seems to me that some of the unintended consequences 
would make it very sad, you know, from our perspective in these 
eight states that that particular part of your budget was cut, 
and hopefully we can find a way, Mr. Chairman, to help bring it 
back a little bit.
    Also, let me ask you, Director, about the National Map. 
Obviously you know that that is of great interest to me, and I 
think it is so critical that the general public and private 
entities have the ability to get the geospatial information 
that you all produce, and it certainly does have a profound 
impact on our understanding of natural resources and the 
environment.
    Do you expect the National Map to be incorporated into 
other research and projects conducted not only by USGS but by 
other agencies of the Federal government? I will just ask you 
all three of these questions together. And I would like to know 
what you foresee the main uses of the National Map will be, and 
how that will be applied to real world projects, and then, 
well, then I will ask you a follow up to that.
    Dr. Myers. Thank you, Ms. Emerson, for that question.
    First of all, when we developed our new science strategy 
and hopefully, we have copies if you don't. It looks at six 
major societal benefit areas. But underpinning those areas is 
the baseline of integrated data necessary to look from a 
national perspective or regional, or even a local perspective, 
at these issues holistically. As we mentioned multi-hazards for 
ecosystems, for climate change, for energy, all these same 
sorts of baseline data sets are needed, and they need to be 
integrated in a better fashion than we have today. Not only the 
science be integrated but the baseline data that underpins that 
science is almost universal.
    The topographic map, for over 100 years, has served as that 
vehicle. As we move to the future, demands for that data have 
grown. We have modified the Earth's surface significantly, and 
so the datasets must be updated as populations grow, cities 
change, and road infrastructure changes; we are the largest 
mover of dirt. The natural processes now are humans on the 
Earth's surface. So the data changes. We need to get new 
updated data and often at higher resolutions than we have today 
that underpins it. It underpins the basic economy and human 
safety and underpins our key initiatives, both clearly is 
critical to Department of the Interior's management issue. So 
we see the National Map as the vehicle for providing that 
underpinning data.
    In the challenge for the National Map, and as you know, I 
have taken a personal interest in seeing that we move this 
forward, we need to have a better way of getting data that is 
collected across the country by lots of different agencies and 
for lots of different purposes, into an integrated framework. 
You know, the view for the National Map is seamless. Well, it 
is not often easy to do that unless you are underpinning data 
models that link these various disparate layers of data 
together are scaleable, they work the same scales, and that 
many of the processes integrate them together, which on the 
paper maps were done manually, can be done electronically. We 
have the technology, but we do not have yet the sophisticated 
data model.
    So first is we are developing new data models for the 
National Map that are fully integrated. So we have done it for 
the hydrological data. We are working to systematically 
integrate the five other major vector data layers. So that is 
one big change. That is the National Map version 2.0 we call 
it. So as we collect data, it immediately goes into the 
National Map.
    We are working to develop coalitions of users that are 
willing to have a greater share of data. If we did it on a 
national framework, collected data, rather than piecemeal, we 
could cover the whole country instead of having what we 
currently have: a piece of Swiss cheese, a patchwork quilt, due 
to funding limitations.
    We are trying to get a more holistic way of coordinating 
that, trying to find maybe more efficient ways to acquire the 
data layers, and then getting that data immediately into the 
National Map framework, which is the long-term national archive 
of this information.
    So that is the idea for the seamless National Map 2.0. In 
many cases, digital elevation data are entirely too coarse for 
the purposes needed. New technologies like LIDAR can provide 
better resolution. So we are working with a coalition of users 
that want to put partnerships together, moving forward LIDAR 
for the Nation approach, a holistic national approach. The same 
way imagery data are acquired, the way we do land cover, the 
way we are able to acquire and work for Department of 
Transportation on roads. Just like how much infrastructure data 
the military needs in terms of line art versus imagery to be 
included in the topographic map.
    In working with all those user groups, we are moving the 
National Map 2.0 forward into full production mode to get 
beyond the paper maps.
    The third version we are looking at, and the National 
Academies recommended this to us, and we are following their 
lead, is even a National Map that goes beyond integrated data 
layers to actually provide predicted modeling capacity. At the 
same time then as the Nation needs these data, they are readily 
available. It is not licensed. It is out there for free, and 
you can download it.
    So we have worked and have made significant advancements in 
making these data available on the Internet so any user can go 
and download it and print it out.
    Again, as we go forward, the biggest challenge is as FEMA 
collects data or we collect data, BLM collects data, Fish and 
Wildlife collects data, States collect data, that we get that 
data into the National Map as quickly as possible, and it is 
quality controlled before it goes in so the dataset is 
authoritative.

             STAFF REDUCTION IMPACT ON MAPPING CAPABILITIES

    Ms. Emerson. So which is quite comprehensive and exciting 
once at least you have the 2.0 version available and then go 
beyond that, but given the fact that the Administration's 
budget requires you to lose 300 full-time employees, how is 
that loss of employees going to impact your mapping 
capabilities?
    Dr. Myers. We have to make some really tough choices, such 
as how much external money we provide for grants for people to 
acquire data, how much money we spend internally in our mapping 
centers to develop these more sophisticated data models and 
tools, and how much coalition building can we do to get various 
groups to agree to common standards.
    For instance, we put mapping liaisons out in most states to 
help the states and assist them in grants and contracting 
assistance so that they can acquire high-quality data. So we 
can decrease grant money to put more focus on the modeling. We 
have to make those kinds of choices with a limited budget, and 
it obviously slows down the process. So either we acquire less 
data, or we build a better integrated system, and we made 
tradeoffs. We are making those tradeoffs and having discussions 
internally, and we have some flexibility to do that thanks to 
the process of moving the National Geospatial Technical 
Operations Center (NGTOC) forward.
    Ms. Emerson. Was that decision made by the OMB or by you 
all as far as the final number of FTEs that you were going to 
have to cut?
    Dr. Myers. The effect of the net budget comes out of the 
combined negotiated process with OMB. How we manage that 
process is pretty much left----
    Ms. Emerson. To you all.
    Dr. Myers [continuing]. To me.
    Ms. Emerson. Okay.
    Dr. Myers. My responsibility.
    Ms. Emerson. Okay. Thank you very much. Thanks, Chair.
    Mr. Dicks. It is 300 out of how many?
    Dr. Myers. Three hundred would be about the total number of 
employees we would lose under the President's budget proposal.
    Mr. Dicks. For your entire program?
    Dr. Myers. For the entire Geological Survey, not just 
mapping.
    Ms. Emerson. 5.5 percent of the workforce.
    Mr. Dicks. Yes. So it is 5.5 percent, so that is----
    Dr. Myers. Approximately 5,500 staff-years.
    Mr. Dicks. Approximately 5,500 staff-years Can you do that 
mostly by attrition?
    Dr. Myers. We cannot. We will have to use the Voluntary 
Separation Incentive Program/Voluntary Early Retirement 
Authority (VSIP/VERA) and other processes. One of the 
challenges is the costs of those actual layoffs are not 
incorporated into our budget, so if we look, for instance, at 
the Mineral Resources Program, which has the bulk, about 210 of 
the 300, it will cost us about $9 million to do the VSIP/VERA 
and to lay the folks off.
    Mr. Dicks. Now----
    Mr. Tiahrt. Mr. Chairman.
    Mr. Dicks [continuing]. In this mapping, go ahead.
    Mr. Tiahrt. How much would attrition account for on a 
normal year or in this year? How many retirements do you have 
coming up, and how will that impact?
    Dr. Myers. I do not know the number of retirements. 
Generally we have very few retirements. One thing about the 
Survey is we keep employees a long time. Certainly when we look 
at the process a lot of those retirements have already been 
encouraged in programs. So we see these largely as real 
layoffs, plus they are specific to a program. For instance, the 
Mineral Resources Program takes the most of the cuts. So 
certainly within that program and; excuse me, the two big cuts 
will be the NAWQA Program, I believe, at about 70 FTE, and then 
the Mineral Resources Program at about 210 FTE. So those 
programs----
    Mr. Dicks. See, they reduce the Mineral Resources Program, 
which we are going to put back in more than likely. So part of 
the problem goes away.
    Dr. Myers. Right.

                      NATIONAL APPLICATIONS OFFICE

    Mr. Dicks. Let me ask you this. You mentioned the mapping 
issue. Now, you and I have been in a discussion about the 
National Applications Office, the new one at DHS, I mean 
Department of Homeland Security. And the role that USGS plays 
in the Civil Applications Committee, what is it, the CAC?
    Dr. Myers. Yes.
    Mr. Dicks. Now, on the mapping, let us go to the mapping 
first. Are you using classified data in that, from our national 
technical satellites?
    Dr. Myers. Mr. Chairman, we certainly do use classified 
data.
    Mr. Dicks. They do a lot of mapping on----
    Dr. Myers. Well, yes. We do use that data, however, though, 
we do not release that information----
    Mr. Dicks. Okay.
    Dr. Myers [continuing]. Very often. But it is used 
particularly in our case with the imagery capacity that exists 
in national technical means to look at issues like volcano, 
volcanic eruptions, to look at earthquakes, to look at 
ecological issues. For instance, there has been a long-term 
program to look at certain climate change sites around the 
world.
    So we have used that from a strategic scientific purpose. 
We do not use it in general use. One of the things under the 
CAC Charter is that we use national technical means when there 
is no other means available in order to do that work. So if it 
is commercial or----
    Mr. Dicks. So if there is commercial imagery available, 
then you do not use it.
    Dr. Myers. Do not use it.
    Mr. Dicks. I understand. Now, you know there has been this 
negotiation regarding the establishment of the National 
Applications Office. How is this going?
    Dr. Myers. Mr. Chairman, currently there is a draft charter 
which has been signed, I believe. Certainly it has been signed 
by the Secretary of the Interior, which, again, you had 
required Congress to see. So we have a charter to move it 
forward. There is a conceptual operations plan associated with 
that charter that, I believe, you also received. Currently DHS 
has, I believe, at least half of their planned 35 staff members 
in our Advanced System Center. We are still operating the CAC, 
and the agreement is to operate the CAC until the new National 
Applications Office has obtained capacity under the plan. Then 
the CAC would sunset and then be replaced by this National 
Applications Office.
    Mr. Dicks. So the CAC would sunset?
    Dr. Myers. The CAC will sunset under this plan. The CAC is 
chartered, but the charter would be sunsetted. It will take 
then----
    Mr. Dicks. How do you think scientists are going to feel 
about that?
    Dr. Myers. Mr. Chairman, I think the scientists have 
significant concerns with respect to the wider use of data 
because the NAO incorporates not just scientific applications 
but also looks at Homeland Security and law enforcement. So it 
widens the use of sensors that are used, and also has, again, a 
closer association in areas where the scientific communities 
typically does not get involved.
    I do think the structure is less collaborative than the CAC 
structure, however, it also still provides access to the data. 
So the scientific community, I believe under this structure 
will maintain its access to the information. The processes 
entailed in collaboration that were in the CAC will be very 
different. It will be a much more structured.

                  PACIFIC NORTHWEST EARTHQUAKE FAULTS

    Mr. Dicks. Well, just speaking for myself, and I do not 
expect a response to this, my judgment would be Congress ought 
to at least think about keeping these two things separate. But 
that is just my own personal take on this.
    Going back to the Pacific Northwest issues we just talked 
about for a second, I understand that ongoing research in the 
Northwest has found new major earthquake faults which bisect 
the Seattle-Tacoma area. Can you please give us an update on 
these findings and their relevance to disaster planning? And 
how does the USGS work with NOAA on tsunami research monitoring 
and prediction?
    Dr. Myers. Mr. Chairman, we did identify, again, by field 
checking, but also by the LIDAR data that was shot, new faults. 
I think they have a significant implication for increased risk 
of earthquakes in the area, and I believe there is some 
additional modeling going on about that. Peter, if you want to 
come up and talk more----
    Mr. Dicks. Yes. Why don't you come up, Peter.
    Dr. Myers. Also, with the tsunami research it is very 
closely structured. We do the earthquake assessment, we do the 
seismic assessment. They work with the NOAA buoys and the 
predicted modelings for the tsunamis and then NOAA has 
responsibility for tsunami warnings from the tsunami warning 
centers. So it is a very constructive collaborative effort with 
tsunamis.
    Dr. Lyttle. In addition to what Mark said about the faults 
that you referred to in the cities of Seattle and Tacoma and 
others, it is not just from the LIDAR, but we have been doing a 
lot of geophysical coverage. So we have recognized three or 
four east-west trending faults, and we have a much better 
understanding of very deep silent earthquakes along the 
subduction zone as well. But the first faults you were talking 
about are quite shallow but our knowledge has increased greatly 
of these very deep faults which potentially could cause the 
most damage.

                          GEOPHYSICAL SCIENCE

    Mr. Dicks. And explain geophysical. What does that mean? 
What kind of work is that?
    Dr. Lyttle. Gravity and aeromagnetics. You fly airplanes 
over the Earth's surface and measure very small changes in the 
Earth's magnetic field. It is affected by different types of 
rocks and so it is a very good way of mapping, using remote 
sensing, the different types of rocks in this area.

                   MOUNT RAINIER MONITORING EQUIPMENT

    Mr. Dicks. Now, you said in your previous testimony that 
there was some monitoring equipment you would not be able to 
get for Mount Rainier. Can you tell us what that is?
    Dr. Lyttle. Well, it is usually seismic instruments.
    Mr. Dicks. Yes.
    Dr. Lyttle. The National Volcano Early Warning System calls 
for instrumentation on many active volcanoes in the United 
States, and Mount Rainier is well monitored. It would just 
affect the number of monitors we have. It is----
    Mr. Dicks. Okay. It is the numbers.
    Dr. Lyttle. Yes.
    Dr. Myers. Do you want to talk a little bit about the 
devices that measure changes in elevation as well?
    Dr. Lyttle. We have a number of things. Tilt meters, using 
remote sensing for LIDAR, I am not exactly sure which 
instruments you are referring to there, Mark.
    Dr. Myers. Well, on the key volcanoes often before an 
eruption there is a filling of the lava chamber, and that 
causes some elevation changes that are key to collect as well 
as the seismicity associated with them.
    Dr. Lyttle. Yes, and once again, that often is done 
remotely using INSAR, Interferometric Synthetic Aperture Radar.

                      CASCADES VOLCANO OBSERVATORY

    Mr. Dicks. I understand that the recent multi-year eruption 
at Mount St. Helens has subsided. Please update us on that and 
your ongoing monitoring of this volcano and others from the 
Cascades Volcano Observatory.
    Dr. Lyttle. Mount St. Helens is still being closely 
monitored, but, yes, we have noticed a considerable drop-off in 
the last 2 years, and because of that, our monitoring effort is 
slightly less. And we have other pressing demands. We have some 
international work in Indonesia going on right now and some of 
those people that have been working on Mount St. Helens prior 
are helping internationally. It is a wonderful research test 
bed. We have learned a lot about active volcanism in the Mount 
St. Helens area for 20, 30 years now.

                    VOLCANO MONITORING IN NORTHWEST

    Mr. Dicks. Okay. How does USGS stand with regard to volcano 
monitoring in the Northwest? You have covered part of that. Are 
you able to provide sufficient monitoring devices and studies 
to help alert first responders if a volcanic event were to 
occur?
    Dr. Myers. I think one of the big challenges, too, is to 
monitor all within the Cascades Range, all the volcanoes, and 
there are nine volcanoes there that we estimate that we do not 
have adequate monitoring.
    The second thing, I think the volcano observatories do a 
good job of early warning and prediction, and again, that has 
been a priority to maintain that capacity.
    The biggest challenge, again, is the sufficiency of the 
monitoring capacity, capacity to monitor, and the ability to 
monitor an earthquake once you see the first initial 
seismicity, you want to get more instruments out on, and then 
have the capability for the costs because then you have to 
helicopter them out typically, and you have to have the 
instruments in stock to be able to put them out there. If the 
volcano does erupt, you are going to lose the instruments. So--
--
    Mr. Dicks. So do we have----
    Dr. Myers [continuing]. It is expensive.
    Mr. Dicks [continuing]. A deficiency in the backlog of 
instruments? I take it we do.

               FUNDING FOR CASCADES AND ALASKA VOLCANOES

    Dr. Myers. We do. We have a funding problem both for the 
Cascades and for Alaska with respect to adequacy of 
instruments. There is another series of volcanoes whose ash 
eruptions become aviation hazards. This is particularly true in 
Alaska, and we lack a lot of sufficiency of capacity to monitor 
some of these volcanoes. They are low risk to populations, but 
they are high risk to aviation.
    Mr. Dicks. For the record just put in what the deficiencies 
are for Alaska and the Cascades and any others that you have.
    Dr. Lyttle. We will be happy to do that.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2183A.249
    
    Mr. Dicks. Yes.
    Mr. Tiahrt.

                  PARTNERSHIPS RELATED TO WATER CENSUS

    Mr. Tiahrt. You are going to do your first complete water 
survey since 1972, and you have got a little over $9 million 
for your portion of it. I understand there is some coordination 
with the Bureau of Land Management, and that could add another 
$30 million. Is that to the total effort?
    Dr. Myers. Mr. Tiahrt, I believe the total numbers include 
the Bureau of Reclamation. That is the other big component of 
dollars in the West not the BLM. They are doing some ecological 
work but also a lot of work on needed infrastructure with 
respect to water demands and availability.
    Mr. Tiahrt. Are they going to give you the data that you 
will include in your survey?
    Dr. Myers. We will certainly work closely with them and 
include data. When we talk about our survey, we will 
systematically cover the country in about 10 years. So the 
first down payment of what we need would only do the first year 
of a 10-year program. So we would need to see continuity of 
budget to be able to maintain the census.
    Mr. Tiahrt. Are there other Federal partnerships or state 
partnerships that can help you fund this effort or contribute 
data to the effort?
    Dr. Myers. Certainly we are working closely with the State 
geological surveys, and in fact, the funding request includes 
money actually going out to the surveys which are themselves 
struggling a bit to provide data. They have key hydrological 
data. We are working closely from ecological standpoints 
because we want to understand the watershed as a whole, you 
know. To understand the water you have to understand the land 
cover, the watershed, the runoff rates. So we are doing 
ecological and land cover work as well.
    We are looking at some very broad partnerships, as well as 
certainly working with our folks across the Survey, not just 
within our water discipline.

                     WATER CENSUS PERIODIC REPORTS

    Mr. Tiahrt. In your plans for reporting are there, will 
there be periodic reports until you complete the census?
    Dr. Myers. Yes. As we did in the Great Lakes pilot, we will 
release the data as we complete it. Now, the data, the real-
time monitoring data we gain goes into the National Water 
Information System (NWIS). So certainly the data itself is 
almost immediately accessible. The peer-reviewed science will 
be released as it is available, so we will march through, and 
we will do a region and while we do that, there will be a peer-
reviewed set of literature, and I could call Bob Hirsch up 
here. He might want to be more specific on how we plan on 
releasing the interim reports.
    Dr. Hirsch. We have done at the request of this committee, 
we are nearly completed with a pilot effort in the Great Lakes 
Basin, in which we have published reports, for example, 
describing trends in streamflow, understanding how it has 
changed, and we are seeing some climate-related effects in 
streamflow seasonally. This includes changes in storage and 
major aquifer systems, estimates of regional recharge rates, 
and understanding water use in the region and how it has been 
changing over time. All of those will come out as they are 
developed in the course of the census.
    The census will collect relatively little new data. It is 
really bringing together and really deriving meaning from the 
data and understanding the big-scale picture, just as is done 
by many of the other statistical agencies of the Federal 
government like the Bureau of the Census or Bureau of Labor 
Statistics, et cetera, and really trying to put the big picture 
story together.
    We have already begun coordination with many state agencies 
through our Advisory Committee on Water Information, and I have 
had one session with those stakeholders to talk about what they 
can provide us to help us do this, as well as what we can 
provide to make it as useful as possible to them.

                     WATER COORDINATION WITH CANADA

    Mr. Tiahrt. Have you coordinated with the Canadian 
government? You were talking about the Great Lakes Basin. 
Certainly that would include Canada.
    Dr. Hirsch. That is correct. The study we have done in the 
Great Lakes Basin has been coordinated and interacts with the 
Canadians extensively. We worked closely through the 
International Joint Commission with the Canadians on water, 
describing the water resources all along our Canadian border. 
And similarly we attempt to do that with Mexico. It is a little 
bit more challenging frankly on the Mexican side than it is on 
the Canadian side.
    Mr. Tiahrt. Because there is no water down there.
    Dr. Hirsch. Partly that and partly attitudes about free 
availability of information; the Canadians are much more like 
we are in the sense that they consider water information to 
really belong to the public and to be freely available. Many 
other countries in the world hold their information much more 
tightly.
    Mr. Dicks. All right. I think we've got to wrap this up.
    Mr. Tiahrt. One more.
    Mr. Dicks. Anyone else?

                          RECHARGING AQUIFERS

    Mr. Tiahrt. One more thing because in Kansas we are 
recharging the aquifer by taking floodwater and putting it back 
in. Will your census enlighten us as to other areas that are 
open to recharging? Will it help us in determining whether we 
can use these recharged projects in other areas?
    Dr. Myers. Absolutely, because it is integration of the 
surface and the groundwater and you will be able to quantify 
the rate that you are mining the aquifers and will have 
additional quality data on those aquifers linked to surface 
flows. You will not know the capacity underground to store or 
the availability of water on the surface, and then the water 
quality and water geochemistry issues need to be worked out as 
well, to determine the consequences of injecting surface water 
into an aquifer.
    Additionally, I just wanted to comment on coordination. We 
are working closely with Environment Canada, as well as the 
Canadian Geological Survey. Their surface and ground waters are 
in different segments, so we are doing a lot of coordination. 
In the trilateral meeting with the Mexican Geologic Survey, we 
are working closely to coordinate the efforts with them as 
well.
    Dr. Hirsch. Let me follow up just a little bit on the 
aquifer storage and recovery. This census will help us identify 
the extent to which that is happening in various parts of the 
country and the cycling of water through those systems and 
identify some of the opportunities. But it is really through 
our Cooperative Water Program as we, in the work in the equus 
beds, for example, really get into the feasibility issues and 
working with communities to understand what is really possible 
by doing the geochemical models and the hydrologic models. And 
that is really those very tight co-funded opportunities that we 
do in our Cooperative Water Program.
    Mr. Dicks. All right. The Committee stands adjourned. Very 
good hearing.

[GRAPHIC] [TIFF OMITTED] T2183A.250

[GRAPHIC] [TIFF OMITTED] T2183A.251

[GRAPHIC] [TIFF OMITTED] T2183A.252

[GRAPHIC] [TIFF OMITTED] T2183A.253

[GRAPHIC] [TIFF OMITTED] T2183A.254

[GRAPHIC] [TIFF OMITTED] T2183A.255

[GRAPHIC] [TIFF OMITTED] T2183A.256

[GRAPHIC] [TIFF OMITTED] T2183A.257

[GRAPHIC] [TIFF OMITTED] T2183A.258

[GRAPHIC] [TIFF OMITTED] T2183A.259

[GRAPHIC] [TIFF OMITTED] T2183A.260

[GRAPHIC] [TIFF OMITTED] T2183A.261

[GRAPHIC] [TIFF OMITTED] T2183A.262

[GRAPHIC] [TIFF OMITTED] T2183A.263

[GRAPHIC] [TIFF OMITTED] T2183A.264

[GRAPHIC] [TIFF OMITTED] T2183A.265

[GRAPHIC] [TIFF OMITTED] T2183A.266

[GRAPHIC] [TIFF OMITTED] T2183A.267

[GRAPHIC] [TIFF OMITTED] T2183A.268

[GRAPHIC] [TIFF OMITTED] T2183A.269

[GRAPHIC] [TIFF OMITTED] T2183A.270

[GRAPHIC] [TIFF OMITTED] T2183A.271

[GRAPHIC] [TIFF OMITTED] T2183A.272

[GRAPHIC] [TIFF OMITTED] T2183A.273

[GRAPHIC] [TIFF OMITTED] T2183A.274

[GRAPHIC] [TIFF OMITTED] T2183A.275

[GRAPHIC] [TIFF OMITTED] T2183A.276

[GRAPHIC] [TIFF OMITTED] T2183A.277

[GRAPHIC] [TIFF OMITTED] T2183A.278

[GRAPHIC] [TIFF OMITTED] T2183A.279

[GRAPHIC] [TIFF OMITTED] T2183A.280

[GRAPHIC] [TIFF OMITTED] T2183A.281

[GRAPHIC] [TIFF OMITTED] T2183A.282

[GRAPHIC] [TIFF OMITTED] T2183A.283

[GRAPHIC] [TIFF OMITTED] T2183A.284

[GRAPHIC] [TIFF OMITTED] T2183A.285

[GRAPHIC] [TIFF OMITTED] T2183A.286

[GRAPHIC] [TIFF OMITTED] T2183A.287

[GRAPHIC] [TIFF OMITTED] T2183A.288

[GRAPHIC] [TIFF OMITTED] T2183A.289

[GRAPHIC] [TIFF OMITTED] T2183A.290

[GRAPHIC] [TIFF OMITTED] T2183A.291

[GRAPHIC] [TIFF OMITTED] T2183A.292

[GRAPHIC] [TIFF OMITTED] T2183A.293

[GRAPHIC] [TIFF OMITTED] T2183A.294

[GRAPHIC] [TIFF OMITTED] T2183A.295

[GRAPHIC] [TIFF OMITTED] T2183A.296

[GRAPHIC] [TIFF OMITTED] T2183A.297

[GRAPHIC] [TIFF OMITTED] T2183A.298

[GRAPHIC] [TIFF OMITTED] T2183A.299

[GRAPHIC] [TIFF OMITTED] T2183A.300

[GRAPHIC] [TIFF OMITTED] T2183A.301

[GRAPHIC] [TIFF OMITTED] T2183A.302

[GRAPHIC] [TIFF OMITTED] T2183A.303

[GRAPHIC] [TIFF OMITTED] T2183A.304

[GRAPHIC] [TIFF OMITTED] T2183A.305

[GRAPHIC] [TIFF OMITTED] T2183A.306

[GRAPHIC] [TIFF OMITTED] T2183A.307

[GRAPHIC] [TIFF OMITTED] T2183A.308

[GRAPHIC] [TIFF OMITTED] T2183A.309

[GRAPHIC] [TIFF OMITTED] T2183A.310

[GRAPHIC] [TIFF OMITTED] T2183A.311

[GRAPHIC] [TIFF OMITTED] T2183A.312

[GRAPHIC] [TIFF OMITTED] T2183A.313

[GRAPHIC] [TIFF OMITTED] T2183A.314

[GRAPHIC] [TIFF OMITTED] T2183A.315

[GRAPHIC] [TIFF OMITTED] T2183A.316

[GRAPHIC] [TIFF OMITTED] T2183A.317

[GRAPHIC] [TIFF OMITTED] T2183A.318

[GRAPHIC] [TIFF OMITTED] T2183A.319

[GRAPHIC] [TIFF OMITTED] T2183A.320

[GRAPHIC] [TIFF OMITTED] T2183A.321

[GRAPHIC] [TIFF OMITTED] T2183A.322

[GRAPHIC] [TIFF OMITTED] T2183A.323

[GRAPHIC] [TIFF OMITTED] T2183A.324

[GRAPHIC] [TIFF OMITTED] T2183A.325

[GRAPHIC] [TIFF OMITTED] T2183A.326

[GRAPHIC] [TIFF OMITTED] T2183A.327

[GRAPHIC] [TIFF OMITTED] T2183A.328

[GRAPHIC] [TIFF OMITTED] T2183A.329

[GRAPHIC] [TIFF OMITTED] T2183A.330

[GRAPHIC] [TIFF OMITTED] T2183A.331

[GRAPHIC] [TIFF OMITTED] T2183A.332

[GRAPHIC] [TIFF OMITTED] T2183A.333

[GRAPHIC] [TIFF OMITTED] T2183A.334

[GRAPHIC] [TIFF OMITTED] T2183A.335

[GRAPHIC] [TIFF OMITTED] T2183A.336

[GRAPHIC] [TIFF OMITTED] T2183A.337

[GRAPHIC] [TIFF OMITTED] T2183A.338

[GRAPHIC] [TIFF OMITTED] T2183A.339

[GRAPHIC] [TIFF OMITTED] T2183A.340

[GRAPHIC] [TIFF OMITTED] T2183A.341

[GRAPHIC] [TIFF OMITTED] T2183A.342

[GRAPHIC] [TIFF OMITTED] T2183A.343

[GRAPHIC] [TIFF OMITTED] T2183A.344

[GRAPHIC] [TIFF OMITTED] T2183A.345

[GRAPHIC] [TIFF OMITTED] T2183A.346

[GRAPHIC] [TIFF OMITTED] T2183A.347

[GRAPHIC] [TIFF OMITTED] T2183A.348

[GRAPHIC] [TIFF OMITTED] T2183A.349

[GRAPHIC] [TIFF OMITTED] T2183A.350

[GRAPHIC] [TIFF OMITTED] T2183A.351

[GRAPHIC] [TIFF OMITTED] T2183A.352

                                           Thursday, March 6, 2008.

                         NATIONAL PARK SERVICE

                               WITNESSES

MARY A. BOMAR, DIRECTOR OF THE NATIONAL PARK SERVICE
DAN WENK, DEPUTY DIRECTOR
DAVID HARRINGTON, DEPUTY COMPTROLLER
    Mr. Dicks. The Committee will come to order.

                   Opening Remarks of Chairman Dicks

    We are again pleased to have Director Mary Bomar here to 
testify for the Park Service. Mary, I want to welcome you back 
before the Subcommittee this morning. This is your second year 
as director of the National Park Service, and my second year as 
chairman of this subcommittee. Working together, I like to 
think that the first year in our new post has been a positive 
one for the parks, which we both love.
    The final 2008 bill provided a much needed and overdue 
increase in the basic operating budget for the parks totaling 
$121 million. Most important have been the addition of over 900 
new FTEs including 3,000 more seasonal employees. I have 
already seen the impact of these increases in the parks in my 
district as well as in other parks Mr. Tiahrt and I have 
visited, and I am glad that we could at least get the 
Centennial Challenge matching grant program started while the 
authorizing committees work on the basic mandatory 
authorization.
    The 2009 request for the parks is another good start with 
its $161 million proposed increase in operations. 
Unfortunately, the rest of the budget has many disappointments. 
There are major cuts in the Land and Water Conservation and 
Land Acquisition Programs and in your Construction Activity 
Programs, areas which are also important to the long-term 
health of the parks. You have also eliminated the Stateside 
Program and reduced funding for the popular Heritage 
Partnership and Save America's Treasures programs.
    Beyond the issue of funding, there are management and 
policy issues which need to be discussed at this hearing. We 
are all concerned by the most recent investigations of the Park 
Police which many members including Majority Leader Hoyer have 
talked to me about, and last week we read that the Department 
of the Interior is considering changing its policy to 
liberalize the rules for carrying loaded guns in our national 
parks. I am hopeful our exchange this morning will clarify what 
is and what is not happening on both of these important issues.
    Mary, I think everyone in the room knows that this 
subcommittee is committed to the parks. We will do our best to 
provide the resources to ensure that they are properly 
preserved for future generations and that today's visitors have 
a first-class experience, but the budget the President has 
submitted to this Subcommittee for Interior and Environment 
programs is $1 billion below last year and $1.6 billion below 
the level needed to maintain current services. Without some 
flexibility from this Administration, finding the money we need 
for the parks will be a challenge.
    Mary, before closing, I want to ask you if you will convey 
the entire Subcommittee's best wishes for a speedy recovery to 
Bruce Sheaffer, your comptroller, who we understand had eye 
surgery on Monday. I understand from the staff that this is the 
first Park Service appropriation hearing he has missed since 
1976. We wish him the very best and look forward to his return 
to the job, and we are glad to have Mr. Harrington and Mr. Wenk 
here with you.
    Mr. Dicks. I will now turn to my colleague, Mr. Tiahrt, for 
any comments that he would like to make.
    Mr. Tiahrt. Thank you, Mr. Chairman.

                 Opening Remarks of Congressman Tiahrt

    Good morning, Director Bomar. It is good to see you. And 
welcome to Mr. Harrington and Mr. Wenk.
    May I say, your request is a little unique. It is unique 
because you are the most generous request in the Interior 
Department and I believe the bill as a whole, while most of us 
agree is long overdue and greatly needed, the request for the 
rest of the bill, as the chairman pointed out, is a little bit 
shy, $1 billion shy, below the 2008 enacted level, which 
represents a challenging situation for this Subcommittee.
    But before we begin, I too want to express that we miss 
Bruce and we wish him the best, and I hope they did not remove 
his conscience while he went under for surgery.
    Thank you, Mr. Chairman.
    Mr. Dicks. All right. Mary, you may proceed as you wish 
with your statement, and we will place the entire statement in 
the record, and you can proceed as you wish.

               Opening Statement of Mary Bomar, Director

    Ms. Bomar. Thank you, and good morning to everybody here. 
Mr. Tiahrt, Mr. Chairman, thank you.
    Mr. Chairman and members of the Subcommittee, it is a 
pleasure to have the opportunity again to appear before you 
today on the National Park Service fiscal year 2009 budget 
proposal. If I may, Mr. Chairman, I would like to submit my 
entire statement for the record and summarize my remarks.
    Mr. Dicks. Without objection.
    Ms. Bomar. I am accompanied by our Deputy Director for 
Operations as you noted, sir, Dan Wenk, and on my right is 
Deputy Comptroller David Harrington, and it is a historic 
occasion for him, his first time here at the table with me.
    This is the first hearing on the National Park Service 
budget before this subcommittee since 1976, yes, where our 
Comptroller, Bruce Sheaffer, has not appeared. As you know, he 
is on sick leave this week and sends his regrets, and I 
certainly will miss him being here. David, thank you for being 
here.
    We sincerely thank you for your continuing support of the 
work we do as stewards of many of our Nation's most treasured 
natural and cultural resources. We especially appreciate the 
significant increase in operations funding that you provided 
for fiscal year 2008, sir, along with the initial funding for 
our Centennial Challenge projects and programs.
    The fiscal year 2009 budget represents the second year of 
the President's Centennial Initiative for the National Park 
Service. While continuing to build on accomplishments and 
address concerns, the National Park Service is working to fine-
tune the centennial strategy and maintain the momentum of this 
bold initiative. The initiative includes both increasing our 
operational capacity through appropriated funding and 
establishing the Centennial Fund specifically for projects and 
programs to get our parks ready for a second century of 
stewardship beginning in 2016.
    In fiscal year 2008, the National Park Service will benefit 
from the $123 million increase in operating funds over fiscal 
year 2007 that you provided, a 6 percent increase. With this 
additional funding, we are working toward hiring 3,000 new 
seasonal park employees, repairing more facilities, enrolling 
more children as Junior Rangers, and expanding the use of 
volunteers. Thank you for the $24.6 million down payment for 
the Centennial Challenge portion of the fund in the 2008 
appropriation, we will soon be announcing our initial 
centennial projects and programs. These will be the final 
selections from the proposals that were determined to be 
eligible for the centennial funding this past August. They will 
be broadly disbursed throughout the country in large, medium 
and small parks and will represent a range of projects and 
programs of varying types and sizes. Our superintendents across 
the country are chomping at the bit to get started.
    Now that you have primed the pump, we want to earn the 
confidence of Congress that we can do the same with the $100 
million over the next 10 years. So while the first projects get 
underway, we will continue to work with the House and Senate 
authorizing committees to see that the 10-year mandatory 
Centennial Fund legislation is enacted.
    On the fiscal year 2009 budget request, I would like to 
refer you to my prepared statement and touch on just a few of 
the highlights. Our emphasis continues to be on increasing 
funding for park operations. The fiscal year 2009 budget 
provides for an operating increase of $160 million, 8 percent. 
For those funds directly under the control of park managers, 
generally termed the park base, there is an increase of nearly 
$100 million. As you know, I come from the field, sir, as a 
superintendent and a regional director and our superintendents 
still tell me of the great need to boost the operational funds 
to run their parks, protect the resources and ensure our 
visitors have a great experience. The operations budget 
includes increases specifically targeted to provide greater 
security and resource restoration along the southwest border, 
to increase the number of sworn officers for the United States 
Park Police, and to allow parks to make full use of the asset 
management system. It also includes $20 million for the second 
year of the Flex Park Initiative, which seeks to improve park 
natural and cultural resources over a one- to three-year 
period, and about $23 million for preventive facility 
maintenance.
    Much of the operational increase would be used to serve as 
a catalyst for one of our chief goals, connecting people to 
parks. I am pleased to tell you that our visitation last year 
increased by 3 million. With all the recreational choices 
available to Americans, I am happy to say that they chose to 
visit their national parks.
    Mr. Chairman, I know there is a lot of interest in the U.S. 
Park Police and I am sure we will be talking about that today. 
I simply want to say that we have taken the Inspector General's 
review very seriously and we have moved quickly and decisively 
to respond. On Tuesday, we announced that we are finalizing and 
implementing a draft action plan which addresses the IG's 
recommendations.
    Mr. Chairman, in closing, may I say again how much we 
appreciate your support for the Centennial Initiative. Our 
employees are excited about the work that we will be doing to 
make our national parks vibrant for a second century of 
stewardship. We appreciate your consideration of our budget 
request.
    Mr. Chairman, that concludes my remarks. We would be 
pleased to answer any questions that you may have.
    [The statement of Mary A. Bomar follows:]

    [GRAPHIC] [TIFF OMITTED] T2183A.353
    
    [GRAPHIC] [TIFF OMITTED] T2183A.354
    
    [GRAPHIC] [TIFF OMITTED] T2183A.355
    
    [GRAPHIC] [TIFF OMITTED] T2183A.356
    
    [GRAPHIC] [TIFF OMITTED] T2183A.357
    
    [GRAPHIC] [TIFF OMITTED] T2183A.358
    
    [GRAPHIC] [TIFF OMITTED] T2183A.359
    
    Mr. Dicks. Thank you.

                       UNITED STATES PARK POLICE

    Mary, two days ago you announced a series of initial steps 
to deal with the latest report from the Inspector General 
regarding the performance of the Park Police. Would you 
describe for the Committee briefly those actions and what 
happens next?
    Ms. Bomar. Yes, sir, I will. I would be glad to. As we 
know, the mission of the U.S. Park Police was reviewed in 2004 
as a result of implementing one of the recommendations of the 
second NAPA report. That review resulted in setting priorities 
for the Park Police. As part of an action plan that was 
developed that is in draft, we have put in place a new 
management oversight team that will be working under the 
direction of senior leadership. There will be two teams put in 
place, the second one is a command management team that went in 
yesterday, to start taking care of many of the recommendations 
and findings that were in this recent February 1st U.S. Park 
Police report. It is a team effort to put the Park Police 
operations back on track, sir. As part of that action plan, the 
new management oversight team working under the direction of 
senior leadership will be revisiting the question of the Park 
Police's mission and how resources should be deployed to 
fulfill that mission. I expect this effort to result in further 
definition of the U.S. Park Police's mission. Significant 
changes have already been made as a result of the 2004 
departmental review and we want to make sure that this action 
plan is consistent with that review, sir. The changes involve 
shifting resources to icon security and away from lower-
priority functions such as patrolling areas covered by other 
police forces. They have also involved such things as hiring 
private security guards and hiring civilian personnel for some 
administrative tasks to free up trained members of the police 
force.
    May I say to you that this is a difficult situation but one 
that we have absolutely taken very seriously. Dan Wenk is the 
supervisor of Chief Pettiford. We are working with Assistant 
Secretary Lyle Laverty, and as I said, a senior leadership 
group to make sure that we refocus efforts on the U.S. Park 
Police and address some of the findings and recommendations.
    Mr. Dicks. Just to go into this a little further, the new 
Inspector General report basically repeats the same findings 
and criticism as four earlier reports from both the Inspector 
General and the National Academy of Public Administration going 
back six years. Mary, the members and the public are 
discouraged by the inability to fix a problem which has been 
known for years. Can this be fixed?
    Ms. Bomar. Absolutely. As you said, sir, I have been in 
this position for a little over a year. It was four years ago, 
I believe, when the mission review report came out. The 
Comptroller, Bruce Sheaffer, has worked very closely with Chief 
Pettiford. Many of the problems addressed in those 
recommendations have been fixed and will continue to be fixed. 
Yes, it is a high priority for me, sir, and for the Department.
    Mr. Dicks. Let me read one section from the current report 
and ask you to respond. ``The U.S. Park Police continue to 
struggle with the competing missions of protecting national 
icons and monuments and functioning as an urban police force. 
Consequently, the U.S. Park Police has failed to adequately 
perform either mission, according to these reports. This has 
resulted in deficient security and an inability to effectively 
conduct police operations.'' Virtually these same words, 
questioning the basic ability of the Park Police to be both an 
urban police force and a monument security force, appear in all 
five reports on the Park Police beginning in 2001. In your 
professional opinion as head of the Park Service, is it time to 
get the Park Police out of the business of being traffic cops 
and chasing drug dealers in D.C. and assign them the sole 
mission of guarding park visitors, icons and property? In other 
words, let the Maryland and D.C. police do the police work that 
would be normally associated with a city or an area along the 
Potomac River and just focus the Park Police on the parks and 
the icons and federal property?
    Ms. Bomar. Yes. That was one of the recommendations, one of 
the 20 recommendations in the IG report, and yes, I think we 
have to have an in-depth look at how the whole operation is 
managed for icon sites but especially here in the D.C., San 
Francisco and New York areas. The response to that 
recommendation from us is to bring a team in to assess that, to 
bring in other agencies outside of the Department and have a 
look at exactly what work they are doing and what work they 
should be doing, as well as what is their role and function.
    Mr. Dicks. Now, in your previous position as superintendent 
and regional director in Philadelphia, you provided security 
and law enforcement for your parks by using park rangers rather 
than Park Police. Based on your experience in Philadelphia, is 
there any justification for using Park Police rather than 
rangers in New York City and San Francisco?
    Ms. Bomar. I evaluated that at the time as a superintendent 
and as a regional director. Each site is unique to the 
community that they live in, with different resources within 
that community and around that park. We had law enforcement 
officers, gray and green GS-11s and above, working in 
protection already in the park. We augmented that group by 
adding a security contract. So I think again, that has to be 
part of the overall evaluation that we will be looking at. Dan, 
is there anything you want to add to that?
    Mr. Wenk. Chairman Dicks, I believe that there is a role 
for both, and I think that is part of the evaluation that we 
have to look at--let's use the examples of the parkways within 
the District. Currently, most of the areas, not only in the 
parkway but auxiliary sites, are patrolled by the U.S. Park 
Police. We have to evaluate if that is appropriate or if we 
should utilize National Park Service law enforcement rangers to 
patrol areas that are off the parkway itself and then have Park 
Police just patrolling the parkway. We are going to look at the 
division of labor, if you will, the division of law enforcement 
for all the sites. In regards to the team we bring in, it is 
critical to have not just law enforcement representation but 
National Park Service representation as well so we can ensure 
the integration and the most efficient and effective use of the 
U.S. Park Police force and the National Park Service law 
enforcement rangers. Both should be captured in the recommended 
solutions.
    Mr. Dicks. Separate from the questions about potentially 
redefining the mission for the Park Police, the current IG 
report raises serious questions about the current management of 
the Park Police today. Again quoting from the IG report, ``The 
U.S. Park Police have not developed comprehensive security 
plans for monuments and icons. Our assessment indicated a 
systemic lack of management and oversight by senior agency 
officials that has impacted the ability of the agency as its 
mission statement intended.'' I think the words ``systemic lack 
of management and oversight by agency officials'' is directed 
at the office of the director of the Park Service and the 
Secretary. Do you believe that the criticism of your office--I 
know you have only been there a short time--is fair or unfair?
    Ms. Bomar. I believe, as you said, in the mission review. 
Many of these recommendations and findings have been addressed 
and highlighted in prior reports, but I take it very seriously, 
Mr. Dicks. One of the recommendations from our team was to make 
sure that we send a command management team in there. We sent 
in a strong team of folks that were prior U.S. Park Police, 
that have over 100 years of experience. They are going to go in 
and immediately address security plans, training needs, 
equipment. As you know, the IG report highlighted assessing the 
status of firearms training and qualifications, ensuring all 
officers have appropriate safety equipment, developing site-
specific security plans and staffing for national icons and 
memorials, and instilling renewed confidence of the U.S. Park 
Police in their historic mission as the oldest federal law 
enforcement organization. They should be leaders in policing 
and law enforcement, sir. They were established in 1791 by 
George Washington. And absolutely, they should be role models 
when it comes to policing.
    Mr. Dicks. Is it true, as suggested in the report, that 
many of the private security guards hired by the Park Service 
to augment the Park Police in monuments could not speak English 
and that the Park Police essentially refused to speak to the 
private guards?
    Ms. Bomar. There were some difficulties with that contract 
and there is now a new contractor in place.
    Mr. Dicks. How do you explain the logic behind hiring a 
firm for monument security whose employees seem incapable of 
doing the job, and who signed this contract?
    Ms. Bomar. It was signed by--go ahead.
    Mr. Wenk. It was a U.S. Park Police contract but we have a 
new security contract in place over the last few weeks, sir. 
That contractor is no longer providing security at the icons.
    Ms. Bomar. Mr. Dicks, you are right. We need to make sure 
that we have people out there and the leadership should be 
providing that.
    Mr. Dicks. Well, whoever you have in charge of this review, 
I think they should go out and inspect the monuments and 
memorials in D.C. and personally review the security.
    Ms. Bomar. I agree with you.
    Mr. Dicks. Would you make sure that happens?
    Ms. Bomar. Yes, I will, sir.
    Mr. Dicks. And when can this committee expect an official 
departmental response and corrective action plan in response to 
the IG's report on the Park Police?
    Ms. Bomar. The various teams will be meeting on a weekly 
basis with the command management team to make sure that we are 
being responsive and that we are fixing the problems with the 
U.S. Park Police, sir. We have a draft plan in place right now 
and again, as I said, we want to make sure that that is 
consistent with the mission review plan of 2004, that they do 
not contradict each other. We had 90 days to respond, but we 
have reacted in 37 days from the time that we received the 
report from the IG. Secretary Kempthorne certainly expressed 
his urgency and asked that we take this report very seriously 
and I am not going to wait 90 days. We have immediately had all 
employee staff meetings with the U.S. Park Police. They are 
committed to getting on board and we are committed to making 
sure that we have got the resources and the people in place to 
fix the problems.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    I do not want to drag this out too long but I do want to 
know about what schedule we have for this management oversight 
team to make sure we have clear mission and clear use of our 
resources to maintain the security on these government icons. I 
note that in 2001 there is a study done by the NAPA, some 
academy.
    Ms. Bomar. Yes, sir.
    Mr. Dicks. And they made 20 recommendations, and according 
to the Inspector General, four were accepted, two were 
rejected, about 10 of them were in some form of limbo and the 
rest were unanswered, and now they have come up with 20 
recommendations themselves.
    Ms. Bomar. Yes.
    Mr. Tiahrt. So I just want to make sure that eight years 
from now we are not going to be saying well, you have only 
implemented four, you have rejected only two and there are 10 
in some status and we have not looked at the rest of them. Is 
there a schedule for your management oversight team to 
establish a mission statement for whatever their intent is to 
start with?
    Ms. Bomar. Yes. The command management team that has gone 
in will be reporting to the oversight management team on a 
weekly basis. They will be meeting every Monday morning to look 
at the recommendations and make sure that they have finalized 
those recommendations. They will come back to the oversight 
management team with a report on a weekly basis. I will be glad 
to come back to you, sir, at any time as will Dan Wenk and 
members of this team if we need to, to reassure you that those 
problems are being fixed.
    Mr. Tiahrt. What I would like to see is a schedule that you 
have reviewed the 20 recommendations that the IG has made, when 
you are going to look at each one and then when you have an 
assessment of each one, what your recommendations actions are, 
if it is acceptance, rejection so we know that you have gone 
through the whole list, and I assume that you are going back 
and looking at this NAPA original report and seeing if there is 
anything outstanding there as well. Is that correct?
    Ms. Bomar. Mr. Tiahrt, you are absolutely on target with 
the process that needs to take place, and Dan had a meeting 
this morning on this. Like I said, they will be meeting once a 
week and will talk about how this action plan is moving forward 
and who is responsible. Dan, would you like to----
    Mr. Wenk. Mr. Tiahrt, in the draft action plan, we have 
established who is the responsible person and a target 
completion date. Mary and I put that action plan together based 
on input from the U.S. Park Police. We have given that draft 
action plan to the Command Management team. The first order of 
business for that team is to verify, if in fact, those things 
can be accomplished within the time frame that we have set out, 
if we have missed anything, to make sure it is added to it, and 
to develop the exact schedule that you are asking for. We 
believe this is a crucial and urgent problem that we need to 
address and we need to provide the answer you are asking for.
    Mr. Tiahrt. The National Academy of Public Administration, 
NAPA, I know that they are not all-knowing. The Inspector 
General's Office is not all-knowing. They are all very bright 
people and they have very good ideas, but we also have people 
that are very experienced at working in this realm of security.
    Ms. Bomar. Yes, sir.
    Mr. Tiahrt. And I hope that there is some element of their 
contribution to this command team and, and what did you call 
your other team?
    Ms. Bomar. It is an oversight management team, sir.
    Mr. Tiahrt. This oversight management team, because we also 
want to capture the experience of the people who have been 
there.
    Ms. Bomar. Yes.
    Mr. Tiahrt. This would not have come to my attention had it 
not been a headline in the Post where the Park Police chief is 
relieved of command. He has some experience too which is 
probably valuable in what is going on here.
    Ms. Bomar. Yes, he does.
    Mr. Tiahrt. I think he would probably like a chance to 
straighten all this out too.
    Ms. Bomar. Absolutely. He has been detailed over to the 
Department and will be a member of this team, absolutely. He 
has been working on many of the recommendations from the 2004 
NAPA report, and working with Bruce Sheaffer, and they have 
addressed many of the recommendations from this mission review, 
so yes, he does have experience and many others do too. You are 
absolutely right.
    Mr. Tiahrt. So if I can summarize, I would like to see a 
schedule of your analysis of the original 20 recommendations 
from NAPA, the 20 from the Inspector General's Office, and if 
you have other ideas that you are going to implement in your 
mission statement and the way you carry out or utilize the 
assets you have to secure these wonderful facilities, I would 
like to know that as well. Is that okay?
    Ms. Bomar. Absolutely, Mr. Tiahrt. We will do that for you, 
sir.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2183A.360
    
    [GRAPHIC] [TIFF OMITTED] T2183A.361
    
    [GRAPHIC] [TIFF OMITTED] T2183A.362
    
    [GRAPHIC] [TIFF OMITTED] T2183A.363
    
    [GRAPHIC] [TIFF OMITTED] T2183A.364
    
    [GRAPHIC] [TIFF OMITTED] T2183A.365
    
    [GRAPHIC] [TIFF OMITTED] T2183A.366
    
    [GRAPHIC] [TIFF OMITTED] T2183A.367
    
    [GRAPHIC] [TIFF OMITTED] T2183A.368
    
    [GRAPHIC] [TIFF OMITTED] T2183A.369
    
    [GRAPHIC] [TIFF OMITTED] T2183A.370
    
    [GRAPHIC] [TIFF OMITTED] T2183A.371
    
    [GRAPHIC] [TIFF OMITTED] T2183A.372
    
    [GRAPHIC] [TIFF OMITTED] T2183A.373
    
    [GRAPHIC] [TIFF OMITTED] T2183A.374
    
    [GRAPHIC] [TIFF OMITTED] T2183A.375
    
    Mr. Tiahrt. Thank you, Mr. Chairman. I will pick my other 
question up if we have time.
    Mr. Dicks. I am going to ask the Committee to indulge me 
here. Mr. Hoyer, the Majority Leader and a former member of 
this committee, has some very serious issues and concerns about 
the Park Police and has talked to me about this and I invited 
him to come and make some comments on this, and we will extend 
the same courtesy to your leadership if they should want to 
come.
    Mr. Hoyer. Mr. Chairman, I want to thank you and I want to 
thank the Committee very much. I miss my service on the 
Appropriations Committee because it really does get you in 
touch with the day-to-day operations of our government. Mr. 
Moran and I walked in together. Mr. Moran and I obviously 
represent the Washington metropolitan area together and we work 
very closely with Mrs. Norton and the District of Columbia. 
Teresa Chambers, I guess that name rings a bell with you?
    Ms. Bomar. Yes, sir.
    Mr. Hoyer. I represent Teresa Chambers. I think Teresa 
Chambers was handled in a fashion that was arbitrary and 
putting the government in the position of denying the truth. 
What Teresa Chambers said of course was that the force was 
undermanned to accomplish the objectives set forth by the 
legislation and the expectations I presume of both the 
Administration and the Congress. The Park Police obviously has 
a number of responsibilities, one of which is protecting our 
national monuments and national assets. It also has a law 
enforcement capacity as well. During the course of Chief 
Chambers, the response to her, I was deeply disturbed by what 
has happened. That case as you know finally resolved so I will 
not ask you any questions about that particular case, but I am 
very concerned, and I do not know the facts of this chief that 
is now currently on, as I understand, some leave with pay 
status, or at least he is not the acting chief at this point in 
time. Am I correct on that?
    Ms. Bomar. He is still the Chief of Police, the Park 
Police, sir. He is just detailed to a different area, over to 
the Department of the Interior building.
    Mr. Hoyer. So effectively he is not acting as chief 
although he remains the chief?
    Ms. Bomar. On the day-to-day operations, that is right, 
sir.
    Mr. Dicks. Will the gentleman yield? Is there an acting 
chief?
    Ms. Bomar. There is an assistant chief over there. There is 
an assistant chief who is taking care of the day-to-day 
operations. He is on a newly assigned command management team 
that was just sent over yesterday.
    Mr. Hoyer. My real concern and, Director Bomar, what I 
wanted to hear from you is that when we have officials, 
particularly law enforcement officials, who we charge with the 
responsibility of protecting assets and/or people, it puts a 
real chilling effect on them when they respond truthfully as is 
evidenced by recent press that they believe their departments 
are undermanned to do the full complement of the 
responsibilities that have been given to them. That is what 
Chief Chambers did. I think Chief Chambers was absolutely 
accurate in her representations and in fact relatively mild in 
the way she responded to press questions, as you recall. But my 
question to you is, does it continue to be the position of the 
Department that chiefs asked questions as to whether or not 
they have resources necessary to accomplish their objectives 
will be removed if they answer truthfully?
    Ms. Bomar. Mr. Hoyer, this is the first time I think we 
have met, sir. No, I have always told the truth and I am still 
here, sir. I do not know all the details of the Teresa Chambers 
case. That was prior to my tenure here in Washington. But no, 
the answer is no to that question, sir.
    Mr. Hoyer. Mr. Chairman, it might be useful, I do not know 
what your intent is, to have the chief respond. Let me tell you 
a problem I have had, Ms. Bomar, when I served on this 
committee. There is a new policy in the Administration which I 
think is very detrimental policy. I presume if I asked you what 
your request of OMB was for the budget for the Park Service, as 
I understand it, under directives from the OMB, you cannot tell 
me that. I presume your financial officer is shaking her head.
    Ms. Bomar. The lady in the red jacket behind me? Yes.
    Mr. Hoyer. Mr. Chairman, I think every member of this 
committee on both sides of the aisle ought to be upset with 
that policy. It is a new policy. I was on this committee for 
about 25 years, and I asked that question regularly. Why do I 
ask that question? Because it is a question which elicits what 
the people who are responsible to do the job believe is 
necessary to do the job, not necessarily what they are given. 
They have to support what they are given, and the OMB has a 
difficult decision because it has to make choices. But if this 
committee does not know what those who are responsible for 
accomplishing the objective believe is necessary to do the job, 
it is almost impossible for them to make as good a judgment as 
they otherwise could make. I say that in the context of Chief 
Chambers, because essentially she said what I think we are now 
seeing is accurate, that we are undermanned in the Park 
Service. I do not want to belabor the point, but Mr. Chairman, 
I am very appreciative of the fact that you allowed me to make 
that point.
    I think, members of the Committee, this is a nonpartisan 
issue. Whether you have a Democratic administration or 
Republican administration, we really do need to know in order 
to make rational decisions what you need, and the fact that 
OMB, Mr. Chairman, I think the Committee ought to take this up, 
of either party, that OMB will not allow responses to questions 
as to what was requested to do the job. I think it is highly 
inappropriate and it undermines the ability of this committee 
to do its work.
    Mr. Dicks. Well, I agree with the gentleman, and I have 
been on this committee, this is my 32nd year, and I was 
surprised because we used to ask, even on the defense budget, 
in their personal professional opinion, what did they think was 
necessary and they would tell us. Now, maybe the answer to this 
is, we are going to have to do something legislatively. One 
thing that we do in the defense area is we have an unfunded 
list that the Administration sets up for the authorization 
committee for all the services saying ``here is our budget but 
here are the things that we think are still high priorities 
that were left unfunded'' so that the Congress then has an idea 
of some of the things at the margin that were not funded that 
still were high priorities. So I completely agree with you. If 
somehow we could craft legislation that said that the witnesses 
can give that testimony.
    Mr. Hoyer. Mr. Chairman, thank you, and again, members of 
the Committee, I thank you very much for indulging me and 
giving me this opportunity, and thank you, Ms. Bomar, for your 
service.
    Mr. Dicks. Thank you.
    Ms. Bomar. Thank you very much.
    Mr. Dicks. Mr. Goode from Virginia.

                  BLUE RIDGE PARKWAY FIRE ACCESS ROAD

    Mr. Goode. Director, thank you for being here. I have a 
local question relating to the Blue Ridge Parkway in Nelson 
County, Virginia. For a number of years, the volunteer fire and 
rescue entity that serves Nelson County and a little bit of 
Augusta County has wanted to be able to get from a road in the 
Wintergreen development, which is in Nelson County, directly as 
to the parkway. I think the rescue squad helps the Park Police 
in case there is an accident. When called, they will come and 
get someone. But I am concerned about Wintergreen, which has 
many buildings, and houses, condos on the hillside--the 
development was done by a prior member of Congress many years 
ago, L.F. Payne--what they want to be able to do is cross about 
100 yards from a public road to the Blue Ridge Parkway, and I 
talked to Mr. Francis, and let me say, very nice fellow, gave 
us a great deal of time. I was disappointed in the response 
though. This is a very dangerous situation. The homes and the 
condos are close to the top of the mountain, and if you have a 
fire, it is going to go up the hill, and what they want to be 
able to do, where there was a road many years ago, is to have 
some of the larger trees removed from that road so in case 
there is a fire, and you could put a chain or a cable across 
the road and have a person with the rescue squad or the fire 
department have the key, they can evacuate through that area. 
You could not even tell a road will be there, the way they want 
to do it. The little saplings would still be there. The grass 
would still be there. What wildflowers are there would still be 
there. The mountain ivy would still be there. But what they 
want to do is just be able to use the road in case of a big 
emergency--and they have had some fires along that mountain, 
thankfully, none right there.
    Now, Mr. Francis will say they could go out another way. 
The other way is many miles, great construction costs, and it 
is down and lateral, and the public road goes around. You would 
have to go probably seven, eight, ten miles to get to Blue 
Ridge Parkway whereas if you could just go across this little 
area, you would go about 100 yards, and so I am very concerned 
about that and I think maybe that the decision, while in accord 
with parkway policy, is not best in terms of safety for the 
residents of that area, and I would hate for some people to get 
burned up because they had to go back down the hill and then 
laterally over to the public road and then travel the secondary 
road up to the parkway where they could have just crossed back 
100 yards and gotten out, and I hope you would take a look at 
that situation.
    Ms. Bomar. I will, sir. I do not know about the Wintergreen 
development program or the issues there, but I will say to you, 
yes. Phil Francis gave me a start in the Service many years ago 
and he is an excellent superintendent.
    Mr. Goode. All right. Very nice.
    Ms. Bomar. I will absolutely have a look at that. I could 
have answered any questions today for you on the Music Center, 
the Blue Ridge Parkway, sir, or the Blue Ridge Special Park 
Uses, but I am sorry, I do not know the answers to this one, 
but I will find out and I will come back to you.
    [The information follows:]

       Wintergreen Development Access Road to Blue Ridge Parkway

    The Wintergreen Resort has requested to construct roadway access 
directly to the Blue Ridge Parkway due to concern for the ability to 
evacuate the Resort during wildfire emergencies. This request has been 
proposed at least three previous times in the past 20 years and the 
Blue Ridge Parkway has denied these requests based on the lack of 
authorization to grant an access or the existence of a deeded right of 
way in compliance with National Park Service Management Policies.
    In a February 6, 2008 letter to Congressman Goode, Park 
Superintendent Phillip Francis stated that he does not ``. . . have the 
legal authority to grant the right of way unless it contributes to the 
National Park Service and the Blue Ridge Parkway's mission.'' As noted 
in Mr. Francis' letter, National Park Service Policies, Section 8.6.5, 
state:
    The Park Service will allow access to the private property of 
adjacent landowners and the property of landowners within park 
boundaries, when
          <bullet> It would contribute in a material way to the park's 
        mission without causing unacceptable impacts on park resources 
        or values or the purposes for which the park was established; 
        or
          <bullet> Access is the landowner's right by law or by deed 
        reservation.
    In the case of the proposed Wintergreen access road, there is no 
deed reservation, nor would the road contribute in a material way to 
the park's mission without causing unacceptable impacts. The park 
determined that the road would result in impacts to the undisturbed 
view from park overlooks, visitor safety related to the nearby crossing 
of the Appalachian Trail, and archaeological resources. Further 
concerns include controlling access to and use of the road under non-
emergency situations, the precedent that would be set for future 
private developments, and the safety of Wintergreen residents who would 
be using an egress road that proceeds uphill to the Blue Ridge 
Parkway--the same direction that fire would travel first in a wildfire 
situation.

    Mr. Goode. All right. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Moran, our vice chairman.
    Mr. Moran. Thank you, Mr. Chairman. I want to mention the 
fact that we oftentimes do not take into account the background 
of some of our witnesses. I have been very impressed with Ms. 
Bomar. Ms. Bomar is a professional all her life and, you know, 
some of the folks on both parties, they get put into positions 
because they have got political connections. This is all about 
competence. In fact, Ms. Bomar used to be with the Air Force 
for about 12 years, received a couple of manager of the year 
awards and then she went from Texas to Oklahoma, to 
Pennsylvania, and in every case has excelled. So most recently 
she was regional director of the northeast region. That is the 
kind of person we need in these positions, and so I want to 
underscore that. When we see people who have the competence 
that is needed move up the ranks, we want to encourage it. So I 
appreciate that.
    Ms. Bomar. Thank you, Mr. Moran. I appreciate those kind 
remarks.
    Mr. Dicks. We all agree with you.

                       UNITED STATES PARK POLICE

    Mr. Moran. Yes. Well, I mean, that is factual. But, I 
appreciate the fact that you accepted the facts as they are.
    And I think that the Park Police--well, let me first of all 
say, that the Park Service budget is a good budget. I mean, we 
can nitpick here, but it is a good budget, and particularly 
under the constraints that a lot of agencies are facing. I am 
really pleased that you have gotten the resources that you 
have. We have a problem with the Park Police, there is no 
question, and there has been a fair amount of criticism and 
morale is low, but it appears that you are addressing all of 
the aspects of that criticism. Did you want to say anything in 
terms of your priorities?
    Mr. Dicks. She took care of that.
    Mr. Moran. Then the answer is no. I would prefer not to 
because your colleagues have already asked the appropriate 
questions, and the answers have been given, so we will move on.
    Mr. Dicks. She gave outstanding answers and----
    Mr. Moran. Terrific.
    Mr. Dicks [continuing]. Very responsive and she is going to 
get on top of this.
    Mr. Moran. Perfect.
    Mr. Dicks. And so is Dan.
    Mr. Moran. That takes care of that line of questioning. 
Well done, Ms. Bomar.
    Ms. Bomar. Thank you, Mr. Moran. Thank you, Mr. Dicks.
    Mr. Dicks. And she is going to keep our committee apprised 
of what is happening.
    Ms. Bomar. Absolutely.

                           FIREARMS IN PARKS

    Mr. Moran. Perfect. This is great.
    I have a concern about a policy that was just issued that 
changes a very longstanding policy, and that is of having 
firearms in the National Park Service. Now, I know that there 
are a lot of ideological differences on this issue but it used 
to be that you had to have your gun unloaded and stored if you 
were in a national park, unless it is one that permits hunting 
and then it is fine, so that seemed to be very reasonable. Now, 
I do not see why we need to change the policy. The policy has 
been working. But what do we do about poachers because poaching 
is a big problem, particularly black bears. This is bad stuff. 
Black bear gallbladders can be sold for thousands of dollars 
overseas and people are going into our parks and killing these 
black bears. It is a problem. But if anybody can carry a loaded 
gun, I do not know how you distinguish between the poachers and 
people who feel as though they need a gun to walk and enjoy 
nature. Can you describe how you are going to distinguish, how 
the park rangers are going to deal with this?
    Ms. Bomar. Yes. Thank you, Mr. Moran. As you know, yes, 
right now the CFR clearly states that you can carry weapons 
through a national park, however, they must be inoperable and 
out of reach, and that is a concern to us. I have a great staff 
out there for law enforcement but I will say to you that, twice 
we have received a petition to change our regulations by the 
Virginia Citizens Defense League.
    Mr. Moran. They are the ones? Holy smoke. Can you believe 
that, Virgil? Those guys are affecting policy?
    Mr. Goode. I appreciate the effort.
    Ms. Bomar. And also, you know, letters from half of the 
Senate in support of a rule change. So, a great Senator, 
Senator Specter, has often said to me, ``Mary, let the citizens 
be heard.'' But just to say, Mr. Moran, on a serious note, we 
will continue the regulatory process, as the Secretary has 
requested, that will provide for full and complete public 
participation as well as for the preservation of the values of 
our public lands, sir, including the safety of our visitors and 
our employees and the wildlife.
    Mr. Dicks. Will the gentleman yield just on this point?
    Mr. Moran. Yes.
    Mr. Dicks. Mary, you and Dale Hall wrote a letter on 
November 9, 2007.
    Ms. Bomar. Do you have a copy?
    Mr. Dicks. I will show you this after I read this. And when 
you get down to the third paragraph of your very well written 
letter, ``The current National Park Service regulations found 
in section 24 of Title 36 CFR state that individuals may 
legally transport firearms through National Park Service areas 
as long as the firearms are not readily accessible and 
functional. After careful review of our records and actions, we 
believe that the existing regulations provide necessary and 
consistent enforcement parameters throughout the national park 
system. We will continue to monitor this closely as part of our 
examination of policies and regulations to ensure that the 
interests of the American people and the mission of the 
National Park Service and Fish and Wildlife Service are being 
fulfilled as effectively as possible.'' I think that is a very 
good answer, and in my view, what I worry about here is, I have 
not heard from any park rangers or anybody in the park saying 
we need to change this.
    This seems to be a politically motivated issue and I just 
worry about the safety of children out in these parks if people 
are going around with guns, loaded guns. I just think it is 
dangerous. It is not necessary. I mean, if the park or the 
wildlife refuge have hunting available, then they can have 
their guns and that is totally proper. And this was a 
regulation, by the way, as I understand it, that was put in 
place by James Watt during the Ronald Reagan Administration, 
and I have said to you and others, if it was good enough for 
James Watt and Ronald Reagan why are we changing this? And I am 
glad the gentleman has brought this up and I will just show you 
if you want to take a look at your previous letter.
    Mr. Moran. For what it is worth, thank you, Mr. Chairman. I 
could not have said it half as well myself. I really appreciate 
that, and it just seems to be a policy that is working. I do 
not know whether you were in the Congress, Mr. Tiahrt, at the 
time. I am not giving you an opportunity to speak here 
necessarily, but Mr. Watt was not somebody who was considered 
to be on the far left.
    Mr. Tiahrt. We got strong support for Mr. Watt and his 
policies.

                      HUMPBACK BRIDGE REPLACEMENT

    Mr. Moran. Let me bring up another issue here. About half 
of the Members of Congress and two-thirds of the staff live in 
Northern Virginia, and we love it. That is a wonderful thing, 
but every day they have to cross that 14th Street Bridge and 
exit onto the George Washington Parkway. Can you give us an 
update of what you are doing to relieve--that apparently is one 
of the worst traffic incident locations of any place in our 
national parks, so could you tell us how we are getting along 
on that issue?
    Ms. Bomar. Yes, sir, and I hope I have the right one, the 
humpback bridge replacement----
    Mr. Moran. Yes, that is the one.
    Ms. Bomar [continuing]. On the G.W. Parkway? I travel that 
road every morning. I know construction has commenced with 
completion planned for the spring of 2010, and I know that 
press releases and public service announcements have been 
issued with proposed alternative routes, and, as I said, I do 
travel that, sir, and I make sure I watch that very closely. 
They have been very smart in the way that they have set up the 
times for construction to start in the morning. They do not 
start until after, I think it is 9:30 in the morning, or 10:00, 
and then again they have coordinated the work so it does not 
impede the rush hour in the evening as well. But yes, we need 
to be on time and make sure that we do not have delays and 
inconvenience to people.
    Mr. Moran. They are doing a great job.
    Ms. Bomar. They are, sir. Thank you.
    Mr. Moran. They are doing exactly what they need to be 
doing and doing it in the right way.

                           NATIONAL MALL PLAN

    Can you say something about the National Mall?
    Ms. Bomar. Yes, sir.
    Mr. Dicks. Will the gentleman yield?
    Mr. Moran. Absolutely.
    Mr. Dicks. We have three minutes to go on this vote. We 
have two votes, so I think maybe we should finish this question 
and then we will go over and vote and come back and start with 
Mr. Olver. The gentleman from Virginia will probably be 
chairing because I have got a vote in the Homeland Security 
Committee.
    Ms. Bomar. Yes, sir. They do not have a general management 
plan in place at the moment. We have got a new superintendent 
over there, Peggy O'Dell, who is doing a great job. I know that 
they had a symposium, if I am correct here, where they brought 
the public together to look at alternatives for how we should 
be managing that mall with I think it is 25 million visitors a 
year. There are 3,000 public gatherings and events, special use 
permits that are also issued each year absolutely resulting in 
wear and tear on the turf and, not enough restrooms, sir. So 
they are now working through this process that they are looking 
towards finalizing. A draft EIS will be released in the summer 
of 2008 with a final EIS, I think, expected by the end of 2008. 
I will make sure that we implement that plan. They have done a 
huge public outreach, Mr. Moran, and are considering all of the 
input to make sure that the mall is managed--that we are 
managing the mall and it is not managing us, which is happening 
right now.
    Mr. Moran. Very good. I have been deliberately pitching 
softballs here because I think you are doing a great job.
    Ms. Bomar. Thank you very much.
    Mr. Moran. And we will work on this Park Police situation. 
I am sure it can be resolved.
    Ms. Bomar. It will be.
    Mr. Moran [presiding]. We have a lot of very fine people 
involved, and every once in a while you hit some bumps in the 
road, but I am sure it will be resolved. So again, thank you. 
We will go vote. We will be back as soon as possible.
    [Recess.]
    Mr. Dicks. Mr. Olver.

                        NATIONAL HERITAGE AREAS

    Mr. Olver. Thank you, Mr. Chairman.
    Director Bomar, you have been given grand kudos here, and I 
do not begrudge you any of it nor do I begrudge you the fact 
that your $161 million increase in operations for the Park 
Service is about the only positive thing in the whole Interior 
and Related Agencies' budget. However, it comes at a cost even 
within the Park Service budget. The construction program is 
down more than 50 percent from the 2002 budget. The land 
acquisition budget is down by more than 83 percent. It is at 
one-sixth of the level that it was just seven years ago. The 
partnership programs have been again cut severely. So while I 
say I do not begrudge that you get something useful for your 
operations budget, the rest of it is really awful.
    In regard to the construction budget, there have been 
facility condition reviews under what is called the facility 
condition index procedure, and my recollection is that--I mean, 
we are talking about general maintenance and I take it minor 
construction and then major construction, and I am not sure 
whether all of those are part of that facilities condition 
index, but they should be, I guess, and the estimate has been 
something like $4 to $6 billion of backlog. How do you manage? 
And I think you do not need to take much time. In fact, it is 
just a rhetorical question. How do you manage when that sort of 
thing happens to you on the backlog related to construction? 
Estimates now go as high as $12 billion in those areas. This is 
a disastrous budget for that, especially when you are talking 
about how this is the second year of the Centennial celebration 
run-up for the Park Service.
    But without that, because it is a rhetorical question, I do 
not really expect you to have an answer on that, I want to talk 
just a little bit about the partnership program of the Heritage 
Parks. We increased the number of Heritage Parks to 37 from 27 
in the previous Congress and the budget every year is well 
below the enacted budget from the previous year. The budget 
request is well below. This year it is about half the enacted 
budget from 2008. Some years it has been even much less than 
that over the last several years. Now, we have ended up with 10 
new items which have all of these, I think, but I am not 
absolutely certain, maybe you can tell me, have all of these 
been enacted with $1 million per year for a 10-year period as 
the authorization? That is, I believe, the general 
authorization.
    Ms. Bomar. It is the general authorization, $1 million for 
10 years, sir, and as you know, yes, there are 37----
    Mr. Olver. And there are several which have gone into a 
second authorization. Has that added money to them or are they 
only then allowed to reach toward the $10 million which was 
allowed in the original?
    Ms. Bomar. They can go beyond that.
    Mr. Olver. They can go beyond?
    Ms. Bomar. Yes, they can.
    Mr. Olver. They can go beyond. Go ahead. Tell me how this 
works.
    Ms. Bomar. Yes, sir, absolutely. There are 37, and as you 
know, I came from the northeast region and we have 27 in the 
northeast region. As you know, they are in various stages. Some 
have passed their 10 years. We still do not have criteria in 
place and yes, you are right, Mr. Olver, we have gone from $15 
million down to $7 million, actually, and last year was the 
first year where the Park Service had to allocate the funding. 
We wanted to make sure that we were very transparent in how we 
allocated the funding from the last year's $15 million. We 
looked at the portion of land within these areas, the 
population in accordance with the 2000 census, you know, 
looking at that----
    Mr. Olver. After looking at all of that, did you end up 
with $147,000 or $150,000 for all 10 of the new ones?
    Ms. Bomar. Yes.
    Mr. Olver. They got only $150,000?
    Ms. Bomar. They did, sir, yes, because when they first----
    Mr. Olver. We are funding some of those which have been 
reauthorized and there is another crew of them that are asking 
for reauthorization to go beyond the $10 million when others 
with the same authorization are getting numbers, the new ones, 
as low as $140,000. How can you even do a management plan on 
$150,000?
    Ms. Bomar. You are correct, but a lot of it is in the 
initial stages. Some heritage areas are very close to parks and 
they do get some technical assistance from either regional 
offices or parks. They are in various stages. Some are looking 
at the initial plan of the heritage area. Some areas, yes, have 
been around for 10 years and are yielding $6 for every dollar 
that is given. So at different stages, different heritage areas 
need different amounts, sir. And again, Mr. Olver, we come back 
to what was the most important need and it was the operations 
of the National Park Service. The tradeoffs are tough, whether 
it is LWCF construction, National Heritage areas. But again, I 
have come from the field, sir, and I know that in many of our 
programs--you talked a little bit about construction--those 
figures are down but we have built new visitor centers. 
Utilities are up. We have to focus our attention on the 
operations of the parks, sir.
    Mr. Olver. All right. To go back to the heritage areas, it 
seems to me that the intent was that by a 10-year period or by 
maybe the period that you got a total of $10 million that you 
ought to have been able to develop a financial self-sufficiency 
along the way. Is there any effort on the part of the Park 
Service going forward to make certain that parks do manage--
maybe it is reasonable since the authorization was for $10 
million not to put them under some sort of a diet until they 
have gotten $10 million but to continue and reauthorize when 
others have gotten some small and are getting such small 
numbers under these kinds of budgets, it seems to me that there 
needs to be a significant effort to move towards self-
sufficiency by the end of an authorization period.
    Ms. Bomar. You are absolutely correct, Mr. Olver, and that 
was the intent of Congress, to make sure that they would become 
self-sufficient.
    Mr. Olver. So we are just overriding our own intent as we 
go?
    Ms. Bomar. Well----
    Mr. Olver. And the numbers are going up and will continue 
to go up and the appropriation remains the same, which means 
that these parks are never going to be able to get their 
authorized amount.
    Ms. Bomar. There is a concern. David is chomping at the 
bit, I think, to talk about that. David, go right ahead and 
address that question of Mr. Olver.
    Mr. Harrington. Yes, sir, Mr. Olver. I think the issue has 
been that obviously as the number of heritage areas has 
increased, there is not enough money to go around, particularly 
if the funding goes down. But we have tried to give $150,000 to 
each of the 10 new areas to allow them to complete their plan. 
Once they complete their plan, they will be eligible for an 
enhanced amount. Of course, it is dependent on the overall 
appropriation.
    Mr. Olver. What is the enhancement if the total 
appropriation were what the request has been?
    Mr. Harrington. That is an excellent point.
    Mr. Olver. Thank you.
    Ms. Bomar. Thank you, Mr. Olver.
    Mr. Moran. Thank you very much, Mr. Olver.
    Mr. Tiahrt. Thank you, Mr. Chairman.

                       AMERICAN-MADE HANDICRAFTS

    In some of our parks, in the retail outlets we have 
wonderful crafts that are available, and I have some 
information about Made in South Dakota, something they sell at 
the Cedar Pass Lodge. I want to figure out a way for us to 
encourage local artists and craftsmen to have their products in 
the retail side of our national park system. We have great 
artists, we have great products that are available if we can 
just give them the opportunity to present them to the public 
and I think they will want to buy them. Is there a plan to do 
that?
    Ms. Bomar. Yes, Mr. Tiahrt, and thank you for bringing that 
up. The National Park Service strongly supports the American-
made products, the NPS Concession Program, especially. Over 
these last few weeks we have been asking the question: how many 
retail outlet stores are operated by a NPS Concession, and how 
many are selling American-made and Native American handicrafts? 
Coming from the field and watching over the 17 years that I 
have been in the NPS, we are certainly selling much more made-
in-America, American handicrafts. The sale of American and 
Native American handicrafts has increased over the last five 
years, and NPS is working especially in the parks to make sure 
that we have got interpretative signs to state that we are 
selling American-made goods in our parks.
    We recently collaborated with the National Park Hospitality 
Association on a survey which found that almost 70 percent of 
concession retail stores in national parks sell American 
handicrafts in the 225 retail stores operated by NPS 
concessionaires. There were 104 responses to that survey and 73 
stores are selling made in America. The survey also found that 
approximately 24 percent of annual, almost a quarter of annual 
retail sales, excluding food and beverages, are of American or 
Native American handicrafts. In 2007, just to give some 
perspective, the total estimated gross retail sales from all 
concessions was $180 million. So I am very pleased about how 
the Park Service is moving forward.
    Mr. Tiahrt. Thank you for that update. I was not aware of 
that. You are ahead of me.
    Ms. Bomar. My pleasure.
    Mr. Tiahrt. Thank you, Mr. Chairman, and thank you, and I 
appreciate your strong support and efforts to worry about the 
American tanker built by American companies with American 
workers.
    Mr. Moran. I do not know whether we should strike that from 
the record or let it go, but no comment.
    We will have additional questions for the record.
    This has been a very good hearing. Thank you very much, 
Madam Director and all of your staff, and the meeting is 
adjourned. 

[GRAPHIC] [TIFF OMITTED] T2183A.376

[GRAPHIC] [TIFF OMITTED] T2183A.377

[GRAPHIC] [TIFF OMITTED] T2183A.378

[GRAPHIC] [TIFF OMITTED] T2183A.379

[GRAPHIC] [TIFF OMITTED] T2183A.380

[GRAPHIC] [TIFF OMITTED] T2183A.381

[GRAPHIC] [TIFF OMITTED] T2183A.382

[GRAPHIC] [TIFF OMITTED] T2183A.383

[GRAPHIC] [TIFF OMITTED] T2183A.384

[GRAPHIC] [TIFF OMITTED] T2183A.385

[GRAPHIC] [TIFF OMITTED] T2183A.386

[GRAPHIC] [TIFF OMITTED] T2183A.387

[GRAPHIC] [TIFF OMITTED] T2183A.388

[GRAPHIC] [TIFF OMITTED] T2183A.389

[GRAPHIC] [TIFF OMITTED] T2183A.390

[GRAPHIC] [TIFF OMITTED] T2183A.391

[GRAPHIC] [TIFF OMITTED] T2183A.392

[GRAPHIC] [TIFF OMITTED] T2183A.393

[GRAPHIC] [TIFF OMITTED] T2183A.394

[GRAPHIC] [TIFF OMITTED] T2183A.395

[GRAPHIC] [TIFF OMITTED] T2183A.396

[GRAPHIC] [TIFF OMITTED] T2183A.397

[GRAPHIC] [TIFF OMITTED] T2183A.398

[GRAPHIC] [TIFF OMITTED] T2183A.399

[GRAPHIC] [TIFF OMITTED] T2183A.400

[GRAPHIC] [TIFF OMITTED] T2183A.401

[GRAPHIC] [TIFF OMITTED] T2183A.402

[GRAPHIC] [TIFF OMITTED] T2183A.403

[GRAPHIC] [TIFF OMITTED] T2183A.404

[GRAPHIC] [TIFF OMITTED] T2183A.405

[GRAPHIC] [TIFF OMITTED] T2183A.406

[GRAPHIC] [TIFF OMITTED] T2183A.407

[GRAPHIC] [TIFF OMITTED] T2183A.408

[GRAPHIC] [TIFF OMITTED] T2183A.409

[GRAPHIC] [TIFF OMITTED] T2183A.410

[GRAPHIC] [TIFF OMITTED] T2183A.411

[GRAPHIC] [TIFF OMITTED] T2183A.412

[GRAPHIC] [TIFF OMITTED] T2183A.413

[GRAPHIC] [TIFF OMITTED] T2183A.414

[GRAPHIC] [TIFF OMITTED] T2183A.415

[GRAPHIC] [TIFF OMITTED] T2183A.416

[GRAPHIC] [TIFF OMITTED] T2183A.417

[GRAPHIC] [TIFF OMITTED] T2183A.418

[GRAPHIC] [TIFF OMITTED] T2183A.419

[GRAPHIC] [TIFF OMITTED] T2183A.420

[GRAPHIC] [TIFF OMITTED] T2183A.421

[GRAPHIC] [TIFF OMITTED] T2183A.422

[GRAPHIC] [TIFF OMITTED] T2183A.423

[GRAPHIC] [TIFF OMITTED] T2183A.424

[GRAPHIC] [TIFF OMITTED] T2183A.425

[GRAPHIC] [TIFF OMITTED] T2183A.426

[GRAPHIC] [TIFF OMITTED] T2183A.427

[GRAPHIC] [TIFF OMITTED] T2183A.428

[GRAPHIC] [TIFF OMITTED] T2183A.429

[GRAPHIC] [TIFF OMITTED] T2183A.430

[GRAPHIC] [TIFF OMITTED] T2183A.431

                                           Thursday, April 3, 2008.

 INDIAN AFFAIRS AND OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

                               WITNESSES

CARL J. ARTMAN, ASSISTANT SECRETARY FOR INDIAN AFFAIRS
ROSS SWIMMER, SPECIAL TRUSTEE FOR AMERICAN INDIANS

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. Today we have Carl Artman, the Assistant 
Secretary for Indian Affairs, and Ross Swimmer, the Assistant 
Trustee for American Indians. They will be discussing the 
fiscal year 2009 budget request for the Bureau of Indian 
Affairs and the Office of Special Trustee for American Indians. 
We are happy to have both of you here today, and we look 
forward to working with you both as we proceed in this budget 
cycle.
    The budget request is very disappointing and seems to be a 
reoccurrence of what we have seen, come to expect from this 
Administration. We see flat or reduced budgets for almost every 
program in the Bureau. Once again, the request includes 
increased funding for Indian education, focused on meeting the 
annual yearly progress goals of the No Child Left Behind Act. 
Unfortunately, it drastically reduces almost every other aspect 
of Indian education. This Committee does not believe that you 
can improve Indian education by narrowly focusing on one 
portion of education and reducing efforts in other areas.
    This request eliminates the $21.3 million Johnson O'Malley 
Education Assistance Grants Program. It reduces early childhood 
development programs by 18 percent. It cuts badly needed 
student transportation funding at a time when gas prices are 
rising steadily. The request reduces scholarships in adult 
education programs by $5.9 million or 20 percent. It also 
completely eliminates funding for tribal technical colleges.
    Additionally, funding for school construction repair have 
been cut by $27.6 million or 19.3 percent. This is less than a 
year after the Department's Inspector General issued a report 
citing very serious health and safety concerns at 13 Bureau 
schools. In fact, the overall budget for education is down by 
$53 million or 6 percent.
    I have a hard time describing this as an improving Indian 
education initiative. The Public Safety and Justice Program 
includes an increase of $1.4 million for the Safe Indian 
Communities Initiative and a reduction of $2.3 million for 
tribal courts. This Committee intentionally increased the 
funding for tribal courts in 2008, specifically as a part of an 
overall increase for combating methamphetamine use and violent 
crime in Indian Country. The National Congress of American 
Indians has indicated numerous times that improving the tribal 
court system is a vital piece of the war on meth.
    In addition, there is also a reduction to detention center 
construction and repair. The reduction comes after reports 
outlining the overcrowded and appalling conditions found in 
Indian Country detention centers. There is also a troubling 
reduction of $22 million to Welfare Assistance, a reduction of 
$12.5 million or 50 percent from the Road Maintenance Program, 
and once again, the $13.6 million Housing Improvement Program 
has been completely eliminated.
    For the Office of the Special Trustee, the overall budget 
is reduced by $9.3 million. This is due to the elimination of 
the Indian Land Consolidation Program. I will be interested to 
hear the justification for this elimination, given that a few 
years ago the Administration requested very large increases for 
this program.
    Setting aside the budget, I am extremely interested in 
hearing an update on the recent Court ruling on the Cobell 
versus Kempthorne litigation and what impact these rulings will 
have on your budget and trust responsibility to Native 
Americans.
    Mr. Dicks. Mr. Tiahrt.

                 Opening Remarks of Congressman Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman. I also want to welcome 
both Ross Swimmer, Special Trustee, and Carl Artman, Assistant 
Secretary for Indian Affairs, to discuss the budget for fiscal 
year 2009.
    Gentlemen, perhaps we should begin by talking about the '08 
budget as a baseline and where we should go up, and I say that 
because I am assuming the Secretary did not ask for what we 
have in front of us now when he sent his request to the OMB.
    While there is some modest increases in last year's Safe 
Indian Communities Initiatives, there are many troubling 
reductions to the programs across the budget.
    And that said, I look forward to getting some of these 
deficiencies in open discussion with you today.
    Thank you, Mr. Chairman.
    Mr. Dicks. We will now have the statement of Secretary 
Artman. We will put your entire statement in the record. You 
may proceed as you wish.

             Opening Remarks of Assistant Secretary Artman

    Mr. Artman. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Ranking Member, and members of the Committee. My name 
is Carl Artman, Assistant Secretary for Indian Affairs. I am 
accompanied today by Ross Swimmer from the Office of the 
Special Trustee for American Indians.
    We are here to discuss the Department's fiscal year 2009 
budget request for Indian programs. The fiscal year 2009 budget 
request for Indian Affairs totals $2.2 billion. The Indian 
Affairs Program serves 1.6 million American Indians and Alaskan 
Natives located on or near reservations across the Nation.
    The budget focuses on priority areas in Indian Country and 
honors the Federal government's obligation to federally 
recognized American Indian and Alaskan Native governments in an 
informed and focused manner. It fulfills the President's 
directive to improve management and performance in the Federal 
government. This approach preserves programs serving the 
largest Indian populations on a nationwide basis and adjusts 
program funding to support higher priority needs.
    The fiscal year 2009 budget request for Indian Affairs 
sustains funding for two of the Department's 2008 priority 
initiatives: Improving Indian Education and the Safe Indian 
Communities Initiatives. It also provides new funding for 
Indian Country under the Secretary's new Safe Borderlands 
Initiative. These three initiatives are indicative of the 
Secretary's priority to significantly improve American Indians 
and Alaskan Native communities.
    The fiscal year 2009 budget also targets a key area of 
concern beyond these three priority initiatives. A funding 
increase is proposed to enhance economic development in Indian 
Country and to improve management of the BIA Loan Program. The 
fiscal year 2009 budget request reflects tribal input, responds 
to priorities in Indian communities, and its development 
reflects the Department's commitment to engage with the tribes 
in a government-to-government manner.
    [The statement of Carl Artman follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.001
    
    [GRAPHIC] [TIFF OMITTED] T2183B.002
    
    [GRAPHIC] [TIFF OMITTED] T2183B.003
    
    [GRAPHIC] [TIFF OMITTED] T2183B.004
    
    [GRAPHIC] [TIFF OMITTED] T2183B.005
    
    Mr. Artman. Now, I will hand over the microphone to Mr. 
Ross Swimmer to discuss the Office of the Special Trustee.
    Mr. Dicks. Thank you.

               Opening Remarks of Special Trustee Swimmer

    Mr. Swimmer. Thank you, Secretary Artman, and Mr. Chairman 
and members of the Committee, it is a pleasure to be here this 
morning. I appreciate the opportunity to present the proposals 
from the Special Trustee's Office.
    This year we are asking for approximately $182 million. Of 
that amount approximately $56 million is being dedicated to the 
Office of Historical Trust Accounting, and that is relative to 
the Cobell lawsuit and approximately 103 more lawsuits that 
have been filed now by individual Indian tribes that are taking 
up the use of that money for research and meeting the 
accounting requirements and other demands from the tribal 
litigation and the tribes that are not litigating.
    We feel like this money is sufficient to do the job that we 
are engaged in as far as the Trustee is concerned, particularly 
in the area of trust reform, the cleanup, continuing cleanup of 
trust records in the field, and of course, the storage and the 
maintenance of those records and to become in full compliance 
with the 1994 Act.
    My statement is a part of the statement with Secretary 
Artman, and it does reflect the combined trust budget of the 
Bureau of Indian Affairs as well as the Office of the Special 
Trustee.
    The Bureau of Indian Affairs continues to manage and to 
oversee the trust assets. The Office of the Special Trustee's 
focus is now not only on reform but managing the financial 
assets of the trust, in particular the collection, investment, 
and accounting, and the statements that are generated for 
individual beneficiaries. That is a core function of the 
Special Trustees Office now along with an appraisal function.
    And we continue to support the Bureau of Indian Affairs in 
its efforts to reduce the probate backlog and to bring in new 
systems, information technology systems to address the needs of 
the trust.
    With that I will be pleased to answer questions from the 
Committee.

                            COBELL DECISION

    Mr. Dicks. Since its beginning the Cobell litigation has 
cost the Federal government hundreds of millions of dollars. 
This funding could have been spent on healthcare, education, 
law enforcement and job creation in Indian Country. Recently 
the Judge in the Cobell case was replaced, and the new Judge 
rendered a decision on historical accounting. His decision was 
that after 11 years of litigation, a historical accounting was 
impossible.
    How does this decision change your actions related to trust 
management and more specifically historical accounting 
activities?
    Mr. Swimmer. Thank you, Mr. Chairman. I do not believe that 
it changes our responsibilities insofar as trust management is 
concerned. We still have the obligations that were outlined in 
the 1994 American Indian Trust Reform Act, and we are focused 
on those, and we are continuing to improve on our ability to 
deliver on those.
    As far as the change in the judiciary, we certainly 
appreciate what Judge Robertson has done. He has been very 
deliberate and concise and expedient to a degree in moving the 
Cobell case along. He has indicated to us that he expects to 
issue a final order in the case some time this summer. He has 
outlined a method of reaching that order via briefing by the 
plaintiffs in the case to explain to the Court why they believe 
that they are entitled to and that he has the jurisdiction to 
award significant funds to the plaintiffs. We, in turn, are 
provided time to respond to that brief. He has then scheduled a 
hearing for April 28 to discuss the two briefs, and then he has 
also scheduled, if necessary, a trial to begin June 9. That 
would lead up then to a final order.

                         HISTORICAL ACCOUNTING

    He has not in the interim provided any relief from that 
accounting. He has indicated that in his opinion the accounting 
is impossible. He has based that primarily on his belief that 
the accounting that is necessary in this case is going to be 
extremely expensive, continuing to be expensive, possibly 
another couple hundred million dollars, and he does not believe 
that there is a will of Congress to continue funding it.
    Mr. Dicks. He is right about that.
    Mr. Swimmer. Well, and if----
    Mr. Dicks. Speaking only for myself.
    Mr. Swimmer. Absolutely. And if there is not money to 
continue the accounting, then it would be obviously impossible 
to do.
    On the other hand, since he has not entered any kind of an 
order stopping us from doing the accounting or prohibiting the 
accounting----
    Mr. Dicks. Why do you not go in and ask him whether we 
should continue the accounting, wasting all this money, if he 
feels it is impossible to do it?
    Mr. Swimmer. Well, that is certainly a consideration, and 
it has been brought up a few times. It has been discussed with 
him.
    Mr. Dicks. You talk to your Justice Department? Who is 
handling this? The Justice Department?
    Mr. Swimmer. The Justice Department is our attorney in the 
case, and we have discussed that, and I think the Court 
certainly understands that the expense of doing this and that--
--
    Mr. Dicks. I would certainly reduce the effort if the Judge 
has said it is impossible, and I think it is impossible having 
looked at this. To me, I think you ought to be judicious about 
how much money you are spending on this if it is impossible.
    Mr. Swimmer. Well, Mr. Chairman, we are----
    Mr. Dicks. I would rather spend the money on education and 
all the other things that the Administration is not funding 
than waste it on accounting that is impossible. The Judge has 
said it is impossible.
    Mr. Tiahrt. Mr. Chairman.
    Mr. Dicks. I yield to Mr. Tiahrt.
    Mr. Tiahrt. What would be the impact if no funds were 
allocated for this in the Interior bill? What would the 
potential impact be in the Court? Would the Judge react 
negatively, or what risk would we have by not funding it?
    Mr. Swimmer. I think it is my and other considered opinions 
that if Congress were to do such a thing, that it would impact 
the Department very negatively, that it would be almost 
considered by the Court as being in contempt.
    Mr. Dicks. Well, wait a minute. Wait a minute. I mean, have 
you gone in and asked the Judge? Has the Justice Department 
gone in and asked the Judge, should we continue to do this 
based on what you said?
    Mr. Swimmer. I do not believe that specific question has 
been asked. The ruling----
    Mr. Dicks. Would not that be the right thing to do, to go 
in and ask for instruction from the Judge?
    Mr. Swimmer. Well, his instruction so far, Mr. Chairman, is 
that he believes that this is impossible to do.
    Mr. Dicks. Well, if it is impossible to do, why spend $55 
million on something that is impossible to do? Is there a way 
to spend the money on something constructive?
    Mr. Swimmer. Oh, absolutely. There is no question that this 
case has cost tens of millions, hundreds of millions of 
dollars.
    Mr. Dicks. No, no. I understand that. But I am saying, can 
you spend the $55 million constructively on something? Are 
there aspects of the accounting that could be done that would 
be worthwhile? Just to go back, you know, like Groundhog Day, 
and keep doing what we have been doing if it is not going to 
lead to anything. It is just a waste of money.
    Mr. Swimmer. We do not believe that it is a waste of money, 
Mr. Chairman. We do not believe, frankly, that we are going to 
see an end to the case because, simply because this Court 
issues an order. We may very well be back in this Court. We 
believe that spending the money that we have requested to 
continue doing the research that we are doing, which means 
going back into records that are sometimes 100 years old, the 
more information that we develop, the more that we are able to 
indicate to show, frankly, that there is no----
    Mr. Dicks. There has not been any damages.
    Mr. Swimmer [continuing]. No damages.
    Mr. Dicks. That is right.
    Mr. Swimmer. There is no money missing from the system.
    Mr. Dicks. Well, the money would be well spent if you could 
continue to show that there has not been any loss here.
    Mr. Swimmer. That is correct.
    Mr. Dicks. I mean, because when we did the sample----
    Mr. Swimmer. Right.
    Mr. Dicks [continuing]. It showed that it was de minimis. 
It was de minimis.
    Mr. Moran. Would the gentleman yield?
    Mr. Dicks. I am not going to yield. I will yield when I am 
finished.
    Mr. Moran. Okay. I was going to buttress what you were 
saying. Go ahead.
    Mr. Dicks. Yes. Then I will yield.
    Mr. Moran. Yeah.
    Mr. Dicks. All right. Go ahead.
    Mr. Moran. One error has been uncovered, a $61 check is all 
that has been determined when they used those four original 
plaintiffs and did a complete historical search. Go ahead. 
Just----
    Mr. Dicks. No. It was de minimis. It was de minimis, and 
that is what offends me. I know this budget has been cut in 
other areas to fund this, and I have tried to explain this to 
the tribes that the Administration is cutting the budget in 
other areas to fund this work. And, therefore, it is being 
taken right out of the Indian programs, and therefore, if it is 
not worth doing and if it is not justified, then we should not 
be hurting the tribes by funding this when we cannot fund 
education and meth and Courts and schools and everything else 
that you are cutting, Mr. Artman.
    To me it is just a big waste of money, and I am for cutting 
it out. But we will have to wait and see.
    Mr. Swimmer. I think that there may be reasons to continue 
it. But the question is at what level. Since the Judge sees 
this as an impossible task----
    Mr. Dicks. Maybe we ought to write a letter to the Judge 
and tell him: If you think this is impossible, why are you 
mandating that it still be funded? Why do you guys not do that?
    Mr. Tiahrt. I think it is a good pursuit, but if we are 
funding something at $55 million that is impossible, maybe we 
should only try $5 million worth of impossibility and take the 
other $50 million worth of impossibility and put it someplace 
else.
    Mr. Dicks. Yes.
    Mr. Swimmer. If I may, Mr. Chairman, the $56 million----
    Mr. Dicks. It would not be so bad if you were not cutting 
all these other programs. Not you, Ross, but Artman and his 
crowd over here. If you were not cutting all these other 
programs and devastating the tribes, then I could feel a little 
differently about this. This budget offends me, and then to 
have the Judge say that we should not even be doing this, that 
it is a waste of money, maybe not in those terms but saying 
basically that it is impossible, which I agree with, then I 
just--this is very disturbing.
    Mr. Swimmer. Mr. Chairman, there is no question that the 
Judge would welcome the Congress clarifying what the Act 
actually required in terms of historical accounting. That has 
yet to be done. It has never been done, and that is one of the 
reasons it has led to this concept of impossibility.
    Mr. Dicks. Okay. Let me ask you this. Can we get down to 
the final deal? At some point he is going to have to deal with 
the lawsuit. Right? The suit of the tribes, at some point he is 
going to have to decide that.
    Mr. Swimmer. Of the Cobell plaintiffs.
    Mr. Dicks. Right.
    Mr. Swimmer. The individuals. Yes. The suit of the tribes 
is still pending, and just to clarify, approximately $30 
million of the $56 million is dedicated to Cobell. The balance 
of that is dedicated to defending the tribal lawsuits, which we 
now have with many of them, again, asking for such a historical 
accounting, and we also have a series of asset management 
claims that are pending, and some of those that have been 
settled indicate that the cost of these could be quite high as 
well.
    So we do have----
    Mr. Dicks. Where does the money come from to settle these 
things? Does it just comes out of the Justice Department Claims 
Fund?
    Mr. Swimmer. If it is a claim that is determined to be by 
the Court or by the Justice to be a justified claim that they 
can pay because of damages created by the government, then it 
comes out of the judgment funds, it is appropriated through the 
Justice Department for these kinds of claims.
    Mr. Tiahrt. Mr. Chairman.
    Mr. Dicks. Yes. Mr. Tiahrt.
    Mr. Tiahrt. Did I understand you, Mr. Swimmer, to say that 
we are funding both sides of this lawsuit? That we are funding 
the tribes in their claim and then we are defending the 
government side?
    Mr. Swimmer. No. Of the $56 million approximately $20 
million of that is for us to defend the tribal lawsuits, but in 
defending those tribal lawsuits, we have to respond to requests 
for information from the tribes, and many of them are asking 
for accounting information, for records----
    Mr. Tiahrt. Okay.
    Mr. Swimmer [continuing]. That goes back, you know, 100 
years.
    Mr. Tiahrt. But we are on the other side of the legal table 
there as well.
    Mr. Swimmer. Yeah. And the Cobell case, of course, is 
independent of the tribes' case. The money, though, again, as I 
mentioned, the amount of work that we can do to sort of, as we 
have described in past hearings, to take money off the table is 
well worth it. In the plaintiff's recent filing of their brief, 
they believe that they are entitled to $54 billion. That is 
their claim at this point under the theory that that money, a 
significant amount of it was never paid out to the individual 
beneficiaries, and then with interest it adds up to around $54 
billion.
    So to the extent that the money is now being used by the 
historical accounting office, I think the better off we are all 
going to be to continue to show that there really are not 
significant losses in the trust fund, that there have been 
systems that have worked, that the accounting that we have done 
so far and the research we have done indicates that the amount 
that might be owed or that was not paid out is very minimal.

                        METHAMPHETAMINE PROBLEM

    Mr. Dicks. Okay. Last year we heard from numerous witnesses 
from numerous locations in Indian Country about the rising 
crisis of meth use and the influx of foreign drug cartels into 
reservations around the county. Tribal leaders have called 
their plague of drug use the second small pox. Drug use in 
Indian Country has increased 250 percent since 2005, and 
subsequent rates of violent crime have increased in accordance 
with the rising drug use.
    Last year this Committee responded to the crisis with a $26 
million increase over the 2007 enacted level targeted at law 
enforcement and tribal Courts.
    How are you going to use the funds provided in last year's 
appropriation to respond to meth use and violent crime, and 
what do you plan on for fiscal year 2009?
    Mr. Artman. Thank you, Mr. Chairman. I would agree with you 
and the tribal leaders who said that this is a scourge in 
Indian Country. It is killing off entire generations, and 
tribes have come up with unique solutions, especially the more 
remote they are, to deal with these issues.
    But where we can offer assistance, I believe, is getting 
feet on the street and education into those communities and the 
surrounding communities.
    We will be adding 200 additional officers with the money 
that we may be appropriated for this program. We are going to 
be focusing on targeted areas, target areas that have shown 
higher meth usage, higher crime rates, et cetera, and we are 
going to be supporting funding for areas where money may be 
lost in other programs such as on the Pine Ridge Reservation, 
which is, which may be suffering by I think a 15 percent 
reduction in their DOJ COP Programs.
    In addition, focusing specifically on methamphetamine, we 
are going to be getting at least 30 drug agents into the field 
that are specifically trained and strategically placed to deal 
with these issues. In addition to those 30 officers, we will be 
hiring 18 school resource officers. These are police officers 
that oftentimes did double duty, wore two different hats, but 
now they will be specifically placed into the schools, and that 
will be their primary job, to not only be feet on in the 
hallways, if you will, but also to offer training and support 
to the folks within the schools and to the students themselves.
    We will also be putting money into additional training for 
social workers, police officers, tribal police officers, and 
putting money into the drug awareness campaigns.

                   OFFICE OF JUSTICE SERVICES HIRING

    Mr. Dicks. Last year we heard that according to the 
Department of Justice Indian Country experiences violent crime 
at a rate almost double the national average. The Justice 
Department stated that there was an additional 1,500 officers 
needed throughout Indian Country, and your own GAP analysis 
says that you need about 1,850.
    How did the 2008, appropriation work to reduce this 
backlog?
    Mr. Artman. With the 2008 appropriation and with the 2009 
appropriation we were able to create, fund additional officers 
across basically three areas: police officers, criminal 
investigators, and detention officers. Right now we have 617 
funded. We have managed to fill just about 400 of those 
positions, leaving just over 200 vacant. And we are, and of 
those nearly about 43, 45 percent of those folks are in the 
process, in the human resources process.
    In other words, we are taking that money, and we are 
putting people into those positions right away. One of the best 
deterrents that we can have to fighting crime is feet on the 
street.

                       METHAMPHETAMINE EDUCATION

    Mr. Dicks. How are you working in Bureau schools to educate 
children on the dangers of meth and other drugs?
    Mr. Artman. Well, in addition to having our police officers 
work with the school programs and work with security officers 
and the administrators on developing programs to inform them of 
the dangers of methamphetamine, not just to the individuals but 
over generations of people, we are also funding drug awareness 
campaigns. We are working in conjunction with the National 
Congress of American Indians and the White House to make sure 
that we are getting these programs and information out there.
    One such program that we helped to fund was what is being 
marketed as the meth tool kit, which contains books and 
information, laws and processes and procedures for schools and 
laws for the tribal governments that they can put in place, 
essentially templates.
    There is also a good deal of focus on the social aspect of 
it as well. For example, in terms of training, a lot of times 
the children would be put into foster homes until the mother is 
off of methamphetamine, but oftentimes in getting off of 
methamphetamine, there is a reoccurrence in some of the 
symptoms that may be exhibited by a person. And that mother may 
lose their children on a longer-term basis, if not permanently.
    One of the things we are doing is educating the social 
workers at the tribal level and at the local level about how 
one recovers from methamphetamine and why it may be that this 
reoccurrence and symptoms may be occurring so that there is no 
long-term impact to the family.
    Mr. Dicks. We have got a very successful program in 
Washington State on this. We have been funding it for a number 
of years on meth and working with the tribal Courts on how to 
reconcile the families, which is a very important part of this, 
because many times the children are victims of their parents' 
utilization of these drugs. And, I would recommend that you 
take a look at that, because I think that we have been able to 
unite families after they were split through a very good 
program. We have a drug Court out there that is specifically 
working on finding solutions. And that has been pretty 
successful, too. And we have seen a drop in the number of 
cases, which is the most important thing.
    Mr. Artman. Yes.
    Mr. Dicks. And then our state was one of the highest abuse 
rates in the country. I was shocked to see that, but it was 
right up at the top of the list. So it is a major concern.
    Mr. Tiahrt.
    Mr. Artman. Thank you.

                         EDUCATION CONSTRUCTION

    Mr. Tiahrt. Thank you, Mr. Chairman. I would like to start 
with construction. We had a $30.5 million reduction in 
construction, and the majority of that cut is coming from 
education construction. We all know about the escalating costs 
of construction, but it is a great need that we have in Indian 
Country. The schools, I believe, should be a priority.
    What is the current backlog to replace, rebuild, and repair 
Indian facilities?
    Mr. Artman. We had a replacement school priority list in 
which we ranked, this started approximately 5 years ago, 
approximately 14 different facilities that needed to be dealt 
with. We are down to, I believe, ten now. Yes. Ten on that list 
to accomplish. All ten would take about $330 million to 
complete. The budget for this year would have one replacement 
school and one replacement facility. I believe what we have 
targeted this year is the Dennehotso School as a replacement 
school and replacing a facility at the Chinle Boarding School.
    Mr. Tiahrt. I was under the impression last year that we 
were going to complete the ongoing projects before we started 
new projects. Is that still the plan?
    Mr. Artman. That is still the plan, and as we begin to come 
to a close on this current list, when we begin to look at 
developing a new priority list, we will be developing that and 
then taking that out to Indian Country to consult with Indian 
Country to make sure that it is consistent with their beliefs.
    Mr. Tiahrt. So these seven projects are the ones that will 
be completed before we move on then?
    Mr. Artman. That is correct.
    Mr. Tiahrt. All right. And I am aware that we approved this 
plan, and so I am glad that it is continuing that way.
    Once again, the budget eliminates both Johnson O'Malley 
education grants, $21.4 million, and BIA housing assistance, 
$13.6 million because OMB believes they are duplicative. We all 
know there is great need for Native Americans and particularly 
in the case of housing assistance. And I believe they are not 
currently eligible for HUD assistance. Is this the case?

                      HOUSING IMPROVEMENT PROGRAM

    Mr. Artman. Well, specifically with the Housing Improvement 
Program, the HIP Program, the HIP Program certainly serves the 
poorest of the poor. And there is a belief that HIP is 
duplicative, NAHASDA and HIP are duplicative.
    The funds that the tribes receive through NAHASDA from HUD, 
they do have the ability to appropriate certain portions of 
that money to how they want to. Right now under the HIP 
Program, we serve approximately 350 families. It is a 
relatively small impact that we have in Indian Country and one 
that we believe can be made up through the tribes using the 
NAHASDA funds in ways that they see fit. And probably in a 
manner that is more efficient than we could do it at our level.
    Mr. Tiahrt. Well, do the '09 HUD requests include the 
ability to make them eligible, the language that they needed in 
their bill to make them eligible for this assistance through 
HUD?
    Mr. Artman. Mr. Tiahrt, I am not sure. We would have to 
look into that and get back to you on that.
    Mr. Tiahrt. Please do.
    Mr. Artman. Thank you.
    Mr. Tiahrt. Your budget----
    Mr. Dicks. Wait a minute. Wait a minute. You are saying 
there is a question about their eligibility for the HUD funds?
    Mr. Tiahrt. Yes.
    Mr. Dicks. I mean, you are saying we are killing this 
program because the HUD funds are going to take care of it, and 
then you are saying but we are not sure that the tribes are 
eligible for HUD funds?
    Mr. Artman. No. I am saying, Mr. Chairman, that I am not 
sure, and I just want to be accurate in whatever response I 
have.
    Mr. Dicks. Well, wait a minute. That is inconsistent.
    Unknown Speaker. That is what Mr. Tiahrt just asked.
    Mr. Dicks. I mean, that is inconsistent with your position. 
Maybe it is not your position, I hope it is not, I hope it is 
OMB's position. But you cannot say in one breath, we are going 
to have HUD take care of this and then in the next breath say 
but we are not sure the tribes are eligible for it.
    I mean, either they are or they are not. Does anybody here 
know that? Is there somebody in your staff here that can tell 
us that?
    Mr. Tiahrt. I am not sure that he can tell us that, Mr. 
Chairman, in fairness to Mr. Artman. We do need an answer, 
though, because I do not know that that authorization is in the 
HUD or the funding is in the HUD request. And if it is not, 
then it puts us in a very difficult situation. And the reason I 
want to bring this up is because I want them to push HUD to 
make sure that they have the language and the funding in there.
    Mr. Artman. And that is the way I understood the question 
was, whether or not there is actually going to be money and 
authorization attached to that. We believe that there is, 
legally there is that ability to do that.
    Mr. Dicks. Do you think there is legally authority?
    Mr. Artman. Legally the ability to do that. I am just not 
sure about----
    Mr. Dicks. Okay. Then what you are saying is----
    Mr. Artman [continuing]. The budget numbers.
    Mr. Dicks [continuing]. Whether there is any funds.
    Mr. Artman. Correct.
    Mr. Dicks. Again, though, if you are saying we are going to 
have this HUD Program do it, because we are going to switch the 
responsibility to HUD, oh, but by the way there is no funds in 
the bill for HUD to do it, that is not a very satisfactory 
answer from our perspective.
    Voice. It is an unacceptable answer.
    Mr. Dicks. Yes. Mr. Tiahrt.

                           WELFARE ASSISTANCE

    Mr. Tiahrt. Your budget reduces Welfare assistance by $22 
million. I assume that decision was driven by numbers and not 
need. What is the current annual need for eligible Native 
Americans so that the Committee can base their decisions on the 
facts?
    Mr. Artman. Sure. The reduction of $22 million in welfare 
assistance funding was focused primarily on the single 
employables. That is the reduction of funds for the single 
employables. Single employable is an individual over the age of 
17 mentally and physically capable of obtaining employment. 
Currently the single employable funds that we would be 
eliminating is the last resort for a recipient of those funds. 
They have already gone through the state process and have 
either used up all the money or the time that is available to 
them within that process.
    Right now this money can be used for as long as they want. 
Currently no other program at the federal level or the state 
level allows that sort of in perpetuity acceptance of these 
funds or receipt of these funds.
    We are not eliminating funds for families. We are not 
eliminating funds related to child welfare or to individuals 
that are mentally or physically incapable of finding 
employment. Again, this is focused primarily only on the single 
employables program.
    Mr. Dicks. And how much is the cut?
    Mr. Artman. Twenty-two million dollars.
    Mr. Dicks. Well, where do you get those numbers?
    Mr. Artman. The funding numbers?
    Mr. Dicks. Yes. Where do you get that cut number? Where 
does that come from?
    Mr. Artman. Again, the $22 million reduces the funds that 
we are currently paying out for single employables, single 
employables, the first category of individuals.
    Mr. Dicks. Do you have a history there that shows that that 
is how much is being spent?
    Mr. Artman. Yes, sir, we do.
    Mr. Tiahrt. The budget----
    Mr. Dicks. Why do you not give us that for the record?
    Mr. Artman. We will do that.
    [The information follows:]

                           Welfare Assistance

    Currently, $34.8 million is provided to general assistance 
recipients. A reduction of $22 million would equate to removal of 
approximately 14,000 single employables from the general assistance 
rolls.

    Mr. Dicks. Thank you.

                            ROAD MAINTENANCE

    Mr. Tiahrt. The budget reduces road maintenance funding by 
50 percent because some of the funds are available to the 
tribes through the Department of Transportation.
    What is the need, and what will not be done because DOT 
funds are not adequate to address the most serious problems?
    Mr. Artman. We have $400 million in the President's budget 
for Indian reservation roads programs. The tribes will have the 
ability to use 25 percent of those funds or approximately $100 
million for maintenance and ongoing operational needs for those 
roads. That was not previously available to them.
    So while there is going to be a cut on one side, there is 
the ability to use the money on the other side in a better 
fashion, and, again, probably in a more efficient fashion than 
we could have administered so that the money will be there. 
Roads money have increased----
    Mr. Tiahrt. Is it dollar for dollar?
    Mr. Artman. I do not know if it is going to be a dollar-
for-dollar change, but also while there is, while there may not 
be a dollar-for-dollar alteration in terms of the budget, we 
are hoping that there will be efficiencies at the tribal level 
that we will be able to make up for any deficits that may 
occur.
    Mr. Tiahrt. Okay.
    Mr. Dicks. All right.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Moran.
    Mr. Moran. Yeah. Thanks, Mr. Chairman.

                     VIOLENCE AGAINST INDIAN WOMEN

    Last month the public witness hearing the Chief of the 
Standing Rock Sioux Tribe told a story about a rape victim 
whose case was never investigated by the BIA. The girl died as 
a result of her injuries during that rape. She was less than 20 
years old. Chief His Horse is Thunder said that the system 
failed her at every level. That chief told us that his tribe 
has the second highest crime rate of any tribe.
    Yesterday we heard from the Indian Health Service about the 
alarming rates of sexual abuse against Native American and 
Alaskan Native women. Statistics on the number of women 
assaulted are absolutely staggering, and yesterday we discussed 
the need for medical treatment of those individuals for both 
forensic and health reasons.
    The fact is that before these women have a chance to seek 
medical care, the crime has to be reported, and there have to 
be law enforcement officers trained in those types of crimes. 
But it appears that many of these crimes are not reported, and 
in many cases when they are reported, there are no officers 
trained in response to those crimes. And so we have an 
epidemic. You have probably seen the Amnesty's report. There 
have been other investigations.
    First of all, is there any coordination occurring between 
BIA, the Indian Health Service, and the Justice Department to 
target areas of high incidence and to turn this around?
    Mr. Artman. We have seen the Amnesty International report 
and are familiar firsthand with a lot of the domestic violence 
that is occurring on the reservations. And I, too, am familiar 
with that same story because Ron had shared that with me as 
well, and it is a tragic and heartbreaking situation when you 
see these things occur.
    We are, to answer the question with regards to 
coordination, yes. We do work with the Indian Health Service in 
their, in working with them to make sure that there are people 
inside their facilities, and it is a continual flow. You are 
right. First there has to be the reporting. Then there has to 
be the response, and our officers have to be properly trained. 
And then the IHS portion of it, that there have to be people on 
the receiving end to help these individuals along.
    And it is tragic when you hear about a complete failure of 
the system. Certainly with what we are doing out there in terms 
of trying to educate families, leaders, women about domestic 
violence and helping them to understand that it is okay and 
preferable that they report these things because we need to 
know about them, we are training our officers to deal with 
these situations as well.
    And while certainly I understand on the Standing Rock Sioux 
Reservation it is, geographically it is a huge reservation. 
There is a deficit of officers up there. There are a lot of 
areas, especially out in that part of the country, where we do 
not have enough officers to cover the geographic space that 
those reservations have. The communities are spread out. The 
infrastructure, the roads or the radios, are oftentimes left 
wanting, and we cannot get people to places as quickly as we 
want. Especially in the case of a bad road. You may not be able 
to, if it is 75 miles, when you might have a normal response 
time of an hour because of a bad road, it may be 2 hours or 
three.
    We are trying everything we can not to just answer those 
particular situations but the panoply. If you are dealing with 
methamphetamines or any kind of other kind of substance abuse, 
that leads to crimes against persons, crimes against property. 
The use of those drugs and substance abuse has for many 
generations has tribes and their cultures and trying to get 
that out of their culture. But when you have people, multiple 
generations living in the same household, you have substance 
abuse going on, this is something that cannot be just dealt 
with tomorrow. It has to be over time, and we are working hand 
in hand with all of our federal brethren that we can, be it IHS 
or DOJ, to make sure that we can respond to this, not just in 
the short term but also in the long term as well.
    Mr. Moran. Well, you know, it is a problem but we do not 
see any evidence of where the system is working. Now, 
obviously, you are more likely to hear about where the system 
does not work, but you look at the numbers, the system is not 
working. That is the conclusion you have to derive. And I think 
it is only fair to ask or demand that there be a higher 
priority given this, and I would hope, Mr. Chairman, we could 
address this in the report and see if we could not get some 
kind of----
    Mr. Dicks. At least a report----
    Mr. Moran [continuing]. Effort going.
    Mr. Dicks [continuing]. Of some sort on the situation.
    Mr. Moran. Yeah. I mean, we do not want to create a new 
program, but we would like to get, you know, do something that 
would focus attention on the problem. I suspect that, other 
than coming up with nice answers and giving lip service, I do 
not know that there is much in the way of real change occurring 
and----
    Mr. Dicks. What about the money that is spent? We 
appropriate a lot of money, I think it is in the Health and 
Human Services budget, for violence against women. Do you get 
any funds from that to have any kind of a program?
    Mr. Artman. I do not think we get any money from the IHS 
budget for this issue, but we do focus----
    Mr. Moran. Well, it is not funded in----
    Mr. Artman [continuing]. On this ourselves.
    Mr. Moran. It is violence against women account?----
    Mr. Artman. Right.
    Mr. Moran [continuing]. The authorization, but I will bet 
you it is not going to Indian reservations.
    Mr. Dicks. Well, what I am saying is we are spending at 
least $900 million for the Violence Against Women Program, 
which we all support. Maybe there is something we can work 
there with them, too, since this is 2.5 times more likely to 
happen to a Native American woman, maybe there ought to be some 
effort with them, and I would urge you to meet with them and to 
see if there is some way they can help provide some help or 
relief or funding for your programs, for your efforts here.
    Mr. Tiahrt. And do not use the HUD model. Use a better 
model.
    Mr. Artman. Right now we do have a program that we are part 
of a group of federal agencies that works specifically on this 
issue, and again, it is IHS, Department of Justice. And with 
regards to real change in priorities, Congressman, we have a 
national police force, but we have limited people. We do have a 
priority list of reservations that show higher crime statistics 
than others, and we do move police around to deal with those. 
That has proven successful. Obviously, you cannot catch 
everything although we try our best.
    Mr. Dicks. But the statistics are from the Bureau of 
Justice that 70 percent of these cases are not reported. 
Seventy percent.
    Mr. Artman. We think. And it could be worse.
    Mr. Moran. Well, that is a failure of the system, and the 
Chairman underscores why we need to give this a higher 
priority.

                           COBELL LITIGATION

    Let me just say one point about this case that got the 
Chairman as aroused as it did and rightfully so, and I would be 
inclined to agree with the Chair and the Ranking Chair, maybe 
we need to get people's attention by zeroing the thing out. But 
I would hope that you would look to the possibility of having 
an independent entity simply do statistical sampling of the 
accounts and come up with a range of settlement options based 
on shared characteristics of the various account holders.
    This is, you know, this is not working.
    Mr. Dicks. Now you are back to Cobell now.
    Mr. Moran. I am back to Cobell.
    Mr. Dicks. Okay.
    Mr. Moran. Oh, yeah. I am not talking about the----
    Mr. Dicks. Yes. I was----
    Mr. Moran. But I am talking, but I am going to tie it in.
    Mr. Dicks. Okay.
    Mr. Moran. Because here we are spending $55 million on 
something that, you know, we have had one case so far that we 
have shown an error on a $61 check or something. But this is an 
example of where we really desperately need money, and instead 
we are giving it to the lawyers on these cases that, you know, 
believe we have got $54 billion in settlement that is never 
going to materialize.
    So I am just throwing in my two cents as well that it seems 
like a misallocation of priorities and funding.
    Thank you, Mr. Chairman.
    Mr. Dicks. Let me just comment on that final point, there 
was an effort to try to negotiate a settlement, Mr. Swimmer.
    Mr. Swimmer. Yes, there was.
    Mr. Dicks. And what happened to that?
    Mr. Swimmer. There was an offer put forth to do a global 
tribal----
    Mr. Dicks. Right.
    Mr. Swimmer [continuing]. Cobell, ILCA, put the whole thing 
together. The Administration came forth with about $7 billion, 
and it was basically rejected in Indian Country.
    Mr. Dicks. Well, I will tell you this. No. I think that is 
a mistake.
    Mr. Moran. And we agree. Some of us----
    Mr. Dicks. Yes.
    Mr. Moran [continuing]. On the Subcommittee completely 
support the Chairman on this.
    Mr. Dicks. Yes. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. Every time I come to a 
hearing in regard to Indian affairs, whether it be the Health 
Service or now this, I am just appalled, and I am really sorry 
that you have to come, Mr. Secretary, to defend this budget. It 
is an atrocious budget in its sum total as far as I can see.

                      HOUSING IMPROVEMENT PROGRAM

    I need to ask a couple of questions about things. There was 
little earlier I should have broken in probably about the 
housing program. I have been doing a few calculations for your 
special housing program with 350 families. That ended up being 
somewhere close to $40,000 per family, I think, with the $13 
million. I think I have done that correctly.
    What kind of services go in that process? I am the Chair of 
the Transportation and Housing Subcommittee, and I am 
wondering----
    Mr. Dicks. We call it THUD.
    Mr. Olver [continuing]. What you are providing there that, 
and why there is a question, and I will go rather carefully to 
try to find out what is, why the 350 families are not eligible 
to get what money from whatever is, from the much larger 
program, the Native American Housing Buyback Program.
    Mr. Dicks. If the gentleman will yield just on this point.
    Mr. Olver. Yes.
    Mr. Dicks. The tribes do not agree that they are eligible.
    Mr. Olver. Right.
    Mr. Dicks. They think they are not eligible.
    Mr. Olver. Okay.
    Mr. Dicks. We might be able to work together on that.
    Mr. Olver. We need to find out what that----
    Mr. Dicks. Making them eligible.
    Mr. Olver [continuing]. Has to do with. It may be 
authorizing it definitively, but tell me what is the level of, 
what are the services that are provided to each of those 350 
families?
    Mr. Artman. A short response on that, with the HIP Program 
is it essentially putting a roof over a family's head. The 350 
families that are serviced under the HIP Program are oftentimes 
referred to as the poorest of the poor. Within the NAHASDA 
Program there are oftentimes mandates that money be put down, 
that there be some, if you will, skin in the game. Under the 
HIP Program there is not that requirement.
    Mr. Olver. What do you, what is NAHASDA? I cannot even 
quite place that acronym.
    Mr. Artman. NAHASDA, Native American Housing Assistance and 
Self-Determination Act.
    Mr. Olver. Okay. We will figure that one out.
    Mr. Dicks. But, see, this is what offends me. I mean, he 
just said it. The poorest of the poor.
    Mr. Olver. Well----
    Mr. Dicks. And it is a $13.5 million program, and we are 
going to end that. For the poorest of the poor.
    Mr. Olver. But you are putting----
    Mr. Dicks. When there is a dispute over the HUD Program 
being able to even take care of their requirements.
    Mr. Olver. Well, look. We are not in such great shape 
either. The NAHASDA Program, whatever that is, I know it only 
as the Native American----
    Mr. Artman. Housing Assistance Program.
    Mr. Olver [continuing]. Block grant program. There is some 
other letters in there. That one is being proposed for a 
reduction in the HUD budget under the President's----
    Mr. Dicks. Yes. I know you----
    Mr. Olver [continuing]. By several million dollars, but it 
is a large program. It is a $600 million plus program. So it 
ought to be able to take care of these families. I cannot 
imagine exactly. We really have to find out what is the 
difference of what is being provided in the two services and 
figure out why this could not be taken out of a larger program.
    Mr. Artman. Much like the roads money, in hopes of----
    Mr. Olver. Yeah. Well, okay.
    Mr. Artman [continuing]. Putting the funds back into the 
tribal hands for their direction, use, and putting it into the 
reservation. The same with the HIP versus NAHASDA. HIP is 
something that we oversee. The tribe applies----
    Mr. Dicks. Yes. I also am being told that there might be a 
match requirement in the HUD money that the tribes could not 
come up with. That is the reason why we have this emergency 
program.
    Mr. Olver. We will have to make certain that we understand 
precisely what it is----
    Mr. Dicks. Well, we can talk.

                            ROAD MAINTENANCE

    Mr. Olver [continuing]. That is involved in that, but now 
you have raised the transportation one, the other part of it. 
You talked about $400 million of road construction that you 
have control of in the tribal level. I cannot find in this 
budget where that is. How is that, where does that $400 million 
appear? What is that?
    Mr. Artman. It is $400 million in road maintenance and road 
construction. The funds come directly from the Department of 
Transportation.
    Mr. Olver. The road construction amount is, well, there is 
a road maintenance item of 13 million here, and I do not even 
see a road construction piece of the construction program.
    Mr. Artman. That is out of DOT.
    Mr. Olver. That is out of DOT.
    Mr. Artman. Yes, sir.
    Mr. Dicks. It comes out of the trust fund.
    Mr. Olver. Out of the trust fund.
    Mr. Dicks. Right.
    Mr. Artman. That comes out of the Department of 
Transportation.
    Mr. Olver. Okay. So that is entirely, in some other place.
    Mr. Artman. Right.
    Mr. Olver. If I look, I may even find a line item somewhere 
in the transportation budget out of the----
    Mr. Artman. You should.
    Mr. Olver [continuing]. DOT budget.
    Mr. Artman. And it is relatively large.
    Mr. Olver. I will figure that one out, and I may want to 
come back to understand that with you, but all right. But even 
then, your roads are not that good on your reservations, are 
they? It is not adequate, is it?
    Mr. Artman. The roads are not that good on many of the 
reservations. On some of the reservations the roads are 
excellent. They are pristine, but I have been, I cannot sit 
here and say that they are all good. Certainly every time I go 
out to a reservation, which is quite often, I am transported, I 
think the tribal leaders make sure that I see every bad road 
out there. In fact, one time up in Alaska I was surprised that 
we actually made it to the meeting. On the side of the road 
there were cars that did not make it to the meeting.
    So there are a lot of roads out there that are in need, but 
this is a longer process. In order to put funds into the roads, 
be it construction or for maintenance and operation, we need to 
make sure that we are getting the roads into our database so 
that they can be properly accounted for in the first place. And 
depending upon where you are, that may or may not be working, 
but we are working all the time with tribes to make sure that 
they get every mile of the roads into our database so that we 
can get the funding into their hands.
    Mr. Olver. Mr. Chairman, the Administration is continually 
claiming that there are things that are duplicative, and if you 
look at them closely, there is some reason or another that they 
really do not overlap. Yet we are made subject to that kind of 
an assertion all the time in the recommendations.
    I have a bunch of questions that I want to ask about 
education. Do you want me to go on, or shall I wait for the 
next round?
    Mr. Dicks. No.
    Mr. Olver. I will wait for the next round. I would be happy 
to do that.
    Mr. Dicks. All right. Let's give Mr. Udall a chance.
    Mr. Udall.

                          DETENTION FACILITIES

    Mr. Udall. Thank you, Mr. Chairman. Assistant Secretary 
Artman, let me ask about jails here to start with, because I 
know you mentioned earlier that you talked about law 
enforcement and what you wanted to do is put people on the 
ground. You said having feet on the street is going to make a 
difference. But what I am finding in the largest reservation in 
the country, the Navajo Nation, is that because the BIA has 
discontinued funding jails directly, that we actually have no 
jail space at all on the Navajo Reservation. And you 
discontinued funding that 9 years ago. You started giving 
grants, and now you have created a situation where the jails 
are so run down and inadequate, a former president of the 
Navajo Nation says, you know, we accepted and inherited 
inadequate and rundown jails, along with the burden for paying 
for them, and then you are not stepping up to the plate to help 
them out.
    The counsel delegate that oversees all of this says it is 
lawless on the reservation. You do not have the ability, you 
may have some law enforcement, but when you catch the bad guys, 
you are not keeping them in jail.
    What are you doing to try to resolve these law enforcement 
problems on the Navajo Reservation and other places where this 
jail program that you put in place just does not fund the jail 
space that is needed to protect ordinary citizens that are out 
there on the reservation?
    Mr. Artman. Thank you, Congressman. I think the Navajo 
Reservation is a good example to use to talk about the 
detention center problems in Indian Country.
    Right now I think there are 89 beds available or spaces 
available.
    Mr. Udall. So 89 beds for a reservation of 250,000.
    Mr. Artman. Right. I believe the need is over 1,000 beds 
that they have.
    Mr. Udall. And so we have 89, but we need 1,000.
    Mr. Artman. And we----
    Mr. Udall. What is your plan to get us there as quickly as 
possible?
    Mr. Artman. We did a GAP analysis a few years ago that 
showed that we do have a large hole there, and I think even 
with those numbers, you are still, you are looking at 
approximately a 90 percent gap between what we have and what we 
need.
    We have spent time and money on a multiphase study to look 
at where the need is: where geographically the need is, on what 
reservations, and how it can be addressed. One way to approach 
this situation is to look at multi-tiered facilities, tiers 
one, two, and three, each one housing a different sort of 
criminal for a different length of time for a different 
purpose.
    Right now we have the initial feedback from that study in 
hand, and we are reviewing it for accuracy and working with the 
Department of Justice and others to make sure that all the 
facts are correct before we roll that out. Once we get that 
out, we are going to be taking that to Indian Country, sharing 
it with them, and seeing if this answers their needs.
    You are looking at a very expensive solution if we were to 
turn around tomorrow and say, okay. We are going to eliminate 
this problem by building a lot of jails. We have attempted that 
in the past, and even with our own standards of what we are 
looking for in a jail, that has not always worked. And we found 
it better to work hand in hand with our federal brethren and 
the tribal governments, to make sure they were getting exactly 
what they needed.
    On the Navajo Reservation right now I know that they are 
using essentially a coordinal facility and a tent, and I know 
that they are also using buses to drive the people back and 
forth to the Courts and even to bathrooms. It is not the 
position that we want to see the tribe in, and it is not 
something that we want to be a part of either. But we are also 
taking a very deliberate, studied approach to making sure that 
when we do resolve this problem, we resolve it correctly and 
for a very long time.
    Mr. Udall. You know it sounds, it all sounds very good, the 
studies and everything else, but they need jail cells, and 
there is another study that you, you know, you hired a 
consultant. I mean, how much have you spent on consultants that 
could be sent to tribes so that they could build jail cells? I 
mean, the BIA go out and provide the jail cells that are there.
    I do not understand this approach. Of course you have to 
consult and of course you have to involve the tribes, but I, 
from what I hear from tribal law enforcement and from the 
tribal leaders is they want to see some activity of actually 
building jail cells there so that very soon some of the bad 
actors that have gone through the criminal justice system have 
a place to reside.
    And hopefully at some point be rehabilitated and come back 
into tribal life. How much have you spent on these studies?
    Mr. Artman. We agree with you that we want to be able to 
get foundations and buildings built for these detention centers 
as well. We have spent approximately $1 million on the latest 
study, but that was $1 million that gives us a national, 
potentially a nationwide solution to this. And while we have 
problems on the Navajo Reservation, we also have problems in 
the Great Plains, throughout the rest of Arizona, New Mexico, 
California, and other states.
    This is a nationwide problem or an Indian Country-wide 
problem, and if it is not a PL-280 state, it is an area that we 
have a great deal of focus on, such as on the Navajo 
Reservation.
    But this is $1 million I believe that was well spent, and 
if you are going to take that million dollars and put it into 
building, it would not get you very far. But now we know how we 
can attack this problem, if this is the way that we go.
    There is, Mr. Chairman, I do not know if I have enough time 
to ask another question. I will wait with Mr. Olver and do 
another round here. I think is the best thing.
    Mr. Chairman.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Let Mr. Olver go.
    Mr. Dicks. Mr. Olver.
    Mr. Olver. Thank you. I am just going to follow something 
that has come up here. What is the average expenditure per 
inmate, per year in the Indian Law Enforcement System?
    Mr. Artman. I am not sure what the average expenditure is. 
I know that we spend about $125 per bed per night, I believe. 
That is about what we pay.
    Mr. Olver. I would love to have you figure it, try to 
figure that one out.
    Mr. Artman. We can get those for you.
    [The information follows:]

                          Detention Facilities

    The cost per day detainee varies from district to district and is 
different for adults and juveniles because of different requirements. 
Contract bed space costs currently vary from $60 to $200 per day for 
juveniles and from $40 to $125 per day for adults.

    Mr. Olver. I am just curious how much it is, below the 
number of dollars that is expended in non-Indian Country in 
essence. Number one. You said there was a deficit of 90 
percent. Are you saying that the law enforcement budget ought 
to be 90 percent higher?
    Mr. Artman. No.
    Mr. Olver. Is that what you meant?
    Mr. Artman. No, not at all, sir. There is a gap in-between 
what we have out there in terms of facilities and what we need 
out there as well. The Navajo----
    Mr. Olver. So much of it is in construction, which does not 
appear in the public safety and justice piece of the budget at 
all. Some of it, a lot of it is in construction.
    Mr. Artman. Yes.
    Mr. Olver. Okay. So it is much more complicated than my 
being able to look and see a simple number here as being what 
is needed. I wondered whether it was 90 percent or nine times. 
I would not be surprised if it were nine times what is being 
expended.
    Mr. Artman. Well, and we want to take, as I said before, a 
deliberate approach to resolving this situation across Indian 
Country.

                        METHAMPHETAMINE PROBLEM

    Mr. Olver. Right. But by, what I was leading toward was to 
get me to education, because education is how to avoid spending 
all that money in jails. It is dumb to spend the money in 
jails, although I have one other question about 
methamphetamine.
    I look at the map over there, and there is a whole bunch of 
pink areas. From here I can see the big ones.
    Mr. Artman. Yes.
    Mr. Olver. The western part of the country. I can only see, 
I know they are there, partly because I know they are there in 
Wisconsin and say in North Carolina and a couple in New York, 
that I can imagine the large pink areas. Is the 
methamphetamines endemic across the whole system, or do you 
have some way for me to get a handle on where the meth is most 
serious in terms of the geographies and the reservations?
    Mr. Artman. I think it is safe to say that you can look at 
that map and from the largest to the smallest of those pink 
areas, you have a problem. Unlike marijuana and cocaine where 
there is a global geographic distribution system. 
Methamphetamines is a home-grown problem. You can find the 
resources to make methamphetamine in your own neighborhood and 
go from there.
    Mr. Olver. I was wondering whether the reason for 
eliminating the technical community colleges was that chemists, 
I was a chemist in one earlier life, were making 
methamphetamine or something like that.
    Mr. Artman. We are not hoping any of the technical 
colleges----
    Mr. Olver. All right. Look. I would like you to provide 
some kind of way for me to understand how that geography fits 
with the incidence of the meth per capita.
    Mr. Artman. We will get that for you.
    [The information follows:]

                            Methamphetamine

    The National Drug Intelligence Center (NDIC) conducted a Native 
American Reservation Lands Drug Threat Assessment. According to the 
NDIC, methamphetamine is available on many Native American reservations 
and the availability is increasing. Moderate to high levels of 
methamphetamine availability were reported on 83 reservations in 16 
states, primarily states west of the Mississippi River. In 2003, 
methamphetamine was identified as the greatest drug threat on 10 
reservations. In 2006, 71 reservations identified methamphetamine as 
their greatest drug threat.

    Mr. Olver. And I think that the members would be rather 
interested in that, too, because in this business you have got 
to figure out ways of looking at the data and generalize to 
figure out where, the places you got to work.

                            HIGHER EDUCATION

    But that brings me back to the education part, which is 
where I wanted to be in the first place. I notice that higher 
education, for instance, I have a map which shows, I think it 
is 35 different tribal colleges. Is that about right?
    Mr. Artman. I think it is actually, what is it? Sixteen.
    Mr. Swimmer. Twenty-six.
    Mr. Artman. Twenty-six TCUs out there.
    Mr. Olver. TCUs.
    Mr. Artman. Tribal Colleges and Universities.
    Mr. Olver. Okay. Well, the map that I have has 35 on it. 
How many of those are technical colleges?
    Mr. Artman. Some of those are technical colleges. Many of 
those are 2-year colleges. Probably also on that map----
    Mr. Olver. Some are community colleges. There are some that 
are 4-year colleges?
    Mr. Artman. Yes.
    Mr. Olver. Okay. And some are listed here as CCs, which I 
see is Community College. One has a C, just a C, I assume it 
may be a 4-year college.
    Mr. Artman. You should also have on there Haskell, Indian 
Nations University, and SIPI, Southwestern Indian Polytechnic 
Institute, which are ours because they are run specifically by 
Indian Affairs.
    Mr. Olver. Okay. I do not quickly see those on my map. How 
many technical colleges are being eliminated?
    Mr. Artman. None of the technical colleges are being 
eliminated.
    Mr. Olver. They are zeroed out.
    Mr. Artman. Some of the funding may be eliminated. For 
example----
    Mr. Olver. Where does the funding other than from the, from 
this budget come from?
    Mr. Artman. Well, now, we are being, now, we focus on----
    Mr. Olver. You have trust funds that go into it as well?
    Mr. Artman. We should have very little trust funds that go 
into these tribal colleges and universities. The Tribal 
Colleges and Universities Act mandates our funding, what we 
fund and who we fund across Indian Country at the TCU level. We 
are continuing to fund those schools. There has been 
elimination of, I think it is $5.9 million, for UTTC, United 
Tribes Technical College, and NTC, Navajo Technical College. 
UTTC is a technical college that was formed by a group of 
tribes to provide a technical college. They receive their funds 
from other locations.
    Mr. Olver. Is this the sweat? They are going to get 
administrations calling this a duplicate expenditure?
    Mr. Artman. That is a duplicate expenditure.
    Mr. Olver. And what happens to the so-called Southwestern 
Indian Polytechnic Institute?
    Mr. Artman. Southwestern Indian Polytechnic Institute.
    Mr. Olver. Technical college?
    Mr. Artman. No. That still continues to receive funding.
    Mr. Olver. That is not to be part of the elimination of the 
funds from----
    Mr. Artman. UTTC and NTC are different. The Tribal Colleges 
Act prohibits us from funding more than one college a tribe. 
The tribes that own UTTC and NTC already have tribal colleges 
of their own, and they receive funding under the Tribal 
Colleges Act.
    Mr. Olver. Okay. Mr. Chairman, I am, I have a map here, and 
now I am beginning to suspect that some of these colleges which 
are listed here are, I notice there is a whole series of them 
that they might be part of a united colleges, community college 
system or something like that, where there are four or five of 
what is listed on my map out there in the Dakotas area and 
Nebraska that are all part of one college or something.
    I do not want to take your time here.
    Mr. Artman. UTTC and NTC still receive funds from other 
areas and other federal budgets.
    Mr. Olver. Well, the point, though, is that the whole 
higher education budget, and I have included three items; 
scholarships and adult education as higher education, 
continuing education, and so forth. The point is that the sum 
total of that budget is down by about 11 or $12 million. That, 
just that portion of it, and I do not know exactly which ones 
to try to group together. I am trying to figure out what is the 
impact here that is going on.
    And the tribal higher education and the scholarships and 
adult education together are down by a substantial sum of 
money, more than 10 percent. This is really disastrous.
    Mr. Artman. And part of that is the fact that we are trying 
very hard to focus as we look at the budget and having to come 
up with a tighter budget, we are trying to focus on our core 
priorities, and kindergarten through 12th grade is our core 
priority.
    In addition to that you do have the----
    Mr. Olver. How much of that is vocational?
    Mr. Artman.This is K through 12.
    Mr. Olver. How much of that K through 12 portion is in 
vocational schools?
    Mr. Artman. None. These would be kindergarten through high 
school. And the vocational schools, if you are assuming that it 
is afterwards, looking at that----

                      EARLY CHILDHOOD DEVELOPMENT

    Mr. Olver. Well, the rest of the world has them as parallel 
alternatives to the high schools perhaps. And your early 
childhood development program is itself cut by almost 20 
percent. I mean, is that not a serious deficit? Early childhood 
education. See, I do not know where the, how that is 
distributed among the different reservations and so forth.
    Mr. Artman. And some of those----
    Mr. Olver. Some big ones that get it, so it is very 
inequitably distributed. Can you tell me about that one?
    Mr. Artman. And some of those reductions would be at the 
early childhood development or even in education funds may come 
as a result of tribes also taking on the programs themselves.
    Mr. Olver. Okay. Thank you very much, Mr. Artman.
    Mr. Dicks. Mr. Udall.
    Mr. Olver. I will have to have discussions.
    Mr. Artman. Thank you.
    Mr. Dicks. Mr. Udall.

                            INDIAN EDUCATION

    Mr. Udall. Thank you, Mr. Chairman, and let me say that I 
agree with Mr. Olver that education is a very, very important 
part of this whole picture in terms of folks winding up in 
jail. And turning to education, Secretary Kempthorne came here 
last week and said that only 30 percent of Indian schools 
achieve their annual progress goals in 2006, 31 percent in 
2007.
    What is the BIA doing to address these exceptionally low 
levels? It seems to me that part of the reason they have a law 
enforcement problem is that the schools are not functioning. 
This is a school system where you have an opportunity to make 
this a model for the Nation. You have 50,000 students. It is a 
manageable system. You have run it for a long time. What are 
you doing to address these exceptionally low levels?
    Mr. Artman. That is an excellent question, and you know, 
there is the adage of you have a choice. You can either build 
schools or detention centers, and unfortunately, we are at a 
point in our history where we may need to, be doing both.
    You know, we have achieved 30 percent AYP. And break down 
the numbers some more, we have 44,000 students in 184 schools 
across 63 reservations and 23 states. I think about 120 of 
those schools are run by the tribes. They are what are called 
grant schools. Comparing the numbers of what we run, BIE, 
Bureau of Indian Education, compared to what the tribes run, 
the tribes are actually getting a better rate of annual yearly 
progress achievements than the BIE schools.
    One of the things that we have asked our folks to do 
internally is to look at our schools and find ways that we can 
lead by example. Unlike let's say what we may be familiar with 
here around the beltway in Montgomery County School System or 
Prince George's County School System that has one school board, 
hosts of PTAs, and essentially one funding source where they 
can control everything, the way that we are set up, if we have 
184 schools, we have 184 different school boards. On the Navajo 
Reservation where we have over 60 schools, each one of those 
schools has a separate school board.
    One of the things that we are not doing, though, is 
controlling our own programs. Of our 60 schools at the Navajo 
reservation, we have about 20 of those 60 schools. We are not 
controlling our own fate well enough. We have a disparate 
system of school books, curriculum, and achievement standards 
that is not working. And while we certainly support the concept 
that we have, that each school is unique, each tribe is unique, 
and each culture is unique, there have to be ways that we can 
blend that with a set curriculum that has hard and driven 
standards.
    And we are working very hard within our Bureau of Indian 
Education right now to develop that kind of a plan that would 
achieve those kind of results so we can have accurate apples to 
apples comparisons of how we are doing either against the 
state, other school districts, non-tribal school districts or 
even the tribal schools, the grant schools themselves.
    Mr. Udall. What is it that the tribally-run schools are 
doing better?
    Mr. Artman. Well, it depends. If you look, for example, at 
the Hopi Reservation, their AYP numbers are, I think they are 
actually 100 percent. They are doing very well there. The Hopis 
are in a very enclosed area. It is surrounded by the Navajo 
Reservation. The culture is very dynamic. There is, the 
families are very close knit, and they work well with the 
schools in promoting the children's welfare.
    In other areas it is not the cultural thing, but you may 
not have the money or the ability or the time or even the 
generation, if you will, of learners and teachers in place to 
create the generational goals of education. In the midwest we 
have, again, good, excellent AYP numbers. And there, again, you 
are looking at cohesive reservations. They are smaller. They 
are a lot smaller than a lot of the other reservations, for 
example, in the west like Navajo or in the Great Plains. And I 
think that plays into it as well.
    Mr. Udall. Thank you very much. Thank you, Mr. Chairman.
    Mr. Artman. Thank you, Congressman.
    Mr. Dicks. Any other questions.
    The Committee will stand adjourned.
    Mr. Artman. Thank you, Mr. Chairman.

    [GRAPHIC] [TIFF OMITTED] T2183B.006
    
    [GRAPHIC] [TIFF OMITTED] T2183B.007
    
    [GRAPHIC] [TIFF OMITTED] T2183B.008
    
    [GRAPHIC] [TIFF OMITTED] T2183B.009
    
    [GRAPHIC] [TIFF OMITTED] T2183B.010
    
    [GRAPHIC] [TIFF OMITTED] T2183B.011
    
    [GRAPHIC] [TIFF OMITTED] T2183B.012
    
    [GRAPHIC] [TIFF OMITTED] T2183B.013
    
    [GRAPHIC] [TIFF OMITTED] T2183B.014
    
    [GRAPHIC] [TIFF OMITTED] T2183B.015
    
    [GRAPHIC] [TIFF OMITTED] T2183B.016
    
    [GRAPHIC] [TIFF OMITTED] T2183B.017
    
    [GRAPHIC] [TIFF OMITTED] T2183B.018
    
    [GRAPHIC] [TIFF OMITTED] T2183B.019
    
    [GRAPHIC] [TIFF OMITTED] T2183B.020
    
    [GRAPHIC] [TIFF OMITTED] T2183B.021
    
    [GRAPHIC] [TIFF OMITTED] T2183B.022
    
    [GRAPHIC] [TIFF OMITTED] T2183B.023
    
    [GRAPHIC] [TIFF OMITTED] T2183B.024
    
    [GRAPHIC] [TIFF OMITTED] T2183B.025
    
    [GRAPHIC] [TIFF OMITTED] T2183B.026
    
                                        Tuesday, February 12, 2008.

                OVERSIGHT HEARING ON WILDFIRE MANAGEMENT

                               WITNESSES

ANTHONY L. WESTERLING, SIERRA NEVADA RESEARCH INSTITUTE, UNIVERSITY OF 
    CALIFORNIA
ROGER B. HAMMER, DEPARTMENT OF SOCIOLOGY, OREGON STATE UNIVERSITY
ALBERT HYDE, CONSULTANT, BROOKINGS INSTITUTION CENTER FOR EXECUTIVE 
    EDUCATION
KATHLEEN TIGHE, USDA DEPUTY INSPECTOR GENERAL
ROBIN NAZZARRO, GAO, DIRECTOR FOR NATURAL RESOURCES AND ENVIRONMENT
KIRK M. ROWDABAUGH, PRESIDENT, NATIONAL ASSOCIATION OF STATE FORESTERS
JAMES CASON, ASSOCIATE DEPUTY SECRETARY, DEPARTMENT OF THE INTERIOR
MARK REY, USDA, UNDERSECRETARY, NATURAL RESOURCES AND ENVIRONMENT

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. The Committee will come to order. Our hearing 
this morning is about two different kinds of disasters. The 
first is the tragedy we see with the massive forest fires 
burning record amounts of forest and communities. The second is 
the fiscal disaster of ever escalating costs which are financed 
by under-funding both fire prevention and preparedness programs 
and by making completely irrational cuts in base budgets of the 
Forest Service. Last year and the year before, over 8 million 
acres burned. We are seeing more and more mega-fires, and State 
records for wildfire size are being set over and over. The 2009 
request had $2.8 billion for wildfire programs, whereas the 
fiscal year 2000 Interior bill had just $853 million. This 
year, 48 percent of the Administration's budget request for the 
Forest Service is for wildfire, yet other program needs have 
not gone away. There are many reasons wildfires are becoming 
more intense and more damaging. After the terrible wildfires of 
2000, President Clinton directed his Agriculture and Interior 
Departments, working with the States, to produce a national 
fire plan. At first, there were dramatic funding and staffing 
increases and progress was made. Recently, and especially in 
the new budget submitted last week, we see problems. We are, 
however, grateful for the outstanding work done by Federal and 
State firefighters to protect communities and resources. Mr. 
Tiahrt and I, along with Chairman Obey and Ranking Member 
Lewis, have worked diligently to provide the emergency funding 
needed for those recent wildfire sieges. But now that we face 
significant funding shortages, it is even more important to 
address weaknesses within the program and determine how we can 
be more effective in preventing and fighting wildfires. The 
Administration budget proposal has a large increase for fire 
suppression but fails to cover the basic needs for fire 
prevention such as forest health, State Fire Assistance, and 
hazardous fuel reduction. I believe it is unwise and 
irresponsible to allow emergency needs to be funded at the 
expense of vital firefighting and natural resource programs. I 
am also working with authorizing committees to come up with a 
better way of funding emergency wildfire suppression 
activities.
    This hearing will help us get a better understanding of the 
fire situation and the management options. We have three 
outstanding panels. First are two top researchers to provide an 
overview of some major trends affecting wildfire activities. 
Dr. Anthony Westerling, from the University of California, 
Merced, will discuss climate change and fires. Then Dr. Roger 
Hammer from Oregon State University, will summarize demographic 
trends as they impact the wildland/urban interface. Due to time 
constraints, we will hold questions for these scientists until 
after all the presentations are made.
    Our second panel will include summaries of important 
management reviews. First, Dr. Al Hyde, consultant to the 
Brookings Institution, will summarize the Quadrennial Fire 
Review conducted under contract to the Federal Wildfire 
Agencies. Then the USDA Inspector General and the GAO will 
summarize their recent management reviews.
    Finally, we have presentations by the National Association 
of State Foresters, a key partner, and the Administration's 
lead officials from the USDA and the Interior Department who 
are responsible for Federal fire prevention and suppression 
efforts. Before the end of the day, and it may well be the end 
of the day, I expect that we have a chance to consider the new 
budget request and consider a couple of key questions such as 
how will climate change and demographic trends affect our 
future wildfire activities? How can we support a better 
Federal/State cooperative effort? How can we get a more 
coordinated and accountable Federal effort? What options exist 
for a new budget approach for suppression so extreme emergency 
costs are covered with emergency funds and not borrowed from 
basic operations? What resources are needed for firefighter 
staffing, fire prevention, mitigation, and integration with 
State efforts while watching costs? Because we have so many 
witnesses today, I am asking the members to be brief with 
questions so we have adequate time to hear from all the panels.
    Mr. Dicks. Mr. Tiahrt.

               Opening Remarks of Congressman Todd Tiarht

    Mr. Tiahrt. Thank you, Mr. Chairman. Good morning, Dr. 
Westerling and Dr. Hammer and other distinguished guests. Thank 
you for joining us this morning for what we expect to be a very 
informative and perhaps even lively exchange of views.
    This discussion on the issues of wildfire management is 
very timely, and I commend Chairman Dicks for convening this 
session. Each of our witnesses this morning brings unique and 
differing perspectives. Collectively they represent some of the 
finest thinking related to this issue. For that reason, I plan 
to spend less time talking and more time listening, at least 
until we begin our questions. Let me just say my personal hope 
would be that by the end of this conversation today, and it may 
be at the end of today as the Chairman points out, our 
Subcommittee will have a better awareness of what Federal, 
State, and local resources are doing well individually and 
collectively and to address the ongoing threat of wildland 
fires. I also hope we can begin to find common ground on what 
we might do differently or better to improve our overall 
performance. Congress has demonstrated time and time again its 
willingness to respond in a timely fashion when our neighbors 
and communities across the country are faced with a fire 
emergency. However, I believe one of our greatest failures lies 
in our repeatedly responding to fire catastrophes after the 
fact, rather than taking more meaningful, pro-active steps 
before disaster strikes. Let us use this morning's forum to 
engage in constructive dialogue on how all of us can be more 
active on our preparedness and prevention side of the fire 
equation. We all have that role to play in this effort.
    I look forward to this morning's testimony. Thank you for 
your participation, and thank you, Mr. Chairman.
    Mr. Dicks. Now, as I understand it from the staff, we are 
going to give you about seven to eight minutes for your 
presentations, but we are going to have to hold you to that or 
we will never get done. So why do you not go ahead, Dr. 
Westerling, and you get the first cut at this.
    Dr. Westerling. All right. Thank you very much. It is a 
pleasure to be here. I think you have a few figures that were 
sent around beforehand. If you look at the second one there, it 
has got a green map and some bars. The graph across the top is 
showing the frequency of large forest fires on Forest Service 
and Park Service lands in the western United States since 1970, 
and you see there is a very dramatic increase in the mid-1980s. 
So we have had a 300 percent increase in the frequency of these 
large fires and a 550 percent increase in area burned in large 
fires in our western forests. The season has increased by 78 
days. That is two months. That is enormous. That is a huge 
increase in the length of the fire season which really strains 
the suppression resources because you have got the same crews 
working for so long.
    The average time the individual fires burn has increased 
greatly as well. The average in the `70s and early `80s was one 
week per fire, now it is five weeks.
    If you look at the next graph you see a plot showing the 
number of large fires per season on the vertical graph and 
temperature anomaly on the horizontal graph. You can see there 
is a very non-linear response to temperature, so when you get 
about a half-a-degree warmer on average compared to the last 50 
years, you can have a huge increase in the frequency of very 
large fires and in the area burned from those fires.
    As climate change warms us up further, we are going to be 
on the right side of that figure a lot more often. We are going 
to have these very large fire seasons.
    This next graph is showing the same thing. It is a time 
series. You can see the correlation between temperature and 
fire. Now, the temperature increases produce these huge 
increases in wildfires in the western United States is less 
than one degree Celsius. That is half the lower range of what 
the IPCC is forecasting or projecting for the western region 
over the coming century.
    Mr. Dicks. Less than half?
    Dr. Westerling. Less than half.
    Mr. Tiahrt. Excuse me, may I interrupt here?
    Mr. Dicks. Yes, go ahead.
    Mr. Tiahrt. On the right-hand side of your chart, is that 
temperature in Centigrade?
    Dr. Westerling. Celsius. Same thing.
    Mr. Tiahrt. And so you are saying as the temperature rises, 
the frequency of fires will increase?
    Dr. Westerling. These are large fires. They were fires over 
1,000 acres.
    Mr. Tiahrt. One thousand acres? All right. So it is just 
the larger fires that you are----
    Dr. Westerling. And the area burning those fires increases 
dramatically as well. So----
    Mr. Tiahrt. All right. Thank you.
    Dr. Westerling [continuing]. It is not just----
    Mr. Dicks. And we have seen all this really has happened 
since 1985?
    Dr. Westerling. That is correct.
    Mr. Dicks. And there is no question that climate change or 
climate warming has had an effect on this?
    Dr. Westerling. So the correlation of the observed warming 
and the changes in timing of spring, a shift in earlier 
springs, is very strong, regardless of whether you think that 
was caused by human activity or not. The association between 
temperature and wildfires is incontrovertible for the western 
United States. And looking forward, we have IPCC saying we have 
a 90 percent confidence that this is anthropogenic and will 
continue at a much more rapid pace than what we have seen.
    Mr. Dicks. And I was remembering in your paper that this 
also affects when the snow melts and earlier springs mean a 
drier season and a warmer situation and it intensifies the 
fires?
    Dr. Westerling. That is right. If you move onto the next 
slide there you see it is very similar to the temperature 
situation with showing the number of large fires on the 
vertical axis and the timing of spring on the horizontal axis. 
So to the left, early spring, to the right, late spring. And 
you could see again, when you have an early spring, you can get 
these very large fire seasons. Conversely, you never get a 
really large fire season with a late spring.
    Mr. Calvert. Mr. Chairman? May I ask a question?
    Mr. Dicks. Sure.
    Mr. Calvert. On the data that you have, it starts with 
1970. Do you have any data before 1970? When were the data 
first collected?
    Dr. Westerling. The constraint that we have is that we want 
to have as comprehensive and high quality and consistent a data 
set as we can work with. If we go back before 1970, we do not 
have those conditions for the whole West. We can get decent 
data for the northern Rockies for a much more extended period 
of time, and there are papers published by other authors that I 
could point you toward.
    Mr. Calvert. Anecdotally, you know, we had tremendous 
wildfires in the West in the 1960s that would not be on this 
chart.
    Dr. Westerling. They are not on this chart, no. But they 
still do not equal what we have experienced in recent years.
    Mr. Tiahrt. Mr. Chairman, if I may, you are saying is it 
more related to temperature or what impact does average 
rainfall or average snowfall have on it?
    Dr. Westerling. Sir, these are forest fires and the record 
here is really strongly dominated by fires in places like the 
northern Rockies where you have snow on the ground for a long 
part of the year, and there is a lot of fuel. It is a dense 
forest. So a little bit of precipitation in the antecedent year 
does not have much impact on the fuel load. Now, in the years 
when you have an early spring, you also tend to have a more 
drier winter. So it all goes together. There is an association 
between the drier winters, warmer temperatures, earlier 
springs, and less rainfall in the summer which is marginal to 
begin with.
    Mr. Tiahrt. Which has some impact then.
    Dr. Westerling. It does have some impact, yes.
    Mr. Dicks. And also did you say in your paper that the 
fires were more intense in the elevation between 6,000 and 
8,000 feet--
    Dr. Westerling. That is correct.
    Mr. Dicks [continuing]. In the Rockies?
    Dr. Westerling. And part of that is that there is a large 
forest area between those elevations in the northern Rockies 
that is not that far below freezing for a large part of the 
spring. So it does not take a large temperature increase to 
push you up above the threshold where it starts to melt off. As 
the temperature continues to increase, we might see other parts 
of the West start to pass these thresholds.
    Let me just push you through to the last slide. Every point 
on that slide, every one of the red dots, is one of the large 
fires that has occurred since 1970. On the left are fires that 
have occurred in the third of the years' late snow melt, and 
the right are the fires that have occurred in the third of the 
years with the early snow melt. The sizes are scaled to each 
other, so a small dot is 1,000 acres. That big dot in southern 
Oregon right there is a half million acres. So you can see that 
all the really large fires have occurred in the years with the 
early snow melt and not in the years with a late snow melt. I 
will end there.
    [Statement of Anthony Westerling follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.027
    
    [GRAPHIC] [TIFF OMITTED] T2183B.028
    
    [GRAPHIC] [TIFF OMITTED] T2183B.029
    
    [GRAPHIC] [TIFF OMITTED] T2183B.030
    
    [GRAPHIC] [TIFF OMITTED] T2183B.031
    
    [GRAPHIC] [TIFF OMITTED] T2183B.032
    
    Mr. Dicks. Okay. Well, that is good. You did it right on 
time for which we are very appreciative. Dr. Hammer.
    Dr. Hammer. Okay. Let me start my clock here. In the 
interest of time, I am going to dispense with who I am and how 
I got here and just start right in.
    Mr. Dicks. Right. Go ahead. We have got all that in there.
    Dr. Hammer. Right. It is all in my written testimony.
    Mr. Dicks. You have a very distinguished record.
    Dr. Hammer. I am going to give you background on the 
demographic trends that have been occurring that have 
influenced wildfire management in the United States and the 
wildland-urban interface.
    I want to talk about the wildfire problem in terms of what 
has been termed a wicked problem, one that is a cause and 
consequence of other complex problems, people disagree on how 
it is formed and what explains it and how it can be solved, and 
finally, the problem has no final resolution.
    Given the wicked nature of the wildfire problem in the 
United States, it has been termed that for about 20 years, I 
think there can be a lot of disagreement, disagreement with 
what I am saying today, about the definitions, explanations, et 
cetera, of those related issues with it. The most fundamental 
demographic characteristic is population. Between 1940 and 2000 
the population in the United States doubled. It reached about 
280 million in that year, and in 2006 it reached 300 million. 
During that same time period, the number of housing units in 
the United States tripled. So we have this huge divergence, and 
it reached 116 million in 2000. We can expect that divergence 
to continue due to changes in average household size, occupancy 
rates, et cetera. Although the magnitude and problem of housing 
growth are important with respect to wildfires, changes in 
population, distribution, and by extension settlement and 
housing patterns have a much larger impact on the wildfire 
problem.
    As you are already aware, the decades since 1940 have 
witnessed an inter-regional migration in the United States from 
the Northeast, Midwest, to the South and West and also a 
deconcentration of population from urban areas to more suburban 
and even ex-urban, formerly rural areas. Population growth 
among non-metropolitan counties in the United States is closely 
tied to natural amenities, warm, sunny winters, mild summers, 
water bodies, mountains, and forests. As a consequence, during 
the 1990s, nearly 3 million new housing units were built within 
25 kilometers of national forests. That is an 18 percent growth 
rate, far surpassing the 13 percent national growth rate during 
the 1990s. During the 2007 fire season, 8.8 million acres 
burned in the 14 contiguous states of the western United 
States, which I will just call the West, accounting for 75 
percent of the acres burned last year. In Florida and Georgia, 
another 1.4 million acres burned. So among these 16 states, 
that accounts for 91 percent of the acres burned. The West also 
contains 88 percent of the federal land in the United States. 
So I want to highlight these two regions as I talk about these 
trends. Now, given the headline-grabbing fires in Virginia and 
the Carolinas this week, I wish I would have included those 
States in the Southeast as well, and I thought about it, but I 
thought to keep things simple.
    Remember, the population of the United States has doubled 
in 60 years. The population in the West is four-and-a-half 
times larger, reaching 85 million in 2000. In the Southwest, 
the population was 4.8 times larger, 24.1 million. In contrast, 
the other contiguous states the population has risen by only 
1.7 times larger in 2000 than it was in 1940. We have also seen 
much larger growth in housing units in those two regions. These 
broad demographic trends have contributed to the growth and 
expansion of the wildland-urban interface which is itself a 
wildfire-related wicked problem that has been recognized as an 
important element in fire management since 1960, at least since 
1960. Like any other wicked problem, it has been widely 
recognized and acknowledged, but there is not a lot of 
agreement on its definition, delineation, implications, et 
cetera. According to a definition that I and colleagues have 
developed that was based on a notice in the Federal Register 
which was based on a report by the Western States Governor 
Association, 11 percent of the land area in the United States 
is part of the wild land/urban interface, and 38 percent of all 
housing units in the coterminous United States were in the 
wildland-urban interface.
    Mr. Dicks. What was that again? Say that again?
    Dr. Hammer. Okay.
    Mr. Dicks. On housing.
    Dr. Hammer. 11 percent of the land area, 38 percent of the 
housing units. During the 1990s, the wildland-urban interface 
grew in land area by almost 20 percent, and the number of 
housing units in it increased by 22 percent. But in the West, 
the number of housing units increased by 2.2 million or 25 
percent growth rate in the wildland-urban interface in the West 
just in the 1990s, and in the Southeast, that was 1.4 million 
units were added to the WUI which was 39 percent growth.
    Now, if the relationship between new housing construction 
and expansion of the wildland-urban interface continues, 
between 2000 and 2030 we can expect an additional 12.3 million 
homes in the WUI in the West and an additional 4.6 million 
homes in the Southeast. That represents 111 percent growth in 
the West and 93 percent growth in the Southeast from where we 
were in 2000. In contrast, the WUI housing in the rest of the 
coterminous United States would only increase by about 44 
percent.
    Since I am a demographer, I wanted to mention one other 
demographic process that is affecting the wildland-urban 
interface and that is bursts, in this case bursts that occurred 
between 1946 and 1964. Raise your hand if you were born in that 
period, '46 to '64. A few of us were.
    Mr. Dicks. I think 2 hands went up.
    Dr. Hammer. Baby-boomers comprise about a quarter of the 
United States population. I thought they probably represented a 
larger portion of the hearing room population, but I think 
people were reluctant to raise their hands. With respect to the 
regions that I have been discussing, the net migration, in-
migrants versus out-migrants, of baby-boomers has added nearly 
7 million people to the population of the West and nearly 4 
million to the population of the Southeast between 1960 and 
2000. On the other hand, other regions of the country saw baby-
boomer out-migration. With each lifecycle change, as you know, 
the baby-boom generation has a profound impact on the country, 
and we are on the verge of those lifecycle changes, one of 
those lifecycle changes, retirement. The first baby-boomers 
just last month started applying for Social Security benefits. 
So over the course of the four decades between 1960 and 2000, 
the net migration of retirement age persons added 1.5 million 
people to the West and about 3 million people to the Southeast. 
Given the baby-boom generation is 1.6 times larger than those 
generations of cohorts that have been retiring in recent 
decades, we can expect that in the prime baby-boomer retirement 
years, starting in about 2015, the baby-boom retirement 
migration could add 400,000 persons per decade to the West and 
1.2 million to the Southeast.
    So in conclusion, the growth and expansion of the WUI are 
significantly exacerbating the wicked wildfire management 
problem in the United States. Although population growth has 
had an impact, it is really the deconcentration of population 
and housing and regional shifts in migration patterns to more 
suburban and ex-urban areas and to the South and West that are 
having their greatest effect. In the coming decades we can 
expect the retirement of the baby-boom generation to have an 
extensive impact on those trends. Just as their lifecycle 
transitions have had far-reaching impacts on countless other 
institutions in our society, so will their retirement affect 
the growth of the wildland-urban interface and by extension, 
the wildfire management problem.
    [Statement of Roger Hammer follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.033
    
    [GRAPHIC] [TIFF OMITTED] T2183B.034
    
    [GRAPHIC] [TIFF OMITTED] T2183B.035
    
    [GRAPHIC] [TIFF OMITTED] T2183B.036
    
    [GRAPHIC] [TIFF OMITTED] T2183B.037
    
    Mr. Dicks. Okay. Good. You got us off to a good start. Let 
us have the next panel come up. All right. We are going to 
start with Dr. Albert Hyde, consultant to the Brookings 
Institution. Dr. Hyde.
    Mr. Hyde. Thank you. I am just going to keep my opening 
remarks very brief. You have got a fairly detailed prepared 
statement which goes through in depth----
    Mr. Dicks. Thank you for that.
    Mr. Hyde [continuing]. The concept of the Quadrennial Fire 
Review and some of the rationale for that review in terms of 
what it is based on and how it plays. It will also maybe help 
with the problems of my chest cold here, so I will run through 
it. But I want to basically talk just quickly about three core 
issues which to my mind, the second iteration of the QFR is 
trying to grapple with.
    I think it is first important that the Committee 
understands the distinction between strategy and plans. Fire 
management obviously demands and requires highly developed and 
detailed plans for all aspects of its missions, its operations, 
and organization. Strategy is much more fluid. It assumes that 
situations are changing, environments are much more dramatic, 
and learning is taking place in a variety of different ways in 
the organizational situations. That is what the Quadrennial 
Fire Review is really all about. This concept of trying to move 
our thinking beyond just the reactive/proactive to what we call 
a projective form of thinking, anticipating the next level of 
environmental change and trying to create a set of more robust 
strategies to deal with that is what this Quadrennial will seek 
to do in 2009.
    The second aspect that is tied to this of course deals with 
that pace of change. Ironically the major change agents, as you 
have already heard from the first panel, are the usual 
suspects, climate extremes and drought, accumulation of fuels, 
continued population growth in the interface. The research has 
just been accumulating on all these factors for the last 8 to 
10 years. We know a lot more about them, and what is glaringly 
apparent to all of us is that the pace of change has 
dramatically picked up. Just looking at the national 10-year 
average for annual acres burned, when it doubles from 3.75 
million acres at the end of the 1990s to 7 million acres by the 
mid-part of this decade and then stands to possibly go up 
another 25, 30 percent is a marker of how really dramatic this 
pace of change is.
    And then lastly, I think it is important for us to talk 
about the concept of scalability because that is the other 
aspect of it. You are going to wrestle with and the agencies 
are wrestling, fire management and with solutions that deal 
with budget sizes and what we can do. I do not think anyone in 
the fire management community looking back to 2000 envisioned 
that coming out of the 2000 National Fire Plan, that infusion 
of resources that was provided, that we would be in a situation 
where we would barely be keeping pace with what the 
requirements are today. If you think back to 2000, that was 
indeed the fire season of the century, and we have eclipsed 
that marker four times since.
    What needs to happen and what will happen through processes 
like the Quadrennial Fire Review and through the adoption of 
new tactics and strategies which are being basically looked at 
in fire management today is an approach to essentially move us 
towards understanding where the management tactics we have are 
scalable and where they are not. We need to also understand 
that it is not just an issue of bigger fire forces or bigger 
airplanes, there is a whole issue of understanding that size is 
not a strategy, that in fact what really needs to happen with 
fire management is to rethink a number of the core 
fundamentals. And in this Quadrennial Fire Review----
    Mr. Dicks. What about dealing with the fuels?
    Mr. Hyde. That is the third aspect of it. That is the whole 
aspect of it. We are clearly in a situation as we look at----
    Mr. Dicks. We are not doing enough there.
    Mr. Hyde. We are not doing enough there, but even if we did 
have, this issue is a little bit more convoluted because even 
though we are now seeing more acceptance among the public for 
prescribed fire, more acceptance for fuels programs, we are 
still dealing with substantial problems in terms of smoke 
regulations for the future, we are still dealing with 
litigation issues, we are still a long ways away from having a 
sense of not just a federal approach to what we are doing with 
regard to fuels but a national approach. And I think that is a 
core aspect of this. There are a lot of contradictions. We will 
see the same thing with regard to the insurance industry.
    In one sense, and my concluding note on this is, we are 
almost a victim of our own success. We have done 
extraordinarily well in the last decade actually in terms of 
keeping the numbers of structures that have been lost at a 
minimum to a point that the insurance industry does not see the 
exposure. So you are not going to get I think a lot of help 
from the insurance industry in terms of raising rates, even 
though we will see some notices going out. That is a bit of a 
digression, but I guess what I am saying is I think we need to 
be careful when we look as we parse out the issues in terms of 
where this is all taking us with regard to what the new 
dynamics of this wildfire environment are.
    [Statement of Albert Hyde follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.038
    
    [GRAPHIC] [TIFF OMITTED] T2183B.039
    
    [GRAPHIC] [TIFF OMITTED] T2183B.040
    
    [GRAPHIC] [TIFF OMITTED] T2183B.041
    
    [GRAPHIC] [TIFF OMITTED] T2183B.042
    
    [GRAPHIC] [TIFF OMITTED] T2183B.043
    
    [GRAPHIC] [TIFF OMITTED] T2183B.044
    
    [GRAPHIC] [TIFF OMITTED] T2183B.045
    
    [GRAPHIC] [TIFF OMITTED] T2183B.046
    
    [GRAPHIC] [TIFF OMITTED] T2183B.047
    
    Mr. Dicks. Okay. Good. That was a good start. Kathleen 
Tighe, our USDA Deputy Inspector General.
    Ms. Tighe. Thank you very much. The Office of Inspector 
General devotes considerable audit and investigative resources 
each year to evaluate and improve the Forest Service's 
management of its public assets. The written statement we 
provided I think details those for you. What I would like to do 
this morning is go over our three most recent audits that we 
have done. The first one and most recent one that was this 
year, a couple days ago, is on the Air Safety Program, but then 
I would like to also talk about our audit on the Large Fire 
Suppression and the Healthy Forests Initiative.
    In our just-released review of the Forest Service Air 
Safety Program, our objective was to determine whether it 
minimizes risk of accidents and effectively uses the agency's 
aerial resources. Overall we concluded the Forest Service has 
made strides toward improving its Air Safety Program but we 
believe the agency still needs to develop and implement an air 
worthiness inspection and maintenance program that is targeted 
toward the demands of the firefighting environment imposed on 
aircraft. We note that the Forest Service has been addressing 
the immediate risks identified for some aircraft, particularly 
its air tankers. However, the agency must still develop an 
overall implementation plan to ensure the air worthiness of all 
of its firefighting aircraft, not just air tankers. The Forest 
Service must ensure that the planes it employs on federal fires 
are held to the improved air worthiness standards that result 
and must finalize its maintenance and inspection program.
    The second issue I want to address is our audit of the 
large fire suppression costs. The Inspector General was asked 
by senior Forest Service officials to essentially take an 
objective look at large fire management practices. Our audit 
found that the majority of Forest Service's large fire 
suppression costs are directly linked to protecting private 
property and the wildland urban interface.
    Mr. Dicks. How do you deal with that? I mean, it is very 
hard. Would it not be very hard if you are out there and----
    Ms. Tighe. It is very hard.
    Mr. Dicks [continuing]. And you are in the Forest Service 
and you say, well, I am sorry, that is not in our jurisdiction 
so we are going to let it burn down.
    Ms. Tighe. Well, I do not think that is----
    Mr. Dicks. Or we are going to wait for the state and locals 
to come in and take care of it.
    Ms. Tighe. Well, I think it is a matter of----
    Mr. Dicks. I mean, I always love the Inspector General but 
on this case I think----
    Ms. Tighe. I do not think it is a matter of----
    Mr. Dicks. I have a hard time conceiving of letting that 
happen.
    Ms. Tighe. I do not think it is a matter of how you fight 
the fires, it is a matter of how the costs are apportioned so 
that the States are perhaps better motivated to do what they 
need to do to----
    Mr. Dicks. Regulate----
    Ms. Tighe [continuing]. Regulate the fire-wise building and 
codes.
    Mr. Dicks. And make people do the fire safety things they 
should do----
    Ms. Tighe. Yes. Without motivation, they need to be, you 
know, in a different place than they are right now I think. It 
is not really how you fight the fires, it is the equitable 
sharing of costs.
    Mr. Dicks. Okay. And so far we are paying the bill.
    Ms. Tighe. Yes. By and large----
    Mr. Dicks. And the States and the private citizens are not.
    Ms. Tighe. Yes. The States do pay for fires on State 
property.
    Mr. Dicks. What about counties?
    Ms. Tighe. Local jurisdictions I do believe share in some 
fashion. I think it depends on the fire protection agreements 
that are negotiated.
    Mr. Tiahrt. They do respond to the fires.
    Ms. Tighe. Yes, they do. Everybody responds to fires.
    Mr. Tiahrt. So in that sense they are paying for their fire 
trucks and the salaries of their firefighters?
    Ms. Tighe. Yes.
    Mr. Dicks. But that is where----
    Ms. Tighe. There is a reimbursement depending on----
    Mr. Dicks. This wildland urban interface really comes into 
play.
    Ms. Tighe. It really comes into play because you use fire 
suppression techniques as opposed to wildland fire use, just 
letting it burn, because you need to go. The desire is always 
there to protect property, and so it dictates the kinds of 
costs, the large costs that you are seeing.
    Mr. Dicks. Okay. Go ahead and proceed.
    Ms. Tighe. Sure. The number of homes, as we have already 
discussed this morning, built in the WUI are increasing, and 
much of this development is not subject to fire-wise building 
and zoning regulations. The financial burdens on the Forest 
Service are likely to continue to rise because of current 
public expectations and uncertainties about Federal, State, and 
local responsibilities. We recommend that the Forest Service 
ensure that the burden of protecting the property in the WUI is 
shared equitably as we just talked about. It should re-
negotiate fire protection agreements as appropriate and find 
ways to encourage fire-wise regulations and codes.
    Mr. Dicks. Fire protection agreements, do they get the 
states in there and the counties?
    Ms. Tighe. Yes, they do. That is my understanding, yes.
    Mr. Dicks. Is this an area of failure?
    Ms. Tighe. At the time of our audit, many of them had not 
been re-negotiated in years. It is my understanding now that 
the Forest Service is in the process of re-negotiating those 
and has done, I do not know exactly, about 20-something right 
now and is working on the rest.
    Mr. Dicks. Are the States willing to cooperate here and 
take the responsibility?
    Ms. Tighe. Under Secretary Rey might be able to better 
answer that, but I am not aware whether they are cooperating or 
not in the re-negotiation.
    We also think the Forest Service should manage fires for 
both wildland fire use and suppression where appropriate and 
not just for suppression.
    Mr. Dicks. And by wildland fire use you mean----
    Ms. Tighe. That means letting them burn----
    Mr. Dicks [continuing]. Where fire is used to take care 
of----
    Ms. Tighe. Yes.
    Mr. Dicks [continuing]. The understory, and if it is under 
controlled circumstances, it can ecologically be a positive 
thing?
    Ms. Tighe. Absolutely. I mean, the fact that we have 
suppressed most of the natural ignitions that have taken place 
rather than let them burn has in part contributed to the----
    Mr. Dicks. The build up.
    Ms. Tighe. The build up of fuels that is so hazardous and 
makes the wildfires so devastating when they happen.
    The last audit I want to talk about is the Healthy Forests 
Initiatives Review we did last year. It is clear as we have 
talked that hazardous fuels must be reduced if forest managers 
and public officials want to break the cycle of increasingly 
severe fires and rising suppression costs. We reviewed Forest 
Service's procedures used to determine the cost and benefits of 
the hazardous fuel projects and how the agency prioritized and 
allocated funding for fuel reduction projects. At the time of 
our audit, the Forest Service did not have an adequate process 
for determining the varying levels of risk the different 
communities faced from wildland fires. The agency also did not 
have the ability to ensure that the highest priority fuels 
reduction projects were funded first. That basically concludes 
my statement. I want to thank the Forest Service for all the 
cooperation it gave us during the course of these audits and 
the fact that they have made a good commitment to take action 
on our recommendations.
    [Statement of Kathleen Tighe follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.048
    
    [GRAPHIC] [TIFF OMITTED] T2183B.049
    
    [GRAPHIC] [TIFF OMITTED] T2183B.050
    
    [GRAPHIC] [TIFF OMITTED] T2183B.051
    
    [GRAPHIC] [TIFF OMITTED] T2183B.052
    
    [GRAPHIC] [TIFF OMITTED] T2183B.053
    
    [GRAPHIC] [TIFF OMITTED] T2183B.054
    
    [GRAPHIC] [TIFF OMITTED] T2183B.055
    
    [GRAPHIC] [TIFF OMITTED] T2183B.056
    
    [GRAPHIC] [TIFF OMITTED] T2183B.057
    
    [GRAPHIC] [TIFF OMITTED] T2183B.058
    
    [GRAPHIC] [TIFF OMITTED] T2183B.059
    
    [GRAPHIC] [TIFF OMITTED] T2183B.060
    
    [GRAPHIC] [TIFF OMITTED] T2183B.061
    
    [GRAPHIC] [TIFF OMITTED] T2183B.062
    
    [GRAPHIC] [TIFF OMITTED] T2183B.063
    
    [GRAPHIC] [TIFF OMITTED] T2183B.064
    
    Mr. Dicks. Okay. Now we will have Robin Nazzarro from the 
GAO.
    Ms. Nazzarro. Thank you, Mr. Chairman, and members of the 
Committee. I think we got a good description this morning of 
the nature of the problem and the factors that contribute to 
it, so I will move right into a summary of our findings from 
several of our recent reports that identified key weaknesses in 
the agency's management of wildland fires and recommended 
actions the agencies should take if they are to respond 
effectively.
    First, we feel they should recommit to developing a 
cohesive strategy that identifies the options and associated 
funding to reduce fuels and address wildland fire problems. In 
1999, to address the problems of excess fuels and the potential 
to increase the severity of wildland fires and the cost of 
suppression efforts, we recommended that a cohesive strategy be 
developed to identify the available long-term options for 
reducing fuels and the associated funding requirements. Laying 
out various approaches with approximate costs and trade-offs 
would help Congress and the agencies make informed decisions 
about effective and affordable long-term approaches to 
addressing the Nation's wildland fire problems. But despite our 
repeated calls for such a strategy, the agencies have not 
developed one.
    Second, we believe the agencies need to establish clear 
goals and a strategy to help contain wildland fire costs. In 
2007, we reported that the agencies had taken a number of steps 
intended to help contain wildland fire costs including 
improving their decision support tools for helping officials 
select strategies for fighting wildland fires, but they had not 
clearly identified or clearly defined their cost containment 
goals or developed a strategy for achieving those goals. As a 
result, managers in the field lack a clear understanding of the 
relative importance the agency leadership has placed on 
containment costs and were therefore likely to select 
firefighting strategy without duly considering the costs of 
suppression. The agencies still have not clearly defined their 
cost containment goals or developed a strategy for achieving 
these goals, steps that we believe are fundamental to sound 
program management. We therefore continue to believe that our 
recommendations, if effectively implemented, would help the 
agency to better manage their cost containment efforts and 
improve their ability to contain costs.
    Third, the agencies should continue to develop better 
information in a systematic process for allocating fuel 
reduction funds. We recently identified several shortcomings in 
the agency's process for allocating fuel reduction funds and 
selecting fuel reduction projects which limit the agency's 
ability to ensure that funds are directed where they would 
reduce risk most effectively. The agencies have begun to take 
steps to improve the process of allocating the funds, but 
efforts are incomplete and not fully coordinated. The agencies 
are also taking steps to improve the information they use in 
allocating funds and selecting projects, including information 
on fire risk and fuel treatment effectiveness and to clarify 
the relative importance of the various factors they consider 
when doing so. We urge the agencies to continue these efforts 
to more effectively use their limited fuel reduction dollars.
    Lastly, preliminary results from our ongoing work indicate 
that the fire program analysis, or FPA budget allocation model 
which the agencies expect to complete in June of this year, may 
not allow the agencies to meet all the key goals established 
for it. Specifically our preliminary results suggest that FPA 
will not allow the agencies to analyze long-term tradeoffs 
between annual fuel reduction treatments and the estimated 
costs of suppressing future large fires. GAO intends to conduct 
a full assessment of FPA once it is completed.
    In conclusion, faced with an accumulation of fuels, the 
impact from climate change, and increased development in fire-
prone areas and constrained by our Nation's long-term fiscal 
outlook, the agencies need to commit to a more considered long-
term approach to managing their resources in order to address 
the wildland fire problem more effectively and efficiently.
    If the agencies are to achieve lasting results in their 
effort, they will need a sustained commitment by agency 
leadership to develop both a long-term strategy that identifies 
potential options and their costs for managing wildland fires 
and the tools for carrying out such a strategy.
    Mr. Chairman, that concludes my prepared statement.
    [Statement of Robin Nazzarro follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.065
    
    [GRAPHIC] [TIFF OMITTED] T2183B.066
    
    [GRAPHIC] [TIFF OMITTED] T2183B.067
    
    [GRAPHIC] [TIFF OMITTED] T2183B.068
    
    [GRAPHIC] [TIFF OMITTED] T2183B.069
    
    [GRAPHIC] [TIFF OMITTED] T2183B.070
    
    [GRAPHIC] [TIFF OMITTED] T2183B.071
    
    [GRAPHIC] [TIFF OMITTED] T2183B.072
    
    [GRAPHIC] [TIFF OMITTED] T2183B.073
    
    [GRAPHIC] [TIFF OMITTED] T2183B.074
    
    [GRAPHIC] [TIFF OMITTED] T2183B.075
    
    [GRAPHIC] [TIFF OMITTED] T2183B.076
    
    [GRAPHIC] [TIFF OMITTED] T2183B.077
    
    [GRAPHIC] [TIFF OMITTED] T2183B.078
    
    [GRAPHIC] [TIFF OMITTED] T2183B.079
    
    [GRAPHIC] [TIFF OMITTED] T2183B.080
    
    [GRAPHIC] [TIFF OMITTED] T2183B.081
    
    [GRAPHIC] [TIFF OMITTED] T2183B.082
    
    Mr. Dicks. Thank you. You have been a very good panel, and 
we appreciate your staying on time. Going back to this whole 
question of who should pay and how you would work that kind of 
an agreement out with the States, how should that happen? I 
mean, the Forest Service and the BLM sit down with the State 
foresters or how does that work? How does that agreement get 
reached?
    Ms. Tighe. Well, it is my understanding they enter into 
agreements that essentially govern how you apportion costs and 
firefighters over the next year or over the period of the 
agreement. How exactly that happens in the context of the 
individual agreements, I do not know. But I know that everybody 
participates in them and so you get equal voices on how things 
get allocated. What we have been saying in the major part of 
our large fire suppression was we need to look at moving beyond 
jurisdictional boundaries and look at apportionment based on 
larger senses of responsibility because if we can push the 
States to incur more of the costs, they will do more on WUI 
development.
    Mr. Dicks. Now, they have their own firefighters, too, 
right?
    Ms. Tighe. Yes, they do.
    Mr. Dicks. And I assume that they do not get into big 
jurisdictional fights like this is your responsibility----
    Ms. Tighe. No, I think in the----
    Mr. Dicks. Everybody goes out there and works together?
    Ms. Tighe. In the context of fighting the fire, everybody 
works together.
    Mr. Dicks. What about the problem of these houses that are 
built out in this wild land urban area, not having adequate 
fire protection or the right kind of roofing. There are----
    Ms. Tighe. That is right.
    Mr. Dicks [continuing]. All kinds of things that could be 
done.
    Ms. Tighe. A lot of things that could be done, yes.
    Mr. Dicks. When their houses are built in the first place--
--
    Ms. Tighe. Absolutely.
    Mr. Dicks [continuing]. Through regulation from the local 
governments to help on this problem.
    Ms. Tighe. Absolutely.
    Mr. Dicks. And also to do the healthy forest thinning, if 
they treat forests surrounding their house----
    Ms. Tighe. Yes. Clearing and things like that.
    Mr. Dicks [continuing]. Clearing out of the understory and 
things like that. Have you looked at that at all to see if 
there are any examples of any local governments----
    Ms. Tighe. Yes.
    Mr. Dicks [continuing]. Stepping up to this problem?
    Ms. Tighe. I believe there are, both at the really very 
local level and also at the State level. I believe California 
now has a special tax it assesses to encourage fire-wise 
building, and what it does is for people in the WUI, they get 
assessed a special tax. The tax gets reduced to the extent that 
they make improvements on their houses to put, you know, 
fireproof roofing, siding, clearing of debris, you know, access 
for fire clearances around the properties. That tax gets 
reduced. That is one way. Montana I believe a couple years ago 
was considering a bill, though I do not know what happened to 
it, that would prohibit local communities from using the 
general fund of the State to reimburse unless they were 
actively doing fire-wise treatments. Several local communities, 
one I am aware of in California, had banded together to do 
their own, you know, get 27 homeowners together and clear 
debris, give information out on better roofing, and they have 
taken matters into their own hands. At all sorts of levels 
things are happening, it just needs to be more consistent.
    Mr. Dicks. Has there ever been talk of a Federal statute in 
this situation----
    Ms. Tighe. I think a couple have been introduced----
    Mr. Dicks [continuing]. Requiring the States to do 
something about this?
    Ms. Tighe. I am aware of two, one in the House and one in 
the Senate that have been introduced fairly recently that would 
try to encourage fire-wise regulations through municipal 
ordinances.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Zoning requirements? I am not familiar with the 
legislation.
    Ms. Tighe. The legislation, I just took a quick look at it. 
What it does I believe is require NIST to do sort of model 
ordinances and then use some grant mechanism to----
    Mr. Dicks. NIST is again?
    Ms. Tighe. Oh, the National Institute for Standards and 
Technology. And they would do some kind of model ordinance. 
Then there is some kind of grant mechanism I was not too 
familiar with that would try to then motivate local communities 
to adopt those ordinances.
    Mr. Tiahrt. Like a construction code----
    Ms. Tighe. It is sort of, exactly, yeah.
    Mr. Tiahrt [continuing]. For electricity, plumbing----
    Ms. Tighe. Only it would be motivated from the Federal 
level.
    Mr. Tiahrt. We need to have some mechanism to encourage 
that in other words. Okay.
    Mr. Dicks. Mr. Lewis, whose area has been hard hit by these 
fires.
    Mr. Lewis. Mr. Chairman, you are kind to invite me. I am 
just here to listen. I appreciate very much your testimony.
    Mr. Dicks. Mr. Calvert.
    Mr. Lewis. I have all kinds of concerns I would love to 
talk to you about.
    Ms. Tighe. Sure.
    Mr. Calvert. I just want to also bring up obviously the 
local communities as you have pointed out, Mr. Chairman, the 
states need to do more; but I have run into conflicts in my own 
area in Southern California. In the Winchester fire in 1993 for 
instance, we were unable to do clearing around homes because of 
the Endangered Species Act because of the Stevens kangaroo rat, 
and we were unable to provide for that buffer area; and because 
of that, we lost a substantial amount of homes. Then the Laguna 
Canyon Emerald Bay fire in about the same year, we had the same 
problem with gnatcatcher habitat in Laguna Canyon----
    Ms. Tighe. Sure.
    Mr. Calvert [continuing]. Which we were unable to do 
controlled burns, and the local folks wanted to do that for 
years; and because of the ESA requirements, we were unable to 
do so and manage the property properly. And what happened, we 
had a severe fire and it went into Emerald Bay, and 300 homes 
right there along the Pacific Ocean burned to the ground.
    So there are instances where the Federal government has a 
responsibility to have more flexibility in order to manage some 
of these properties. I just wanted to bring that up, Mr. 
Chairman.
    Mr. Dicks. Any other questions for this panel?
    Mr. Tiahrt. Yes.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Coming from Kansas, we do not worry about 
forest fires very much. It is pretty flat and does not have 
very many trees. But it seems to me there are certain standards 
that we could put out there about distance between the home and 
forest and roofing requirements----
    Ms. Tighe. Absolutely.
    Mr. Tiahrt [continuing]. And water hydrant availability. I 
mean, there are certain fundamental common sense things that we 
could put out there in hopes that local communities would adopt 
them, quite like they do any other electrical standard for 
construction or plumbing standard for construction, or any of 
these common standards we have across the United States. We do 
not seem to have that now, and part of it is because what Ken 
has addressed here is that we have some areas where we are 
unable to because of court orders or court requirements that we 
cannot get the fuel out of the way. I think that is a big 
challenge now, and we know from the first panel we are going to 
have more people out there and because of climate change, our 
vulnerability is probably going to be higher. So we are going 
to have to put something out there in writing to these 
communities to say if you want to keep your insurance rates low 
and your families safe, here is what you do.
    Ms. Tighe. I mean, it is very significant the impact these 
kind of regulations, looking at building materials and 
clearances, can have. There was one study we looked at in the 
course of our audit that on a fire that burned about 1,000 
homes, the study looked at all the homes that had either fire 
retardant roofing or clearance of just 30 to 60 feet around 
houses, 95 percent of those houses survived the fire. I think 
significant things can be done to really have an impact.
    Mr. Tiahrt. We talked with some of the firefighters, and 
they said that in California as they were assessing properties, 
if there was no clearance on the houses, they just let the 
houses go. They thought it was too much risk to the 
firefighters.
    Ms. Tighe. Exactly.
    Mr. Tiahrt. And so it is a common sense thing that I am 
surprised we have not pushed more earlier.
    Mr. Dicks. But whose responsibility is it? Is it our 
responsibility to create this regulation or is this a matter 
that should be left to the states? It would be better to be 
done at the state level, but if it is not going to happen, we 
have this escalating cost, I do not see how we cannot consider 
something.
    Ms. Nazzarro. And you may not have to go as far as 
regulation but maybe just educating the public more. I know the 
agencies have programs, but I was surprised after the 
California fires to hear people come on TV and say, no problem, 
I am insured and will rebuild. The general public needs to be 
educated on what they can do themselves to help prevent these 
things.
    Mr. Dicks. To avoid----
    Ms. Nazzarro. If they are going to insist on building in 
the wild-land urban interface, then we feel they need to be 
responsible for their properties.
    Mr. Dicks. GAO keeps calling for a cohesive strategy. What 
would be in that cohesive strategy?
    Ms. Nazzarro. The reason we use cohesive is because we want 
it to include fuel reduction as well as fire suppression, but 
maybe a term that would be easier, particularly for this 
Committee to understand, would be an investment strategy. We 
want them to lay out what are the various options, what are the 
challenges, what are the economic implications, and what are 
the costs associated with these options so we know if we invest 
this amount of money, what are we going to get for it and what 
progress are we going to be making----
    Mr. Dicks. Will OMB let them do that?
    Ms. Nazzarro. I do not know why they would not. They have 
come back to us and told us that OMB would not allow them to do 
it. I do not see it any differently----
    Mr. Dicks. Because obviously if it showed that you did fuel 
reduction, you would save this much money, then there would be 
a requirement for the President to put more money in the 
budget, which in these budgets he is not doing. He decreased 
these budgets. The Forest Service budget has been decreased by 
36 percent in the last seven years. If you take fire out, 36 
percent reduction in everything the Forest Service does; and 
the Interior Department has been cut by 17 percent.
    Ms. Nazzarro. In 2002 the agencies did develop a plan very 
similar to what we are talking about. We also do not see it 
being any different than an EIS statement where you put out 
various options for public comment and then you choose the one 
that has the least economic and environmental impacts. So we 
see that these things have been done. I have done work in the 
past with the Department of Energy, and they have laid out 
various options. When they clean up sites, you know, which one 
is going to cost us what amount of money and what strategy 
would we take to achieve that.
    So I do not see why OMB would not allow it. We are not 
asking them to identify which specific sites are you going to 
clean up by which date and what it is going to cost. We are 
talking about in general terms, if you put more money into fuel 
reduction, what is the implication going to be on cost----
    Mr. Dicks. But common sense would be if you put more money 
into fuel reduction, it is going to have an effect on having 
less severe fires.
    Ms. Nazzarro. We feel that fuel reduction is key to the 
cost of fire suppression. You are right.
    Mr. Dicks. And the regulation of these communities, too. I 
mean, getting some control over the people and what they are 
doing out there would be a big help as well.
    Any other questions for this panel?
    Mr. Tiahrt. When did you first make this recommendation to 
start these proper allocations?
    Ms. Nazzarro. For the cohesive strategy, that started in 
1999. And then we came back and have asked for it a couple of 
times. The agency told us it would take them a while to do it. 
We do believe that there are key elements of programs that they 
have in place that need to be fully developed. One, you have to 
have good data. So that is something we talked about, the FPA 
model. They do need to complete that. They do need to have good 
data.
    So what we asked for a year ago was that they come back 
with a tactical plan which would lay out what components you 
have to complete by what timeframe, when could you develop this 
cohesive strategy. I met with Mark Rey a week ago, and the 
agency has agreed that they could proceed with the tactical 
plan. You may want to ask him questions on what their timeframe 
would be for doing that.
    Mr. Dicks. Dr. Hyde, I am pleased that the Departments have 
engaged you and others in the Quadrennial Review process. As an 
informed outsider, what do you think are the main aspects of 
the Federal and State fire programs that need to be addressed?
    Dr. Hyde. Well, I take a slightly different tack. I am 
optimistic that we can continue to maintain the rates and 
progress that we have done on fuel reduction and other aspects.
    Mr. Dicks. But should it be accelerated?
    Dr. Hyde. I am not even certain it will have that kind of 
impact. If your first panel members are right, the most we are 
going to be able to treat are three to five percent of the 
forest areas. We are looking at fire histories now that are 
running into five to eight percent of the forest base. So this 
pace is picking up, and it may very well be that the time will 
take us to----
    Mr. Dicks. That does not sound logical to me. It sounds to 
me if you had the money and the personnel, you could do more 
work on cleaning up the understory and----
    Dr. Hyde. You can.
    Mr. Dicks [continuing]. Reduce the intensity of the fires. 
And we are only doing about 25 percent, 30 percent of what is 
out there.
    Dr. Hyde. Well, we have treated almost 25 million acres 
since the National Fire Plan, which is a fairly remarkable 
accomplishment.
    Mr. Dicks. Out of 192 million acres?
    Dr. Hyde. I will give you an illustration. Take the 
Southeast which is one of the most dynamic and perhaps 
progressive areas in terms of having extensive fuel programs, 
whatever.
    Mr. Dicks. I realize you have to go through all these 
environmental hoops----
    Dr. Hyde. Even so.
    Mr. Dicks. We have to do good deeds.
    Dr. Hyde. Once you start a fuels program, you have to 
maintain it. We were doing a review of the Okefenokee fires 
this last week in Atlanta, and the regional offices there and 
the folks in the swamp were basically saying, you miss one year 
in the maintenance cycle and you are right back to where you 
started from. This is the impact of what these environmental 
trends are doing to us.
    Mr. Dicks. You mean it regrows?
    Dr. Hyde. Regrows, right. And it is not just the Federal 
lands, whatever. You are talking about resiliency of all the 
different things. I think we are going to have to do even more 
than the zoning and the regulations and fuel programs. We are 
going to have to go back and take a long, hard look at how we 
actually plan landscape provincial sub-regional assessments 
with regard to where we are all going. We have not even added 
into the calculus all the things with regard to carbon, with 
water, all the other issues that are tied in there. There are a 
number of intangibles that are not going to show up in some of 
the things we are talking about with simple fuels targets and 
simple acres burned. This is a very complex issue, but I will 
say this. I think that you know there is no doubt in my mind 
that as the communities who are facing all this throughout the 
country, there is more and more a sense of an awareness that we 
have to do all of this together from the fire management plans 
to the landscape planning, there is a whole dimension of that 
in terms of dealing with this. And people now understand I 
think this has to happen.
    Mr. Dicks. Do you think the agencies are doing a good job 
on that, of getting out and educating these communities that 
are in the wildland urban interface, the WUI as you guys call 
this?
    Dr. Hyde. We are coming from a history where working with 
communities basically meant providing money for them. And I 
think what the communities now realize is, you know, give me 
one more piece of this. We are going to talk about trying to 
create more defensible space. Well, along comes that, our 
rethinking the whole notion of allowing citizens to stay in 
place and defend their homes if they have done all the things 
they want for landscape protection. So there is a whole new 
dialogue that is going to happen here with regard to what is 
going on in the WUI, in terms of the intermix and that. And I 
guess what I am saying to you is I am optimistic that the 
communities and the States and the Federal Government, Federal 
agencies, are in that process and moving forward with that. 
That is the byproduct of understanding what it takes when you 
burn 8 million acres a year and you are moving upwards.
    Mr. Dicks. Mr. Calvert.
    Mr. Calvert. I just want to make the point again that the 
amount of brush for instance in Southern California has 
accumulated over the years because we have done a pretty good 
job of suppressing fires when they come up, and the fires 
recently, for instance, some of that brush had not burned for 
almost half a century. And so when those fires come up, they 
come up, they burn very, very hot, they become very dangerous 
and----
    Mr. Dicks. Damage to the soil. I mean this is long term.
    Mr. Calvert. Has a negative effect on the soil, and going 
back, Mr. Chairman, a lot of this is because a lot of the 
agencies do not allow controlled burns any longer. Back 20, 30 
years ago, you saw a lot more controlled burns that were 
actively done to keep down these fuel reductions and get that 
fuel load down. And then we have these conflicts in the 
Endangered Species Act which the Federal government needs to be 
more proactive in allowing for fuel reduction. In Jerry's 
district in the San Bernardino Forest, the number of trees per 
acre is at a historic high, and because that fuel load 
continues to build, the trees became weakened. The bark beetle 
infested that area and is infesting now the entire Southern 
California forest and throughout the West, including your state 
of Washington.
    Mr. Dicks. Right.
    Mr. Calvert. And so anyway, I just wanted to bring that up 
because, you know, the Federal Government needs to be a part of 
the solution in this fuel load issue.
    Mr. Dicks. Absolutely. Yes, Mr. Lewis.
    Mr. Lewis. If I could just add to what Ken was saying, 
first, I appreciate very much your being here and the 
challenges you face. But in Southern California in recent years 
we have had a grand experience at all levels of this with a 
series of fires that have destroyed many homes as well as lots 
of forestry territory. At the beginning of this most recent 
series, Mr. Chairman, we had kind of two extremes in Southern 
California, those groups who wanted you to be able to go to the 
forest, use it any way you like, any time, regardless, and 
those groups who felt, my God, we should not let any human 
being or dog near the forest. And because of the obvious 
learning experience you have when hundreds if not thousands of 
homes burn and hundreds of thousands of acres of forest 
territory burn, that causes these people to begin to talk to 
each other. And there is a growing cooperation that I think is 
very fascinating where people are willing to aggressively deal 
with fuel suppression. People are talking about, how did we 
ever get to this point where we have so many more trees per 
acre than you should have, a lack of long-term management over 
decades and decades.
    Well, that shift has helped an awful lot, and within this 
Subcommittee, there has been, if you will, earmarked 
reprogramming that has taken place in which money was moved for 
specific fuel reduction but also because of the impact of the 
bark beetle, we have taken out well over 1 million trees. Well, 
my God, 10 years ago you would have had to have three acts of 
Congress to take two trees out.
    So there is beginning to be a pattern of policy that tries 
to grapple with the conflicts of the Endangered Species Act and 
the like but most importantly, people working together. And I 
am more optimistic today than I was not so long ago, but it is 
a long, long way to go.
    Mr. Dicks. All right. Good. Thank you very much. We 
appreciate your very good testimony and your very comprehensive 
statements which will be evaluated by the Committee.
    The third panel, we appreciate your patience here. I think 
we have set the stage. We are going to start with Kirk 
Rowdabaugh, the State Forester of Arizona, and we are pleased 
to have you here and you may proceed for five or six minutes 
and then we will go through the panel and have questions.

                  Opening Statement of Mr. Rowdabaugh

    Mr. Rowdabaugh. Thank you, Chairman Dicks, members of the 
Committee. The National Association of State Foresters thanks 
you for this opportunity to participate in this Committee 
hearing.
    America's forests are threatened and at-risk, and the 
wildland fire environment has changed forever. Insect and 
disease outbreaks and the explosion of exotic invasive species 
are irreversible manifestations of prolonged drought and global 
climate change. Forest fragmentation has accelerated, and urban 
expansion seems inevitable. Catastrophic fires are no longer 
rare events. If forests are to continue to provide the critical 
social, economic, and environmental benefits that we all depend 
on, then community planning and hazardous fuel reduction 
projects must be implemented in the wildland interface and 
forest restoration and other forest health projects must be 
conducted across the broad landscape and across all ownership 
boundaries.
    A 10-year comprehensive strategy sets the course for our 
Nation's investment in the health of our forests. The goals of 
the strategy are improved firefighting preparedness, reduction 
of hazardous fuels, at a landscape scale, forest restoration, 
and community assistance. Prior funding allocations have 
emphasized fire suppression and fuel reduction activities. Less 
funding has been made available for the equally important goals 
of forest restoration and community assistance. The lack of 
funding for these programs compromises at-risk communities and 
limits our ability to contain the cost of fire suppression. 
NASF believes investments in community assistance programs such 
as State fire assistance and forest restoration programs are 
essential for reducing the wildland fire threat to our rural 
communities and are the only real hope of reducing fire 
suppression costs in the future.
    State fire assistance is the primary federally funded 
program used by States and local communities to enhance their 
response capabilities to wildland fire. States and local 
communities were responsible for battling 81 percent of the 
Nation's wildfires last year with a success rate of 99 percent. 
Since 2002, nearly 200,000 wildland firefighters have received 
training through State fire assistance, and many communities 
have increased their local suppression capacity through 
upgraded equipment purchased with Federal funds. State fire 
assistance funds also helps States to prepare to support and 
supplement federal firefighting activities, and last year 23 
State incident management teams were assigned to Federal fires, 
as well as 3,000 pieces of State equipment, nearly 9,000 
personnel, and State aircraft flew nearly 1,200 missions on 
Federal fires. However, we do not believe that the State fire 
assistance program is the appropriate tool to pay for 
preparedness activities used exclusively for Federal lands. 
Rather, we believe Federal agencies should be responsible for 
pre-suppression and suppression costs incurred on federal lands 
and these costs should be paid from regular agency accounts.
    Now is not the time to cut important State and Private 
forestry programs like State fire assistance. Unfortunately, 
the Administration's current budget proposal would do just 
that, severely reducing several programs that have a proven 
track record of reducing the risk of catastrophic fire, 
protecting communities, and preserving forests. As suppression 
costs have skyrocketed into the billions, the burden on the 
Forest Service's budget has become backbreaking. NASF proposes 
a two-fold solution to this problem. One, the creation of a 
separate account, one that would be used to fund truly 
extraordinary fire suppression events and the other, a 
reexamination of the way the Forest Service budget is 
formulated. The one percent of all fires that become megafires 
now account for a staggering 85 percent of all suppression 
costs. The Forest Service budget should not be expected to 
accommodate these truly exceptional events. Wildland fire knows 
no political boundaries and neither do the men and women who 
fight it. Federal, State, and local firefighters work together 
side by side to protect American lives, homes, and natural 
resources. Yet, only the Federal firefighters are protected 
under the Federal liability umbrella. State and local 
firefighters are not afforded this same level of protection. 
This has discouraged many State and local firefighters from 
taking assignments on Federal lands that they deem too risky. 
NASF supports the extension of comprehensive liability coverage 
to all firefighters. The National Association of State 
Foresters looks forward to continue working with this Committee 
and the Congress to keep our Nation's forests healthy and our 
citizens safe, and I look forward to entertaining any questions 
that you might have.
    [Statement of Kirk Rowdabaugh follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.083
    
    [GRAPHIC] [TIFF OMITTED] T2183B.084
    
    [GRAPHIC] [TIFF OMITTED] T2183B.085
    
    [GRAPHIC] [TIFF OMITTED] T2183B.086
    
    [GRAPHIC] [TIFF OMITTED] T2183B.087
    
    [GRAPHIC] [TIFF OMITTED] T2183B.088
    
                     Opening Statement of Mr. Cason

    Mr. Dicks. All right. We are going to go through the panel, 
and then we will come back for questions. Mr. Cason, the 
Associate Deputy Secretary of the Department of the Interior.
    Mr. Cason. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify today on Federal wildland fire 
management. I am here on behalf of the Department of the 
Interior and Mark Rey, the Under Secretary, Natural Resources 
and Environment, Department of Agriculture, and I are 
presenting a joint statement in recognition of the coordination 
and cooperation our Departments share on fire issues.
    Our Departments take seriously our responsibility in 
protecting people and natural resources from wildfire. Wildland 
fire and firefighting today are influenced by a complex number 
of factors including weather, fuel type, terrain, proximity to 
wildland urban interface, and other highly valued landscapes, 
and managerial decisions made before and during fire incidents. 
The President's budget makes the protection of communities, the 
environment, and firefighters a priority and includes $1.3 
billion in funding for our two departments for wildland fire 
suppression. This amount is the full inflation adjusted 10-year 
average for wildland fire suppression costs. To mitigate the 
rising cost----
    Mr. Dicks. Is that required by law to have that number or 
has OMB made this a requirement? Who said that you must do 
that?
    Mr. Rey. It is a historic practice. It is not a legal 
requirement.
    Mr. Dicks. Historic practice? Okay. Thank you.
    Mr. Cason. I think it is by agreement, right?
    Mr. Dicks. Historic practice.
    Mr. Cason. Yes.
    Mr. Dicks. Thank you.
    Mr. Cason. To mitigate the rising cost of fire suppression, 
our departments have adopted a number of management reforms. We 
and the other first responders have spent significant efforts 
on resources to closely coordinate capability, improve 
communications, and employ management control to ensure an 
effective response. These efforts have had a positive effect on 
suppression cost. In 2007, the Agriculture Department saw a 
decrease of over $200 million on forecasted suppression 
expenditures compared to 2006, even though the size of fires 
and acres burned were greater. In short, we are working to use 
our resources wisely.
    Dangerous fire and fuel conditions exist in many areas in 
the United States. To address this, we are working to reduce 
hazardous fuels on high-priority lands. In fact, we are 
aggressively treating hazardous fuels, the area we are most 
able to impact to help reduce the risk of catastrophic fire to 
our communities and public lands. The budget provides $500 
million for hazardous fuels reduction, an amount four times 
higher than when this Administration took office. In addition 
to improving treatments, we have also improved collaboration 
with local, State, and tribal partners. The effectiveness of 
these tactics in reducing wildland fire severity and protecting 
property is seen over and over again in the 2007 fire season. 
Significantly, between the year 2000 and 2007, we treated over 
25 million acres of federal lands for fuels reduction; and in 
2007, we reduced fuels and improved ecosystem health in more 
than 4.7 million acres of land, including 2.5 million acres of 
treatment in the wildland urban interface.
    We continue to work with non-Federal partners to increase 
the community protection emphasis of the hazardous fuels 
program. Today over 1,500 community wildfire protection plans 
covering more than 4,700 communities have been or are nearing 
completion.
    Mr. Dicks. What did you call them, wildfire plans?
    Mr. Cason. Community wildfire protection plans. Since the 
advent of the National Fire Plan in 2000, Federal and non-
governmental entities have collaborated operationally and 
strategically to improve fire prevention and suppression, 
reduce hazardous fuels, restore fire-adapted ecosystems, and 
promote community assistance. The 10-year implementation plan 
will guide us to build on this success with our partners.
    Mark is now going to describe some of the fire preparedness 
activities and our fire suppression budget and provide an 
overview of the 2007 fire season, then we will both be happy to 
answer questions.
    Mr. Dicks. Thank you.

                      Opening Statement of Mr. Rey

    Mr. Rey. As Jim indicated, I will start by talking about 
the 2008 season and then reflect on the 2007 season. The early 
outlook for the 2008 fire season indicates wildland fire 
potential is expected to be higher than normal across much of 
the Southwest, southern California, portions of the Great 
Basin, the Eastern Seaboard, West Texas, Oklahoma, and the 
Southeast. Much of the Northwest on the other hand will be 
wetter than normal this spring, helping to alleviate continued 
drought conditions. In short, 2008 should be either about the 
same level of severity or slightly more severe than what we 
experienced in 2007.
    For the 2008 fire season, we will secure firefighting 
resources, firefighters' equipment and aircraft comparable to 
those available in 2007. More than 18,000 firefighters will be 
available, including permanent and seasonal Federal and state 
employees, contract and tribal crews, and emergency and 
temporary hires. The wildland firefighting agencies continue to 
employ a mix of fixed and rotor wing aircraft. The key 
components of the Forest Service and the other Federal 
agencies' 2008 aviation fleet are outlined in my testimony. I 
would note that as a result of changes in the utilization of 
aircraft made in 2007, our exclusive use aircraft saved us $14 
million over comparable expenditures in 2006.
    The Departments' combined 2009 fires suppression budget 
request equals $1.33 billion, nearly $194 million over current 
enacted level. Our Departments do share concerns about the cost 
of fires and are committed to carrying through with reforms to 
contain these costs as outlined in Jim's statement. Some of 
these reforms are provided in the testimony. In addition, I 
will submit for the record an additional 47 areas of reform as 
recommended by GAO, OIG, and other reviewers on which the 
agencies are currently striving to evaluate opportunities for 
additional cost savings.
    In 2007, GAO published a report entitled Wildland Fire 
Management: Lack of Clear Goals and Strategy Hinders Federal 
Agencies' Efforts to Contain the Cost of Fighting Fires, which 
suggest that the agencies have not clearly defined objectives 
and policies as a means for reducing the cost of fighting 
wildland fires. We share GAO's interest in increasing 
accountability for cost containment, and have taken many steps 
forward including those recounted in our testimony for the 
record as well as the GAO testimony.
    With respect to 2007, many of those reforms reflected in 
savings during the 2007 seasons. I will submit also for the 
record the recently released Fire and Aviation Management Year 
in Review for fiscal year 2007 which recounts both the history 
of the 2007 fire season as well as some of the changes in 
firefighting tactics and strategies that resulted in cost 
savings. The most notable event in 2007 were the southern 
California fires of October and because results matter, those 
fires give us a basis of being able to compare where we were 
with where we are. The reason for that, of course, is that we 
had a similar large fire incident in 2003 in southern 
California. If you look at the 2003 southern California fires 
and compare them to the 2007 southern California fires in 12 
important areas, you can see the effects of continued 
improvement in both fuels treatment and firefighting strategy. 
Let me review those very briefly. First, with regard to 
preparedness, with regard to better pre-positioning of 
firefighting assets we were able to more effectively address 
the 2007 fires than we were in 2003. That is in the face of 
what was an 18-day event in 2007 as compared to a 15-day event 
in 2003 with higher sustained winds and drier fuels in 2007 
than those we experienced in 2003. In 2003, there were 213 
ignitions during the 15-day event. In 2007, there were 271 
ignitions during the 18-day event. In 2003, there were 14 large 
fires resulting from those ignitions. In 2007, there were 20 
large fires resulting from those ignitions. That means that our 
success rate on initial attack in keeping small fires from 
becoming large fires was equal at 93 percent in 2003 as it was 
in 2007 given higher winds and drier fuels in 2007. Also 
reflective of the success of the firefighting strategy, in 2003 
three-quarters of a million acres burned. In 2007, only 518,000 
acres burned. In 2003, 5,200 major structures were lost. In 
2007, 3,050 major structures were lost. In many cases, we know 
structures in the 10,000- to 15,000-structure range were saved 
as a result of the location of fuels treatment work done 
between 2003 and 2007, which allowed fires to be attacked more 
successfully. In 2003, there were 24 civilian fatalities, in 
2007 only 10, although every fatality, of course, is a tragedy. 
In 2003, we lost one firefighter and in 2007, none. In 2003, 
there were 237 firefighter injuries, in 2007, only 140. In 
2003, it was remarkable that we evacuated more than 300,000 
people in the seven-county affected area in southern 
California. In 2007, we successfully evacuated without incident 
over a million people. Between 2003 and 2007, we treated 
275,000 acres for fuel reduction purposes, which is the 
principal variable that accounts for the additional success in 
2007 than that which was experienced in 2003. Even though 13 is 
an unlucky number having gone through 12 points of comparison, 
let me add one more. Between 2003 and 2007, in these seven 
southern California counties, 189,000 homes were built in the 
wildland urban interface. So that means that our firefighters 
in 2007 had 189,000 new homes to protect than they did in 2003. 
That is about 60 percent of the new home construction that 
occurred in those counties.
    So in conclusion, if you listen to the complexity of this 
issue, all of the variables involved, the long-term nature of 
some of the solutions required, it is clear that we are dealing 
with a half-a-glass of water, more or less, and we can quibble 
at some considerable length whether that glass is half-full or 
half-empty. What is indisputable is there is a lot more water 
in that glass today than there was seven years ago. We would be 
happy to answer any questions that you have.
    [Joint Statement of Mark Rey and James Cason follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.089
    
    [GRAPHIC] [TIFF OMITTED] T2183B.090
    
    [GRAPHIC] [TIFF OMITTED] T2183B.091
    
    [GRAPHIC] [TIFF OMITTED] T2183B.092
    
    [GRAPHIC] [TIFF OMITTED] T2183B.093
    
    [GRAPHIC] [TIFF OMITTED] T2183B.094
    
    [GRAPHIC] [TIFF OMITTED] T2183B.095
    
    [GRAPHIC] [TIFF OMITTED] T2183B.096
    
    [GRAPHIC] [TIFF OMITTED] T2183B.097
    
                  SUPPRESSION AND PREPAREDNESS FUNDING

    Mr. Dicks. Let me ask you the first question. This just 
jumps out at you when you look at this budget for FY 09. 
Suppression as you suggest for the Forest Service is up $148 
million, from $845 million to $993 million. Completely 
understandable. But then you look at preparedness, and that 
goes down from $665 million for the Forest Service to $588, or 
a cut of $77 million. How can you explain that?
    Mr. Rey. Easily. We have been----
    Mr. Dicks. I know you are quite glib but I would hope----
    Mr. Rey. Aside from that, there is a logical explanation.
    Mr. Dicks. Try to explain it.
    Mr. Rey. The logical----
    Mr. Dicks. I can hardly wait.
    Mr. Rey [continuing]. Explanation is that we have imposed 
four years of cost controls and cost containment measures, and 
we are assuming some of those savings in the way we budget, as 
you would expect we would.
    Mr. Dicks. Explain to the Committee what preparedness 
covers.
    Mr. Rey. Preparedness covers all of the purchase of assets, 
equipment, and personnel that go into being prepared for the 
fire season. Suppression is the actual cost of fighting fires 
once they start using that equipment and those personnel. So 
for instance, we initiated a change at the beginning of the 
last fire seasons and how we contract for aviation assets with 
the idea that we were going to save some money through that 
mechanism and thereafter found that in fact we were correct and 
did save $14 million, that is arguably a savings that you can 
budget as you build your next budget and decide what your 
preparedness costs are going to be. Similarly, as we 
experimented for the first time in 2006 and then 
institutionalized what we call the appropriate management 
response in firefighting, and with that a number of other 
changes realized a budget savings of about $200 million over 
what we thought the firefighting year was going to cost us. 
Some of that savings can be taken in how we budget for 
preparedness. Secondly----
    Mr. Dicks. It means there are fewer people. Does it not 
also mean fewer people?
    Mr. Rey. Not in this particular case. We are going to 
budget the same number of firefighters that we had in 2007.
    Mr. Dicks. It says here your budget justification on page 
E-2 shows a reduction in wild fire FTEs of 591. Yet, you write 
up suggestions that you will keep the same number of 
firefighters on the staff.
    Mr. Rey. Right.
    Mr. Dicks. It sounds like somebody----
    Mr. Rey. Some of those are supervisory FTEs that we are no 
longer using given the change in firefighting tactics. Now, the 
third point I would make is that there is a built-in hedge in 
this in that the Appropriations Committees in the House and the 
Senate have given us the opportunity to use suppression and 
preparedness dollars interchangeably, and in the past we have 
taken that opportunity where through unanticipated 
circumstances, we have wanted to heavy-up prepositioning 
resources that would normally be paid for by preparedness 
dollars, we have used suppression dollars.
    Mr. Dicks. So there is some flexibility then----
    Mr. Rey. Right.
    Mr. Dicks [continuing]. That you might take advantage of 
if----
    Mr. Rey. Correct.
    Mr. Dicks. And of course, you would look to us for 
emergency relief if necessary?
    Mr. Rey. If that proves to be the case but part----
    Mr. Dicks. Which Mr. Lewis and I have worked on with Mr. 
Tiahrt.
    Mr. Rey. Right. Part of what you are seeing here is a 
desire to realize the savings associated with tactical changes 
in the way we fight fires, not just a simple mindless cut of 
the suppression budget for the purpose of meeting a budget 
number. And the fact is that if you do not realize the savings 
in those changes, then all the work you have done to make them, 
you know, more or less goes for naught.

                   HAZARDOUS FUELS MANAGEMENT FUNDING

    Mr. Dicks. I have no quarrel with the suppression budget. 
Then we get down to hazardous fuels. Interior goes from $199 
million to $202 million. That is a plus of $3 million. Now here 
again, Forest Service hazardous fuels is down $13 million from 
last year's level, $310 million to $297 million. How do you 
explain that? I mean, I thought we should be accelerating our 
work on hazardous fuels, not decreasing it.
    Mr. Rey. Well, the way I would explain that is two-fold. 
Number one, the hazardous fuels account is not the only account 
that we draw from to do fuel reduction work. We use the forest 
products account which is up slightly, as well as a couple of 
other accounts including stewardship contracting which is up by 
over $7 million. So the decrease is not as significant as it 
looks, just looking at the hazardous fuels line item. The 
second point I would make is that the hazardous fuels line 
item, as well as the overall Healthy Forest Initiative budget 
line in fiscal year 2008, was an all-time record. If you back 
out $80 million in earmarks, it was $962 million in total 
between the two Departments, looking at by comparison, $927 
million for fiscal year 2009. What that would mean is that 
fiscal year 2009 is the second-highest level of funding in this 
area in the history of the Republic, fiscal year 2008 being the 
highest level.

                 REHABILITATION AND RESTORATION FUNDING

    Mr. Dicks. Okay. Now, I have another problem here. Now, in 
rehabilitation, DOI is at $24 million, and they stay at $24 
million, a slight increase of $98,000. Forest Service 
Rehabilitation, for Mr. Lewis and the people in my State who 
have suffered these fires, this goes from $10 million in 2008 
to zero rehabilitation. Zero. How can you explain that?
    Mr. Rey. The difference there is that the Department of the 
Interior lacks the authority to use suppression dollars for 
Burned Area Emergency Rehabilitation. So when we do 
rehabilitation work on an emergency basis right after the 
fires, which is the most important rehabilitation work you can 
do, you all, the appropriators, have given us the authority to 
tap the suppression account. Typically then, as we are building 
budgets, we look backwards to what our rehabilitation needs are 
beyond the emergency rehabilitation work that has already been 
done. In 2008, we anticipated that it was going to be somewhere 
in the neighborhood of $5 or $6 million. You eventually 
appropriated about $10 million in the final enacted budget in 
part because there were some late fires that we obviously did 
not pick up as we were building the 2008 budget.
    [Clerk's note.--Additional testimony submitted after the 
hearing from the Department of the Interior.]

    The Department of the Interior would like to correct and clarify 
testimony for the record. The Department of the Interior does fund 
Emergency Stablization projects in its Suppression Operations account. 
On the other hand, the Department funds non-emergency burned area 
rehabilitation projects in a separate Burned Area Rehabilitation budget 
line item.

    At this point, given the amount that has already been 
invested in the work to rehabilitate areas, both in the Forest 
Service and in the Natural Resources Conservation Service 
budgets, we do not see any unmet rehabilitation needs beyond 
those that we can deal with through the Burned Area Emergency 
Rehabilitation Area account using suppression dollars.

                     STATE FIRE ASSISTANCE FUNDING

    Mr. Dicks. And then we get to the Forest Service State Fire 
Assistance which is reduced from $47 million in 2008 to $35 
million. Now, Mr. Rowdabaugh, how is that going to affect the 
States?
    Mr. Rowdabaugh. Sir, there will be some immediate impacts 
and some long-term impacts, and as a little background, there 
are only a few things land managers can do to affect long-term 
fire costs. We cannot control the weather, we cannot control 
the topography, but we can control fuels and we can yield an 
effective fire force. And we know with certainty that large 
fire costs are the result of large fires. And there really are 
only two things we can do, fuels and firefighters. State Fire 
Assistance does both of those. In the short term, we use State 
Fire Assistance dollars to train firefighters and to equip 
firefighters from State and local agencies that fight most of 
this Nation's wildfires, 81 percent, and support the federal 
agencies with their firefighting. And as we mentioned earlier, 
we provide significant resources. States are the brokers of a 
vast majority of firefighting resources that support our 
federal agencies.
    State Fire Assistance dollars also fund fuels projects and 
the implementation of community wildfire protection plans that 
Mr. Cason referred to. These are funds that are leveraged at 
least dollar for dollar, in my own State of Arizona, more than 
dollar for dollar, by local communities and State governments 
that are directed right at the highest priority areas in the 
wildland urban interface, as identified by the communities 
themselves and that are fully supported by our constituency. 
None of our projects are ever challenged in court for State 
Fire Assistance, community wildfire protection or fuel 
treatment projects.
    So a reduction in those accounts will have both an 
immediate and then a long-term effect on firefighting 
capability, and fuels management reduction. Both of those are 
the two places we can make significant insteps in controlling 
fire costs in the future.
    Mr. Dicks. Also, under the Department of the Interior, 
State and local assistance, that goes from $5.9 million to 
zero. How do you explain that?
    Mr. Rowdabaugh. Well, Mr. Chairman, this is----
    Mr. Dicks. We are trying to work with the States, not, you 
know----
    Mr. Rowdabaugh. We are.
    Mr. Dicks [continuing]. Abandon them.
    Mr. Rey. Well, we also just heard from----
    Mr. Dicks. This is the Interior. I would like to let him 
answer this one, okay?
    Mr. Rey. But he is so glib.
    Mr. Dicks. I know. We will give him his chance after you. 
You are quite glib, too, okay?
    Mr. Cason. Mr. Chairman, it is true, we do work a lot with 
State and local firefighting contingents. While we were putting 
together our budget, there were a lot of good things we could 
do with our budget, and we did prioritize within the budget. As 
you noted before, we did increase our suppression account, we 
did increase preparedness, we did increase hazardous fuels, and 
then in taking tradeoffs, we funded the things that we were 
responsible for and did not fund some other things.
    Mr. Dicks. Is that a mistake, from the States' perspective? 
Is that going to hurt the States and their ability to be a 
partner in this deal?
    Mr. Rowdabaugh. Absolutely, and it is going to hurt the 
Interior agencies as well.
    Mr. Dicks. Explain that.
    Mr. Rowdabaugh. This is what my mother used to call cutting 
your nose off to spite your face.
    Mr. Dicks. These guys do a lot of that. Okay. Go ahead.
    Mr. Rowdabaugh. RFA/VFA do nothing but train and equip 
firefighters. That is all they do. In the State of Arizona they 
are managed essentially as a single program. The Interior funds 
are provided to the State forester, the Forest Service funds 
are provided, we sit down with representatives from both those 
two agencies, our own State foresters and representatives from 
the local fire departments and distribute those funds every 
year among deserving local fire departments; and those are the 
fire departments that come and fight our fires, and any 
reduction in those funds will have an immediate effect on our 
ability to field that firefighting force. As the federal 
agencies cut back in the presuppression budgets and it truly 
does mean a cutback in the number of firefighters they can 
field, we are absolutely going to need to rely on local 
firefighters to support us. That has been clear in any number 
of studies that we have done in the last decade, that there is 
an increasing need for local fire department resources to 
support both State and Federal agencies as we move forward.

                     WILDLAND FIRE COST AGREEMENTS

    Mr. Dicks. One final question and I will give it to Mr. 
Tiahrt. What should be done in this negotiation between the 
federal agencies and the States to work out a way to deal with 
this problem so that, you know, when we wind up protecting 
private property and things like that. You know, I do not have 
any problem with that, but the cost of this, should there be a 
re-examination of this?
    Mr. Rowdabaugh. Well, there is on every single fire.
    Mr. Dicks. There is?
    Mr. Rowdabaugh. Well, I am afraid it gets lost sometimes. 
We are talking about protecting private property from Federal 
fires. That is what this conversation is about. And we agree 
with the Inspector General----
    Mr. Dicks. Well, all right.
    Mr. Rowdabaugh [continuing]. When they talk about property 
owners ought to be responsible for their property. State 
foresters agree with that 100 percent. We agree that private 
homeowners ought to be responsible for their property as well 
as States and Federal agencies ought to be responsible for 
their property. What this conversation about is who pays for 
firefighting activities on Federal lands, and we believe that 
is most appropriately done by those people who manage those 
lands and who have managed those lands for 100 years, in the 
Forest Service's case, and who have contributed in part to the 
fuels problem that we have today that now threatens our local 
communities.
    Mr. Dicks. You talked about what, 140 community groups? 
What was that number that you used?
    Mr. Rowdabaugh. It is far greater than that. I am afraid I 
do not have a number right now of our----
    Mr. Dicks. But is that the way to solve this problem? Is 
that the way to get at it, these agreements where they sit down 
and explain to the homeowner that they have got to clear the 
area around them----
    Mr. Rowdabaugh. Absolutely. Part of what----
    Mr. Dicks [continuing]. Better materials----
    Mr. Rowdabaugh. Well, first, States do not need to be 
motivated and neither do homeowners. We suffer all of the 
losses when these Federal fires escape the Federal property. 
For instance, our own large fire, the Rodeo-Chediski fire, 
burned half-a-million acres, cost $40 million to put out, 
largely borne those costs by the Federal government, not all of 
them, but most of them. What they do not account for is the $10 
million that the State of Arizona absorbed in evacuation and 
emergency sheltering. The total cost of the Rodeo fire is 
estimated to be $400 million when we look at the property 
losses from the individual homeowners who lost their homes 
because this fire escaped the Federal lands. We looked at the 
impact on county revenues from the loss of the tax basis, when 
we looked at businesses that were destroyed, when we lost the 
forest resources that these rural communities depend on. The 
true cost of that fire is $400 million, not $40 million; and we 
do not see anybody come and say we ought to share those costs 
with the State as well.
    Mr. Dicks. Thank you. That was a great answer. Mr. Tiahrt.

                   FEDERAL FIREFIGHTING ORGANIZATION

    Mr. Tiahrt. Thank you, Mr. Chairman. There are five 
agencies that provide fires suppression funds, one in Forest 
Service inside the USDA and then four within the Department of 
the Interior, the National Parks Service, the Bureau of Land 
Management, U.S. Fish and Wildlife Service, and the Bureau of 
Indian Affairs. I know there has been some consideration in the 
past that we should move the Forest Service to the Department 
of the Interior for consolidation, especially when it comes to 
firefighting. Is this an idea that you think ought to be 
pursued?
    Mr. Rey. I do not think it will have a material effect on 
either the effectiveness or the cost of the firefighting 
effort. The reason for that is that we are already operating 
under a unified command system. So our firefighting resources 
and crews are interchangeable. There may be a lot of other 
reasons. People have argued in the past one way or another for 
consolidation of resource management agencies, but firefighting 
efficiency is not one of them. There you have effectively 
already got the consolidation.
    Mr. Tiahrt. But we do have both agencies, both the Forest 
Service and the Department of the Interior doing preparedness, 
suppression, hazardous fuels, rehab, State and local 
assistance, fire science. So we have a lot of overlap, a lot of 
redundancy between the Department of the Interior and the 
Forest Service.
    Mr. Rey. I would say it is integrated, not redundant. If 
you look at the last page of the budget overview for our fiscal 
year 2009 budget request, what you will see is an integrated 
budget request for all the fire programs of both Departments.
    Mr. Tiahrt. Are your management teams integrated for fire 
preparedness?
    Mr. Rey. Yes.
    Mr. Tiahrt. So you do not have a duplicate set of managers, 
a duplicate set of accountants, a duplicate set of attorneys 
that are advising?
    Mr. Rey. There are some of our fire people who would say 
any more than one attorney is duplicative, but beyond that, 
putting that aside, no, they are all integrated.
    Mr. Tiahrt. Okay. That was a bad example.
    Mr. Rey. If you go out onto one of our fires, you will see 
USDA and DOI employees working interchangeably. In the unified 
command system, if one of our agencies, or for that matter even 
a state agency employee, takes over command of a fire under the 
integrated command system, that person is in charge of all of 
the assets on the fire, whether it is a USDA asset, a 
Department of the Interior asset, a State asset, or a local 
government asset. So as I said, Congressman Tiahrt, there are a 
lot of reasons and arguments over the years about how to 
reorganize the Federal land management agencies, but since the 
early 1970s, the fire operations are the one thing that have 
been done in a unified fashion, so you are not going to get 
much benefit there.
    Mr. Tiahrt. From your testimony then, you believe that they 
operate under one single umbrella today?
    Mr. Rey. Correct.
    Mr. Cason. They do. Mark and I spend a lot of time 
together, our staffs spend a lot of time together to make sure 
we are well-integrated.
    Mr. Dicks. Excuse me. Mr. Lewis.
    Mr. Lewis. Just to break in at that point, I can understand 
why the Department of Agriculture would say these 
responsibilities are totally and very effectively integrated, 
and I can understand somewhat why the Interior would deal with 
the fact of life and you are not likely to change it. I have 
not seen Agriculture give up anything at all the time I have 
been around public affairs, and yet the focusing upon the 
national forests and the challenges that are there seems to me 
that a lack of overlap, a better level of integration would be 
helpful not otherwise. Now, I know I cannot get the Secretary 
of Agriculture to respond positively to that thought, but the 
Secretary of the Interior, you may not know this, the Secretary 
of the Interior was raised as a young boy adjacent to the San 
Bernardino National Forest, and he would understand the need 
for really highlighting this need to coordinate assets, 
personnel, et cetera.
    So the question that Mr. Tiahrt is asking seems to me to be 
a very important one and logical and should not lightly be cast 
aside.
    Mr. Cason. In terms of my response, I do not lightly cast 
it aside, either. I think that Mark was accurate in saying 
there are lots of people that have lots of views about the 
benefits of integrating one land management agency, the Forest 
Service, with other land management agencies within the 
Department of the Interior because in large part, the 
Department of the Interior is predominated by land management 
agencies. In terms of federal ownership, the Forest Service 
represents the biggest outside the Department land management 
agency that is not there as part of the Department of the 
Interior. There are lots of attractive reasons why 
consideration of merging those together might be beneficial, 
but I think the point that we are looking at is how much better 
off would we be with integrating the fire program? We are 
basically there on the fire program itself. There may be other 
advantages for actual on-the-ground land management activities 
that are not fire-related; but with the common umbrella of NIFC 
and how long we have been doing that together as grouped 
agencies, not only the Forest Service and our Interior 
agencies, but also with State and local firefighting 
capabilities, with tribal firefighting capabilities, it has 
been a broad effort to get the firefighting community working 
together and that has been in place for a long time.
    Mr. Lewis. Excuse me, look at this chart in the interesting 
package; if the Chairman and I were in the Defense 
Subcommittee, Mr. Murtha would have closed down the hearing 
because you presented that ridiculous chart, the inability to 
make sense out of it for a layman is my point. But back to the 
question at hand, within the Department of Defense we see the 
huge levels of competition between the various branches. And 
when the Air Force is going after its F-22, I can tell you, the 
Marine Corps may have a case to get another priority 
considered. In Agriculture, there are different priorities and 
their budgets are adjusted to reflect those different 
priorities. I would think that Interior ought to be focusing 
pretty intently on how all the dollars that are available for 
this kind of management, i.e. controlling the impact of fires 
on our forests, I would urge them to try to figure out how you 
can better give your priorities the kind of weight they should 
have in this exchange.
    Mr. Cason. Okay. I will be happy to pass that onto 
Secretary Kempthorne.

               CARRYOVER OF EMERGENCY SUPPLEMENTAL FUNDS

    Mr. Tiahrt. I think in the past we saw a lot of production 
in our forests, and the logical place to put it was in the 
Department of Agriculture where a lot of other production is 
included, wheat for example and other commodities. But today 
the evolution of our forests have gone away from production and 
more towards preservation, and it seems to me that the natural 
move has moved it over under the umbrella of the Department of 
the Interior, rather than in the Department of Agriculture. 
That is my personal view of it, but moving beyond that, in 
fiscal year 2007, emergency supplemental, the fiscal year 2008 
emergency supplemental, and emergency funds included in fiscal 
year 2008 omnibus appropriations bill, Congress appropriated 
$1.265 billion emergency funding to address catastrophic 
wildfires. This is in addition to the appropriated 
discretionary dollars that we put into the fund. And about 
three-quarters of this money, $921 million, has gone to the 
Forest Service and the remaining funds go to the fire accounts 
within the Department of the Interior. Has there been any 
carry-over of this money for this year's fire season?
    Mr. Cason. I do not know that. Is there any carry-over? 
Yes. $8.1 million for Interior.
    Mr. Tiahrt. For Interior. Okay.
    Mr. Rey. Yeah, there is some carry-over that would be added 
to this year's budget. I can get you the exact amount.
    Mr. Tiahrt. In the range of?
    Mr. Rey. A couple hundred million dollars on top of what is 
being asked for. So I think we look at about $1.2 billion as 
our total.
    Mr. Tiahrt. For suppression?
    Mr. Rey. For suppression, right. So there is some carry-
over.
    Mr. Tiahrt. And the money----
    Mr. Dicks. Which is good.
    Mr. Tiahrt. And the money borrowed from other accounts----
    Mr. Rey. It has been repaid.
    Mr. Tiahrt. Has been repaid. Same with Interior?
    Mr. Cason. Same with us.

                      SUPPRESSION FUNDING PROCESS

    Mr. Tiahrt. The way we have calculated this is a 10-year 
moving average, is it not?
    Mr. Cason. Correct.
    Mr. Tiahrt. And yet we have seen the trend lines that are 
going, if I can interpret this right, it looks like they are 
going up; and what we heard in the first testimony is the risk 
is going up. So we are using kind of a lagging marker for 
projecting our future costs. It seems like we ought to be at 
the front end of this curve. If I can use this as an example, 
and forget about the data and just look at the curve line, we 
ought to be thinking about the front of the curve instead of 
the middle of the curve.
    Mr. Rey. It has been proposed that we shorten that to be a 
rolling five-year average.
    Mr. Tiahrt. How about we do this? How about if we figure 
out what it takes for the Forest Service to maintain their 
infrastructure, and what if the Department of the Interior 
calculates what does it take to have the right manpower level 
and training and equipment? And then when it comes to fighting 
the fires, we say, the money is going to come out of FEMA, and 
we take all this money that we have today and use it for 
infrastructure and overhead and training and equipment. And 
then when we have the very first fire show up, we just say, 
FEMA, where is your checkbook because eventually we come up 
with the money, just the $1.265 billion in the last two years. 
We probably ought to do it differently. We probably have an 
accounting system now that robs Peter to pay Paul, and it does 
not make sense to me. Now, I have not been on this committee 
very long, and I am probably not the world's best accountant, 
but I do know one thing that we ought to apply just a little 
common sense. We know this money is outgoing and we know we are 
shorting the needs of the Forest Service, we are shorting the 
needs of the Department of the Interior. We are robbing from 
Peter to pay Paul. There just ought to be a smarter way to do 
this, and I do not think the five-year moving average is really 
it either. I think when you have an emergency, then FEMA gets 
involved; and in the meantime, let us figure out what it takes 
to properly maintain our Federal lands, to properly train and 
equip our personnel, and to properly maintain the 
infrastructure that is there and then emergencies are over and 
above. Comments?
    Mr. Rey. We submitted something akin to that as part of the 
2003 budget proposal. I think it was 2003. Do not hold me to 
that. It might have been 2002, where we proposed a government-
wide emergency account. We would be happy to resuscitate that 
proposal and talk to you about it.
    Mr. Dicks. We would like to see it. I think it is a good 
idea.
    Mr. Rey. Okay.
    [The information follows:]

    Mr. Dicks and Mr. Rey for information regarding an alternative for 
emergency funding that was proposed in fiscal year 2002.
    The proposal was for a $5.6 billion Government-wide National 
Emergency Reserve, which was intended to cover urgent, unforeseen, and 
non-permanent expenditures, such as the Forest Service firefighting 
program if the firefighting needs exceed the base amount included in 
the 2002 budget. The fund would also cover emergency watershed 
protection, emergency conservation, and other programs. Under the 
proposal, funds would only be released from the National Emergency 
Reserve when approved by both the President and Congress.

    Mr. Cason. We have been exploring ideas together on how to 
address that problem because we in the Department of the 
Interior have the issue as well when emergency fire exceeds our 
capability to fund it. We are borrowing from other accounts 
within Interior and then looking for the good graces of 
Congress to repay those funds that we have borrowed, but it is 
disruptive somewhat, and we would like a better way of doing it 
as well.
    Mr. Dicks. If the gentleman would yield, this chart we had 
here, Forest Service Fire and Non-Service Fire Budget. In 1991, 
fire was $297 million. Today it is $1.9 billion. In '91, that 
was 13 percent of the Forest Service's budget, today it is 48 
percent. I mean, this is having a very negative effect. In 
fact, the non-fire part of the budget is $2.1 billion in 2003, 
and it was $2 billion in 1991. You see what has happened here. 
Fire has gone up, and the rest of the budget for trails, for 
roads, for all the other things that Forest Service does has 
been hammered.
    Mr. Rey. Those figures are correct. The one thing that I 
want to clarify, though, is that we count all the fuels 
treatment work as part of the fire budget. So to the extent 
that we made that a top budget priority, that is reflected in 
there, too. That is not just increase in fire suppression 
costs, it is a concerted effort over the last seven years to do 
fuels treatment work to try to turn the corner on that increase 
and suppression.
    Mr. Tiahrt. And I think that is where your work in 2003 and 
your current work about how this should be allocated is good 
information for the Committee. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Lewis, do you have any further questions?

                      AIRCRAFT USE IN FIREFIGHTING

    Mr. Lewis. Mr. Chairman, there are two areas that very much 
concern me and may or may not be the priority of the Committee, 
but I have been looking at the availability of military 
aircraft as it relates to fighting fires; and we were supposed 
to receive six aircrafts in August of this year, and it appears 
that there is going to be a delay. There has been an ongoing 
delay pattern over the years. Can someone give me a handle on 
what kind of response you are getting there and what we do to 
solve the problem making those aircrafts available?
    Mr. Cason. Mr. Rey?
    Mr. Rey. Yeah, this is a Forest Service/Department of 
Defense joint effort to utilize C-130 for firefighting 
purposes. Currently we have six C-130H models that are 
available for use using the first generation mobile airborne 
firefighting system. That is the tanking system that you roll 
in and out of a plane so that it can be used for other purposes 
when it is not being used for firefighting. Those six were 
deployed in southern California during the October 2007 
incidents. We are trying to upgrade the tank system, and we are 
trying to fit the new tanks to the C-130Js. So there are two 
levels of complexity there. Even to make the C-130Hs which are 
the current models that we are using, more effective, we want 
to put the second generation tanks into those. That will be 
done this spring so that all the C-130Hs will be fitted with 
the newer tanks which will result in more effective retardant 
or water delivery.
    The C-130Js are proving to be a more difficult engineering 
challenge than we and the Department of Defense originally 
anticipated because of the different electronics in the 
aircrafts and the fitting of the new tanking system to the 
cargo doors. We are still in negotiations with Lockheed, with 
DOD, and with the contractor who is making the tank, but we 
hope to have the C-130Js operational at the latest by the time 
we get into the southern California firefighting seasons.
    Mr. Lewis. That is where I was taking it. Do you think they 
will be available as we go forward?
    Mr. Rey. The H's will all certainly be available and more 
effectively outfitted with the new generation of tanks. The J's 
we hope and believe will be available in time for the southern 
California season. They will not be available for the early 
part of the fire season.

                         FIREFIGHTER PAY PARITY

    Mr. Lewis. Mr. Chairman, another question relative to your 
concern about personnel earlier. It is my understanding that 
there is a differential between pay levels within the Federal 
services versus State services, particularly in California. We 
bring people aboard to carry forward Federal Forest Service 
personnel requirements and after we get them aboard and begin 
to do the training, it would appear that we may be training 
them for State services because the States in California, the 
pay scales are much higher for personnel, relatively. Is this a 
problem and if so, what do we do about it?
    Mr. Rey. It is a reality that we are looking at and 
evaluating to see how much of a problem it is. You are correct. 
The State system has a higher salary grade, it has what we call 
portal-to-portal salary treatment which means that if you are 
on a fire, the moment you leave home, you start to draw a 
salary whether you are doing any actual firefighting work; and 
you keep drawing salary until you return home. And then of 
course as you know, Mr. Lewis, the State retirement system in 
California is a very generous one, at least for now until the 
finances of the State become such that they cannot be 
sustained. So yes, we have experienced some movement of Federal 
firefighters in southern California to the State firefighting 
agency or even in some cases to county agencies.
    Now, the question we are evaluating is how big a problem is 
that? On the one hand, you hate to lose trained people. On the 
other hand, they are still fighting fires. Under a unified 
command system, they are going to be on the fire line along 
with Federal firefighters, and we have not so far had any 
shortfalls in our new recruitment. So perhaps, you know, in 
some perspectives it is an inconvenience that we are in essence 
helping train State firefighters. On the other hand, we are 
still producing trained firefighters. If we were to conversely 
adopt the same salary structure as the State of California for 
the Federal firefighters in southern California, I am quite 
confident that we would create another couple of problems. One, 
our preparedness costs would increase because we would be 
paying more, and second, we would be seeing Federal 
firefighters moving to southern California with great alacrity 
because there would be a pay differential between what they 
would get fighting fires for the Federal Government in southern 
California versus what they would be getting in say Washington 
or----
    Mr. Lewis. I understand your point, Mr. Secretary Rey, but 
let us say Norm Dicks and I were having a little exchange here 
and I was anxious to get some of his personnel which he trained 
very well. But in the meantime, I have the opportunity of a 
much higher pay scale because of the way we treat personnel. I 
would be stealing his people, and I think he would see a 
difference and would not be too happy with that. In the San 
Bernardino National Forest, we lost like 60 firefighters I 
guess in a reasonably short period of time to Forestry 
Department, and the real control of those personnel, whether 
they were available in a timely fashion, et cetera, is and 
should be of concern.
    Mr. Rey. That is what we are trying to evaluate is how big 
a problem is this in the context of how long it takes us to 
recruit, train, and deploy replacement firefighters. But again, 
it is not like an exchange of personnel between you and 
Congressman Dicks in the sense that we are still working under 
a unified command system. So those former Federal-now-State 
firefighters are on the lines there with the Federal 
firefighters.
    Mr. Dicks. And if we change everything to the California 
standard, that would raise our costs dramatically.
    Mr. Rey. Fairly significantly, right.
    Mr. Dicks. So we have to evaluate as well, and I notice 
California is having some financial difficulties.
    Mr. Lewis. That is correct.
    Mr. Dicks. So we may have to revise some of their programs.
    Mr. Lewis. I wonder if the State forester representative 
might have something to say about this.
    Mr. Rowdabaugh. Thank you. I would say the problem of 
generous State pay scales may be unique to California.
    Mr. Lewis. It is. It is true in Arizona. You are holding 
the line.
    Mr. Tiahrt. I was waiting for that.
    Mr. Rey. He may be losing Arizona firefighters.
    Mr. Rowdabaugh. We lose them to the Forest Service.
    Mr. Dicks. Oh, you do? So you have the opposite problem. So 
maybe it all nets out. Mr. Calvert.

                       HISTORICAL FIRE TREND DATA

    Mr. Calvert. Thank you, Mr. Chairman. Mr. Lewis brought up 
the issue with the C-130Js. I know that has been delayed 
significantly over the last couple years, but also we had a 
problem as you know in this last fire with the interface with 
the military, the United States Marine Corps; and I would hope 
that we learned from that and we are not going to have that 
problem in the future. But I wanted to bring that point up. You 
can answer it. And I have the same problem with these charts as 
Mr. Lewis does. What drives me crazy about these things is they 
start out in a relatively early, and I think of 1970 as 
relatively early, the time I graduated from high school, but I 
imagine they kept statistical data prior to 1970. They get more 
accurate statistical data if they go back at least mid-century 
or something.
    Mr. Dicks. There is no question these data are accurate and 
it does show a trend.
    Mr. Calvert. With an exception.
    Mr. Dicks. As painful as that may be for the gentleman from 
California.
    Mr. Calvert. Oh, no, I am not questioning the accuracy of 
the data from 1974. I am just wondering if we can take data 
from 1950 and move that from 1950 to----
    Mr. Rey. The short answer is we can to some degree. We did 
not collect all of the information that we collect today in 
1950, and we did collect more information than we did at the 
turn of the last century. What these data show is that we are 
in a trend of more severe fire years, and that I think is 
indisputable. What they do not indisputably demonstrate is 
whether that trend is linear or whether we are on an upward 
part of a cyclical trend. The worst fire years in the last 
century have not been the most recent years. We burned 30 or 40 
million acres of ground in 1910 and probably a comparable 
amount of ground in the teens. Now, there is a difference, and 
that is why aggregating data that far back are not necessarily 
that useful. In 1910 and in the teens, we did not have a 
modern-day firefighting force, so a lot of fires that we would 
have extinguished today because we want them to be extinguished 
burned for millions of acres because we did not have the 
capability. So we are in an upward trend in terms of fire 
severity. That much is clear. Whether that is cyclical and will 
eventually cycle out of it, and some of our climatologists 
believe that you have long-term drought and wet cycles as well 
as short-term drought and wet cycles. Whether we will cycle out 
of it, we do not know for sure. That is unknown. But your point 
is we could reconstruct data that far back, but it would be 
hard to make them apples and apples comparison given the 
intervening variables, like our ability to extinguish fires if 
we want to as opposed to the case in 1910 where we were 
dragging the bars of Spokane to find people to go out and put 
on a fire line compared to what we do today, which is somewhat 
different at least.

                        HAZARDOUS FUELS PROJECTS

    Mr. Calvert. And the other question I have, is Fish and 
Wildlife more cooperative now than they have been in the past 
on reduction of hazardous materials throughout the United 
States?
    Mr. Rey. I think the trend line there has been positive, 
and it is not just Fish and Wildlife. It is local, State, and 
regulatory agencies as well who have a role in that.
    Mr. Calvert. You hear that from the State, too. Do you see 
a positive trend in that?
    Mr. Rowdabaugh. I am glad you asked actually. I have a 
rather extraordinary story to relay, and it is about Director 
Hall who was regional director of the Fish and Wildlife Service 
before he came to Washington to be director of the agency. We 
had a project in the interface of Flagstaff on State lands that 
was going to impact the spotted owl, and we needed to consult 
with the Fish and Wildlife Service on the impacts of that 
project. We could not get our logical Federal partners to 
sponsor the State as required by Section 7. They were afraid it 
would impact their allowable take for spotted owls, and to 
break the logjam, Regional Director Hall decided to partner 
with the State so that he could consult with himself to move 
the project forward. I would say his efforts alone account for 
tremendous change and response in the agency and how well they 
are able to work with us to move these sorts of projects 
forward.
    Mr. Calvert. Thank you.
    Mr. Dicks. It is essential that these kind of projects move 
forward, right, in order to----
    Mr. Rowdabaugh. These communities are literally at-risk, 
their very survival, and these projects must move forward. And 
we have a director in the agency that understands that and has 
worked with us.
    Mr. Dicks. I am glad to hear that.
    Mr. Cason. I would say from my standpoint, I work routinely 
with Fish and Wildlife Service and Park Service, BLM, and 
Indian Affairs on these projects, and I would say at least 
recently, I have not seen any problem with any of the agencies 
and their willingness to participate in hazardous fuels 
reduction projects and that we have been working through a 
concerted effort to make sure that we are identifying and 
funding the highest priorities without regard to whose land it 
is to make sure we get the biggest impact possible from the 
funding we have----
    Mr. Dicks. If you could just yield for 30 seconds, was 
there not a big fight when we had this legislation, the Healthy 
Forests Initiative, about where these projects should be done, 
the Forest Health Projects. Or should they focus on the 
wildland urban interface? Was that not a concern?
    Mr. Cason. It is a continuing consideration. Where do you 
prioritize spending the available funds that we have? And we 
are going through a very deliberate exercise within the 
Department to make sure that we fund the highest priority 
projects without regard to land jurisdiction.
    Mr. Calvert. I bring that up, Mr. Chairman, because as you 
know a number of years ago the Fish and Wildlife Service 
routinely would deny, you know, applicants the permission to go 
out and reduce fuel loads in certain areas, and that was very 
difficult for the States and local communities to deal with, so 
I just wanted to bring that point up.
    Mr. Rey. One of the things that changed that to a degree 
was the counterpart regulations that we wrote with Fish and 
Wildlife Service and NOAA Fisheries as part of the Healthy 
Forest Initiative. In those regulations, what we articulated 
was clear guidance to both Fish and Wildlife Service and NOAA 
Fisheries is that as we are consulting on a fuels treatment 
project that is in an area where there are threatened 
endangered species, they need to look at not just the short-
term impact of the project on this species' well-being, but the 
long-term consequences of inaction and the increased risk of 
catastrophic fire. I think that once we inculcated that kind of 
a tradeoff in how you look at these kinds of fuel treatment 
projects, then the logjam, if I can use that metaphor sort of 
broke.
    Mr. Dicks. Quite good. Mr. Tiahrt. Are you done, Ken?
    Mr. Calvert. Yes, thanks.

                      AIRCRAFT USE IN FIREFIGHTING

    Mr. Tiahrt. I think it was called the Witch Fire last year. 
There was use of helicopters in part of the firefighting, and 
the large ones that dipped the water out I think performed 
well. But what is referred to as the light utility helicopter, 
I think there were about six of them involved from reports I 
heard, and they were unable to fly for various reasons. Do you 
guys own light-utility helicopters or were they the military's?
    Mr. Rey. In that particular case, I think those may have 
been military helicopters. It was not a question that they 
could not fly because they were lighter aircraft, the wind 
conditions affected them disproportionately. You know, you have 
a gradient when you have heavy winds which you always do in 
Santa Ana conditions, and as the wind speed picks up, your 
smaller aircraft drop out of your aviation response and then 
when you get to anything above 30 miles an hour of extended 
gusts, then you might as well set everything down because 
either the flight conditions are unsafe or because of the wind 
gusts, you cannot make water or retardant drops very accurately 
so you are just putting----
    Mr. Calvert. If the gentleman would yield just for a 
second. However, once those winds did decrease, I understand 
there were difficulties in allowing those military aircrafts to 
move forward because of what you call spotters. They were not 
sanctioned by various authorities and were not on those 
helicopters, and it was a two- or three-day delay or a couple 
days delay before those helicopters could be utilized.
    Mr. Rey. It was about a 36-hour delay after the winds 
dropped down. You know, in the after-action reviews of all of 
these large incidents you learn something. The primary gap 
there was that Cal Fire and the Marine Corps did not have a 
local agreement to mobilize those air assets. That has been--
    Mr. Calvert. Do they now----
    Mr. Rey [continuing]. Rectified.
    Mr. Calvert (continuing). Have an agreement?
    Mr. Rey. Yes, they have gone back and negotiated a local 
agreement. The reason for the delay, if I can finish, is that 
with the absence of a local agreement between Cal Fire and the 
Marines, the other military branches did have local agreements. 
With the absence of that agreement, the request for the assets 
had to go up to the National Interagency Fire Center and then 
back down to the incident commanders. Now, we have rectified 
that so that should not be a problem next year.
    Mr. Tiahrt. Were there use of unmanned air vehicles for 
infrared spotting the hot spots and things? I heard reports 
there were some used.
    Mr. Rey. The military was gracious enough to let us use 
those vehicles sort of on a trial basis.
    Mr. Tiahrt. And how did they work?
    Mr. Rey. They worked pretty well.
    Mr. Tiahrt. The Forest Service does not have any of those 
vehicles?
    Mr. Rey. Not available to us. Now, one of the issues----
    Mr. Dicks. Are these UAV's you are talking about?
    Mr. Rey. Yes, drones. One of the issues is that some of the 
technology that is used is classified, so we will have to work 
with the military.
    Mr. Tiahrt. Yes, but you do not really need the classified 
version.
    Mr. Rey. I know.
    Mr. Tiahrt. What you need is the infrared, and commercial 
satellites have that now.
    Mr. Rey. Correct. What we would have to do would be to 
basically pull out the classified technology from one of those 
drones so that we could use it for just the infrared.
    Mr. Dicks. Do you use any of the classified satellites at 
all? Do you get any help from those satellites?
    Mr. Rey. We get some from the system, yes. Both Interior 
and Agriculture are cooperators with the military on the use of 
that information.
    Mr. Dicks. Any other questions? All right. We will excuse 
these witnesses. I want to bring the first panel back just for 
a second. I have a couple things I want to ask. Thank you very 
much. We appreciate your being here and being patient and 
waiting for us to get through this. Dr. Westerling, you were 
talking about how the fire season has expanded. Would you go 
back and tell us a little bit more about that?
    Dr. Westerling. Sure. You can hear me?
    Mr. Dicks. Yes.
    Dr. Westerling. Okay. So it has increased a little over two 
months, and it is split about evenly between increases on the 
starting side, so it is an earlier start, and then longer 
duration. And part of the longer duration is that the 
conditions that allow for rapid spread of these fires once they 
ignite are persisting longer into the season, and then the time 
that these fires burn before they are put out are also 
increased.
    Mr. Dicks. And again, what is the reason for that in your 
judgment?
    Dr. Westerling. In my judgment, the most important factor 
is how dry the vegetation is, how dry the fuel is because of an 
early spring. So it is not so much that the soil moisture is 
going to be so much drier in a year with an early spring--its 
that it dries out so much earlier. You are basically extending 
the summer dry season for another month in some of these years, 
and that has a big impact on the vegetation.
    Mr. Dicks. And also the bug infestation, that also is a 
problem, right?
    Dr. Westerling. Well, it is a temporary problem, so when 
you kill the trees and you have all those dead needles, then 
you have increased the fire risk in the canopy. Once those 
needles fall out of the canopy, then you have increased the 
risk of surface fire but not canopy fire. So it changes over 
time.
    Mr. Dicks. Dr. Hammer, you talked a lot about the wildland 
urban interface and the increase in population. Do you have any 
ideas, any suggestions on what Congress should do about this as 
it relates to fires?
    Dr. Hammer. I was not expecting a question quite like that.
    Mr. Dicks. You never know what you are going to get around 
here.
    Dr. Hammer. You never know what you are going to get. Let 
me tell you about two things.
    Mr. Dicks. Let us hear from Oregon State, okay?
    Dr. Hammer. Okay. Let us talk about two things, and one you 
brought up, and that is addressing fire mitigation efforts at 
the wildland urban interface, and I want to clarify some of 
that and how it has evolved. And let me just use an example. 
Centralia is not in your district, but you are aware of it.
    Dr. Dicks. I know where it is.
    Dr. Hammer. You know where it is.
    Mr. Dicks. Close to Chehalis.
    Dr. Hammer. Close to Chehalis. And you are aware of the 
flooding that occurred there last fall. Well, there are flood 
control measures within those two cities. I think that we know 
now from those floods that effectively if we are going to 
protect those cities from floods, the flood control measures 
need to be outside those cities, perhaps wetlands restoration 
miles away; and I think that is the same with the wildland 
urban interface, that when we are thinking about protecting the 
wildland urban interface or reducing fire hazard for those 
areas, it does not necessarily mean treatments within those 
areas. Now, here----
    Mr. Dicks. It might mean treatment somewhere else.
    Dr. Hammer. It might mean treatment somewhere else, that is 
right. So gauging the protection of the wildland urban 
interface by the level of the treatments that occur in the 
wildland urban interface is not a proper metric. Let me go a 
little bit further if you will, then to your question, and I 
think that has been talked about already, and that is community 
partnerships, are a direction that the Federal Government 
should go in.
    I say this both based on what I presented to you today 
professionally, but also based on my own personal background. I 
am from rural Montana. And with respect to that, let me just 
discuss that. For much of the 20th century, we had local 
community organizations that were responsible for wildfire 
protection and suppression in their community. Those were 
called Forest Protective Associations. Those were largely a 
result of the 1910 wildfires and the wildfires in the teens, 
but we had local organizations that were responsible for hiring 
crews and addressing the wildfire issues in their communities.
    So the notion that developing partnerships with local 
communities is not new. It is something that we have been 
doing.
    Mr. Dicks. Did that deteriorate or fall apart?
    Dr. Hammer. Well, I should let Mr. Rowdabaugh address that, 
but I think yes, in the 1960s, most of those were eliminated. 
The ones in Western Montana certainly were.
    Mr. Dicks. Why does that happen?
    Dr. Hammer. Oh, now I have got myself in trouble here.
    Mr. Dicks. We will get him back up here. So what happened? 
What happened to these groups? What is it called, Wildland 
Preparedness Association?
    Mr. Rowdabaugh. They are called Forest Protective 
Associations, and some still exist. There are three I think in 
Oregon. Actually, this is the fire chief from Red Lodge, 
Montana. He just whispered the school solution in my ear which 
was how the State laws in Montana changed, and they were 
replaced by fire districts. But more perhaps to contemporary, 
many of these organizations have been recreated in the context 
of community-based organizations that have taken responsibility 
for community protection and development into the community 
wildfire protection plans. Our first in Arizona was PAWUIC 
which is Prescott Area Wildland Urban Interface Commission. It 
was started by the local community in association with BLM and 
the Forest Service in the State Forester's office in I believe 
1985, well before the current onflux of the prior problems we 
had. It was appreciated. And we have tremendous examples from 
the State of Arizona, the Greater Flagstaff Forest Partnership, 
and a number of community-based organizations that have formed 
around this idea of community involvement, community initiative 
in protecting themselves from wildland fire.
    Mr. Dicks. Do you want to add anything to that? You can sit 
right up here. Tell the reporter your name.
    Mr. Kuntz. My name is Tom Kuntz, and I am the Fire Chief in 
Red Lodge, Montana, representing the International Association 
of Fire Chiefs. I chair their Wildland Fire Policy Committee. I 
am in a dangerous spot because I could probably talk for an 
hour on the subject on the questions that you asked, but I will 
try to answer the question in a couple of seconds. The reality 
is that we have a little bit about what the gentleman talked 
about in terms of local-based fire protection in local 
organizations, local fire districts, local fire departments 
that do dispersed, broad-based protection for wildland fires. 
Just in terms of some of the comments of OIG, we, just in our 
area in two counties, we have about 100 pieces of equipment of 
wildland fire resources that we respond to or utilize for 
fires, both on Forest Service and BLM lands compared to three 
engines that the Forest Service staffs. So there are a huge 
quantity of local and state resources that provide the 
protection as Mr. Rowdabaugh indicated for Federal Wildland 
Fire Protection.
    Mr. Dicks. Are you concerned about these cutbacks in 
Federal and State assistance?
    Mr. Kuntz. I think those cutbacks could be very, very 
detrimental, especially in terms of State fire assistance, the 
rural fire assistance Programs and the volunteer fire 
assistance programs.
    Mr. Dicks. We should be enhancing that rather than cutting 
them back?
    Mr. Kuntz. You know, absolutely. There was a cost 
containment report that several of the members that are here 
today participated on it a few years ago, and one of the things 
that is true of almost all fires is that small fires are cheap, 
big fires are expensive. You keep fires small by putting them 
out quickly in areas that have been treated well. The quicker 
you can put them out, the less expensive they are going to be. 
So in order to put them out quickly, you need to put resources 
where the fires are. That means disperse broad-based fire-
fighting resources. By supporting local organizations, you are 
able to benefit the resources that already exist there and you 
have very low incremental costs in terms of keeping my fire 
small. By trying to build the preparedness system apart from 
that, it can be very expensive. So the more that we can keep 
those resources disbursed, the less expensive the preparedness 
end of fires is, the more we can keep fires small with low cost 
resources, the less our large suppression fires are going to 
be.
    Mr. Dicks. Thank you. That was very useful. Any others? Mr. 
Tiahrt?
    Mr. Tiahrt. No, I appreciate it.
    Mr. Dicks. Ken.
    Mr. Calvert. Dr. Westerling, I do not know if in your 
statistical hunt for details, you looked at increasing fuel 
loads over the years because of potentially lack of management 
with some of these areas which obviously increased the 
probability of a major fire. Is that part of the information 
that you gathered?
    Dr. Westerling. I am glad you asked the question because I 
have been a little concerned that perhaps there would be too 
much focus on just a blanket policy of thinning. It is really 
going to vary from one ecosystem to the next how effective that 
is going to be. You are going to actually increase fire risk if 
you start taking trees out of some places. So what we have was 
a nice, natural experiment in a study I did where the area that 
we saw that had the biggest response to climate and the biggest 
contribution to the increase in fire in the western United 
States contained forests that were least effective over the 
long term by the suppression activity and land use activity, 
and that is because the fire return intervals were so long. So 
if you have a place where it does not burn every once in a 
hundred years or so, suppressing fires for 50 years does not 
have an impact on the fuels because it is a dense forest 
already. The places where we have had the most impact on the 
fuels with suppression are actually a minority of the forest 
area on the Western United States. And it tends to be a lower 
elevation and lower latitudes. But that is a real growth 
simplification.
    Mr. Dicks. Where that has worked?
    Dr. Westerling. Yes.
    Mr. Dicks. But that is where it has worked, clearing out 
the understory?
    Dr. Westerling. Well, that is where it needs to be done the 
most.
    Mr. Dicks. Okay. Anything else? Well, thank you very much, 
and we appreciate all of you being here and this was obviously 
an ongoing issue but we appreciate your good testimony and 
being here. Thank you. 

[GRAPHIC] [TIFF OMITTED] T2183B.098

[GRAPHIC] [TIFF OMITTED] T2183B.099

[GRAPHIC] [TIFF OMITTED] T2183B.100

[GRAPHIC] [TIFF OMITTED] T2183B.101

[GRAPHIC] [TIFF OMITTED] T2183B.102

[GRAPHIC] [TIFF OMITTED] T2183B.103

[GRAPHIC] [TIFF OMITTED] T2183B.104

[GRAPHIC] [TIFF OMITTED] T2183B.105

[GRAPHIC] [TIFF OMITTED] T2183B.106

[GRAPHIC] [TIFF OMITTED] T2183B.107

[GRAPHIC] [TIFF OMITTED] T2183B.108

[GRAPHIC] [TIFF OMITTED] T2183B.109

[GRAPHIC] [TIFF OMITTED] T2183B.110

[GRAPHIC] [TIFF OMITTED] T2183B.111

[GRAPHIC] [TIFF OMITTED] T2183B.112

[GRAPHIC] [TIFF OMITTED] T2183B.113

[GRAPHIC] [TIFF OMITTED] T2183B.114

[GRAPHIC] [TIFF OMITTED] T2183B.115

[GRAPHIC] [TIFF OMITTED] T2183B.116

[GRAPHIC] [TIFF OMITTED] T2183B.117

[GRAPHIC] [TIFF OMITTED] T2183B.118

[GRAPHIC] [TIFF OMITTED] T2183B.119

[GRAPHIC] [TIFF OMITTED] T2183B.120

[GRAPHIC] [TIFF OMITTED] T2183B.121

[GRAPHIC] [TIFF OMITTED] T2183B.122

[GRAPHIC] [TIFF OMITTED] T2183B.123

[GRAPHIC] [TIFF OMITTED] T2183B.124

[GRAPHIC] [TIFF OMITTED] T2183B.125

[GRAPHIC] [TIFF OMITTED] T2183B.126

[GRAPHIC] [TIFF OMITTED] T2183B.127

[GRAPHIC] [TIFF OMITTED] T2183B.128

[GRAPHIC] [TIFF OMITTED] T2183B.129

[GRAPHIC] [TIFF OMITTED] T2183B.130

[GRAPHIC] [TIFF OMITTED] T2183B.131

[GRAPHIC] [TIFF OMITTED] T2183B.132

[GRAPHIC] [TIFF OMITTED] T2183B.133

[GRAPHIC] [TIFF OMITTED] T2183B.134

[GRAPHIC] [TIFF OMITTED] T2183B.135

[GRAPHIC] [TIFF OMITTED] T2183B.136

[GRAPHIC] [TIFF OMITTED] T2183B.137

[GRAPHIC] [TIFF OMITTED] T2183B.138

[GRAPHIC] [TIFF OMITTED] T2183B.139

[GRAPHIC] [TIFF OMITTED] T2183B.140

[GRAPHIC] [TIFF OMITTED] T2183B.141

[GRAPHIC] [TIFF OMITTED] T2183B.142

[GRAPHIC] [TIFF OMITTED] T2183B.143

[GRAPHIC] [TIFF OMITTED] T2183B.144

[GRAPHIC] [TIFF OMITTED] T2183B.145

[GRAPHIC] [TIFF OMITTED] T2183B.146

[GRAPHIC] [TIFF OMITTED] T2183B.147

[GRAPHIC] [TIFF OMITTED] T2183B.148

[GRAPHIC] [TIFF OMITTED] T2183B.149

[GRAPHIC] [TIFF OMITTED] T2183B.150

[GRAPHIC] [TIFF OMITTED] T2183B.151

[GRAPHIC] [TIFF OMITTED] T2183B.152

[GRAPHIC] [TIFF OMITTED] T2183B.153

[GRAPHIC] [TIFF OMITTED] T2183B.154

[GRAPHIC] [TIFF OMITTED] T2183B.155

[GRAPHIC] [TIFF OMITTED] T2183B.156

[GRAPHIC] [TIFF OMITTED] T2183B.157

[GRAPHIC] [TIFF OMITTED] T2183B.158

[GRAPHIC] [TIFF OMITTED] T2183B.159

[GRAPHIC] [TIFF OMITTED] T2183B.160

[GRAPHIC] [TIFF OMITTED] T2183B.161

[GRAPHIC] [TIFF OMITTED] T2183B.162

[GRAPHIC] [TIFF OMITTED] T2183B.163

[GRAPHIC] [TIFF OMITTED] T2183B.164

[GRAPHIC] [TIFF OMITTED] T2183B.165

[GRAPHIC] [TIFF OMITTED] T2183B.166

[GRAPHIC] [TIFF OMITTED] T2183B.167

[GRAPHIC] [TIFF OMITTED] T2183B.168

[GRAPHIC] [TIFF OMITTED] T2183B.169

[GRAPHIC] [TIFF OMITTED] T2183B.170

[GRAPHIC] [TIFF OMITTED] T2183B.171

[GRAPHIC] [TIFF OMITTED] T2183B.172

[GRAPHIC] [TIFF OMITTED] T2183B.173

[GRAPHIC] [TIFF OMITTED] T2183B.174

[GRAPHIC] [TIFF OMITTED] T2183B.175

[GRAPHIC] [TIFF OMITTED] T2183B.176

[GRAPHIC] [TIFF OMITTED] T2183B.177

[GRAPHIC] [TIFF OMITTED] T2183B.178

[GRAPHIC] [TIFF OMITTED] T2183B.179

[GRAPHIC] [TIFF OMITTED] T2183B.180

[GRAPHIC] [TIFF OMITTED] T2183B.181

[GRAPHIC] [TIFF OMITTED] T2183B.182

[GRAPHIC] [TIFF OMITTED] T2183B.183

[GRAPHIC] [TIFF OMITTED] T2183B.184

[GRAPHIC] [TIFF OMITTED] T2183B.185

[GRAPHIC] [TIFF OMITTED] T2183B.186

[GRAPHIC] [TIFF OMITTED] T2183B.187

[GRAPHIC] [TIFF OMITTED] T2183B.188

[GRAPHIC] [TIFF OMITTED] T2183B.189

[GRAPHIC] [TIFF OMITTED] T2183B.190

[GRAPHIC] [TIFF OMITTED] T2183B.191

[GRAPHIC] [TIFF OMITTED] T2183B.192

[GRAPHIC] [TIFF OMITTED] T2183B.193

[GRAPHIC] [TIFF OMITTED] T2183B.194

[GRAPHIC] [TIFF OMITTED] T2183B.195

[GRAPHIC] [TIFF OMITTED] T2183B.196

[GRAPHIC] [TIFF OMITTED] T2183B.197

[GRAPHIC] [TIFF OMITTED] T2183B.198

[GRAPHIC] [TIFF OMITTED] T2183B.199

[GRAPHIC] [TIFF OMITTED] T2183B.200

[GRAPHIC] [TIFF OMITTED] T2183B.201

[GRAPHIC] [TIFF OMITTED] T2183B.202

[GRAPHIC] [TIFF OMITTED] T2183B.203

[GRAPHIC] [TIFF OMITTED] T2183B.204

[GRAPHIC] [TIFF OMITTED] T2183B.205

[GRAPHIC] [TIFF OMITTED] T2183B.206

[GRAPHIC] [TIFF OMITTED] T2183B.207

[GRAPHIC] [TIFF OMITTED] T2183B.208

[GRAPHIC] [TIFF OMITTED] T2183B.209

[GRAPHIC] [TIFF OMITTED] T2183B.210

[GRAPHIC] [TIFF OMITTED] T2183B.211

[GRAPHIC] [TIFF OMITTED] T2183B.212

[GRAPHIC] [TIFF OMITTED] T2183B.213

                                          Wednesday, April 2, 2008.

                         INDIAN HEALTH SERVICE

                               WITNESSES

ROBERT G. McSWAIN, M.P.A., ACTING DIRECTOR
RICHARD D. OLSON, M.D., ACTING DIRECTOR, OFFICE OF CLINICAL AND 
    PREVENTIVE SERVICES
GARY J. HARTZ, P.E., DIRECTOR, OFFICE OF ENVIRONMENTAL HEALTH AND 
    ENGINEERING
RICHARD J. TURMAN, DEPUTY ASSISTANT SECRETARY FOR BUDGET, DEPARTMENT OF 
    HEALTH AND HUMAN SERVICES
RICHARD CHURCH, DIRECTOR, OFFICE OF PUBLIC HEALTH SUPPORT

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. This morning we have Bob McSwain, Director of 
the Indian Health Service, testifying before us. With him are 
Gary Hartz and Richard Olson of the Indian Health Service as 
well as Richard Turman from the Department of Health and Human 
Services.
    Today we are addressing the wholly inadequate fiscal year 
2009 budget request for the Indian Health Service, which 
provides critically important care to Native Americans, one of 
our country's most underserved populations. Last year when Dr. 
Grim, the previous director, testified, the Indian Health 
Service had increases in the budget that were quite 
encouraging, but this year the budget request is more than 
disappointing. The budget request for fiscal year 2008 proposed 
a $91 million increase that covered programs as well as 
inflation and population growth. This year, your budget request 
is $21 million below the amount enacted for fiscal year 2008. 
Not only are you requesting a decrease, you are proposing to 
absorb upwards of $144 million in fixed costs. This means the 
President's request is at least $165 million below the level to 
maintain services you currently provide. This is simply 
unacceptable.
    I am especially disappointed to see the request to 
terminate the Urban Indian Health program, which was rejected 
by this committee last year and every year that I have been 
around here. These 34 clinics provide medical care available to 
more than 600,000 Native Americans living in urban areas. I 
know how critical these clinics are because we have one located 
in my area of the country out in Seattle.
    You also appear to have deliberately cut every single one 
of the initiatives this committee provided in the last fiscal 
year. Does this mean that you believe meth abuse is under 
control? Have you solved the shortage of health professionals 
in Indian Country? Are all tribes receiving at least 40 percent 
of the funding they need to operate the programs?
    Mr. McSwain, what I see in this budget is a systematic 
weakening of your agency by an administration that does not 
seem to regard Native American health as a priority. Mr. Tiahrt 
and I heard from 30 Native American groups during our public 
witness hearings and nearly every one of them expressed their 
anguish over this budget. One in particular, Chandler Sanchez, 
the governor of the Pueblo Acoma, put it quite eloquently when 
he said the Indian Health Service is dying a slow death of a 
thousand budget cuts. I do not see how we can possibly take 
care of the health needs of Indian Country with this 
unacceptable budget.
    Mr. Dicks. Mr. Tiahrt, would you like to make a statement?

               Opening Remarks of Congressman Todd Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman.
    I want to join the Chairman in welcoming each of you to the 
hearing today. I am grateful for your commitment to the 
critically important work you do.
    Of all the challenges this subcommittee faces, addressing 
the health and the well-being of the Native American brothers 
and sisters is among the most important to me personally. I 
have a personal connection with Indian Country that goes back 
to my youth. As a child I played and worked alongside my Native 
American friends while growing up on our family farm near the 
Yankton Sioux Indian reservation in South Dakota. Later as a 
college student, four of my fraternity brothers were Native 
American. I take seriously Congress's responsibility to meet 
the many diverse health-related needs in Indian Country.
    Congress has an obligation to address the great disparities 
that exist between the American Indian and Alaskan Native 
populations and other populations in the United States. 
Mortality rates for alcoholism, diabetes and homicide are 
substantially higher than the mortality rates of other 
Americans. There is some hope out there. I came across a group 
called Unity Incorporated that has been working with over 200 
different youth groups in 34 States on tribal grounds and they 
have had some degree of success. Former Member Glen English's 
wife, Jan English, is on the board of directors and she has 
given us information about Unity and hopefully the Chairman and 
I will be able to meet with her shortly to find out other ways 
that we can help young Native Americans achieve hope.
    As your written testimony suggests, many of the health 
problems contributing to these higher mortality rates are 
behavioral in nature, and I am hopeful that you will address 
today specific steps that the Indian Health Service is taking 
to address these issues.
    Mr. Chairman, there are meaningful words from the Lakota 
Sioux Tribe in North and South Dakota that I hope can guide us 
as we address these issues. The following is entitled ``Lakota 
Instructions for Living.'' ``Friend, do it this way, that is, 
whatever you do in life, do it the very best you can with both 
your heart and mind, and if you do it that way, the power of 
the universe will come to your assistance if your heart and 
mind are in unity. When one sits in the hoop of the people, one 
must be responsible because all of creation is related and the 
hurt of one is the hurt of all and the honor of one is the 
honor of all, and whatever we do affects everything in the 
universe.''
    Thank you, gentlemen, for being here today and I look 
forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Dicks. We will put your entire statement in the record 
and you may proceed as you wish.
    Mr. McSwain. Thank you, Mr. Chairman and Mr. Tiahrt. I will 
just summarize a few points that I want to make about the 
statement.

                  Opening Statement of Robert McSwain

    Good morning. I am Robert McSwain, the acting director of 
the Indian Health Service, and today I am accompanied by Dr. 
Richard Olson, acting director of the Office of Clinical and 
Preventive Services, Mr. Gary Hartz, director, Office of 
Environmental Health and Engineering, and Mr. Richard Turman, 
deputy assistant secretary for budget, Department of Health and 
Human Services. We are pleased to have this opportunity to 
testify on the President's budget for the Indian Health Service 
for fiscal year 2009.
    Permit me to provide just a quick context in which this 
budget is presented to you. First of all, this is part of the 
President's overall budget policy for fiscal year 2009, which 
is to reduce the budget deficit, and bear in mind that the 
Indian Health Service budget is on the discretionary side. The 
Department of Health and Human Services' discretionary budget 
was reduced by 3 percent, or $2.2 billion, for fiscal year 
2009, and the IHS budget request represents our share of that 
reduction of 0.6 percent, or $21 million.
    The focus of the President's budget request for the IHS is 
on the provision of healthcare services and assuring that basic 
needs of all IHS and tribal health programs are met. Therefore, 
the budget request targets additional funding for the provision 
of healthcare on or near reservations in order to serve a 
population who cannot readily access healthcare from outside 
the IHS or tribal system. Within this context, the IHS budget 
includes increases representing the priority of our core 
mission, our core clinical mission, which is the provision of 
clinical and preventive care including primary care services, 
mental health, dental care, public health nursing and 
education, and staffing of facilities. To make these increases 
possible, you will see decreases in non-clinical functions such 
as alcohol and substance abuse, Indian health professions, 
healthcare facilities construction and the Urban Health 
program.
    I thank you for this opportunity to present the President's 
budget request for the IHS, and we are pleased to answer any 
questions that you may have.
    [Statement of Robert McSwain follows:]

    [GRAPHIC] [TIFF OMITTED] T2183B.214
    
    [GRAPHIC] [TIFF OMITTED] T2183B.215
    
    [GRAPHIC] [TIFF OMITTED] T2183B.216
    
    [GRAPHIC] [TIFF OMITTED] T2183B.217
    
                         IMPACT ON PATIENT CARE

    Mr. Dicks. Mr. McSwain, your agency has provided estimates 
to our subcommittee on the impact of the 2009 budget on 
patients under Indian Health Service care, and the numbers are 
very discouraging. These numbers make clear that this budget 
will have very significant negative effects on Native Americans 
who rely on the Indian Health Service for healthcare. Mr. 
McSwain, is it true that the President's budget for 2009 would 
result in 218,000 fewer outpatient visits at Indian Health 
Service and tribally operated facilities?
    Mr. McSwain. That is correct.
    Mr. Dicks. Is it true that this budget would adversely 
affect as many as 9,000 patients with diabetes who will be 
unable to access critical diabetes screening and exams?
    Mr. McSwain. That is correct.
    Mr. Dicks. Is it accurate that 12,465 patients would be 
unable to access dental service under this budget?
    Mr. McSwain. That is correct, sir.
    Mr. Dicks. Is it true that the budget would provide for 
almost 1,500 fewer mammography screenings for Native American 
women than provided in 2008?
    Mr. McSwain. That is a projection.
    Mr. Dicks. Is it true that the budget would prevent nearly 
3,000 eligible patients from receiving colorectal cancer 
screenings?
    Mr. McSwain. That is projected, sir, yes.
    Mr. Dicks. I mean, if you look at this, people could lose 
their lives over this. Not getting the mammographies or the 
colorectal screenings means that people could die of cancer. Is 
that not true?
    Mr. McSwain. That is very true.
    Mr. Dicks. Why is the Administration requesting a budget 
that will have these negative impacts on the health of the 
Native American people? Why are they doing it?
    Mr. McSwain. As I mentioned at the outset, Mr. Chairman, 
this is a deficit reduction budget, and in doing so, our 
portion of this budget reduction agenda is to----
    Mr. Dicks. You know, we have a responsibility. We have 
never met this responsibility. You and I both know that the 
funding for the Indian Health Service has never been fully 
adequate, but after coming in last year with a good budget and 
seeking some increases, then to turn around this year, and I do 
not know if it is the new director of OMB or who it is that is 
requiring that this be done but this is a very negative budget. 
It is a very disappointing budget, and as far as I am 
concerned, I do not know how we can fix this because the 
President has cut our budget by $1 billion from last year's 
level. We are down $1 billion from last year. We should have 
been up $600 million to cover current services, just like your 
budget. You are down $165 million. And so there is not any 
money sitting there for us to be able to fix these problems 
because we have already been cut $1 billion. So I am very 
distressed by this. And as I said in my opening statement, we 
had some initiatives, Mr. Tiahrt and I, on meth and health 
professionals and restoring the urban healthcare clinics for 
the tribes, and all of that is out of the budget. And I 
understand that the Secretary did his best to try to get this 
reversed but the bottom line is, when the President signs his 
name to this thing, he is the one that has to be responsible 
and his Administration's officials have to be responsible for 
what he is doing, and this is just unacceptable.
    Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    You are all good people who have good goals and I know you 
want to do the right thing for the country and for Native 
Americans but this really puts us in a difficult position to 
try to overcome these financial barriers, and I guess I just do 
not like the way the system works. I do not like the way OMB 
operates. I am very frustrated by this because there are times 
when how much we build on highways, it does not seem to be as 
important to people's lives as these items that we are dealing 
with today. The Indian Health Service has protected people from 
shorter lives. They have given them more hope and they have 
given them enriched lives. But I see things like the Hunter 
Health Clinic in Wichita. They not only serve Native Americans 
but they reach people who are medically--I mean, they turn 
nobody back. The homeless people come there, they do not turn 
them away, and they get by with donations and the little bit of 
money that we get from the Federal government, and we have 
helped them with their facilities and they have done marvelous 
things. Methamphetamine is such a destructive drug. Groups like 
Unity Incorporated have helped kids avoid methamphetamine but 
they do not have the infrastructure to expand if we do not have 
the right kind of clinical support for them.
    It becomes personal to me because of my four fraternity 
brothers, only one of them is alive today, and Bruce Badmox 
lives in Denver, Colorado. He is recovering from a stroke. He 
has battled with alcoholism. He has been through rehab about 
three times. I e-mail him quite often. He has a wife and three 
beautiful kids, and he is on the road back to recovery now and 
he is going to go back to work but he is one of the fortunate 
ones. He was able to get a civil engineering degree and go on 
and work in a large metropolitan area and he had access to 
healthcare. Many of his relatives are stuck on reservations in 
South Dakota and they do not have access to good healthcare, 
and he tells me about the plight of his aunts and his uncles 
and his cousins, and it breaks my heart, and when we have a 
system that is so impersonal as OMB makes it, it passes the 
burden down to this committee and to you and us, and we have a 
hard time overcoming these financial barriers that are in the 
budget.

                      METHAMPHETAMINE AND SUICIDES

    So we are going to try to do our best again. When we sort 
of stick our neck out amongst our friends here in Congress, our 
peers, and we do things like we did in the meth area, I would 
like you to tell me at least what we have done with the money 
we put in to fight meth. Can you give me some idea as to how 
you applied that extra funding? I think it was $14 million. It 
was not a whole lot but it was a good step in the right 
direction.
    Mr. McSwain. And thank you, and I thank the Committee for 
that $14 million. What we are doing right now is we have three 
initiatives, the Director's initiatives, health promotion and 
prevention, that Dr. Grim actually started in 2006. The second 
one is chronic care, which is essentially our diabetes program 
and other chronic diseases, and a third leg of the stool is 
behavioral health. The behavioral health initiative does not 
have a tribal group, a tribal advisor group, and we are 
establishing a tribal advisory group. I will be asking tribal 
leaders to in fact give us recommendations on how to best use 
the $14 million. It is not a lot because the needs are so great 
in meth and suicides. Bear in mind that alcohol still is the 
major behavioral health issue we have to deal with in Indian 
Country but our intentions are to target that money to areas of 
the country that could best use it and we can evaluate its 
outcomes. That is our goal at the present time and we will do 
that this year.
    Mr. Tiahrt. I think that there is reason to believe there 
is hope out there and I think programs like this, once you get 
the tribes involved and they can implement this effectively, I 
think that there is hope. You talk about alcohol being the 
greatest, and we know substance abuse is also out there. We 
heard from public witnesses this year that the tribal youth 
account for more than 40 percent of the drug- and alcohol-
related arrests, that 80 percent of the students miss school 
because of alcohol and drug abuse, that two out of every kids 
experiment with drugs or alcohol by age 10. These are great 
needs and we have to have the infrastructure to help solve 
these difficult cultural problems, and I am afraid that it is 
wholly inadequate in this budget for us to have the tools we 
need to meet them.
    So with the Chairman and his great desire to help Native 
Americans, we will work together and try to overcome this but 
please help us help you fight the battle so that we do not have 
to face this again next year.
    Mr. McSwain. Thank you, Mr. Tiahrt. I too share your 
concerns and it is our firm belief over the years that the 
alcohol program, for example, is all community-based. Eighty-
five percent of the program is in communities, and much of this 
new effort for the $14 million will be at the community level 
and addressing their recommendations on how we can best use the 
dollars. We are a community-based program and therefore this 
will be the same.
    Mr. Dicks. Excuse me. Is it not going to be hard to sustain 
a program if there is no money for it in 2009? I mean, if we 
had one year of funding, it would have to end again at the end 
of the fiscal year, right, or whenever the money from 2008 is 
utilized?
    Mr. McSwain. If the understanding is that the $14 million 
that the Committee provided in 2008 with the $11 million 
decrease in the 2009 President's Budget, it is not necessarily 
the same money in my view.
    Mr. Dicks. We would not have the same----
    Mr. McSwain. We will continue the $14 million for meth and 
suicide because those are issues we need to address.
    Mr. Dicks. Do you have anything further?
    Mr. Tiahrt. No. When you are done, I----
    Mr. Dicks. We will just go back and forth.
    Mr. Tiahrt. Go ahead.

                   INDIAN HEALTH PROFESSIONS SHORTAGE

    Mr. Dicks. There are severe staffing shortages of health 
professionals throughout Indian Country. Your staff tells me 
that you anticipate the need to fill 1,500 healthcare 
professional vacancies in fiscal year 2008. As of January 2008, 
31 percent of your current dentist positions are vacant, 18 
percent of the nursing positions were unfilled and 17 percent 
of the physician staff was also unfilled. According to your 
statement, programs that fund primarily non-clinical functions 
such as the Indian Health Professionals program have been 
decreased. However, if you do not have the funds to recruit and 
retain healthcare professionals, how can you maintain clinical 
services?
    Mr. McSwain. Well, certainly it is going to be a challenge 
for us. There is no question about that. The fact is, we still 
have the continuation of our current loan repayment contracts, 
which has been our biggest ability to replace positions and to 
actually recruit positions to our health professions. We will 
continue to work on this and use the supplemental budget 
authority that you have given us. We have not even maximized 
that authority and we will continue to work on that as well.
    Mr. Dicks. What are you doing to fill these vacancies? How 
are you doing on that?
    Mr. McSwain. Well, actually we have recruiters in the field 
and basically the recruiters are at the clinical level. Dr. 
Olson, did you want to respond to how we are actually doing it 
at the local level?
    Dr. Olson. We obviously have central functions as well as 
Area based functions and service unit functions, but 
recruitment and retention is a difficult item for us and will 
continue to be.
    Mr. Dicks. Explain that. Why is it difficult?
    Dr. Olson. Well, partially because of locations, partially 
because of age of facilities, partially because of support 
systems. I have been in the Indian Health Service for 33 years 
and it has been a difficult struggle the whole time that I have 
been in the agency.
    Mr. Dicks. So let's go through these. Thirty-one percent of 
your current dentist positions are vacant. Is there an effort 
to hire dentists?
    Dr. Olson. Absolutely. We visit essentially all dental 
schools in the United States every year to recruit. We go to 
the dental, the medical, the nursing national conferences to 
recruit. One of the particular difficulties in dental is that 
there are more dentists in the United States retiring than 
there are coming out of dental school and so there is a huge 
supply issue in the United States and so we have to compete 
with the private sector in order to get dentists and it is a 
difficult challenge for us to find dentists and to keep 
dentists.
    Mr. McSwain. To further supplement Dr. Olson's response, 
Mr. Chairman, we continually use all the tools that are 
available to us whether it is Title 5, special rates, whether 
it is the Commissioned Corps, and the Commissioned Corps has a 
$70,000 accession bonus now for dentists. The Title 38 
authority that we actually use that has been given to us by OPM 
from VA enables us to be more competitive; a little simpler 
process of offering a pay package. What we have been doing in 
the past is putting together a little bit of bonuses or a 
little bit of the Federal Employees' Comparability Act, three 
R's, which is recruitment, retention and relocation allowances. 
We are using every possible means to have our positions 
competitive.

                             LOAN REPAYMENT

    Mr. Dicks. As I remember, on the National Health Service 
Corps, for example, you could pay student loans with service. 
Do we have that ability to help with student loans?
    Mr. McSwain. Yes. The National Health Service Corps is 
actually operated by a sister agency, the Health Resource and 
Service Administration.
    Mr. Dicks. But do you get any people from that?
    Mr. McSwain. Their pipeline went down in the mid-1980s. 
They have not really ramped it up to a level that it is really 
helping us. In fact, we used to get a fair amount of physicians 
and nurses and other professionals from the National Health 
Service Corps, but when their system went down and they started 
to ramp it back up, we get very, very few folks that wind up in 
our areas.
    Mr. Dicks. Maybe I just did not hear, but did you say, can 
you pay back student loans or not?
    Mr. McSwain. Through our loan repayment program, yes, and 
through our scholarship program. The ones that are obligated, 
they do service payback, yes.
    Mr. Dicks. That 31 percent, for how long has that been the 
number on dentists?
    Mr. McSwain. It has been climbing over the last few years 
because the competition actually with the private sector with 
our pay system----
    Mr. Dicks. What about nurses? You have 18 percent of the 
nursing positions unfilled. Has that been climbing too?
    Mr. McSwain. That has been growing but at a much slower 
rate.
    Mr. Dicks. And 17 percent of the physician staff was also 
unfilled. Is that growing or which direction is that going?
    Mr. McSwain. That has gone up for the last----
    Dr. Church. It has been a steady increase over the last few 
years. It has not been a precipitous rise but a gradual 
increase.
    Mr. McSwain. That is Dr. Richard Church. He is the head of 
our Public Health Support.
    Mr. Dicks. Let me make sure I got this right. Do you have 
funds to recruit and retain health professionals?
    Mr. McSwain. All those vacancy rates represent fundable 
vacancies, and in the absence of filling the positions, we are 
either buying them through locums, locum tenens, or we are 
contracting to have folks come in to fill those positions. But 
those are current, because I just recently asked that very 
question, are those, quote, fundable vacancies, not simply just 
vacancies that we would like to fill, but those are positions 
that we have dollars for, and in the absence of bodies on 
board, we are getting the services through either contracts or 
locums.
    Mr. Tiahrt. Mr. Chairman, to refresh our memories, we put 
$4 million in conference for the Indian Professional Health 
Account to try to boost some of these dollars, did that have 
any impact? We had hoped to increase it a little bit each year.
    Mr. McSwain. That was on the loan repayment, Mr. Tiahrt. We 
have been using that for that purpose, yes. We have actually 
added more loans available for all the professions that we 
currently support.
    Mr. Dicks. So are you saying that if you do not have the 
doctors, you can go out and contract for them?
    Mr. McSwain. Any of those professions----
    Mr. Dicks. Dentists, nurses?
    Mr. McSwain [continuing]. We will go out and contract.
    Mr. Dicks. You contract?
    Mr. McSwain. We contract for them. Our druthers obviously 
are to fill the position for a number of reasons, quality of 
care, continuity of care, but in the absence of having the 
person on board, we go out and get them, and unfortunately, as 
Dr. Olson mentioned, we are paying two and three times what the 
position would cost us to have them on board.
    Mr. Dicks. In terms of providing healthcare services, in 
what areas are staffing shortages more critical for patient 
care?
    Mr. McSwain. As Dr. Olson mentioned, it is in those hard-
to-fill locations in isolated areas, mostly on our 
reservations, and away from the urban areas. It becomes an 
issue of location. It becomes an issue of housing and certainly 
the kinds of people that want to go out and work in these 
isolated, remote locations, which is predominantly where Indian 
Health Service delivers care.
    Mr. Dicks. Mr. Moran.
    Mr. Moran. Well, thank you, Mr. Chairman.

            RAPE OF AMERICAN INDIAN AND ALASKA NATIVE WOMEN

    I am going to bring up an uncomfortable issue but I think 
it needs to be addressed, and it particularly needs to be 
addressed by you, Mr. McSwain, and that is the extraordinarily 
high rate of rapes of Native American and Alaskan Native women. 
There is a very large number of them that are being perpetrated 
by people outside the reservation, white guys coming in raping 
women, and there is a difficulty in prosecuting them, and they 
know that and that is why they do it. One in every three Native 
American women will be raped in her lifetime. That is just not 
an acceptable situation. We have got to address it, and one of 
the problems, as I say, is the lack of prosecution and the 
reason for the lack of prosecution oftentimes is because we do 
not do the forensic examinations to prove who it was. We do not 
get DNA, et cetera. And that is because we do not have our IHS 
facilities equipped to do so. Now, as you know, there is such a 
thing as a rape kit, they call it, and that collects the 
critically important forensic information necessary to 
prosecute a case. There was a study by Amnesty International I 
was asked to read and I did. You read it and weep. It is a 
horrible situation. I have not seen any information that would 
indicate that it is not absolutely accurate. It seems to me 
that we could at least have some kind of facility available, 
accessible with some protocol for addressing this. Now, I have 
given you a little time to think about this, and I would like 
to hear what your response is, see whether you share this 
concern and see what we might be able to do to prioritize it, 
Mr. McSwain.
    Mr. McSwain. Thank you, Mr. Vice Chairman. I am aware and I 
have read the same report by Amnesty International, and I know 
that there are certainly issues across Indian Country. Now, 
more specifically, we have had occasions to literally add the 
Sexual Assault Nurse Examiner, SANE, nurses to some of our 
facilities but we only have one site that up until recently, I 
believe, actually had SANE nurses and rape kits, and there are 
issues with that as well.
    Mr. Moran. Now, the issues, I suppose training is one of 
them. What are the issues?
    Mr. McSwain. The issues are training the necessary 
personnel, and secondly, getting the cooperation from the law 
enforcement folks and the whole matter of getting folks trained 
so that they can actually utilize the rape kits and be able to 
move the rape kits to the proper authorities. Let me just share 
an overview of where we are with that. I have asked staff to 
literally put in place a policy. We have not had a policy to 
address sexual assaults or domestic violence kinds of issues 
that you are referencing. We are going to move in that 
direction to have all our facilities equipped and available to 
the extent that we can, recognizing that we are a healthcare 
delivery organization and we will do our part. Having said 
that, let me just ask Dr. Olson, whose staff is in fact putting 
this together for the agency?
    Mr. Moran. I would really appreciate it. With your 
indulgence, Mr. Chairman, can we hear from Dr. Olson?
    Mr. Dicks. Yes, of course. I just want to make one 
statement just to kind of clarify this a bit. Our staff tells 
me that a lot of the victims know the people that commit these 
crimes in most cases. It is not, as you characterized it, 
people coming onto the reservation. These are people they know, 
which is even in some cases even more shocking, and also, the 
Indian Health Service has some responsibility here but a lot of 
the responsibility rests with the Bureau of Indian Affairs.
    Mr. Moran. Well, are you suggesting it is consensual or----
    Mr. Dicks. No, no, no, no. It is by people they know, not 
people coming from off of the reservation. I mean, the way you 
characterized it, I just want to----
    Mr. Moran. Well, the reports show that the majority of 
reported rapes are being committed by people who do not live on 
the reservation. One of the reasons for the difficulty in 
prosecution and holding them accountable is a difference in the 
legal system. Now, I do not have any kind of firsthand 
observation of this. I am just going with what I read.
    Mr. Dicks. I understand.
    Mr. Tiahrt. I think the point is well made though, that we 
need to have the tools necessary to bring these people to 
justice.
    Mr. Dicks. No matter who it is.
    Mr. McSwain. And I think the point is, we play a part. 
There are other parties that need to be at the table, certainly 
Justice, BIA, law enforcement, other folks who can pull us 
together. We do our part and obviously our part is the forensic 
piece when we actually see the patient.
    Mr. Moran. And that is why I emphasized that----
    Mr. Dicks. And that is that there is, as you are 
suggesting, a major deficiency there.
    Mr. McSwain. That is correct.
    Mr. Dicks. Dr. Olson.
    Dr. Olson. Maybe just to broaden the discussion a little 
bit and then bring it back is that sexual assault is an issue 
in the context of domestic violence, of alcohol and substance 
abuse, of other types of dysfunction, child sexual abuse, this 
sort of thing, so it is not an isolated issue obviously. It is 
a huge problem but part of a much greater issue of community or 
family dysfunction. And then as Mr. McSwain said, obviously 
there are pieces related to law enforcement but also housing, 
education, employment.
    Mr. Moran. All the socioeconomic factors.
    Dr. Olson. All the socioeconomic factors, and sexual 
assault is one outcome of a lot of the dysfunction but there 
are lots of other difficult outcomes as well. The other point 
is that in the Indian Health Service, there are about 700 
locations where we provide services. Forty-six of them are 24/7 
facilities. That means 650 of our locations are generally 40-
hour-a-week or less locations which are not locations where we 
would deal with sexual assault or trauma or heart attacks or 
all sorts of things.
    Mr. Moran. And if I could interrupt, even where the 
facility is accessible, it is less likely to be open at the 
time these rapes are more likely to occur.
    Dr. Olson. Right, and that is my point. Most of our 
locations would not provide the service so we have got 46 
inpatient facilities with 24-hour emergency rooms so that is 
really the universe that we are talking about. They tend to be 
the larger locations where we have more population for sure but 
we have hundreds and hundreds of locations where this would not 
be appropriate. The other is that all of these locations do 
have policies in place to deal with this. One of the concerns 
in the Amnesty International report, which mimics concerns from 
certain groups in the country that are concerned about this 
specifically, is that it may not be appropriate for us to be 
providing services much like we do not provide surgery in some 
locations. We need to refer women out rather than necessarily 
provide all services in one location because we do not have the 
expertise to do this on a regular basis. I mean----
    Mr. Moran. Dr. Olson, I do not want to be interrupting you 
too much here but a rape kit, it does not seem to me is the 
kind of thing you should be referring somebody out to some more 
distant location. That is not going to happen.
    Dr. Olson. And that happens in the private sector. It 
happens in our locations, and it is much like any other 
service. It is a very specialized service. If you do not do it 
right, then when you get to the criminal justice system, 
everything is thrown out because it is not done right.
    Mr. Moran. But pragmatically, you are not going to be able 
to move those trained nurses out to more distant locations. In 
effect, you are saying forget it.
    Dr. Olson. No, I am not. Where we have isolated locations 
and there is not a place where we refer, we for sure do have 
rape kits and deal with that. In some locations though, we do 
not and we do refer out. I mean, Phoenix Indian Medical 
Center----
    Mr. Dicks. Do you provide transportation for the people?
    Dr. Olson. Sure, and Phoenix Indian Medical Center, which 
is our second largest location, refers to Maricopa County 
Medical Center in Phoenix because that is the location where 
those exams are done in Maricopa County. In Anchorage, our 
largest location, they are not done at Anchorage Native Medical 
Center either. They are all referred to one location in the 
city of Anchorage where all----
    Mr. Dicks. Are you saying that all of these are referred?
    Dr. Olson. No, no, but I am saying that we do not 
necessarily provide this service in all of our locations, even 
if we have a 24/7 facility, because it is a very specialized 
service. It needs to be done right every time and----
    Mr. Dicks. Let me ask you this to try to clarify this.
    Mr. Moran. Please.
    Mr. Dicks. Give us some numbers. Can you tell us how many 
of these are referred and how many of them do get----
    Dr. Olson. I do not have the numbers. I would guess it may 
be a third are referred and two-thirds would be done at our 
locations.
    Mr. Dicks. I thought that you said that very little of this 
was done, that we did this at very few of our locations.
    Dr. Olson. No, the actual trained SANE nurses.
    Mr. Dicks. Oh, I see what you are saying.
    Dr. Olson. But I might just offer that with the questions 
Mr. Moran is asking, obviously where we are going is, we have 
facilities where we are isolated. We need to build in that 
capacity to do it locally. But where we have other places where 
it is available, why not get it done professionally when it is 
available. But where it is not available, and I think we will 
need to----
    Mr. Dicks. How time sensitive is this? I mean, how much 
time----
    Dr. Olson. It is moderately time sensitive, yes, it is.
    Mr. Moran. It is very time sensitive. You know, it is a 
difficult subject to talk about, but in order to get reliable 
DNA, you really need to do it pretty quickly because the 
integrity of the evidence degrades with time. You have to have 
people that are able to respond. If we talk about Maricopa 
County and you send them to the local public hospital, that is 
fine, or in Anchorage you send them to the main Anchorage 
hospital, that is fine, but if they are hundreds of miles away 
and you are going to send them for a trip that will take hours, 
then you might as well not send them, and the family is not 
even going to let the victim go. So that was my concern. I do 
not mean it is several blocks away. That is not an issue, I 
would think.
    Dr. Olson. The other issue that Mr. McSwain was talking 
about is SANE, that is sexual assault nurse examiner, which is 
the way the country is moving to have trained nurses do these 
examinations to get the women out of the emergency room 
setting, which is a horrible place to interview and a difficult 
examination, that sort of thing, and we are training nurses to 
do that. We have two trainings this year actually, one next 
month and the other later in the summer, but we do have 
difficulties keeping SANE trained nurses in our locations 
because this is an emotionally draining issue for them. They 
are on call at night and work during the day or evening shift 
or whatever, and they know the individuals. They may know the 
perpetrator.
    Mr. Moran. Because we are training Native American women 
every opportunity we can, I trust?
    Dr. Olson. Right, but even in those locations where we have 
had active SANE programs, it has been difficult for us to 
maintain those programs because we have got small staffs, we 
are isolated and that sort of thing. So it is not an easy thing 
for us to overcome.
    Mr. McSwain. Let me just offer, Mr. Chairman and Mr. Vice 
Chairman, that this is an area that we are committed to 
addressing, and I would recommend that we would submit to you 
our policies, our plans and the data.
    Mr. Dicks. Well, maybe we could have a briefing on this. I 
think it is a very important subject.
    Mr. McSwain. We can talk about this in more depth because 
we are just getting our hands into it as well and trying to 
respond.
    Mr. Moran. Good for you.
    Well, Mr. Chairman, my intent obviously was not to grill 
the witnesses, who are fine people. It was to raise the issue 
and to try to prioritize it.
    Mr. Dicks. You did that very well.
    Mr. Moran. Thank you.
    Mr. Dicks. Mr. Tiahrt.

                   HEALTHCARE FACILITIES CONSTRUCTION

    Mr. Tiahrt. There is one thing I would like to talk about 
before we break off today, and that is in the area of 
construction. We have some areas where we have started 
construction and now we are cutting back, and I think just as a 
practical matter, when you do pull back, we have seen this 
happen in the private sector and happen in the public sector as 
well, it ends up costing more money. If we look at the hospital 
in Barrow, Alaska, it seems like we have jiggled the budget 
back and forth, and I will just use that as an example, because 
by reducing the overall budget, we end up holding back some 
construction sites and then in the long run, the taxpayers get 
a worse deal. It costs more money to overcome some of these 
construction problems. When it slows down or it sits idle, you 
lose workers. Some of the infrastructure that you need or the 
support tools you need decay and have to be replaced. So in 
this planning construction of other healthcare facilities, how 
do you think we should address the cost in the future? Are we 
committed to them or are we going to start and stop like we 
have in the past?
    Mr. McSwain. Well, Mr. Tiahrt, we are very committed to 
moving ahead, as I am sure you have seen our five-year plan 
where we have identified about 22 projects, amounting to $2.6 
billion of projects currently on the list. We phased the 
construction over time and there are some challenges when the 
appropriations are at a level where we are not moving ahead 
with all the projects that we have. I might just ask Mr. Hartz 
here, who tracks this in depth and lives with this every day, 
if he could respond to the question about what some of the 
costs are with delays.
    Mr. Hartz. You have hit the nail on the head, sir, about 
the fact that if there is not a steady stream, that if you have 
to interrupt construction that was planned for, then we have 
some difficult issues to deal with. What we have done, because 
of the phased approach that has been adopted by the 
Administration and the Congressional perspective, is that when 
we identify, as Mr. McSwain commented on the five-year plan, 
that ``could use'' amounts, we actually look at stopping points 
in construction that would reduce the potential increasing 
costs associated with the items that you mentioned. So as an 
example, when we identify a phase to do earthwork and 
foundations, if there was not a continued stream of funds, that 
is a stop point, but still recognizing for mobilization there 
would be charges associated but it is a critical stop point 
where you would not further compromise the completed 
construction. You mentioned Barrow, another stop point we are 
looking at because of logistics of getting steel into Barrow. 
We are looking at what amount of money is required to move the 
steel in and get the steel put in place, to what level can we 
go to get a shell in place to protect it. Those are the 
mechanisms we now have adopted for a number of years to deal 
with phased funding because, as we all well know, the 
construction costs are high to start with and when we are 
constructing in isolated, remote locations, there are not a lot 
of ways to reduce those costs.
    Mr. Tiahrt. Once you start a structure, you want it 
enclosed.
    Mr. Hartz. We would very much like to do that. As an 
example, right now in Barrow, after the Congressional 
appropriations, we purchased a site. Then the gravel had to 
come off the beach, the gravel had to, maybe poor choice of 
terms, sort of weather to get the gravel in a condition such 
that you could place it on the site. The gravel is being put on 
the pad right now in Barrow so we can be ready to go with the 
steel.
    Mr. Tiahrt. Well, these hospitals are getting up in years. 
Some are facilities that I do not think we would want our own 
families to be in, and we are in critical need in some of these 
places. So when we start and stop, I am glad you are using a 
smart approach to it but I would like us to have the ability to 
complete these projects and get them on line.
    Mr. Hartz. We would like the same.

                  UNITED NATIONAL INDIAN TRIBAL YOUTH

    Mr. Tiahrt. One last thing I want to bring up, Mr. 
Chairman. I have talked several times about UNITY, and I hope 
we get a chance to talk to them soon, but there is so little 
good news coming out of our Native American areas sometimes 
that this is something that I see as good news. UNITY has 
worked with the Bureau of Indian Affairs and Office of Juvenile 
Justice and Delinquency program within the Department of 
Justice and I know that they need access to other facilities to 
help bring these kids into seminars and they teach them 
lifestyles and they teach them a lot of good things, and I just 
want to make you aware of them. You may already know about 
UNITY, you may know of their success, but please be open to 
them if they knock on the door because I think it is a vehicle 
to bring hope to the tribes and to the kids that are living in 
difficult circumstances, and so I want to expand their 
opportunities because I think it has good results.
    Thank you, Mr. Chairman.
    Mr. McSwain. Thank you, Mr. Tiahrt. The UNITY program is 
well known to us. In fact, there is one operating in the 
Nashville area and is doing some great work there and we are 
pleased with what they are doing as well.

                   HEALTHCARE FACILITIES CONSTRUCTION

    Mr. Dicks. Explain to me, we have this chart. I think you 
provided it to us. It says Barrow at 138, Nome at 171. So that 
is over $300 million. But then there is one above here. It says 
central hospital and ACC-5 and over here the total number is 
$524,498,000.
    Mr. Hartz. Yes, sir.
    Mr. Dicks. Can you explain that? Is this a number of 
facilities?
    Mr. Hartz. What you are referring to is the five-year plan 
that both Mr. McSwain and I have commented on, and what you see 
at the top of that chart is the Phoenix Indian Medical Center 
Healthcare System. Actually this is based on travels of staff 
from this Committee a number of years ago. They looked at what 
was needed to address the Phoenix Indian Medical Center System, 
and the recommendation of some time ago was to break the 
project up into three perimeter facilities. This is what you 
see identified there--Southeast Ambulatory Care, Southwest 
Ambulatory Care, both of which are on the Gila River 
Reservation, Northeast Ambulatory Care, which would be on the 
Salt River Reservation. The central facility that exists today 
is at Indian School there in Phoenix. The concept here is to 
develop a whole system of care. They currently have a facility 
that was built many, many years ago--Rick probably has the 
exact date, 1970--designed for much larger ambulatory visits 
but right now they are pushing about 260,000 outpatient visits 
a year at a facility that was designed for probably around one-
sixth of that. So what you see in that central facility, the 
larger number, is a very preliminary number. It is larger than 
what we normally build. What we would do is outside assistance 
in further planning of that central facility, a total remodel 
or a total rebuild. It still has to be determined, sir, but we 
have an excellent computerized system for what we typically 
build. This would be beyond the level that we normally would be 
doing even though we worked with the American Hospital 
Association, Kaiser Permanente, and others to develop our 
computerized model. We would actually go private sector to get 
further consultation on the planning of that large of a 
facility.
    Mr. Dicks. Also down here you have Gallup, New Mexico, $517 
million. Can you tell us about that?
    Mr. Hartz. The Gallup facility that exists today, and I do 
not know if any of you, your staff or other Members of Congress 
have been there but it is on the hill in Gallup, and access to 
the facility is a real problem. It is substantially overloaded 
in patients, both inpatient and ambulatory, and obviously will 
be considered in the out years. It will be a huge facility 
going in there. One thing that we have looked at, because we 
have often been asked, is the benefit of these new facilities 
that we are putting in. For example, we recently did an 
analysis on the Hopi Reservation where we built a facility. 
They actually increased, over a seven-year period after 
completion of the facilities, their ambulatory visits by just 
over 50 percent. In Fort Defiance, we took the same approach 
after the new hospital was built and looked at ambulatory 
visits. There was just a hair under 50 percent increase in 
visits. So the concept of build it and they will come even 
applies to healthcare delivery because it helps in our staffing 
and also in the service delivery.
    Mr. Dicks. Well, we may want to have a briefing on this 
whole issue at some point. Cheyenne River, tell us about that.
    Mr. Hartz. The Eagle Butte facility, we want to thank the 
Congress for support for that facility and the $17 million we 
got to keep that project moving without a break in the 
activities, as Congressman Tiahrt articulated here earlier. 
Those resources will allow us to move forward. We anticipate 
that this month all of the design work will be done on this 
facility and we will be moving into construction.
    Mr. Dicks. Good.
    Mr. McSwain. And while you are looking at this list, I 
think as Mr. Hartz has talked about, the PIMC Healthcare 
system, our budget request for 2009 includes the staffing for 
the Southwest Ambulatory Care Center, so you will see that in 
the budget request as well. That is the staffing that goes to 
finish staffing at Southwest.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. No.
    Mr. Dicks. Mr. Moran.
    Mr. Moran. We have got to get over to a defense meeting. I 
think we better call this.
    Mr. Dicks. All right. Thank you, gentlemen. We will adjourn 
the hearing and we will follow up on this, on your subject, and 
maybe just a briefing, an informal briefing on that. Thank you 
very much.

[GRAPHIC] [TIFF OMITTED] T2183B.218

[GRAPHIC] [TIFF OMITTED] T2183B.219

[GRAPHIC] [TIFF OMITTED] T2183B.220

[GRAPHIC] [TIFF OMITTED] T2183B.221

[GRAPHIC] [TIFF OMITTED] T2183B.222

[GRAPHIC] [TIFF OMITTED] T2183B.223

[GRAPHIC] [TIFF OMITTED] T2183B.224

[GRAPHIC] [TIFF OMITTED] T2183B.225

[GRAPHIC] [TIFF OMITTED] T2183B.226

[GRAPHIC] [TIFF OMITTED] T2183B.227

[GRAPHIC] [TIFF OMITTED] T2183B.228

[GRAPHIC] [TIFF OMITTED] T2183B.229

[GRAPHIC] [TIFF OMITTED] T2183B.230

[GRAPHIC] [TIFF OMITTED] T2183B.231

[GRAPHIC] [TIFF OMITTED] T2183B.232

[GRAPHIC] [TIFF OMITTED] T2183B.233

[GRAPHIC] [TIFF OMITTED] T2183B.234

[GRAPHIC] [TIFF OMITTED] T2183B.235

[GRAPHIC] [TIFF OMITTED] T2183B.236

[GRAPHIC] [TIFF OMITTED] T2183B.237

[GRAPHIC] [TIFF OMITTED] T2183B.238

[GRAPHIC] [TIFF OMITTED] T2183B.239

[GRAPHIC] [TIFF OMITTED] T2183B.240

[GRAPHIC] [TIFF OMITTED] T2183B.241

[GRAPHIC] [TIFF OMITTED] T2183B.242

[GRAPHIC] [TIFF OMITTED] T2183B.243

[GRAPHIC] [TIFF OMITTED] T2183B.244

[GRAPHIC] [TIFF OMITTED] T2183B.245

[GRAPHIC] [TIFF OMITTED] T2183B.246

[GRAPHIC] [TIFF OMITTED] T2183B.247

[GRAPHIC] [TIFF OMITTED] T2183B.248

[GRAPHIC] [TIFF OMITTED] T2183B.249

[GRAPHIC] [TIFF OMITTED] T2183B.250

[GRAPHIC] [TIFF OMITTED] T2183B.251

[GRAPHIC] [TIFF OMITTED] T2183B.252

[GRAPHIC] [TIFF OMITTED] T2183B.253

[GRAPHIC] [TIFF OMITTED] T2183B.254

[GRAPHIC] [TIFF OMITTED] T2183B.255

[GRAPHIC] [TIFF OMITTED] T2183B.256

[GRAPHIC] [TIFF OMITTED] T2183B.257

[GRAPHIC] [TIFF OMITTED] T2183B.258

[GRAPHIC] [TIFF OMITTED] T2183B.259

[GRAPHIC] [TIFF OMITTED] T2183B.260

[GRAPHIC] [TIFF OMITTED] T2183B.261

[GRAPHIC] [TIFF OMITTED] T2183B.262

[GRAPHIC] [TIFF OMITTED] T2183B.263

[GRAPHIC] [TIFF OMITTED] T2183B.264

[GRAPHIC] [TIFF OMITTED] T2183B.265

[GRAPHIC] [TIFF OMITTED] T2183B.266

[GRAPHIC] [TIFF OMITTED] T2183B.267

[GRAPHIC] [TIFF OMITTED] T2183B.268

[GRAPHIC] [TIFF OMITTED] T2183B.269

[GRAPHIC] [TIFF OMITTED] T2183B.270

[GRAPHIC] [TIFF OMITTED] T2183B.271

[GRAPHIC] [TIFF OMITTED] T2183B.272

[GRAPHIC] [TIFF OMITTED] T2183B.273

[GRAPHIC] [TIFF OMITTED] T2183B.274

[GRAPHIC] [TIFF OMITTED] T2183B.275

[GRAPHIC] [TIFF OMITTED] T2183B.276

[GRAPHIC] [TIFF OMITTED] T2183B.277

[GRAPHIC] [TIFF OMITTED] T2183B.278

[GRAPHIC] [TIFF OMITTED] T2183B.279

[GRAPHIC] [TIFF OMITTED] T2183B.280

[GRAPHIC] [TIFF OMITTED] T2183B.281

[GRAPHIC] [TIFF OMITTED] T2183B.282

[GRAPHIC] [TIFF OMITTED] T2183B.283

[GRAPHIC] [TIFF OMITTED] T2183B.284

[GRAPHIC] [TIFF OMITTED] T2183B.285

[GRAPHIC] [TIFF OMITTED] T2183B.286

[GRAPHIC] [TIFF OMITTED] T2183B.287

[GRAPHIC] [TIFF OMITTED] T2183B.288

[GRAPHIC] [TIFF OMITTED] T2183P3.001



                               I N D E X

                              ----------                              --
--------

                       Secretary of the Interior

                                                                   Page
2009 Budget......................................................  2, 3
2009 Budget Issues...............................................    43
2009 Budget Priorities...........................................    28
2009 Budget Reductions...........................................    39
Alternative Energy...............................................    37
Avian Influenza..................................................40, 41
BIA Reductions...................................................    44
BIA School Construction Backlog..................................    44
Biography--Dirk Kempthorne, Secretary of the Interior............    24
Birds Forever Initiative..................................5, 25, 39, 82
Border Coordination..............................................    39
Bureau of Land Management........................................    80
Centennial Challenge............................................. 3, 49
Chukchi Sea......................................................    34
Climate Change...................................................    27
Climate Research.................................................    55
Coal Bonuses.....................................................    46
Cobell...........................................................47, 52
COLA Increase....................................................    73
Competitive Outsourcing..........................................    73
Competitive Sourcing.............................................    31
Cooperative Conservation.........................................    31
Endangered Species Funding.......................................    83
Energy...........................................................    33
Energy Development...............................................    36
Energy Development on BLM Lands..................................    59
Energy Offshore and Royalties....................................    56
Energy Security..................................................     6
Everglades.......................................................    29
Fire Suppression.................................................    47
Fish and Wildlife Service........................................   143
Fixed Costs......................................................28, 30
Healthy Lands Initiative......................................... 4, 80
Heritage Areas...................................................    40
Indian Affairs Reductions........................................    26
Indian Initiatives...............................................     4
Indians..........................................................    78
Initiatives......................................................    29
Inspections and Monitoring.......................................    31
Insular Affairs..................................................    62
Key Policy Issues................................................   136
Land and Water Conservation Fund.................................52, 74
Legislative Proposal--``Up Front Payment of Coal Bonus Bids''....    64
LWCF Stateside Grants............................................    45
Methamphetamine..................................................41, 45
Multinational Species Conservation Fund..........................    86
National Landscape Conservation System (NLCS)....................    81
National Park Centennial.........................................     4
National Park Service...........................................78, 145
National Parks...................................................    49
National Trails..................................................    33
National Wildlife Refuge System..................................    83
National Wildlife Refuge System Operations and Maintenance.......    85
Native American Programs.........................................     2
Northern Rockies Wolves--The New 10(j) Rule......................    65
Oceans Initiative................................................     5
OCS Moratorium Language..........................................    34
Oil and Gas Leases...............................................    37
Opening Remarks of Chairman Dicks................................     1
Opening Remarks of Congressman Tiahrt............................    25
Opening Remarks of Secretary Kempthorne..........................     3
Park Operations..................................................    26
PILT Funding.....................................................   143
Polar Bear and the ESA...........................................    54
Proposed Delisting Rule..........................................    67
Questions for the Record from Chairman Norm Dicks................    49
Questions for the Record from Representative Jim Moran...........    73
Questions for the Record from Representative John Olver..........   122
Questions for the Record from Representative John Peterson.......   141
Questions for the Record from Representative Ken Calvert.........   143
Questions for the Record from Representative Maurice Hinchey.....    87
Questions for the Record from Representative Todd Tiahrt.........   130
Questions for the Record from Representative Tom Udall...........   124
Recreational Fee Program.........................................    42
Safe Borderlands.................................................    37
Safe Borderlands Initiative......................................     6
Safe Indian Communities..........................................    38
Scarcity of Water................................................    41
Sole Source Grants and Contracts.................................    69
U.S. Geological Survey...........................................   144
U.S. Park Police.................................................47, 50
Water for America Initiative..................................... 5, 60
Wildfire.........................................................    61
Wildland Fire Funding............................................    27

                       Bureau of Land Management

Alaska Energy Issues.............................................   232
Biography--Henri Bisson, Deputy Director.........................   158
BLM Wildfire Fighting............................................   279
Coal, Oil, and Gas Production....................................   275
Community Growth Initiative....................................152, 207
Competitive Sourcing.............................................   241
Contracting......................................................   245
Discuss Impact of Requested Budget Cuts..........................   176
Energy Security................................................151, 161
Federal Land Transaction Facilitation Act........................   246
General Budget...................................................   172
General Program Reductions.......................................   159
Healthy Lands....................................................   248
Healthy Lands Initiative.......................................150, 179
Land Acquisition.................................................   246
Land Use Planning................................................   257
Law Enforcement..................................................   278
Mining and Impacts of Past Mines.................................   182
National Fish and Wildlife Foundation............................   221
National Landscape Conservation System....................151, 205, 253
Native Plant Conservation Program................................   211
Naval Oil Shale Cancellation--Geothermal Program & Coal Bonus 
  Bids...........................................................   239
Non-Energy Commodity Use.........................................   152
Oil and Gas Development..........................................   248
Oil and Gas Management.........................................174, 264
Opening Remarks of Chairman Dicks................................   149
Opening Remarks of Congressman Tiahrt............................   150
Other Energy Development and Management Issues...................   184
Pacific Northwest Winter Storm Damage............................   171
Questions for the Record from Chairman Norm Dicks................   174
Questions for the Record from Representative Ed Pastor...........   274
Questions for the Record from Representative Jim Moran...........   248
Questions for the Record from Representative Maurice Hinchey.....   257
Questions for the Record from Representative Todd Tiahrt.........   275
Questions for the Record from Representative Tom Udall...........   264
Range Improvements...............................................   159
Recreation.......................................................   159
Renewable Energy.................................................   276
RS 2477 Road Claims..............................................   242
Safe Borderlands Initiative......................................   284
Service First--Joint Management with Forest Service and Other DOI 
  Bureaus........................................................   241
Southern Nevada Public Lands Management Act......................   247
Southwest Border..........................................151, 166, 169
Southwest Border Issues........................................274, 278
Southwest Borderlands............................................   204
Teshepuk Lake....................................................   165
Western Oregon Plan Revision.....................................   169

                       Fish and Wildlife Service

Biography--H. Dale Hall, Director................................   295
Birds Forever Initiative.........................................   365
Border Issues..................................................303, 307
Construction and Land Acquisition................................   367
Doyon Land Exchange..............................................   360
Ecological Services..............................................   396
Endangered Species........................................308, 313, 354
Endangered Species Funding.......................................   371
Fisheries......................................................297, 396
General Operations...............................................   364
Initiatives......................................................   303
International Conservation.......................................   364
Law Enforcement..................................................   353
Migratory Birds...........................................302, 305, 312
Multinational Species Conservation Fund..........................   373
National Bison Range Complex.....................................   353
National Fish Passage and Mass Marking...........................   348
National Wildlife Refuge System..................................   350
National Wildlife Refuge System Operations and Maintenance.......   372
Northern Rockies Wolf Delisting..................................   361
Opening Remarks of Chairman Dicks................................   285
Opening Remarks of Congressman Tiahrt............................   297
Other Questions..................................................   368
Polar Bears......................................................   363
Polar Bears......................................................   399
Questions for the Record from Chairman Norm Dicks................   348
Questions for the Record from Representative Alan Mollohan.......   383
Questions for the Record from Representative Jim Moran...........   371
Questions for the Record from Representative Maurice Hinchey.....   375
Questions for the Record from Representative Todd Tiahrt.........   396
Questions for the Record from Representative Tom Udall...........   387
Questions from the Record from Representative Ken Calvert........   401
Refuges..........................................................   314
Road through Izembek Wilderness in Alaska........................   359
Southwest Border and Border Fence................................   358
Sport Fish and Wildlife Restoration..............................   301
State and Tribal Wildlife Grants.................................   306
State Wildlife Action Plans......................................   366
State Wildlife Plans.............................................   374
Statement of Director Dale Hall..................................   286
White-Nose Syndrome in Bats......................................   384
Wind Turbine Guidelines Advisory Committee.......................   383
Western Oregon Timber Program....................................   235
Wild Horses and Burros...............................168, 170, 209, 281
Wildfire.........................................................   171
Wildland Fire Management.........................................   280
Wildlife Management..............................................   169
Wildlife, Fisheries and Threatened and Endangered Species 
  Management.....................................................   213

                         U.S. Geological Survey

AmericaView Program............................................433, 443
Biography--Mark D. Myers, Director...............................   324
Biological Research Division.....................................   418
Birds Forever Initiative.........................................   318
Budget Overview..................................................   318
Budget Priorities................................................   445
Budget Reductions to Water Science...............................   402
Cascades Volcano Observatory.....................................   342
Climate Change.................................................326, 444
Climate Change and Managing Federal Lands........................   444
Earth Science Funding Reductions.................................   405
Earth Surface Dynamics Reduction.................................   332
Earthquake Hazards Funding Reduction.............................   330
Endocrine Disruption.............................................   329
Endocrine Disruptors.............................................   431
Energy and Geological Assessments................................   416
Existing Landsat Satellites......................................   332
External Science Support.........................................   404
Funding for Cascades and Alaska Volcanoes........................   343
Geologic Hazards and Emergency Preparedness......................   335
Geophysical Science..............................................   341
Global Climate Change Research...................................   409
Global Warming...................................................   430
Global Warming Versus Cooling....................................   328
Healthy Lands Initiative.........................................   318
Initiatives--Birds Forever, Ocean Efforts, and Healthy Lands.....   412
Landsat 5 and 7..................................................   447
Landsat Data Continuity Mission..................................   333
Mapping and Remote Sensing.......................................   414
Mineral Resources Program......................................319, 436
Minerals Information.............................................   442
Mission..........................................................   429
Mount Rainier Monitoring Equipment...............................   342
Multi-Hazards Research...........................................   422
National Applications Office.....................................   340
National Land Imaging Program....................................   318
National Map.....................................................   336
National Water Assessment........................................   325
Ocean and Coastal Frontiers......................................   319
Opening Remarks of Chairman Dicks................................   316
Opening Remarks of Congressman Todd Tiahrt.......................   317
Opening Remarks of Mark D. Myers, Director.......................   317
Pacific Northwest Earthquake Faults..............................   341
Pacific Northwest Issues.........................................   424
Partnerships Related to Water Census.............................   345
Polar Bear Listing.............................................334, 445
President's Science Budget Priorities............................   402
Questions for the Record from Chairman Norm Dicks................   402
Questions for the Record from Representative Jim Moran...........   429
Questions for the Record from Representative Todd Tiahrt.........   442
Questions for the Record from Representative Tom Udall...........   439
Questions for the Record from Representative Virgil Goode........   450
Recharging Aquifers..............................................   346
Staff Reduction Impact on Mapping Capabilities...................   338
Streamgage Increase..............................................   326
Tools to Monitor Climate Change..................................   327
USGS Mapping and Fire Fighting...................................   448
Volcano Hazards Funding Reduction................................   331
Volcano Monitoring in Northwest..................................   342
Water Census Periodic Reports....................................   345
Water Coordination with Canada...................................   346
Water for America Initiative..............................318, 433, 446

                         National Park Service

American-Made Handicrafts........................................   492
Biography--Mary A. Bomar, Director...............................   459
Blue Ridge Parkway Fire Access Road..............................   485
Budget Balance within NPS........................................   494
Centennial Challenge......................................498, 532, 540
Concessions in National Parks....................................   543
Dyke Marsh.......................................................   531
Everglades Progress..............................................   545
Firearms in Parks................................................   487
Guns in Parks....................................................   499
HBCU Historic Preservation.......................................   519
Heritage Areas...................................................   533
Heritage Partnerships..........................................508, 549
Humpback Bridge Replacement......................................   489
Inauguration Costs...............................................   507
Information Management...........................................   527
Japanese American Confinement Sites..............................   520
National Heritage Areas..........................................   490
National Mall Concerts Cut.......................................   518
National Mall Plan.............................................489, 524
National Park Service............................................   521
National Trails..................................................   525
NW Storm Damage Update...........................................   510
Opening Remarks of Chairman Dicks................................   451
Opening Remarks of Congressman Tiahrt............................   452
Opening Statement of Mary Bomar, Director........................   452
Operations of the National Parks.................................   541
Questions for the Record from Chairman Norm Dicks................   494
Questions for the Record from Representative Ben Chandler........   538
Questions for the Record from Representative Jim Moran...........   521
Questions for the Record from Representative John Olver..........   533
Questions for the Record from Representative Ken Calvert.........   546
Questions for the Record from Representative Maurice Hinchey.....   532
Questions for the Record from Representative Todd Tiahrt.........   539
Questions for the Record from Representative Tom Udall...........   536
Recreation Fee Program.........................................501, 547
Staffing History.................................................   514
State Conservation Program.......................................   523
SW Border......................................................505, 546
U.S. Park Police Challenge.......................................   539
Underground Railroad.............................................   513
United States Park Police.................................462, 487, 526
Valley Forge National Historic Park..............................   543
Visitation/Social Science........................................   515
Wild and Scenic Rivers and National Trails Funding...............   513
Yellowstone Bison................................................   532

 Bureau of Indian Affairs & Office of the Special Trustee for American 
                                Indians

Biography--Carl J. Artman, Asst. Secretary for Indian Affairs....   557
Biography--Ross O. Swimmer, Special Trustee for Americar.........   558
Cobell Decision..................................................   559
Cobell Litigation................................................   571
Detention Facilities.............................................   574
Early Childhood Development......................................   579
Education........................................................   585
Education Construction...........................................   565
Higher Education.................................................   578
Historical Accounting............................................   560
Housing Improvement Program...............................566, 572, 588
Indian Education.................................................   580
Indian Guaranteed Loan Program...................................   590
Law Enforcement and Detention....................................   582
Methamphetamine Education........................................   564
Methamphetamine Problem........................................563, 577
Office of Justice Services Hiring................................   564
Office of the Special Trustee for American Indians...............   590
Opening Remarks of Assistant Secretary Artman....................   552
Opening Remarks of Chairman Dicks................................   551
Opening Remarks of Congressman Tiahrt............................   552
Opening Remarks of Special Trustee Swimmer.......................   559
Questions for the Record from Chairman Norm Dicks................   582
Questions for the Record from Representative Todd Tiahrt.........   597
Questions for the Record from Representative Tom Udall...........   593
Road Maintenance...............................................568, 573
Violence Against Indian Women....................................   569
Welfare and Human Services.......................................   588
Welfare Assistance...............................................   567

                  Wildland Fire Management--Oversight

Aircraft Use in Firefighting.....................................   711
Aircraft Use in Firefighting.....................................   715
Biography--Dr. Albert Hyde.......................................   633
Biography--Kathleen S. Tighe.....................................   653
Biography--Dr. Anthony Westerling................................   613
Biography--Dr. Roger Hammer......................................   621
Biography--James E. Cason........................................   701
Biography--Kirk Rowdabaugh.......................................   688
Biography--Mark E. Rey...........................................   700
Biography--Robin M. Nazzaro......................................   673
Carryover of Emergency Supplemental Funds........................   709
Cohesive Strategy................................................   807
Contracting......................................................   818
Departmental Integration.........................................   813
Federal Firefighting Organization................................   706
Fire Preparedness and Prevention Budget..........................   827
Fire Program Analysis Model......................................   812
Fire Suppression.................................................   834
Fire Suppression Budget Reform...................................   742
Firefighter Pay Parity...........................................   712
GAO Recommendations..............................................   833
Hazardous Fuels..................................................   758
Hazardous Fuels Management Funding...............................   703
Hazardous Fuels Projects.........................................   714
Historical Fire Trend Data.......................................   713
Historical Lessons Learned.......................................   826
Joint Statement of Mark Rey and James Cason......................   693
Moving Forest Service to Interior................................   825
Opening Remarks of Chairman Norm Dicks...........................   603
Openng Remarks of Congressman Todd Tiahrt........................   604
Opening Statement of Mr. Cason...................................   689
Opening Statement of Mr. Rey.....................................   690
Opening Statement of Mr. Rowdabaugh..............................   680
Other Options for Funding Fire Suppression.......................   828
Preparedness Funding.............................................   747
Questions for the Record from Chairman Norm Dicks for Forest 
  Service & Department of the Interior...........................   742
Questions for the Record from Chairman Norm Dicks for GAO........   729
Questions for the Record from Chairman Norm Dicks for National 
  Association of State Foresters.................................   734
Questions for the Record from Chairman Norm Dicks for USDA 
  Inspector General..............................................   721
Questions for the Record from Representative Ken Calvert.........   834
Questions for the Record from Representative Todd Tiahrt.........   825
Questions for the Record from Representative Tom Udall...........   821
Recent Emergency Fire Funding....................................   829
Rehabilitation and Restoration Funding...........................   703
Rehabilitation of Burned Lands...................................   835
State and Private Forestry.......................................   827
State and Volunteer Fire Efforts.................................   808
State Fire Assistance Funding....................................   704
State Fire Assistance Grants.....................................   835
Suppression and Preparedness.....................................   702
Suppression Funding Process......................................   709
Volunteer Fire Assistance........................................   834
Wildland Fire Cost Agreements....................................   705
Written Statement of Dr. Albert Hyde.............................   624
Written Statement of Dr. Anthony Westerling......................   608
Written Statement of Dr. Roger Hammer............................   617
Written Statement of Kathleen Tighe..............................   637
Written Statement of Robin M. Nazzaro............................   656

                         Indian Health Service

Acoma-Canoncito-Laguna Facility..................................   915
Alcohol and Substance Abuse...............................861, 912, 917
Contract Health Services.........................................   907
Contract Support Costs...........................................   909
Dental Health....................................................   865
Dental Services..................................................   915
Diabetes.........................................................   865
Early Childhood Immunizations....................................   924
FY09 Budget--General Questions...................................   857
Health Manpower Shortages........................................   922
Health Professions and Vacancy Rates.............................   863
Health Promotion and Disease Prevention..........................   865
Healthcare Facilities Construction...................853, 855, 870, 911
Impact on Patient Care...........................................   844
Indian Health Professions........................................   923
Indian Health Professions Shortage...............................   847
Loan Repayment...................................................   848
Maintenance and Improvement......................................   871
Mental Health....................................................   862
Methamphetamine..................................................   916
Methamphetamine and Suicides.....................................   845
Opening Remarks of Chairman Norm Dicks...........................   837
Opening Remarks of Congressman Todd Tiahrt.......................   838
Opening Statement of Robert McSwain..............................   839
Questions for the Record from Chairman Norm Dicks................   857
Questions for the Record from Congressman Todd Tiahrt............   916
Questions for the Record from Congressman Tom Udall..............   911
Rape of American Indian and Alaska Native Women..................   849
Special Diabetes Program for Native Americans....................   918
Telemedicine.....................................................   869
United National Indian Tribal Youth..............................   854
Unmet Needs......................................................   925
Urban Health.....................................................   858
Urban Indian Health............................................911, 916

                                  <all>
</pre></body></html>
